<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                   INTERIOR, ENVIRONMENT, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                  NORMAN D. DICKS, Washington, Chairman
 JAMES P. MORAN, Virginia          MICHAEL K. SIMPSON, Idaho
 ALAN B. MOLLOHAN, West Virginia   KEN CALVERT, California
 BEN CHANDLER, Kentucky            STEVEN C. LaTOURETTE, Ohio
 MAURICE D. HINCHEY, New York      TOM COLE, Oklahoma
 JOHN W. OLVER, Massachusetts
 ED PASTOR, Arizona
 DAVID E. PRICE, North Carolina  

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Delia Scott, Christopher Topik, Greg Knadle,
                     Julie Falkner, and Beth Houser
                            Staff Assistants

                                ________

                                 PART 6
                                                                   Page
 Forest Service Oversight--Possible Move of the Forest Service to 
the Department of the Interior....................................    1
 Forest Service Oversight.........................................   97
 National Endowment for the Arts..................................  199
 U.S. Forest Service..............................................  259
 Environmental Protection Agency..................................  357

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ________

         Printed for the use of the Committee on Appropriations




                   INTERIOR, ENVIRONMENT, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 2010
_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                  NORMAN D. DICKS, Washington, Chairman
 JAMES P. MORAN, Virginia          MICHAEL K. SIMPSON, Idaho
 ALAN B. MOLLOHAN, West Virginia   KEN CALVERT, California
 BEN CHANDLER, Kentucky            STEVEN C. LaTOURETTE, Ohio
 MAURICE D. HINCHEY, New York      TOM COLE, Oklahoma
 JOHN W. OLVER, Massachusetts
 ED PASTOR, Arizona
 DAVID E. PRICE, North Carolina  

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Delia Scott, Christopher Topik, Greg Knadle,
                     Julie Falkner, and Beth Houser
                            Staff Assistants

                                ________

                                 PART 6
                                                                   Page
 Forest Service Oversight--Possible Move of the Forest Service to 
the Department of the Interior....................................    1
 Forest Service Oversight.........................................   97
 National Endowment for the Arts..................................  199
 U.S. Forest Service..............................................  259
 Environmental Protection Agency..................................  357

   <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 51-948                     WASHINGTON : 2009







                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania        JERRY LEWIS, California
 NORMAN D. DICKS, Washington         C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia     HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                  FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana         JACK KINGSTON, Georgia
 NITA M. LOWEY, New York             RODNEY P. FRELINGHUYSEN, New 
 JOSE E. SERRANO, New York           Jersey
 ROSA L. DeLAURO, Connecticut        TODD TIAHRT, Kansas  
 JAMES P. MORAN, Virginia            ZACH WAMP, Tennessee
 JOHN W. OLVER, Massachusetts        TOM LATHAM, Iowa
 ED PASTOR, Arizona                  ROBERT B. ADERHOLT, Alabama
 DAVID E. PRICE, North Carolina      JO ANN EMERSON, Missouri
 CHET EDWARDS, Texas                 KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island    MICHAEL K. SIMPSON, Idaho
 MAURICE D. HINCHEY, New York        JOHN ABNEY CULBERSON, Texas
 LUCILLE ROYBAL-ALLARD, California   MARK STEVEN KIRK, Illinois
 SAM FARR, California                ANDER CRENSHAW, Florida
 JESSE L. JACKSON, Jr., Illinois     DENNIS R. REHBERG, Montana
 CAROLYN C. KILPATRICK, Michigan     JOHN R. CARTER, Texas
 ALLEN BOYD, Florida                 RODNEY ALEXANDER, Louisiana
 CHAKA FATTAH, Pennsylvania          KEN CALVERT, California
 STEVEN R. ROTHMAN, New Jersey       JO BONNER, Alabama
 SANFORD D. BISHOP, Jr., Georgia     STEVEN C. LaTOURETTE, Ohio
 MARION BERRY, Arkansas              TOM COLE, Oklahoma
 BARBARA LEE, California
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland  
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado          

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2010

                              ----------                              --
--------

                                        Tuesday, February 24, 2009.

 FOREST SERVICE OVERSIGHT--POSSIBLE MOVE OF THE FOREST SERVICE TO THE 
                       DEPARTMENT OF THE INTERIOR

                               WITNESSES

ROBIN NAZZARO, DIRECTOR FOR NATURAL RESOURCES AND ENVIRONMENT
MIKE DOMBECK, UNIVERSITY OF WISCONSIN SYSTEM FELLOW & PROFESSOR OF 
    GLOBAL CONSERVATION, UNIVERSITY OF WISCONSIN AT STEVENS POINT; 
    FORMER CHIEF, U.S. FOREST SERVICE AND ACTING DIRECTOR, BUREAU OF 
    LAND MANAGEMENT
LEAH MACSWORDS, KENTUCKY STATE FORESTER, CURRENT PRESIDENT OF NATIONAL 
    ASSOCIATION OF STATE FORESTERS
BILL MEADOWS, PRESIDENT, THE WILDERNESS SOCIETY
BERYL RADIN, SCHOLAR IN RESIDENCE, SCHOOL OF PUBLIC AFFAIRS, AMERICAN 
    UNIVERSITY; FELLOW, NATIONAL ACADEMY OF PUBLIC ADMINISTRATION

                    Chairman Dicks Opening Statement

    Mr. Dicks. Today we start the subcommittee's public 
activities in the 111th Congress with an oversight hearing 
looking at the Forest Service and whether it should be moved 
from Agriculture to the Department of the Interior.
    But first I would like to note some changes in our 
subcommittee membership and then mention the future oversight 
hearings we will conduct while the Obama Administration is 
developing detailed budgets for fiscal year 2010. I welcome the 
new ranking member, my friend from the northwest, Mike Simpson 
of Idaho. He and I will work closely throughout the 
appropriations process. I also welcome our new Democratic 
member, David Price, who replaces Tom Udall, now in the Senate. 
We also have two new Republican members, Steve LaTourette of 
Ohio and Tom Cole of Oklahoma.
    We will begin this year with a series of oversight 
hearings. Today we look at the question of whether the Forest 
Service might operate better in the Interior Department. This 
issue is largely an authorizing committee matter but the 
question comes up every year during our budget hearings on the 
Forest Service and when we deal with wildfire issues. Next week 
we will begin a series of oversight hearings at which the 
General Accountability Office and the respective inspector 
generals will present summaries of key issues and findings for 
consideration by this subcommittee. We will also have oversight 
hearings on EPA issues and on additional Forest Service issues. 
Later this spring we will hold public witness hearings and then 
our annual budget hearings once the President submits his 
detailed request.
    Now let's turn to today's hearing. The Forest Service is 
the only one of our major land management agencies that is not 
in the Department of the Interior. However, the appropriation 
for the Forest Service has been part of this subcommittee since 
1955. Hence, it is natural for this subcommittee to review 
policy, management and funding priorities of the Forest Service 
in direct comparison to the bureaus in the Interior Department. 
However, we regularly see inconsistencies between the two 
departments. We see that there is room for much more 
collaboration which would make federal land management more 
effective as well as efficient. There are a variety of policy 
matters which could be improved with departmental 
consolidation. I will mention just a couple examples.
    For instance, one of the mostly highly coordinated federal 
programs is the wildland fire management efforts of the Forest 
Service and the Interior Department. Nevertheless, in the last 
budget request from the Bush Administration, the two 
departments took quite different approaches to the proposed 
funding of basic firefighting preparedness. The Interior 
Department requested relatively level funding whereas the 
Forest Service budget included a reduction of nearly 600 FTEs 
in the wildfire program and other large fire program funding 
decreases. This subcommittee had a hearing on this matter and 
we then rejected these differences. I think it is less likely 
that such gross inconsistencies would occur if the bureaus were 
under common leadership. Of course, there are other ways to 
coordinate policy.
    Another area where federal land management effectiveness 
could be improved is large-scale watershed management. This has 
been very important in my part of the country where extensive 
multi-agency partnerships were established during the Clinton 
Administration to deal with various endangered species and 
conservation issues. During the next few years the federal land 
managers' response to climate change will require much greater 
common, integrated approaches to watershed management and 
environmental protection. Cross-departmental collaboration can 
work, but it takes a lot of heavy lifting. The public and 
various important commercial users of public lands often run 
into policy differences between the Forest Service and the 
Interior bureaus. Various recreationists, public land grazers, 
timber operations and energy concerns are routinely perplexed 
by the different approaches to common issues. Although this 
could be caused by different authorizing legislation, it seems 
likely that mixed legal jurisdiction and administrative matters 
could be effectively addressed under better coordinated 
departmental leadership.
    Besides being a major land manager, the Forest Service also 
has integrated its excellent scientific research branch into 
the organization, and it has a state and private forestry 
branch which provides private land assistance. This is quite a 
different model than the Interior Department, where the 
research capacity is primarily in the USGS and private land 
assistance programs are much more limited. Were the Forest 
Service ever to be consolidated into the Interior Department, 
these models might well enhance scientific management and 
program outreach throughout the Department of the Interior.
    I will also mention some of the management efficiency 
issues that often come up when we are addressing the Forest 
Service and especially the Bureau of Land Management. As we all 
know, we can see from the map on the wall there are great 
numbers of locations in the West where Forest Service and BLM 
lands are intermingled. We often hear of the various 
departmental employees driving past each other as they go off 
to work on their respective holdings. Back in the Clinton 
Administration, this subcommittee tried to address this 
inefficiency with the Service First pilot initiative, which 
encouraged joint management of Forest Service and other 
Interior lands. That effort had some initial implementation but 
the legal and administrative differences between the two 
departments have prevented it from being successful. Although 
simply moving the Forest Service into the Interior Department 
would not automatically allow better integration of mixed 
jurisdiction lands, it seems likely that the organizational 
move would be the precursor needed to make these changes, and 
even the need for budget tightening. We need all the efficiency 
we can get. The purpose of today's hearing is to have a good 
discussion of various policy and management matters that would 
be considered to improve federal land management.
    Mr. Dicks. Mr. Simpson, would you like to make some opening 
remarks?
    Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Dicks. And I will put the rest of mine in the record.

                     Mr. Simpson Opening Statement

    Mr. Simpson. Thanks, Mr. Chairman.
    Today's oversight hearing of the U.S. Forest Service marks 
our first opportunity to work together on the many issues and 
challenges before the Interior Appropriations Subcommittee. 
Having left this subcommittee 2 years ago, I am eager to resume 
my work on Interior appropriations.
    In many respects, returning to this subcommittee is like 
coming home. My Congressional district in Idaho is home to some 
of our country's most beautiful and scenic natural resources. 
It includes Park Service, Forest Service and BLM lands. I look 
forward to serving with Chairman Dicks as the ranking member 
and working with each of our subcommittee members to forge a 
bipartisan and collaborative partnership going forward.
    Today's oversight hearing is very timely. This is not the 
first time and likely will not be the last that questions will 
be asked about potentially moving some or all of the functions 
of the Forest Service into the Department of the Interior. The 
Forest Service is the only land management agency outside of 
the Department of the Interior. Could land management programs 
and policies be improved by consolidating these functions under 
one department? Can we set consistent priorities for the BLM 
and the Forest Service when they have overlapping programs 
dealing with oil and gas and grazing? Do the budget challenges 
posed by ever-escalating wildland fire suppression budget 
provide us with sufficient incentive to tackle a major 
reorganization of federal land management responsibilities?
    I look forward to hearing from today's expert witnesses and 
beginning a conversation that will lead to commonsense 
solutions in the management of our federal lands. Thank you, 
Mr. Chairman.

                             GAO Statement

    Mr. Dicks. Thank you, Mike.
    We are going to start today with Robin Nazzaro of the GAO, 
who will summarize the study that our subcommittee 
commissioned. Robin, would you like to go ahead and start?
    Ms. Nazzaro. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today to discuss GAO's 
observations on a possible move of the Forest Service into the 
Department of the Interior.
    The Forest Service, which manages almost a quarter of the 
Nation's federal lands, as was noted here this morning, is the 
only major land management agency outside of the Department of 
the Interior. Four federal land management agencies, the Forest 
Service and Interior's Fish and Wildlife Service, Bureau of 
Land Management and National Park Service, manage most of the 
680 million acres of federal land.
    Recognizing that federal land management agencies face many 
similar challenges but lacked unifying statutory authorities 
for the management and use of these lands and resources, 
policymakers over the last four decades have made several 
unsuccessful attempts to reorganize the Nation's land and 
natural-resource agencies. These proposals were unsuccessful 
for a number of reasons including political resistance to the 
specific changes and shifting of government priorities at the 
time. The emergence of new challenges including wildland fire 
and climate change for both the Forest Service and Interior 
during a time of severe economic crisis as well as the growing 
need for agencies to collaborate on large-scale natural-
resource problems has revived interest in the potential for 
improving federal land management.
    My testimony today is based on a GAO report that is being 
released today, which discusses a potential move of the Forest 
Service into Interior. This move would entail transferring the 
authorities of the Forest Service Chief as well as those given 
to the Chief through the Secretary of Agriculture to the 
Secretary of the Interior and creating a new bureau equivalent 
to Interior's other bureaus. Specifically, I will discuss how 
federal land management would potentially be affected by such a 
move, what factors should be considered if a move is 
legislated, and what management practices could facilitate such 
a move.
    Moving the Forest Service into Interior could improve the 
effectiveness of federal land management programs although few 
management efficiencies may be gained in the short term. One 
result of such a move would be the alignment of the federal 
land mission under one department. The Forest Service and the 
Bureau of Land Management both manage their lands for multiple 
uses including timber, grazing, oil and gas, recreation, 
wilderness and wildlife, although they emphasize different 
uses, depending on their specific authorities and public 
demands.
    [Editor's note.--Chart is page 14 of GAO report.]
    As shown on the chart to my right here and behind, the 
Forest Service and Interior lands often abut each other and are 
sometimes intermingled. Land managers often cross each other's 
lands to work on their own lands and work with members of the 
same communities. Many of the experts and officials that we 
interviewed said such a move could, however, diminish the role 
that the Forest Service shares with USDA in providing technical 
and financial assistance to state and private landowners to 
sustain and conserve forests and protect them from wildland 
fires. Such outreach is not a function of Interior agencies. 
The new map above now to my right shows most of the nearly 750 
million acres of federal, state and private forested lands. A 
move could cause the Forest Service to direct its attention 
away from nearly two-thirds of these lands, mostly in the 
eastern half of the country. However, other officials noted 
that Interior could work more with these entities if the 
authorities to do so were transferred with the Forest Service.
    A move could also improve the effectiveness of federal land 
management programs, particularly if the four agencies took the 
opportunity to coordinate programs that they have in common 
such as law enforcement, recreation and wilderness management. 
The optimal approach for improving effectiveness could be to 
align the Forest Service's and BLM statutes, regulations, 
policies and programs in such areas as timber, grazing, oil and 
gas, appeals and mapping.
    In terms of efficiencies, many of the experts and officials 
we interviewed believe that many efficiencies would not be 
achieved in the short term but might gained in the long term if 
the agencies converted to the same information technology and 
other business systems. Existing efforts to integrate programs 
at the National Interagency Fire Center in Idaho, for example, 
have demonstrated improved program effectiveness and public 
service but few efficiencies in the short term, mostly because 
of incompatible information technology and other business 
operating systems.
    Under the Forest Service's and BLM's Service First program, 
which was begun in 1996, BLM, Forest Service, the Fish and 
Wildlife Service and the National Parks Service use one 
another's jurisdictions, authorities and responsibilities to 
conduct joint and integrated programs to improve customer 
service, operational efficiency and land management. The 
Service First efforts also demonstrate some of the difficulties 
that the Forest Service and BLM have working together because 
of different computer systems.
    A number of the agency officials and experts believe that 
organizational options such as merging the Forest Service and 
BLM, reviewing federal land laws prior to reorganizing the 
agencies or creating a department of natural resources may do 
more to improve land management.
    Moving the Forest Service into Interior would also raise a 
number of cultural, organizational and legal factors that could 
lead to disruptions and other transition costs. Differences 
between the Forest Service's culture and those of Interior's 
land management agencies may produce clashes resulting in 
decreased morale and productivity. The agencies' cultures stem 
in large part from their histories and a result of each 
agency's level of autonomy within USDA and Interior. The 
agencies may also see an increase in the number of retirements 
and resignations which may actually facilitate cultural change 
but also decreases productivity because of the loss of 
experienced staff. We have previously reported that it can take 
five to seven years to fully implement initiatives to merge or 
transform organizations and to sustainably transform their 
organizational cultures.
    Organizational factors could also complicate a transition. 
Adding about 29,000 Forest Service employees to Interior would 
likely increase the workload at the department level and strain 
shared resources. Furthermore, integrating the Forest Service's 
reporting, budgeting, acquisition and other processes and 
systems into Interior could be difficult, time consuming and 
costly. However, some agency officials noted that the timing 
for a move is opportune because Interior and USDA are both 
moving to new financial management systems and the Forest 
Service could be moved into Interior's system without further 
investment in USDA's system.
    Also, the Forest Service is the largest agency in USDA in 
terms of the number of employees, and as a result pays a large 
share of USDA's overhead charges. A move would affect these 
expenses and economies of scale within USDA.
    In regard to legal issues, the Forest Service and Interior 
operate under different statutory authorities and legal 
precedents, which may benefit from an examination and possible 
reconciliation. Even in areas where the agencies operate under 
the same laws, they have sometimes received differing legal 
opinions. Additional legal factors that would need 
consideration include tribal issues, Congressional committee 
jurisdiction and interest groups.
    Our work revealed no consensus among outside groups about a 
move of the Forest Service into Interior but some groups did 
have concerns about possibly jeopardizing established 
relationships with the Forest Service while others were unsure 
of the effects.
    To help plan for and manage a move and possible 
disruptions, previous work done by GAO in transforming 
organizations has identified some key practices that have been 
at the center of successful mergers and transformations. For 
example, one key practice would be to ensure that top 
leadership drives a transformation to help minimize 
disruptions. A move must also be closely managed with 
implementation goals and a timeline and communication with and 
involvement of stakeholders and agency employees will be 
essential to put employees at ease and mitigate disruption from 
decreased morale and productivity.
    In conclusion, a move of the Forest Service into Interior 
would be no small undertaking. Organizational transformations 
are inevitably complex and often create unintended 
consequences. Further, they can take many years to achieve. In 
considering such a move, policymakers will need to carefully 
weigh long-term mission and management gains against potential 
short-term disruption and operational costs. Significant large-
scale challenges to federal land management such as climate 
change, energy production, dwindling water supplies, wildland 
fire and constrained budgets suggest the need to approach these 
problems innovatively.
    Mr. Chairman, this concludes my prepared remarks. I am 
prepared to answer any questions.
    [The statement of Robin M. Nazzaro follows:]

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     past reorganization proposals


    Mr. Dicks. Thank you. We will review very carefully your 
report in detail.
    Now, you described several past proposals to reorganize the 
federal land and resource agencies that were unsuccessful. Why 
were these past proposals unsuccessful, and has anything 
changed, as you mentioned climate change and fire, that would 
affect the new proposal?
    Ms. Nazzaro. The prior changes, from what we saw, were not 
affected for a couple of reasons. One was just the public will. 
There was a lot of opposition to such changes both from the 
agencies as well as some of the stakeholder groups, but the 
other thing that we noted was, often they were disrupted 
because of changing priorities just in the government. For 
example, one of them that was done during the Nixon 
Administration was the Ash Council. That was disrupted because 
the energy crisis hit at that time. Under the Carter 
Administration, you had SALT II talks pressing. So sometimes it 
was just a shifting priority. These things take a long time in 
the past to study. After two or three years you have shifting 
priorities and people are no longer focused on land management. 
But it is certainly not a small thing, the amount of opposition 
that came both politically as well as stakeholder and employee 
groups.
    Mr. Dicks. Do you think there is really a chance to save 
money here? If you combine these two and if you could work out 
the legal overpinnings for jurisdiction of these two agencies, 
do you think you could save any money?
    Ms. Nazzaro. When we looked at Service First, that 
certainly is an issue that was raised that have they achieved 
savings yet. They have talked about savings but have not been 
able to document them yet. In the short term, it is probably 
more costly, but if you start looking at the administrative 
systems, the information systems of technology and start 
merging those in the long term, we do believe that there would 
be cost savings. The other benefit would also be probably 
improved customer service, and that we have seen demonstrated 
by the existing programs like Service First.


                     impediments to reorganization


    Mr. Dicks. You mentioned that these two agencies could not 
communicate with each other because they had differing IT 
systems, so we would have to correct that, I suspect, to come 
up with a common----
    Ms. Nazzaro. They are working together, as I say, more on 
the customer service front but there are still differing laws. 
They do still get differing legal opinions, for example, on how 
grazing can be carried out. You have got cattlemen who have got 
grazing going on on a BLM piece of property and on Forest 
Service and they are under different restrictions, different 
timelines as to when they have to move the cattle. So there is 
definitely improved customer service but I think in the long 
term to make it more efficient, you would definitely have to 
start doing something with all the administrative operations.
    Mr. Dicks. You said that moving the Forest Service out of 
USDA would diminish its state and private lands mission. 
Explain that again. They have a good state and local program, I 
realize that.
    Ms. Nazzaro. They do.
    Mr. Dicks. And BLM just does not have that?
    Ms. Nazzaro. That is something that they have in common 
with USDA, that USDA certainly has that mission, their whole 
extension program and so that was an issue that was raised by a 
number of the people that we talked to. That could be 
diminished. However, on the other side, Interior said well, if 
you bring that authority with us, we could actually learn from 
that and maybe Interior could do a better job. So there are 
certainly opportunities----
    Mr. Dicks. For state and local agencies?
    Ms. Nazzaro [continuing]. For state and locals.
    Mr. Dicks. Mr. Simpson.


                   history of organization structure


    Mr. Simpson. Thank you for your testimony. Originally the 
Forest Service was with Interior with everybody else, right?
    Ms. Nazzaro. It was.
    Mr. Simpson. Why was it moved to Agriculture? What were the 
reasons at the time?
    Ms. Nazzaro. Well, maybe I should clarify. It was not that 
the Forest Service was in Interior. It all goes back to the 
historical development of the West. The government acquired 
millions of acres of land and then they were giving these lands 
to try to encourage settlement. But in the Forest Service, or I 
should say USDA, there they actually had the scientists who 
knew more about forestry. That was their function. So when they 
decided that they were going to have these forest reserves set 
aside from the Interior lands, then those forest reserves were 
moved into USDA.
    Mr. Simpson. But it was because of the scientists and so 
forth and the more experience they had in agriculture?
    Ms. Nazzaro. Because they had that expertise that Interior 
did not. Also at the same time there had been numerous scandals 
in the office within Interior, the minerals management office. 
There had been scandals there, and so there was a perception 
that it was less professional.
    Mr. Simpson. There were scandals clear back then?
    Ms. Nazzaro. Wrong time, wrong place.
    Mr. Simpson. I am shocked there were scandals clear back 
then. I thought that was a recent development.
    You know, I am less interested in moving chairs on the deck 
than in customer relations and how these agencies can work 
together, and I have seen where they have collocated offices 
and so forth that it really has worked out well in trying to 
get these agencies to work together, at least from a customer 
point of view. And that is one of my main priorities is not 
really saving in cost, which would be nice, but trying to make 
them work together, and as I understand your testimony, if you 
do not address the statutes that they have to deal with and so 
forth and try to coordinate those, then you are really not 
accomplishing much if all you are doing is shifting them over 
to the Department of Interior.
    Ms. Nazzaro. Well, and you make a good point. I think a 
starting point would be to think through what are you trying to 
accomplish. If you are trying to accomplish better land 
management by having all the decisions made under one 
secretary, then that would advocate possibly an actual move. 
But you are right, through collocation, through collaboration--
actually we did a report about a year ago on collaboration--you 
can accomplish a lot. The problem is, there is not always the 
incentive to do that and you may have to mandate more programs 
like a Service First to actually get it to happen. What we have 
found, it is just human nature. Some people work well together, 
others want their own turf, and so really it is a mixed bag as 
to what actually gets accomplished without legislation or a 
mandate.

                  GEOGRAPHIC LOCATION OF FOREST LANDS

    Mr. Simpson. One other question. On the maps that were 
shown here, it shows the federally owned lands, federally 
managed lands on the bottom map there and the forested lands on 
the top. I was kind of surprised when I was looking at that. 
You look at, as an example, Maine, heavily forested, no Forest 
Service. All privately owned?
    Ms. Nazzaro. Yes, state and private.
    Mr. Simpson. Does the Forest Service have any interaction 
with the state of Maine or any of these things with the private 
landowners up there?
    Ms. Nazzaro. It is my understanding they do but it might be 
a question maybe the state foresters could answer better than 
we could, but if you notice on the map on the bottom, there is 
a small forest, national forest, the Green Mountain up in 
Maine, so I would imagine that there is outreach. I mean, that 
was the one difference between Interior and Forest Service that 
was cited, that they have this outreach program and do work 
with them. They also have the research components so certainly 
there is a sharing of best practices on how to manage forests, 
that kind of information is made available.
    Mr. Simpson. We have a tendency in the West to think that 
all the Forest Service and BLM and everything that they do is 
out West, but when you look at the United States, an awful lot 
of it is forested in the East.
    Ms. Nazzaro. The Forest Service is out West but the 
forested lands, there are a lot of forested lands in the East, 
yes.
    Mr. Simpson. Exactly, and it seems to me that that is one 
of the things you would want to look at in terms of that 
coordination between private and state owners of forested lands 
how it would affect that because there is an awful lot of 
forested lands that are not in the West.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Moran.

                     FEASIBILITY OF REORGANIZATION

    Mr. Moran. It seems to me that this would make a lot of 
sense from the standpoint of having a more integrated policy, 
that there is a great deal of overlap between BLM and the 
Forest Service. From the taxpayers' standpoint, again it 
strikes me, and I may be wrong, but that they would have more 
access to enjoy Forest Service lands if it was under the 
Interior Department and treated in a more restricted basis as 
simply basically a farming area, you are farming trees. But 
from our standpoint, if the taxpayer is paying to maintain it, 
then we would like for them to enjoy it, albeit not in a way 
that is damaging. But there are built-in interests, as there 
are with anything, that I suspect would like for it to stay 
just the way it is. They are accustomed to having these 
relationships, sometimes we call them fiefdoms. So this might 
be disruptive. I have not read the whole GAO report but do you 
think the bottom line is that when you add the pluses and 
minuses together that this is an appropriate pursuit, albeit it 
may take two or three years to do it responsibly? I gather from 
your report that you think there is probably some more merit 
than problem created by consolidating the Forest Service within 
Department of Interior.
    Ms. Nazzaro. We really did not conclude that it would be a 
good idea or it would not be a good idea. It goes back to the 
questions, the conversation I was having with Mr. Simpson, that 
you really need to set out what is your goal, what are you 
trying to achieve. One of the things that we did point out is 
that the environment has changed. I mean, back in the early 
19th century when we were talking about the historical 
development of the West, there was no such thing as ecosystem 
management, and so the issues have changed now and I think that 
climate change, certainly the severity of the wildland fires, 
the increased costs that we are incurring every year to address 
wildland fire is going to need a new approach, you know, an 
innovative approach to managing these federal lands. Both 
agencies are going to be dealing with the same challenges and 
so would it benefit to have it all, you know, done in one 
agency? The other side of the argument though is by having it 
in two different agencies, maybe you are bringing two different 
ideas to the table, you have some competition. The Department 
of Energy uses that philosophy with their labs, that they have 
got multiple labs and they feel that that spurs competition and 
that competition is good. So there are really different 
thoughts on it.
    As far as the interests groups, there really was no 
consensus among them. Some, as you mentioned, certainly felt 
that they would like to leave things as are, you know, that 
they have got relationships worked out with these agencies and 
they would prefer to leave it as is. Some said no, you are 
right, you know, combining them we would have a consolidated 
approach to managing federal lands and that in the long term 
would be more efficient.
    Mr. Moran. Mr. Chairman, this is probably the kind of thing 
we would want some conversation among Members on the 
subcommittee as to the pluses and minuses. My initial 
inclination is that it looks like it is a plus. When I see 
these two maps, though, and the fact that there is a great deal 
of Forest Service land. We will need to consider the Forest 
Service's relationships with private, state and local forests. 
I do worry though as state and localities become more pressured 
to come up with ways to maintain school systems or roads or 
whatever, that it will become increasingly difficult to 
maintain such large swaths of forest land that does not 
generate any revenue and that the Forest Service might be one 
more opportunity to maintain open space that is not currently 
available and that under the Interior Department the East Coast 
might be somewhat more likely to turn to the Forest Service as 
an option to maintain some of this land. I know in New England 
they are having a great deal of problem maintaining this land 
and it seems to me it is another option that might be more 
readily available or at least readily accessed if it was under 
Interior, and it does seem to me that over time there is going 
to be some money saved through collaboration and integration 
but again rather than drill the GAO, who always gives us a fine 
report, I think it is something we may want to discuss within 
the subcommittee membership.
    Mr. Dicks. I agree, and I also think that our panel will 
help to further enlighten us about this because of their vast 
experience.
    We will keep moving here. Mr. Calvert.

                         INCREASED COORDINATION

    Mr. Calvert. Thank you, Mr. Chairman. Just listening to 
this conversation, I am just wondering, if there is not 
significant savings in this, why not work with the various 
administration folks in the various departments and get these 
agencies to work in a more coordinated, cooperative way in the 
front end because it would seem to me that there are a lot of 
existing contractual agreements that are out there: easements, 
mineral extraction agreements, the rest. You mentioned the 
issues caused by cultural differences between agencies and who 
is negotiating which agreements and so forth could be extremely 
complicated and time consuming and it may ultimately cost the 
departments money. So, have you looked at it from that 
direction trying to get these folks to work together a little 
bit closer rather than just consolidate them all into one large 
organization, which may cause more problems than we might 
expect?
    Ms. Nazzaro. We did not look at a multitude of proposals 
and try to weigh the pros and cons of any of the proposals. 
Really, the proposal that the committee asked us to look into 
was the concept of moving the Forest Service lock, stock and 
barrel into the Department of Interior as a separate bureau. 
Through our conversations with some of the experts, they did 
talk about other options and collaboration was one of those 
options, so that was where we did look at things that the 
agencies are currently doing. In addition to Service First, we 
looked at an oil and gas streamlining pilot project that is 
being done in Colorado right now. Service First, there are 
about 50 locations. We went to two of them that we were told 
were the ones that were doing a pretty good job and even there 
we saw some problems. They are doing a better job of meeting 
the needs of the general public, that side of things, but they 
still were challenged because of different information systems, 
different computer systems. So as far as this just happening, 
like I said, it is not always human nature, you know, and we 
did look at just collaboration in general, and it is not always 
an easy thing to do. The agencies can have the best intentions. 
I mean, there is nobody more dedicated than the employees in 
some of these federal land agencies that I visited. But I will 
say it is not always easy for them to do the best thing.
    Mr. Calvert. I guess what I am concerned about is that if 
you collapse this all into the Department of the Interior, take 
the management, of the forest for instance, the original intent 
in many areas in the United States was to lease land to extract 
lumber. If you have Interior involved in this, are they going 
to bring an entirely different philosophy to the operation of 
how they manage the forest? For instance, do they do controlled 
burns or not. I can just think of a multitude of issues that 
there are, various philosophies become involved in how they 
manage these forests. In the West we have a history that has 
been changed somewhat over time, but nonetheless a history of 
how those forests have been managed. Did you look at that, how 
Interior would look at it versus the Forest Service?
    Ms. Nazzaro. Well, one issue that was raised to us was that 
same point, that if you made a move, would the Forest Service 
focus more on preservation than they have in the past, that 
there is a perception that that is more the role of the 
Department of Interior. However, BLM is a multiple-use agency 
just like the Forest Service and really manages some of the 
same kinds of lands. The Forest Service also shares a very 
similar mission with Fish and Wildlife Service and the Parks 
Service because there is a preservation aspect to some of what 
they do.
    Mr. Calvert. Well, some of that----
    Ms. Nazzaro. So the missions really are not that different 
from what is currently being done.
    Mr. Calvert. Some of that is also access issues. I mean, I 
wonder how Interior would handle access, for instance, if you 
had a forest fire, how would Interior handle heavy equipment 
going into an area to fight a wildfire. Is there going to be--
--
    Ms. Nazzaro. Actually their approaches probably are pretty 
similar because on wildland fire suppression, they are pretty 
integrated. Through NFSE, they have coordinated those efforts 
and BLM and Forest Service have worked pretty collaboratively 
on wildland fire.
    Mr. Calvert. And with the states and the local fire 
agencies, they have----
    Ms. Nazzaro. And working with them, so that really is a 
pretty integrated effort already.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Mollohan.
    Mr. Mollohan. Welcome to the hearing. I would like to pick 
up where Mr. Calvert left off with the mission.
    What is it about the mission statement of The Forest 
Service that would make it best fulfilled in Interior?

                    AGENCY MISSIONS AND COORDINATION

    Ms. Nazzaro. I do not think it is that there is anything 
about the mission other than its mission is very similar to 
BLM's. It is the management of the lands where from the first 
map we were talking about and showing how the lands are 
adjacent to each other so when you are trying to manage the 
lands now as an ecosystem and you have two different agencies, 
potentially managing them in different ways. Are we really 
doing the best for the land?
    Mr. Mollohan. But is that not managing in different ways 
the essence of the distinction between the two missions? You 
have looked at it carefully so I am asking if this is----
    Ms. Nazzaro. Not really.
    Mr. Mollohan. The Forest Service is managing the forest in 
an agricultural context. They are looking at it certainly for 
preservation but they are also managing it for harvesting. It 
is very much an agricultural function. My sense is that the 
defining characteristic of the Forest Service is managing the 
forest from an agricultural perspective, which they have a lot 
of years learning how to do and balancing all the competing 
stakeholders in that process. That is a real expertise.
    Ms. Nazzaro. From what I understand, that is more a 
historical perspective and that role has changed significantly 
over time in that they are closer now to what BLM does. BLM 
also manages forests. The Forest Service also manages 
rangelands so there really is a mix, and both agencies are 
managing those lands now for multiple uses so it is not 
exclusively for timber production but there is also that 
preservation, and the wildlife protection aspect as well.
    Mr. Dicks. For example, in Oregon, BLM has huge holdings of 
federal timberlands. They manage them pretty much the same as 
the Department of Agriculture. They are selling timber off 
those lands from a multiple-use perspective.
    Mr. Mollohan. When you were talking about cultural aspects 
of it too, I would be curious to know what cultural traits you 
were tracking in making those distinctions and where they lead 
you in recommending or not recommending a merger.

                            AGENCY CULTURES

    Ms. Nazzaro. Both agencies, BLM and Forest Service, are 
very autonomous within their departments, and there really is a 
pride in the organization that you belong to. You know, these 
people wear uniforms they really associate with, I am the 
Forest Service, I am BLM, I am the Parks Service, I am Fish and 
Wildlife Service. That is their history, that is who they are 
associated with and there is a pride in that. A couple years 
ago we looked at a program whereby the government was doing 
land appraisals and we were finding that the appraisers were in 
the same bureaus as those that were actually doing the 
appraisals and we said there was a lack of independence here 
and we suggested moving those appraisers into a central office 
in Department of Interior, and people were up in arms. They 
said I am a Parks Service employee, I am not a Department of 
Interior employee.
    Mr. Mollohan. Well, let me give you a couple of cultural 
traits that I can recognize from Agriculture. Agriculture is 
very much an outreach agency and the Forest Service mirrors 
that through the extension. As it manages national forests, it 
also provides a lot of consultation to those who own private, 
and you see up there--the map is not up--that is the actual 
forest map but the other map you see how much of West Virginia 
is actually forest. So there is that interchange. Is that 
trait, the extension service mentality, a part of Interior's 
culture?
    Ms. Nazzaro. No, that is more the culture of USDA and we 
did recognize that, and a lot of people said that could shift 
the Forest Service's focus, that then they would be focused 
more on their federal lands and diminish that role with the 
state and locals. However, Interior said, you know, that would 
be something we would welcome, and they suggested we could 
learn something from Forest Service and actually try to emulate 
that if that authority was then transferred to Interior.
    Mr. Mollohan. And there are just so many management things 
that they do. A significant part of my district is national 
forest, and I just wonder how that would play out. You 
indicated that Interior would do a better job. Now, I do not 
know whether you indicated that or that came from one of the 
questions, but I was wondering, why could Interior do a better 
job and how is that measured?
    Ms. Nazzaro. As far as their outreach that you are thinking 
in the state and local, I mean it may have been----
    Mr. Mollohan. It is not what I am thinking. It is what 
was----
    Ms. Nazzaro. Well, in that context Interior does not have 
that role and so they do not operate in the same way but they 
have said that if that responsibility or authority was 
transferred to them, they possibly could do the same thing in 
their programs in the same fashion.
    Mr. Mollohan. In your review, did you determine in any way 
that Forest Service was not doing a satisfactory job?
    Ms. Nazzaro. That was not part of our review to see what 
programs were not effectively being managed, no.
    Mr. Mollohan. You did not start from that point?
    Ms. Nazzaro. No. What we are looking at is, could land 
management be better addressed.
    Mr. Mollohan. Also with regard to climate change, I wonder 
about the advantages of Agriculture. A significant component of 
climate change is the issue of soils, which obviously 
Agriculture looks at with its expertise in soils and the Forest 
Service with regard to how soils impact forests and that whole 
cycle. Is that not an advantage for a resource like the forest 
to be managed by an agency that has such expertise with regard 
to soils and crops and all that interrelationship and its 
impact on climate change?
    Ms. Nazzaro. Well, that is a difference also between the 
way USDA is managed, specifically the Forest Service, versus 
Interior. The Forest Service has the research component right 
in the Forest Service where Interior has it in USGS as a 
separate bureau, so that is again a difference in how they 
manage. They both have a research function though and possibly 
could both learn from each other.
    Mr. Mollohan. I am just wondering the advantages of moving 
it to Interior. You know, the Forest Service also has this 
terrific network of relationships with academic institutions, 
the land grant institutions, for example, and those are 
relationships that are by all accounts very valuable as we 
manage the forests. Do you agree with that?
    Ms. Nazzaro. We did not look and that was not an issue that 
was raised that that would be jeopardized in any way.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Dicks. We want to welcome Mr. LaTourette from Ohio 
here. We are going to go to Mr. Cole since he was here at the 
start and we will come back to Mr. LaTourette. Just in 
fairness, that is the way we are going to do it. Seniority, but 
you have to be here. Tom.
    Mr. Cole. Thank you, Mr. Chairman. As I told Mr. LaTourette 
when he came in, in most of Oklahoma, we have to begin with 
what is a forest, so we are little bit behind the curve here.
    Mr. Dicks. Come up to Washington State, we will show you.

                FAILURE OF PAST REORGANIZATION PROPOSALS

    Mr. Cole. A couple things. One, I mean, change of this 
magnitude is unlikely to happen if the executive branch does 
not want it to happen. Has anybody in the past, any 
Administration previous to this one, actually recommended 
bringing the Forest Service into Interior? And second, do you 
have any indication of what the current Administration's 
attitude might be toward that kind of consolidation?
    Ms. Nazzaro. Actually we looked at five historical 
proposals that have been done over the last four decades and 
they had all proposed merging the federal land agencies 
together in differing fashions. Some actually presented the 
same thing, moving the Forest Service into the Department of 
Interior. Another one said moving BLM, actually merging BLM and 
Forest Service together. Another one talked about having a 
department of natural resources, which would have brought in 
EPA and components of Commerce as well. So to varying degrees, 
yes, this has been proposed a number of times.
    Mr. Cole. From the executive branch?
    Ms. Nazzaro. From the executive branch, yes.
    Mr. Cole. So the resistance has been usually in Congress, I 
would suppose?
    Ms. Nazzaro. There has been that, but also we found 
significant, as I mentioned earlier, changes in just the 
environment as to the focus. You really need that impetus, you 
know, to decide there is an issue that needs to be addressed 
and why this has to be done. Certainly in past changes, they 
have talked about needs for that but then you had SALT II, as I 
mentioned, the energy crisis during the earlier Administration. 
So there is always something that then took precedent. You 
know, the merger or consolidation that occurred a few years ago 
with DHS was brought about by September 11 so it is almost like 
you need to decide there is something we are trying to achieve. 
Just moving the deck chairs around for the sake of moving deck 
chairs is not appropriate but if there is something you are 
trying to accomplish, and that is going to be critical in 
working with the stakeholders and the agency officials as well.
    Mr. Cole. It would be pretty unfair to expect the 
Administration at this early point to have a view on this with 
everything else they have got, but do you have any indication 
that they do, that the current Administration has a point of 
view on this?
    Ms. Nazzaro. Well, we received comments actually from the 
prior Administration that work was done over last year. We 
actually requested that our comments to this report come in 
before the Administration took over, and we had agreement as to 
our report that we were accurately portraying the current 
situation, the advantages and the disadvantages. Both Forest 
Service and Interior commented positively but it was not from 
this Administration.
    Mr. Cole. In your report and in your testimony, you 
indicated there are some serious issues in terms of just 
integration technologically between two different agencies 
here. Can you tell us what some of those are, and more 
specifically, have you seen any indication that when you get 
down to a critical point in terms of emergency firefighting, 
for instance where you do have lands immediately adjacent that 
the lack of ability to communicate back and forth or systems 
integration has ever posed a serious problem?
    Ms. Nazzaro. I believe a couple years ago we did have an 
issue with radios, communication in wildland fire that we had 
done a report on, how the two agencies had worked together in 
fire suppression and there was an issue with radios. But just 
in general they do have different personnel systems, they have 
different financial accounting systems. Even under Service 
First, they have different computer systems to record their 
transactions. So while, yes, they could deal with the public in 
an integrated fashion, then they went back and still had to 
report individually back to their own agencies on different 
computers, different computer systems.

                     SERVICE FIRST AND COORDINATION

    Mr. Cole. Is there much in the way of an initiative to try 
and whatever the structural arrangement is to solve those kinds 
of problems now? Is anybody putting much time and effort or 
money into bringing them into a condition where they can 
communicate, move information back and forth easily?
    Ms. Nazzaro. It seemed like in the Service First we saw two 
different things. In the one in Colorado, they had a joint 
office, a joint front desk and they were integrating programs 
but I think in both of them, the Oregon one seemed to be a 
little bit more where they were just collocated, still 
operating separately, so even under a program like Service 
First where they have the opportunity, it does not seem like 
they are going as far as they could go. Now, you have different 
budgets so when they are both trying to develop information 
systems, they are both going to go their separate ways, so as 
long as you keep the budget process separate. Although with 
fire suppression, you know, they have integrated their 
operations there, do a lot of joint training, they do joint 
suppression efforts. They work with the state and local 
governments in a joint fashion.
    Mr. Cole. You mentioned also, and the report did as well, 
that there is a different culture or different point of view or 
maybe even different practices with respect to tribal 
governments between the Forest Service and Interior. Can you 
give me some specifics about that? That is an area that 
interests me a great deal.
    Ms. Nazzaro. Okay. There was one example that actually I 
talked to the staff about and it is with the Indian Self-
Determination and Education Assistance Act where they can get 
contracts and run federal programs. That is a program that 
Interior has but USDA does not have it. So there was some 
question then if you brought Forest Service in, would they be 
able to apply that to Forest Service programs as well.
    Mr. Cole. Any conflicts that you are aware of between 
tribal government, I believe I know all of them in the Interior 
but between tribal governments and the Forest Service?
    Ms. Nazzaro. I do not think there are any conflicts. I do 
not know. I am not familiar with any. I mean, most of the 
problems within Interior is within BIA, which is the agency 
responsible for the tribal affairs.
    Mr. Cole. And last question, if you had to pick out a 
series of things where you thought there would be significant 
savings or efficiency gains in a relatively short period of 
time, and granted, you said there is not going to be a lot of 
savings in the short term but where would they be? I mean, what 
would be the areas we would look at and say, boy, you know, we 
should have done this a long time ago because now this works 
better, this works better and this works better?
    Ms. Nazzaro. In the short term, we did not find many, as 
you say, probably just the collocation. I suppose you would 
save rental, you know, if you are renting a location that if 
you had one facility. I was in a facility in the Carolinas last 
year where Fish and Wildlife Service and Forest Service were 
sharing. They had built a new visitors center. So again, one 
face to the public and yet, you know, there they needed a new 
visitors center and they were jointly operating out of that 
one, so I suppose there is some benefit if there is just a 
collocation.
    Mr. Cole. Are there any difference between the firefighting 
practice, again, I always think of those as property-
threatening, life-threatening situations between Interior and 
the Forest Service? Any conflict there?
    Ms. Nazzaro. To my understanding, it is a pretty integrated 
approach, and actually fire suppression, especially, you know, 
first efforts, they are very effective and they work closely 
together.
    Mr. Cole. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Chandler.
    Mr. Chandler. Thank you, Mr. Chairman.
    I know that the Forest Service was placed into the USDA in 
1905, done obviously in the Theodore Roosevelt Administration, 
and anything that that Administration did, I tend to be 
prejudicial toward, but that being said, it seems like the 
overarching issue is, how do you best coordinate the general 
management of our Nation's resources, how best to do that, and 
it is logical, in my mind, that that is best done under one 
agency. It just makes sense that one agency with the control of 
all land management issues in our Nation would have the best 
ability to do it. Is there any real reason to think that that 
is not the case?
    Ms. Nazzaro. Well, you would have a more integrated 
approach. I guess that is what I could say. Would it be better? 
It depends----
    Mr. Chandler. Will it be more coordinated?
    Ms. Nazzaro. It would be more coordinated, it would be more 
integrated to have a consistent approach to federal lands by 
having that all under one secretary.
    Mr. Dicks. Will you yield just a second?
    Mr. Chandler. Yes.

                    ADDRESSING STATUTORY DIFFERENCES

    Mr. Dicks. There are legal differences in how they approach 
their jobs. Is that not correct? Would you not have to at some 
point resolve those legal differences under FLPMA and under the 
various statutes.
    Ms. Nazzaro. There are different statutory authorities for 
each of them so you would have to look at those statutory 
authorities, various regulations, policies, procedures. There 
is a lot to look at. It would be a complex undertaking. But yet 
they manage, you know, for the same intentions. Both BLM and 
Forest Service are multiple-use agencies and are managing those 
lands for those multiple uses, some for the resource extraction 
and certainly some for recreation and wildlife protection.
    Mr. Chandler. Well, with what you said, Mr. Chairman, the 
changes in the laws, that can be dealt with, I would assume. I 
am sure it would take some doing. You would have to have 
lawyers arguing over details and so forth.
    Mr. Dicks. Congress would have to be involved.
    Mr. Chandler. Just a minor detail, Mr. Chairman.
    But again, I do think that there is no point in talking 
about this unless there is some advantage to it. The advantage 
to it would be getting some kind of a seamless coordination of 
the management of all of our Nation's resources. That is the 
overarching concern. And again, at the end of the day, does it 
not make sense that all of this ought to be done in the same 
place with the same oversight of the same appointed official?
    Ms. Nazzaro. You are definitely citing the pros of such a 
move. We just wanted to make everybody aware, though, it is not 
done without cost, you know, that there certainly can be a 
downside short term.
    Mr. Chandler. Well, you have had this divergence built up 
for a hundred years so surely you have got some ways of doing 
things that have diverged over that time. And those would have 
to be dealt with, but it seems like there is also the 
possibility, and I think your report shows this, of some 
advantages to bringing these two entities together, having them 
work together. And it may very well be that the so-called 
culture or how the Forest Service goes about things could be 
quite beneficial to the Interior Department.
    Ms. Nazzaro. I agree with what you have said, and even with 
some of the downsides to this move, we have cited best 
practices that could help mitigate some of those. So it is not 
to say that there are not things that can help improve, you 
know, and minimize the disruption, minimize, you know, whether 
there are cultural or organizational changes that they can be 
addressed. It is just to recognize there are costs.
    Mr. Chandler. Well, on this cultural thing that you 
mentioned, you said something about the pride of people in one 
organization or the other organization and you mentioned them 
wearing uniforms. You know, there is a lot of pride in being a 
Boston Red Sox player too, but sometimes they get traded to the 
Yankees. And when they do get traded to the Yankees, I have 
been surprised at how quickly they become very prideful in that 
uniform.
    Mr. Dicks. It might have something to do with money, too.
    Mr. Chandler. Again, a minor detail, Mr. Chairman.
    Ms. Nazzaro. These are just things too that we have seen 
with DHS. GAO has looked extensively at what succeeded there 
and what has not succeeded in that move and so there are 
complications to these moves. They are very complex.
    Mr. Chandler. Thank you.
    Mr. Dicks. The DHS example may not be the best one.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. I apologize for 
being tardy this morning but I am happy to report that the 
Majority's legislation of a couple of weeks ago has stimulated 
the traffic on 395, and a light pole fell across the 14th 
Street Bridge and so that underscores the need for 
infrastructure improvement.
    And to not further tax the chairman's patience, I just have 
one question. A couple times you have mentioned that these 
reorganizations have been attempted before and other things 
have intervened, I think you said SALT II and the energy crisis 
of the early 1970s. Did you factor in or are you cognizant at 
GAO of Congresswoman DeLauro's work on the Agriculture 
Subcommittee where she is in the food safety area orchestrating 
a reorganization, if you will, of those services? It is a 
little bit like if you are going to do it and you are going to 
move once and make a big move like DHS was a pretty big move. I 
did not think it worked out so well but it was a big move. Is 
it better that this subcommittee sort of canoodle with Ms. 
DeLauro and if she is going to make substantive changes over at 
Agriculture that these be made concurrently with that? Would 
that increase some of the efficiencies that you are talking 
about rather than moving twice?
    Ms. Nazzaro. We have not really looked at whether you do 
multiple moves at the same time, what efficiencies you could 
possibly have. GAO has looked at a single food safety agency 
and has been an advocate actually for years of that proposal 
and is very encouraged by recent efforts to possibly move in 
that direction, given some of the food safety issues that the 
Nation has been facing. So I would say, any time you could 
coordinate the efforts and disrupt an agency one time is 
certainly going to be better than having multiple moves over a 
period of time.
    Mr. LaTourette. Thank you, Mr. Chairman.

                         COMMITTEE JURISDICTION

    Mr. Dicks. I have to say to the gentleman, obviously if 
this was going to happen, this would have to be within the 
jurisdiction of the Natural Resources Committee and then the 
Agriculture Committee, both of which take very seriously their 
oversight responsibilities. We wanted to do this hearing and 
have this report because this idea kept coming up over the 
years. People have asked is there a better way to do this, and 
I thought we could do a GAO report to see what people thought 
about it. Obviously we are not going to infringe on the 
jurisdiction of the authorizers on this subject. We might 
encourage, we might do this or that, but that would depend if 
there was a consensus on the subcommittee, and I know there are 
differing opinions on this.
    Mr. Simpson. Mr. Chairman, if you would yield for just a 
second?
    Mr. Dicks. Yes.
    Mr. Simpson. As I mentioned earlier, I sat on the Natural 
Resources Committee and the Agriculture Committee and the 
subcommittees of Forestry and Natural Resources and Forestry 
and Agriculture and oftentimes would have hearings on the same 
day on the same subject on wildland fires or something like 
that, and it always seemed kind of discombobulated to me, and 
anything we can do to coordinate that better between even those 
committees would be good.
    Mr. Dicks. Well, and especially on the fire issue where it 
is consuming so much of the budget of both of these agencies so 
it has to be cooperation, and I believe there is but you worry 
about when you have information technology or communication 
issues that might affect the effectiveness of the fire effort. 
The fire budget now in the Forest Service is 49 percent of the 
entire budget where in the 1990s it used to be 13 percent. So 
they have got a huge stake in trying to work together on these 
fire issues because if they do not, it is going to be the fire 
service, not the Forest Service, okay?
    Mr. Olver, do you want to ask a question or do you want to 
just do our second panel?
    Mr. Olver. I just want to listen.
    Mr. Dicks. Okay. Thank you, Robin. That was wonderful, and 
you have done a great job and you and your staff and as always 
the GAO does a very professional job and we rely heavily on you 
for this kind of work and we appreciate all your efforts.
    Ms. Nazzaro. Thank you, sir.

                              SECOND PANEL

    Mr. Dicks. Now we are going to call up our next panel. We 
have four respected witnesses. The first is Dr. Mike Dombeck, 
former chief of the Forest Service, and the only chief to also 
have directed the BLM, so this is the guy right. The second 
panelist, Leah MacSwords, the Kentucky, state forester and 
current president of the National Association of State 
Foresters, represents a key partner of the Forest Service. The 
third panelist is Bill Meadows, our friend, the president of 
the Wilderness Society, one of our great environmental groups 
in the country and who has extensive experience with cost 
issues. And finally, we have a noted expert on federal 
reorganization, Dr. Beryl Radin of the American University. I 
am not going to have any further comments. We will just go 
ahead and hear the witnesses.
    Mr. Dombeck, give us the truth.

                     Testimony of Dr. Mike Dombeck

    Mr. Dombeck. Thank you, Mr. Chairman. It is a pleasure to 
be back here after being gone from D.C. for a number of years 
and I did get a round-trip ticket, I want you to know, which I 
know makes some people happy.
    In the meantime, Mr. Simpson, I got my first elk on the 
Frank Church and had a wonderful time, so life after D.C. is 
good.
    At any rate, my observations are really based on two 
things, number one, having grown up on a national forest where 
friends and family largely derived their livelihood from the 
benefits of national forest, and that is the Shiwamagan 
National Forest in northern Wisconsin, and then the years of 
public service where I worked at every level of the Forest 
Service and also had the great fortune to be head of both 
Forest Service and BLM and I am thankful for just a wonderful, 
wonderful career. I am not going to read my statement so I 
would like to just ask that that be part of the record, Mr. 
Chairman.
    Mr. Dicks. Yes, we will put your entire statement in the 
record.
    Mr. Dombeck. I do want to touch on a couple of things that 
I think are important and hopefully we will have a productive 
dialog after that.
    If we were starting from scratch today, I do not think 
there is any doubt that we would not have the configuration of 
agencies or perhaps even committee jurisdictions that we have, 
and what I would like to suggest is one of my passions, 
although I am not a historian, is conservation history. A few 
years ago a couple of colleagues of mine and I wrote a book 
called From Conquest to Conservation, and in fact, the first 
chapter is on the history of public lands and what I would like 
to do is see that Chris gets a bunch of copies of that.
    Mr. Dicks. We would love to have them.
    Mr. Dombeck. It sort of goes through and will answer a lot 
of the questions that you had about why the Forest Service is 
where it is, the disposition of public lands from the time of 
the Revolutionary War forward.
    The multiple-use missions of the two agencies regarding 
land stewardship are virtually identical. There are some minor 
differences, some jurisdictional things, but from the 
standpoint of the actual mandate itself, there is not too much 
difference. Where the differences lie are in things like the 
BLM having responsibility for subsurface minerals under all 
federal lands. The Forest Service has an incredibly important 
state and private program which I think has been woefully 
underfunded for years and ought to be 10 times higher because 
of the important role of private lands in fragmentation and now 
the role of all those private forest lands in carbon 
sequestration and contributing fiber to the economies. That is 
an incredibly important mission of the Forest Service. And of 
course, the research function, which we mentioned earlier, was 
started in 1910, to deal with the fact that at that time the 
bulk of the forests that were harvested were used for railroad 
ties that rotted. Every five years the railroad ties had to be 
replaced so the National Forest Products Lab in Madison was 
established, as they said back then, to pickle ties. So those 
are some important differences.
    There are a lot of pros and cons, and I just want to 
commend the GAO for the study that they did and I spent a lot 
of time with GAO on this issue, and I just want to mention a 
few of the pros and cons and then recommend an approach. The 
fire funding problem of the Forest Service, which the chairman 
mentioned, is literally strangling the agency. I mean, how 
would you like to run an organization where 40-plus percent of 
your budget has to be pulled from someplace else and you do not 
get to spend it until the last quarter of the fiscal year? It 
is literally strangling the recreation, the fish and wildlife 
and virtually every program in the agency and suddenly you have 
to deal with this stress. Fire funding just simply has to be 
fixed. Interestingly enough, in Interior the BLM does have 
authority to draw resources from all the Interior agencies 
where they are available. The Forest Service does not have that 
authority in USDA yet the Animal and Plant Health Inspection 
Service has the authority to draw funds from the Commodity 
Credit Corporation to deal with insect disease emergencies. So 
you have those kinds of misalignments and sometimes the Forest 
Service is the odd agency out at USDA because frankly, most 
Secretaries know a lot about agriculture, they do not know too 
much about forest management, and that is a double-edged sword 
for the agency because sometimes the agency, you know, is sort 
of out of sight, out of mind, and when the Secretary gets to 
deal with the Forest Service, there is usually a problem and 
sometimes big problems. That is one example.
    I want to talk a little bit about Service First, which Jack 
Thomas and I initiated with the authorization of this committee 
back in 1996. When I went and talked to the employees in 
Colorado about Service First, it was sort of like well, we do 
not know if we can do this. The entrenched cultures in the 
agencies are very strong. I mean, can you imagine merging the 
Navy and the Marines? And these agencies obviously are not 
nearly that entrenched, but the fact is, there is a lot of 
pride of the uniform, the history, the culture. That is very 
important. So the employees are skeptical but you go to talk to 
the Resource Advisory Council and the constituencies and it is 
sort of like it is a no brainer, why are you not operating like 
this to begin with, why were you not doing this.
    So I think in a sense, this dialog is really on the right 
track. The questions that we ought to be answering before we 
just sort of start rearranging chairs is really from a taxpayer 
customer service point of view, a citizen's point of view. 
Number one is, should the Forest Service and BLM planning 
processes be different in the same county? Should the hiring 
practices be different in the same communities? Should the 
contracting procedures be different in the same towns? It is 
those kinds of things that we can get at right now, and I 
suspect the Administration would want to look at these kinds of 
efficiencies. It is so important. Should the tourists have to 
go to different offices to get permits or maps about where to 
camp, you know, on intermingled lands? It is things like that, 
and I think the GAO report pointed a lot of that out and that 
could really go a long, long way. My recommendation to this 
committee, as well as the Administration, is to push as hard as 
you can for alignment of those things. I am glad you are having 
this hearing because just the simple fact that you are having 
it will--you know, the Forest Service is listening to this 
hearing and so is BLM--can move a lot of that forward.
    I asked some employees and friends that I know. I said 
well, why is Service First not working better? I mean, we had 
such high hopes that that would work. And the answer was well, 
nobody is really championing it. So the culture in an 
organization is, well, if somebody is not pushing it, we are 
already too busy. The only person that wants a change typically 
is a baby with a wet diaper. In a sense, change is tough and 
change results in uncertainty. Another one of my favorite 
sayings is that the misery of uncertainty is worse than the 
certainty of misery, and some of the processes in the agencies 
are literally like that.
    So hook the mission to the future, realign as much as you 
can and really focus on the core missions, and that is 
delivering the stewardship, delivering the customer service 
with the end point being the long-term health of the land, and 
if we can do that, it probably does not matter where the chief 
sits or where the director sits, and it could be magically, if 
we do this right, in a decade or so it will just sort of blend 
together and our problems might be solved or things will be a 
lot better.
    Thank you for the opportunity, and I am happy to answer any 
questions.
    [The statement of Mike Dombeck follows:]

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Dicks. Thank you, Mike.
    Leah MacSwords.

                    Testimony of Ms. Leah MacSwords

    Ms. MacSwords. Chairman Dicks and Ranking Member Simpson, 
members of the committee, thank you for the opportunity to 
respond to the GAO report on the possible move of the Forest 
Service from the Department of Agriculture to the Department of 
the Interior. The National Association of State Foresters 
represents the directors of state forestry agencies in all 50 
states, the U.S. territories and the District of Columbia. We 
manage and protect state and private forest lands across the 
country. Fifty-seven percent of U.S. forestland is owned by 
private interests. The other 43 percent is public land.
    Even the Forest Service recognizes, through its mission, 
that its aim is to sustain the health, diversity and 
productivity of the Nation's forest and grasslands. NASF 
neither advocates nor opposes moving the Forest Service to the 
Interior. It is less important to NASF where the Forest Service 
is placed on the federal organizational chart. What is 
important is that it maintains its integrated suite of programs 
to serve all the Nation's forests. We believe the Forest 
Service can best fulfill its mission if its current 
organizational structure remains intact and is not divided 
among disparate federal departments or agencies. Our real 
interest is enhancing the ability of the Forest Service to 
tackle the most challenging issues facing the Nation's forests.
    For today's statement, I will summarize the key challenges 
facing the agency that should be addressed either through 
reorganization or through another legislative or executive 
approach. First, working with private forest landowners. The 
state and private forestry program is a federal investment that 
leverages the capacity of state agencies and their partners to 
manage forests. Reorganization consideration should recognize 
the longstanding relationship between state foresters and the 
Forest Service and not focus on federal lands alone. One way to 
accomplish this is to reverse trends that have reduced state 
and private appropriation by nearly 40 percent from fiscal year 
2001 to fiscal year 2008. Reinvestment in these programs will 
better prepare the Nation's nearly 10 million private forest 
landowners to meet growing demands on their forests including 
emerging priorities like carbon sequestration and renewable 
energy.
    Second, is fire suppression. Reorganization discussions 
need to address the overwhelming influence fire suppression 
costs have on achieving other land management goals. NASF is 
working with a broad coalition to promote a solution that would 
establish a separate fund for emergency wildfire suppression 
and ensures that funding for partitioned account will not be 
scored against the agencies' constrained budgets. Non-emergency 
fire suppression funding will always be a necessary part of the 
Forest Service and Interior budgets no matter where the 
agencies are located on the organization chart.
    Third, national forest system management. A number of 
management challenges threaten the long-term sustainability of 
the national forest system. In particular, a persistent lack of 
funding to complete harvest treatment has exposed millions of 
Forest Service acres to large, unnatural wildfire and increased 
outbreaks from insects and disease. These forest health issues 
pose risks to nearby state and private lands which often do not 
have the financial resources available to proactively respond. 
Simply moving the Forest Service into the Interior will not 
address the forest health issues that ignore ownership 
boundaries. Forests are a strategic national resource that 
justify strong, comprehensive federal support. We agree that 
taking a look at how the Forest Service operates is a good idea 
but beyond relocating the agency to another federal department, 
there are other organizational changes that could be considered 
to enhance the ability of the Forest Service to serve 100 
percent of the Nation's forests. Enhanced coordination with 
other federal and state agencies is one such opportunity. A 
recent positive example is an interagency joint forestry team 
that produced a memorandum of understanding between NASF, the 
Forest Service, the Natural Resource Conservation Service and 
the National Association of Conservation Districts. This MOU 
represents an interagency commitment to strength cooperation 
for delivering forestry assistance to private landowners. This 
concept could be built upon with Interior to recognize forests 
as strategic national resources requiring coordinated federal 
and state agency efforts.
    Whether housed in USDA, Interior or in another federal 
department, NASF believes that the Forest Service's current 
organizational structure should remain intact. Focus should be 
less on reorganization and more on improving the Forest 
Service's existing programs and authorities to serve all 
forests. It is critical to maintain and fund a comprehensive 
set of program areas in a manner consistent with the amount of 
forestland held in state and private ownership. NASF greatly 
appreciates Chairman Dicks' and the subcommittee's prior 
commitment to investing in state and private forestry programs 
as evidenced most recently through the American Recovery and 
Reinvestment Act. I thank the chairman, Ranking Member and 
members of the committee for the opportunity to before you 
today.
    [The statement of Leah W. MacSwords follows:]

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Dicks. And we appreciate your comments. Just one thing 
I would mention, the Forest Service budget over the last eight 
years has gone down by 35 percent and the Interior by 16 
percent, so they have been talking about excess spending. It 
was not in our area.
    Mr. Meadows, welcome.

                     Testimony of Mr. Bill Meadows

    Mr. Meadows. Thank you very much, Mr. Chairman. My 
compliments to you for your leadership and to Ranking Member 
Simpson for all of your help in so many different ways. It is a 
pleasure to be here and to speak to this particular issue.
    The Forest Service is deeply rooted in the conservation 
ethic of Gifford Pinchot and Theodore Roosevelt, who placed it 
under the Agriculture Department in the first place. Pinchot's 
idea that it should do the greatest good for the greatest 
number in the long run still guides the agency today. The 
Wilderness Society has utmost respect for the professionalism 
and the talent of the Forest Service staff throughout the 
country. My testimony will focus on the central challenge the 
Forest Service, indeed, all of our federal land management 
agencies face in the coming century, the potentially 
devastating ecological, economic and social impacts of climate 
change. I firmly believe that the question we are addressing 
today must be evaluated in the context of the larger issue: 
what needs to be done to protect our forest and public lands 
from global warming.
    The Forest Service plays a key role in our defense against 
a changing climate. Responsible for 193 million acres of 
national forest system, it oversees almost one-quarter of all 
the federal lands in the United States. National forest boasts 
some of the finest fish and wildlife habit found anywhere 
including one-half of the spawning grounds for salmon and 
steelhead. These coldwater fisheries are now under serious 
threat from global warming. Thousands of other forest species 
are imperiled too. These same forests sequester and store vast 
amounts of carbon which might otherwise add more greenhouse 
gases to the planet. National forests in the Pacific Northwest, 
for example, are believed to store more carbon per acre than 
any other forest ecosystem in the world.
    Because the federal government holds our public lands in 
trust for present and future generations of Americans, it is 
incumbent upon the Forest Service, Parks Service, Fish and 
Wildlife Service and the Bureau of Land Management regardless 
of where they sit to work together to protect the health of our 
federal lands. The agencies must ensure that the lands' 
biological resources successfully adapt to the stresses of 
climate change.
    Second, as the primary agency dealing with all of America's 
forests, public and private, the Forest Service plays another 
vital role. Almost one-third of the United States, 750 million 
acres, is covered by forest and 60 percent of those forests are 
privately owned. Both state and private forestry agencies rely 
on the Forest Service for important technical and financial 
assistance.
    Third, the Forest Service is the largest forest research 
organization in the world and much of it is aimed at 
understanding the impacts of global warming. For over 20 years 
its global change research group has been evaluating the 
effects of climate change. Federal, state and private forest 
managers regularly use this research as they try to find ways 
to increase carbon sequestration and make our forests more 
resilient to climate change.
    What do the multiple roles in the climate issue tell us 
about whether or not the Forest Service should be transferred 
to the Interior Department? Arguably, from a climate change 
perspective, America's forests will be better off if it stays 
in the Agriculture Department where it can continue to work 
closely with state and private forest owners on climate change 
issues. On the other hand, America's federal lands might be 
better served by moving it to Interior where it could 
coordinate more effectively with the other land management 
agencies. But I believe that this is a false choice. We can and 
must find ways for the Forest Service to succeed in both roles 
regardless of where it is housed. If it remains in Agriculture, 
coordination with the other federal land management agencies 
that oversee our public lands needs to improve dramatically. 
Beyond that, all of the agencies should begin taking an 
ecosystem and landscape approach across jurisdictions rather 
than managing the land by dividing it along administrative or 
political boundaries.
    The development of the Northwest Forest Plan is one good 
example where a cross-agency approach worked well. Fifteen 
years ago, the White House brought together a number of federal 
agencies to develop and implement that plan. The result was a 
scientifically credible blueprint for both the national forests 
and the forests managed by the Bureau of Land Management in 
western Washington, Oregon and northern California. Perhaps now 
is the time to develop a similar multi-agency scientific plan 
to address the impacts of climate change on our federal lands.
    Over the last decade we have seen much better coordination 
in fire management among the Forest Service, BLM, Bureau of 
Indian Affairs, National Parks Service and the Fish and 
Wildlife Service as well as state agencies teaming up to 
increase efficiency and spread their expertise. While more work 
must be done to integrate fire management research and 
treatments, success does not require moving agencies into 
different departments.
    My ambivalence about the proposed move stems in part from 
the question of whether now is the time to consider a change of 
this magnitude, complexity and expense. Our country is dealing 
with some formidable economic challenges. I fear that the cost 
of a move in terms of human and financial resources needed to 
implement it and the loss of productivity as staff attention 
focuses on it would far outweigh any immediate benefits.
    In conclusion, Mr. Chairman, I truly believe that we stand 
at a major turning point in the history of the Forest Service 
and the viability of our public lands in the face of climate 
change. The global warming era will demand strong leadership, 
new ideas, better integration of science and management, the 
willingness to experiment and adequate funding to enable the 
agency to fulfill its mission in the 21st century. The 
Wilderness Society looks forward to working with the Forest 
Service, this subcommittee and other partners to meet this 
formidable challenge in the months and years ahead.
    Thank you, Mr. Chairman.
    [The statement of William Meadows follows:]

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Dicks. Thank you. That was very good.

                      Testimony of Dr. Beryl Radin

    Dr. Beryl Radin from American University.
    Ms. Radin. Thank you very much. Chairman Dicks, Ranking 
Member Simpson and other members, I am very pleased to be here 
today, and unlike the others on this panel, my interest in this 
important issue is not focused on the specifics of the current 
proposals to move the Forest Service into Interior to operate 
closely with BLM but rather what I will try to do is raise a 
number of issues that seem to have had an impact on other 
reorganizations and thus I believe should be considered in this 
proposal.
    While reorganization is an important tool that can be used 
effectively in many situations, there are very different ways 
of thinking about this strategy, and I should say that not 
everyone in the public management field agrees with me, just so 
you know that. Much of the literature on this topic draws on 
what I call the management perspective. It borrows experience 
from the private sector. It emphasizes the authority of the 
President to make change as well as what are viewed as logical 
arrangements of organizational components to improve 
efficiency.
    An alternative way of conceptualizing the topic is what I 
call the policy approach. It considers the context and 
environment surrounding programs, emphasizes the role of 
Congress, constituencies and interest groups and distinct 
cultures of programs. It sometimes employs reorganization not 
really to change substantive outcomes but as a symbolic 
response to demands for change. And while efficiency continues 
to be an essential value, it has to be considered along with 
issues of effectiveness and equity.
    Now, I believe that both perspectives, both the management 
and the policy perspectives, are important but much of the 
traditional literature on reorganization emphasizes the 
management perspective and ignores what I have called the 
policy perspective and so my remarks will focus on the policy 
perspective because I think that most public management advice 
tends to downplay it.
    I would like to just lay out six points, and these points 
mirror a number of the issues that have been already raised 
this morning, and I have to say that as an academic I have 
great satisfaction in finding some correlation between what I 
have been writing and what this subcommittee has been 
considering because you do not always get that opportunity.
    My first point: Reorganization efforts generate two 
different sets of problems. Some are short term and some are 
long term. Opponents of reorganization often focus on short-
term disruptions and problems and not on potential long-term 
gains. By contrast, supporters focus on long-term gains and 
tend to ignore short-term disruptions. Now, if short-term 
problems are severe, that may serve to block any long-term 
gains and color future actions, and one of the things that we 
have not talked much about today is considering the impact on 
career staff when we make these changes.
    My second point: Reorganization rarely shifts political 
players. If the political system has separate paths for dealing 
with separate programs, that usually continues. This includes 
separate Congressional jurisdiction issues, separate 
constituencies and distinct and often competitive interest 
groups. If the programs involve implementation in different 
settings, and we talked earlier about the relationship with 
states and localities, these differences may be especially 
important.
    My third point: At first glance, programs may appear more 
compatible with one another than they actually are. The level 
of similarity between programs may be more superficial than 
technical. They may be imbedded in different professional and 
technical cultures, and when merged usually one of the cultures 
prevails, and yet both or the multiple cultures are legitimate 
at different points in the process.
    My fourth point: Changing organizational structure is not 
always an effective way of dealing with conflict between 
agencies. It may simply displace the conflict to another 
setting. So we talked about the seats on the deck, and shifting 
organizational boxes may be more symbolic than real.
    My fifth point: There are alternative ways of addressing 
overlap and interdependency between programs, and I think we 
have heard some examples of where there have been attempts to 
do this. Increasingly, and it is not just in this area but all 
across the government, organizations have sought to devise 
networking collaboration and joint programs as a way of 
minimizing conflicts. It does not mean you are going to get rid 
of the conflict but you are trying to manage that conflict. 
Now, when you use that kind of an approach, it is very time 
consuming but is often more acceptable to those within the 
system and it may have longer-term payoff.
    Now, my last point is that changing technology, 
globalization, something like climate change concerns crises 
and other shifts in the policy environment may actually bring 
new players to the table that make the dimensions of a 
reorganization out of date. So this may generate a belief that 
there will be constant reorganization, and I think this is not 
that kind of organizational turbulence that allows the agency 
to develop a coherent program. All of this is to say that 
reorganization is not always the panacea that is often 
suggested by its proponents. At the same time, it is not an 
argument against all uses of the reorganization tool.
    I thank you for inviting me to testify, and I am available 
to work with the subcommittee and its staff and continue our 
conversation. Thank you.
    [The statement of Beryl A. Radin follows:]

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           POTENTIAL OUTCOMES

    Mr. Dicks. Well, I think this has been a very useful panel. 
Let me start off here with Mike Dombeck. You think by trying to 
get these people to work together, where they can, is maybe the 
best here?
    Mr. Dombeck. I would not say it is the best outcome. I 
think it is an appropriate starting point that has gone forward 
in the past----
    Mr. Dicks. Service First.
    Mr. Dombeck [continuing]. In various fits and starts, and 
Service First. You know, another prime example, I thought one 
of the best ideas that came out of the 1980s was the land 
interchange proposal put forward, I think it actually stemmed 
from the Grace Commission report and that was that really 
proposed the exchange of 24 million acres of Forest Service and 
BLM land where the Forest Service had more forest management 
expertise so they would sort of get the forests the BLM managed 
and BLM had more grazing management expertise, they would have 
gotten the grazing lands. From the standpoint of where I sat as 
an observer and employee at that time, I thought this is one of 
the most commonsense ideas that we could put forward to do that 
and it never got to first base because you get the entrenched 
cultures, you get the constituencies, you get the committee 
jurisdictions here in Congress. As you point out, the short-
term pain is worse than the long-term gain and it just sort of 
fizzled out. So there are a variety of models of things that 
have been tried. I think aligning the function is the way to 
go.
    Ms. Radin. Could I just mention that we have talked about 
things like Service First but I think we have not emphasized 
the fact that even if you have a very modest effort to start 
with, that there are all kinds of informal relationships that 
are developed when people sit around the table and there are 
spin-offs of those kind of things that may lead to increasing 
kind of change. So do not just look at the formal because there 
are also other things when people talk about the water cooler 
in their breaks and so on, that that is a really important 
thing.
    Mr. Dicks. Do you think there is much of that between BLM 
and the Forest Service?
    Mr. Dombeck. There is some of it, and I think that is 
really one of the positive benefits of Service First because it 
is like colleagues working together here on the Hill or other 
places. You get to know people, you get to be friends, you get 
ideas from them, and I have been basically a career-long 
believer that one of the things we need in not only agencies 
but all entities is a slow movement, maybe a trickle of 
employees from the private sector, from the state agencies, 
from the academic world sort of in and out of agencies because 
they bring networks with them, they bring different 
experiences, but what you have as these cultures and 
organizations develop, you have a slow and--I think this is 
human nature. You have the shift of loyalty from the mission of 
the organization to the culture of the organization, and then 
it suddenly becomes very hard to be very critical of the 
organization and you can sort of get into the Hatfields versus 
McCoys type of a scenario. By a slow movement like I described 
you can, I think, eliminate a lot of that. That was really the 
intent of the civil service reform that occurred in the 1970s 
or 1980s with the senior executive service. The senior 
executives would have a skill set that would be applicable for 
management but that, you know, well, if you have not grown up 
in this agency, you just do not understand and somehow we need 
to erode that, and that is much more pervasive in the Forest 
Service and the Parks Service and the refuge system than it is 
in BLM. BLM's culture is much more flexible. I mean, if you 
look at the history of BLM where you have the grazing service, 
the general land office merged in 1948 by President Truman and 
then you had functions of the Mineral Management Service 
brought into BLM--when was it, 1980s? I do not remember exactly 
when. So you have got more of a mishmash of cultures in BLM 
where in the Forest Service you have a real pride in the 
culture and it works both ways. It helps the agency in some 
respects and it hurts it in others.

                 IMPACTS TO STATE AND PRIVATE FORESTRY

    Mr. Dicks. You mentioned we paid a big price for the 
reductions in the state and private forestry programs. Give the 
members a sense of that and why it is so important.
    Ms. MacSwords. Well, I think the maps that you saw this 
morning speak to that eloquently in the fact that most of the 
land is under state and private hands, most of the forest land 
is. In the state of Kentucky, we have 467,000 private forest 
landowners so that the state and private forestry programs 
under the Forest Service have allowed us to work directly with 
those private forest landowners providing them that level of 
technical assistance, providing them cost-share programs, 
providing them information about the forest health threats, 
also providing fire suppression on those private forest lands. 
Those very things, fire, insects, diseases, they do not stay 
within the boundaries of national forests. They move out to the 
private forestlands. If you look at what happened in the 
Pacific Northwest when timber harvesting declined, all of that 
harvesting activity moved to the South, and so it moved to 
private forest landowners. We have to address this national 
resource holistically. I think if you look at what happened in 
the Farm Bill where it calls for states to do a statewide 
assessment, it did not tell states, just look at the 
forestlands that are under private ownership; it said look at 
all your forestlands regardless of jurisdictional ownership. I 
think Congress recognized that there needed to be sort of a 
holistic approach to our forests.
    Mr. Dicks. And we have done the same thing with the state 
wildlife grants.
    Ms. MacSwords. Exactly.
    Mr. Dicks. To look at biodiversity and protection of 
species.
    Ms. MacSwords. Absolutely, and I would like to build on 
something Mike said about the culture, and I think you are 
absolutely right about the culture in the Forest Service but I 
would suggest that it goes a step further. Not only is a Forest 
Service culture, it is a national forest culture. Clearly, 
moving up through the chain of command in the Forest Service 
comes if you have a background on a national forest and there 
is not much emphasis on state and private programs as there 
should be and needs to be nor is there as much emphasis on 
research that is critical, especially to states in terms of the 
forest inventory and analysis information. So it is a 
subculture within a culture, I guess, is the best way to 
describe it, and I would like to see that change to include a 
recognition of the importance of the state and private 
programs.

                 COOPERATIVE EFFORTS ON CLIMATE CHANGE

    Mr. Dicks. Now, Bill, you talked about climate change and 
getting these agencies to work together. Now, I think this is 
the issue of our time, besides the economic downturn, which may 
consume us. But talk a little more about that. Getting these 
agencies to work together, no matter what happens, we have to 
get the BLM, the Forest Service, the Fish and Wildlife Service, 
all these agencies to cooperate and deal with this, and from a 
research perspective, talk about that.
    Mr. Meadows. I think first of all the discussion around 
climate change over the last many years really has focused on 
emissions and emissions control. It really has only been 
recently when people have begun to think about the fact that 
climate change is already here. Our ecosystems have changed and 
you can document it through fire, you can look at wildlife 
migration patterns, you can look at insect infestations.
    Mr. Dicks. Acidification would be another.
    Mr. Meadows. Right, so there are all sorts of real--you 
just spend any time in Alaska and you see it firsthand where it 
has been affected by it. One of the things the natural resource 
conservation organizations like the Wilderness Society, 
Defenders of Wildlife, the Nature Conservancy, World Wildlife 
Fund have been looking at is the impacts of climate both 
already and into the future, and adaptation has become a huge 
issue for us and one that we believe is critical to the 
survival of these natural systems, and what you find first of 
all is that you really cannot draw lines around a map. It does 
not matter what is wilderness or what is a refuge or what is in 
the jurisdiction of the Forest Service. These are large 
ecosystems and you need to be able to look at them 
holistically, and in order to do that you have to bring various 
interest groups to the table so it is in specific places, 
depending on where you are in the country. If you are in 
Oregon, you are going to want to have the Forest Service and 
the Bureau of Land Management to sit together and work through 
what the options are, and you have to have joint research 
programs. There is independent research going on in lots of 
different agencies and lots of different sections of academia 
and the non-governmental organizations arena, and how do you 
coordinate all that? I think the President has taken a very 
good step in asking Ms. Browner to take on a coordinating role, 
but that is going to be a small office. It is going to be a 
hard thing for one administrative office to do. I think it is 
going to have to have some support, much broader support from 
Congress and from the agencies, and so how do we set that in 
place? I think it is the challenge of our day, and this 
subcommittee can do a lot to encourage that coordination among 
the agencies.
    Mr. Dicks. Well, we started at USGS with the National 
Global Warming and Science center to get this thing started, 
and there is a lot of research. I think our bill last year was 
$260 million of work that is being done on climate change. And 
I agree with you, there has to be an intergovernmental 
coordination on all this effort.
    Mr. Meadows. And in my written testimony, I referenced a 
new ecosystem services operation that the Department of 
Agriculture has just set up, I guess in December, and Sally 
Collins, who worked very closely with Mike, is leading that, 
and, you know, looking at more broadly, and this is 
intersection also of state and private and federal lands, but 
looking more broadly at those ecosystems and the services they 
provide to our society. I would just close this comment by 
saying that, you know, we recognize that there is a direct 
economic, cultural, social and natural resource relationship 
between healthy environment, healthy ecosystems and healthy 
communities. The two go together. You cannot have one without 
the other.
    Mr. Dicks. And people sometimes do not recognize how the 
forest is a great thing for carbon sequestration.
    Mr. Meadows. Well, I mentioned your home area, the 
Northwest forest, the carbon that is sequestered already is 
huge. It is very significant.
    Mr. Dicks. Congressman Simpson.

                     MOVING TOWARDS IDEAL SITUATION

    Mr. Simpson. Thank you, Mr. Chairman. The reality is, when 
we look at reorganization, which is what this hearing was kind 
of about, what the GAO report, those things that we attribute 
to the Forest Service, if we decided to move it to Interior, 
those functions could all be moved to Interior, given the same 
authorities and say, you know, you have to coordinate the 
research, university research programs and all those types of 
things could be done if you wanted to do that. I kind of like 
to blow things up and say in an ideal world if nothing existed 
as it currently exists, what would we do? How would we make it 
more efficient? How would we make it better coordinated in 
terms of management, whether it is for whatever purpose, 
multiple purpose, multiple-use purposes, whether it is for 
recreation, whether it is for global warming, whatever. How 
would we do it so that these agencies worked better together? I 
mean, knowing that you are never going to get to an ideal 
situation, what I would like to know is, the changes that we 
make, do they move us closer to it or further away from it, and 
so I kind of like to theoretically blow things up.
    I was interested, Mike, in your comment that there was an 
effort at one time to consolidate lands because I had written 
that down. Has there ever been an effort to look at 
consolidating lands and why did that fail? Because if you look 
at these maps, the first map that was up there, throw that back 
up there. You look at Idaho, that big green patch of the Frank 
Church going down the middle there, and then you look at those 
fingers of BLM land that stick up there. It is bizarre 
management, and the reason I come to that conclusion is because 
we have not even got everything thrown in there. You throw in 
there the private forests, you throw in there the state forests 
and public lands, and all of a sudden if you look at a map at 
all the management, you wonder how it ever gets done because 
you have got these chunks of state land in the middle of it, 
every other section that goes on and however it was given to 
the state, and there have been efforts to consolidate state 
lands and trade with the Forest Service for management 
purposes, and they have done pretty good with the Forest 
Service. BLM, we are still way behind. Why did that effort 
fail? You said it did not get to first base.
    Mr. Dombeck. Well, my observations are really based on, you 
know, in those years an employee in the trenches and what I 
heard since then. It would be good to have a real study of why 
that happened and use it as a case study but my impressions 
are, number one, the employees oppose it because it is change. 
It makes their life more difficult, more challenging. You know, 
it is this change thing where generally as long as it is 
somebody else, it is okay but not if it is us.
    Mr. Simpson. But that really should not be the decision, it 
should be a policy decision made by Congress of how we want to 
manage these.
    Mr. Dombeck. So you have the cultural issue, and then of 
course you have got the constituencies that are accustomed to 
dealing with the agencies, the ranchers are used to dealing 
with BLM, the timber industry is used to dealing with the 
Forest Service and they just feel more comfortable like that, 
and there is close collaboration, working relationships that 
they worry about, and then the third phase, I believe is the 
jurisdictions on the Hill, and I really cannot speak to that 
very much because I was only viewing that from a distance at 
that time.

                     OPPORTUNITIES FOR COORDINATION

    Mr. Simpson. Has there ever been an effort to sit down and 
write out the statutes, the management practices--you mentioned 
some of them, hiring practices in local communities and so 
forth and so on and contracting practices--to look at the 
differences and how we might be able to change that? Because to 
me, what I am really interested in is less about arranging deck 
chairs, as I said before, and more about management for 
whatever purpose we decide to manage it. Has there ever been an 
effort to try to realign the statutes more?
    Mr. Dombeck. As far as I know, there has been a public 
lands law review commission and various things like that that I 
suspect Chris or maybe others here know a lot more about.
    Mr. Dicks. When was the last time we did a public land law 
review?
    Mr. Dombeck. The 1970s?
    Mr. Simpson. And we have probably written a few statutes 
since then, I would suspect.
    Mr. Dombeck. But the merit in your idea and the dialog is 
that I met with Secretary Vilsack yesterday morning and one of 
the things I said to him was that, you know, I hope you can do 
what you can to tie the mission of the agencies to the future, 
and I think Bill addressed that very well. You ask yourself, 
what is the greatest good for the greatest number for the long 
run right now versus when it was written by Gifford Pinchot and 
stated by Secretary Wilson. I have a view on what that is, and 
as long I have a chance, my view is, climate change and the 
value of these lands as carbon sinks, as strongholds for 
endangered species, biodiversity, all of that stuff. The 
incredible importance of forests and the forest-water 
interaction is for drinking water, clean water. I mean, forests 
are the very filters of water, and where the precipitation 
falls is mostly on the forested lands. Open space is an issue 
as we deal with sprawl, keeping people connected to the land 
and outdoor education. With 80 percent of the people living in 
cities and towns and urban areas there is difficulty 
recognizing the value of land and what it does for us for 
agricultural production and all of that is so important. Fish 
and wildlife habitats, remnants of what the land was once like, 
most of this will likely have to occur on public lands, and the 
value of the BLM lands, which we have not talked about very 
much, is equally as valuable as the nation forests are.
    Mr. Simpson. Let me ask you one last question. I always get 
in trouble when I ask this question in the Energy and Water 
Committee, wondering why we have a separate Army Corps of 
Engineers and a BOR, and the Army Corps of Engineers is happy 
to accept the BOR. Do we need a separate BLM and Forest 
Service?
    Mr. Dombeck. I guess I do not know. If we were designing it 
today, from scratch, probably not. However we are at a 
different time in history. BLM came to be in 1948. The Forest 
Service as we know it today came to be in 1905. If Gifford 
Pinchot had been from the West, he would have been Secretary of 
Interior, according to Edwin Morris, the biographer, at least, 
and then where do you think the Forest Service would have been? 
It would not have been in Agriculture. So there is a variety of 
reasons, and this is why looking at it from a functional 
standpoint and the authorities I think is the way to go rather 
than just worrying about who is sitting where. I think that 
could result in a lot of short-term--the short-term pain would 
pay off even though aligning functions will, I think, 
ultimately align things, relationship, and if a move is made 
10, 20, 30, whenever years from now, it would be much more 
productive and much less painful.
    Mr. Simpson. And I am glad to see we got that elk for you, 
in the Frank Church.
    Mr. Dicks. Mr. Chandler.

                       FOCUSING ON SUSTAINABILITY

    Mr. Chandler. Thank you, Mr. Chairman. Mr. Simpson, I 
happen to agree with you that sometimes it is very healthy to 
look at the possibility of blowing things up. As I hear all of 
your testimony, first of all, I want you to know that I agree 
with almost everything that you said, all of you. Now, that 
does not necessarily get us to what this hearing was about 
though. To me, the whole purpose of the Forest Service, of BLM, 
and of the management of our Nation's resources is to attain 
sustainability. That to me is what we are looking at. We are 
trying to sustain good life for the people who live in this 
country, for the species, for everything. We want that to go 
on, and we want it go on in a sensible way that is very healthy 
for all concerned. I think that applies just as much to 
privately owned land as it does to publicly owned land. It has 
all got to be looked at together, in my view. I also agree that 
climate change is the overriding issue here. It is the 
overriding issue related to sustainability. The other issue 
that is incredibly important is the issue of fire suppression 
and how we deal with that, how we coordinate our efforts, how 
we maybe at some point get the payment for fire suppression 
efforts dealt with in a completely different way. But this 
hearing is about what effect on all of that a change from USDA 
to Interior might or might not have, and I would like to just 
get your sense at the end of the day, and again to Mr. 
Simpson's issue of blowing stuff up, if you look at this, you 
blow everything up and you put it back together, how do you do 
it best managed and get us where we want to get in terms of 
sustainability. Do you put it in one area with one person 
overseeing it? Anybody can answer.
    Ms. MacSwords. What state foresters advocate is, there is a 
need to look at the forest not as a natural resource but as a 
strategic national resource, and if you start with that 
premise, that the forests are a strategic national resource, it 
is important to us that there be one central agency that we can 
go to as state foresters looking out for the interest of our 
state owned, our privately owned and our locally owned forests 
so that we can seek and get the help that we need to deal with 
this very valuable resource for all the reasons that you have 
heard in today's testimony. So, start with that premise, not 
who owns the land, not is it BLM land, not is it Forest Service 
land or parkland or whatever but that the forests have value in 
and of themselves and that they all have to be protected and 
conserved and enhanced to provide those services that every 
American needs. Start with that premise.

                  COORDINATION WITHOUT REORGANIZATION

    Ms. Radin. I would like to respond to that by saying that 
we live in a society where the kinds of issues that we are 
talking about cross the traditional structural lines, that the 
old silos we have, whether it is in the Congress or in the 
agencies or in the interest groups do not really describe what 
we--and they are not able to address the kind of issue that you 
are talking about. So to me, then the second issue is, is 
reorganization the only way to do it or are there some other 
alternatives? Now, I think it is interesting that this is an 
appropriations subcommittee. What could this subcommittee do 
using the budget to really create some incentives for agencies 
to start moving in that direction? Can it emphasize the 
collaborative efforts that had been started but seemed to have 
been kind of dissipated over time? You know, you could use 
carrots but you also could use sticks. So, I mean, how could 
you sort of use the budget process as a way to deal with this? 
Because when you start getting into organizational structure, 
you are going to hit all kinds of other jurisdictional areas, 
and, you know, you talked about trying to do a zero-based--
basically that is what you are talking about, you know, knock 
everything down and try to do something from scratch. But, you 
know, you looked at those districts over there. Are they any 
crazier than Congressional districts? I mean, our society has 
figured out ways to play games with these kinds of things and 
there are reasons why they all occur. So, you know, look at the 
authority that you already have and see where you could maybe 
push it further than you have in the past.
    Mr. Dicks. And at least insist on collaboration because 
these are national overriding issues that affect every one of 
these agencies and they should be collaborating, no matter 
which department they are in.
    Ms. Radin. Right.
    Mr. Meadows. Mr. Chairman, can I speak to that too?
    Mr. Dicks. Yes.
    Mr. Meadows. There is a certain appeal to blowing things up 
and starting over.
    But there are unintended consequences that come from that. 
I think the reality that we face is that you do not start over. 
There is a history. And if you were starting anew, as Mike had 
suggested, we would have a different organization, no doubt. 
But we have histories now with four different agencies and lots 
of other agencies that intersect in some ways, and I do not 
think you can lose that just by blowing it up and you end up, I 
fear, and the heart of my testimony was that we would spend 
more time putting it back together than we would focusing on 
the things that really are critical for us to deal with today. 
The two areas that I think came out in terms of importance that 
we all share, I think everyone around the table spoke to this 
in one way or another, is that the natural resources of our 
country need to be protected, maintained and sustained, and 
that is the job of all of these land management agencies and we 
all have responsibility for making that work as well as it can.
    The second part is that there is a service here. There are 
lots of different ways in which your constituents and my 
constituents intersect with these agencies and we want to make 
certain that those are seamless, that those are positive, that 
they are coordinated, they are not in conflict. There are ways 
I think to deal with both the natural resource side and the 
service side of this equation by doing much better 
coordination. The point you just made about the power of the 
budget and the ways in which you can encourage that kind of 
behavior is important.
    Mr. Chandler. Mr. Meadows, let us take the issue of climate 
change. What if you had a Secretary of the Interior who is all 
about that? That person's focus is climate change and how we 
can have our national resources be helped to deal with that in 
whatever way is necessary. And what if you had a Secretary of 
Agriculture who is focused on something else and really is not 
paying any attention to climate change? The Secretary of the 
Interior does not have any authority over the Forest Service 
and the Forest Service for whatever reason may not be moving in 
that direction. I think that is a very real potential problem 
and that is what you get into if you do not have this kind of 
coordination with somebody at the top over all of this in 
charge of the whole thing.
    Mr. Meadows. One thing that is encouraging to me is what is 
happening at the administrative level at least. There was a 
Cabinet meeting this past Thursday on climate policy and the 
sub-Cabinet people, and they are very few right now, but the 
designees in each of the departments, I think they are probably 
20, not quite that many, 16 different departments that are 
coming together to talk about climate policy and how they deal 
with that at the agency or departmental level. And I think that 
is being coordinated above the level--I mean, it is being 
driven above the level of the Cabinet member. It is something 
that it is clear that this Administration wants to address. It 
is putting in place mechanisms for that coordination to take 
place. It is encouraging and it will be encouraging more, I 
think, each of the agencies to do what it can to address 
climate policy that impacts on the lands that are under the 
purview of whichever agency there is.
    I am not certain what you would do when you have a conflict 
between the Secretary of Interior and the Secretary of 
Agriculture except as we all do who manage organizations. At 
some point it goes up the food chain and somebody says this is 
what I expect to have happen, and that is what I think we 
expect right now in this particular Administration.
    Mr. Dicks. Mr. Calvert.

                          FOCUSING ON OUTCOMES

    Mr. Calvert. Thank you, Mr. Chairman. I think I kind of go 
along with Mr. Dombeck and his idea about blending these 
agencies together over time and aligning the interests versus 
blowing it up at the present time. Consolidation, being an old 
manager myself, is a great terminology but if consolidation in 
itself worked all the time, we would not be worried about 
Citibank right now or Bank of America, and they certainly 
blended together interests that were supposedly in their own 
self-interest. I think from a managerial point of view, we have 
to look at, does this improve the outcome, whatever your point 
of view may be, whether it is environmental outcome, harvesting 
trees or managing grazing land, or does it lower cost. It does 
not seem to me that we have made any determination here that 
this ultimately would lower the cost. Ultimately we must ask do 
you lose focus of your basic functions when you change your 
focus from what your function has been to this new structure 
which you are resisting. So doing this incrementally may be 
quite frankly a more positive outcome rather than trying to 
change it all at once.
    We are a crisis-oriented Congress here. When we have a 
crisis, we consolidate things like Homeland Security, and 
sometimes the outcome is not very good because we lose focus of 
what each department was supposed to do. So I just wanted to 
make that comment, and all of you can make a comment about 
that, but it seems to me, I think you have made the case that 
the Forest Service is not broken, the Department of Interior is 
not broken, that they do a reasonably good job. You know, they 
can always do better but they ought to coordinate, they ought 
to align their functions, have certainty that people who manage 
those agencies have some similarities in how they do 
contracting and the rest so people who do business with those 
agencies have an understanding of where they are going to be 
when they enter into those kinds of contracts and so forth. Is 
there any comment on that? That was just my point.
    Mr. Dombeck. I would like to comment on that, and again, I 
am not an organization expert. This is basically my ideas based 
on observations and the years I have spent in the agencies and 
dealing with all the issues. Number one, a lot of progress can 
be made, I think, by this subcommittee pushing others, the 
dialog you have with your colleagues, the Administration, and I 
want to give you a couple examples. How long does it take to do 
a forest plan? Three to five years, if it is in a non-
controversial area, which is fairly rare. The Northwest Forest 
Plan was done in 11 months and it involved four agencies and 24 
million acres of land and it was a result of kind of a blow-up, 
the spotted owl issue and that debacle of the court decision 
that halted timber harvests in the old growth forests of 
Oregon, Washington and northern California. The reason that 
happened is, the President said do it. And the same thing was 
true in another area I was involved in in the development of 
the roadless policy. Once the White House and the President 
said do it, I mean, think about the Northwest Forest Plan. You 
had a President, a Vice President and, what, about four or five 
Cabinet members and a bunch of agency heads all having a 
meeting in Portland saying do it, and it happened. If the 
agencies without that kind of push, it would take decades to 
accomplish that without those kinds of thrusts can be made.
    Another example is the Interior Columbia Basin. Now, a lot 
of good came out of that effort but it did not go all the way 
and it did not go all the way because it was a big bite and too 
much, too fast. We were euphoric after the result of the 
Northwest Forest Plan and said well, this worked, we will do 
the whole Columbia Basin. But the positive thing about the 
Columbia Basin--and a lot of good things came out of the 
Columbia Basin effort and the Northwest Forest Plan. Did 
everything work? No, but the thing that we have on the Columbia 
Basin is, we probably have the best scientific information on 
that basin than probably almost anyplace else. That is used for 
a lot of things including, you know, what we are learning about 
climate change and salmon issues and soil and old growth and 
regeneration of forests and on and on. Unfortunately, that does 
not get talked about nearly enough, so I would just very much 
encourage this subcommittee to push that, and I think you would 
be surprised in four years how much could happen.
    Ms. Radin. There also may be some experience in very 
different kinds of agencies that you could draw on. One of the 
things that I think is really fascinating is what the 
Goldwater-Nichols legislation did in the Department of Defense 
because it did not try to totally eliminate the services, it 
said that they would build in to the promotion and the reward 
systems in the Department of Defense experience in joint 
commands, so that is another way of looking horizontally, and 
building that into some of the promotional criteria, the SES 
criteria inside of Interior and Agriculture. I mean, those are 
not real fancy and they are not very sexy but they really start 
building those kinds of relationships.
    Mr. Dicks. And you can start right at the top. You can have 
somebody from the BLM working at the Forest Service, have an 
exchange of Forest Service people at the BLM. And you have all 
the other land agencies that need to work together too.
    Ms. MacSwords. One of the things that NASF did with the 
Obama Administration was to ask that the Administration look at 
all of the areas in the federal government where forestry plays 
a role or is part of a mission, and to look for those areas to 
streamline, maybe not necessarily reorganize but to push the 
very types of cooperation among agencies that need to be done 
to protect this national resource.
    Mr. Dicks. Mr. Olver.

                      SERVICES AND INFRASTRUCTURE

    Mr. Olver. Thank you, Mr. Chairman. I was struggling here 
to try to think what I could make of this. I am not sure 
whether the panel had the benefit of this chart. Did you all 
see this chart that was provided by staff for the members of 
the committee? I have been looking at this chart, and I have 
the feeling--the green line is the USDA Forest Service measures 
and the second column is the total of the three Interior land 
management agencies, the Parks Service, Fish and Wildlife 
Service and the BLM. I have a feeling that I wish I were 
looking at the National Parks Service and the Fish and Wildlife 
Service as a pair versus the BLM as a single part of our 
agencies under Interior down the line. Well, you now have the 
chart. For the others who probably do not, it gives a number of 
units, the acres in total, the acres outside Alaska, the number 
of structures, facilities, roads and bridges, housing, dams, 
campsites and so forth. I am quite surprised to find that under 
the USDA Forest Service, which I thought was dealing largely 
with the national forests and the acreage of national forests 
that there are so many structures, virtually the same number of 
structures as in those other three agencies, and I am surprised 
by the number of housing units and the miles of trail which is 
enormously greater in the forests and campsites, which are 
virtually identical to the parks. My sense has always been that 
the Parks Service and to a lesser degree the Fish and Wildlife 
Service was covering more of the recreational aspect, but the 
trails and campsites suggest to me a huge amount of 
recreational purposes within the national forests. I have 
backpacked many miles of both parks and national forests so I 
should not be that surprised by it.
    But with that said, I think the BLM would look a lot more 
like the Forest Service in many of these measures than it does 
by combining those three groups. Mr. Simpson raised the 
question, well, why not maybe merge those two. That would cause 
a war too of course. Then I look at this. It seems to me that 
we have seen the business of silos dealt with in higher 
education where when I came through 50 years ago, there was a 
physics department, a chemistry department, a biology 
department and now we have so many cross currents of those 
interdisciplinary purposes and centers for one thing or another 
where there is so much cooperation and people find that they 
have very complementary interests, I guess supplementary and 
complementary interests, and they have settled in and made 
great advances here. So one maybe should not do this in a very 
complicated way by blowing things up or thinking that there is 
only one sort of solution that can deal with the matter.
    I was jotting down some of the purposes that we have and I 
think forest health and forest products as a part of an economy 
and species diversity, those things relate to climate change 
and such and those occur, should be occurring across all BLM 
lands, all Forest Service lands, actually both private and 
public, not just thinking about public land, and that those are 
really holistic sorts of things. The fire suppression thing 
looks to me like the purpose that is odd man out in a sense. We 
do a huge amount of fire suppression in this committee, spent a 
huge amount, which is on USDA Forest Service land.
    Mr. Dicks. And BLM.
    Mr. Olver. And BLM land, and I have no sense from the chart 
as to how many acres of grazing land there are in what are 
managed forests or nominally forestland versus how many acres 
of forest there are in BLM land, which would go to the point 
that Mr. Dombeck had made rather early on in the process, that 
maybe there was a shift that could be made although I am not 
sure whether you were just suggesting that 20 million acres of 
forested BLM land should go to Forest Service, and there was 
not any grazing land in what are the national forests. Is that 
the case? Was it a shift that you were suggesting was proposed, 
you would propose or somebody had proposed of 20 million acres 
or so of land?
    Mr. Dombeck. As I recall, the shift that was proposed was 
24 million acres, and----
    Mr. Olver. But was it solely in one direction, some forest 
land from BLM, which was basically forested BLM land, into the 
Forest Service?
    Mr. Dombeck. It was both directions.
    Mr. Olver. Both directions.
    Mr. Dicks. It was grazing.
    Mr. Dombeck. Predominant grazing lands going to BLM, but 
keeping in mind that, you know, in nature there are no hard 
lines.
    Mr. Olver. Of course. That is why the holistic approach 
makes a certain amount of sense. But fire suppression is 
costing one hell of a lot of money. We supposedly get some 
money out of the grazing land and maybe do it well and 
sometimes it may be overgrazed and so on. So that has 
implications for species diversity and those other important 
things. So I am confused. I am just trying to late out some 
issues here and see whether anything sticks on the wall to any 
of you from what I have said.
    Ms. Radin. Could I just note that this data came from two 
completely different reports? One was from Department of 
Interior, which was doing their performance and accountability 
report, which is their GPRA requirements and so on, and the 
other is the Forest Service's budget justification is--I mean, 
so it is an apples and oranges----
    Mr. Olver. Thank you of noting that, because that probably 
means we are simply not----
    Ms. Radin. That is not a good comparison.
    Mr. Olver. Okay. That helps.
    Mr. Dicks. But no matter what year you took, those numbers 
are still the same, right?
    Ms. Radin. But you have three agencies versus one.
    Mr. Dombeck. I do think though that this paints an 
important picture of the outcomes of what you fund from this 
subcommittee for these specific purposes and to look at the 
trails and the campsites and miles of roads, things like that.

                      DISCREPANCY IN ROADS FUNDING

    Mr. Dicks. Well, Mr. Olver is chairman of the 
Transportation Subcommittee, and I hope you will note highway 
trust funding for the Forest Service is zero, and $254 million 
for the Interior agencies. For the Forest Service, this is a 
serious problem. It is not in your committee's jurisdiction, 
but I am talking to Mr. Oberstar about this. And then look at 
the roads. We have a huge number of roads. What is this, four 
times as many roads as does those three Interior agencies and 
yet we are not getting anything under SAFETLU. Go ahead.
    Mr. Dombeck. I would like to comment on that specific 
topic, and there is a statement in my testimony about it, and I 
sort of tongue in cheek referred to the need to modernize 
business practices, and in a sense the business model of the 
Forest Service. Parts of it are still suffering from the big 
timber era hangover, that somehow we are thinking that the fire 
funds are going to come out of the Knutson-Vandenberg Act funds 
which worked fine when we were harvesting 10, 12 billion board-
feet of timber every year but we are not doing that today, and 
the road maintenance money largely came from those efforts as 
well. So in a sense you have the interests that would like to 
go back to that era, and to them this might be a hammer to get 
back there, but the bottom line is, you cannot go back. We are 
where we are today, and to try to assume that we are going to 
fund some of these major programs on the back of timber 
receipts like happened in the 1970s and 1980s, it is not there. 
We have got to move on and we just have not faced some of those 
things yet.
    Mr. Olver. Maybe on the roads, you have the roads that are 
there for recreational purposes in the Interior agencies, at 
least Parks Service and Fish and Wildlife. I do not know how 
much of that 254, if you were parsing that out, but among the 
three agencies you would find quite a different amount being 
expended in the Parks Service, Fish and Wildlife versus BLM, I 
think. Again, that would show quite a contrast whereas the 
roads, I think you have made the point, the roads that are 
being done are being paid for in large measure out of the 
economic products.
    Mr. Dicks. They were. That is not now the situation. It has 
been under 2 billion board-feet, right?
    Mr. Dombeck. I think so.
    Mr. Olver. But it was always intended that that was the way 
it would happen, was it not?
    Mr. Dombeck. That is the way the system was designed and 
evolved.
    Mr. Olver. So it is a very different kind of a purpose that 
is involved, a very different function that is being served if 
one splits the agencies on our side a bit more differently.
    Mr. Dombeck. I think it is key, and of course, Mr. Dicks 
and I talked about this a long time ago, about the need for 
highway trust fund dollars to take care of some of these roads 
on national forests that are largely recreation based.
    Mr. Dicks. And there is much maintenance.
    Mr. Cole.
    Mr. Cole. I do not know if we solved the issue but we 
certainly established that Mr. Simpson and Mr. Chandler are 
dangerous radicals and ought to be under some sort of 
surveillance.
    Mr. Dicks. I did not insinuate that.
    Mr. Cole. No, I think they self-indicted.
    Mr. Olver. I was just handed this, and I thank the staff 
for being able to find this so quickly, that of those $254 
million in highway trust funding, that National Parks Service 
is 234, Fish and Wildlife Service is $20 million and BLM is 
zero. And some of the recreation is certainly on BLM lands and 
I backpacked on those as well.
    Mr. Dicks. Yes, very unfair.
    Mr. Cole still has the time.

                         REORGANIZATION MISHAPS

    Mr. Cole. Thank you very much. I do have an observation 
that is really based on personal experience and a question to 
pose to all of you. It is why I do approach these kind of 
things that look good on paper with some trepidation. When I 
was a state official during the 1990s, I had occasion to work 
with FEMA during the Oklahoma City bombing during a lot of 
tornadoes and during a wildfire outbreak and they did a 
terrific job every time. Very different kinds of crises, did a 
wonderful job. Since I have been in Congress and they have 
become part of Homeland Security, I have had the opportunity to 
work with them and it has been much less satisfactory, and I 
have a lot of friends over there and when you talk to them why, 
they are really pretty analytical about it and they will tell 
you look, Homeland Security's mission is just that, it is 
homeland security, and the people at the very top are worried 
about a terrorist attack every single day. You know, we are 
always going to have more tornadoes, floods, you know, natural 
disasters than we are going to have a terrorist incident but 
literally a lot of the decision making was migrating either out 
of the FEMA director's office or more importantly out of the 
agents in the field who were almost like generals on the 
battlefield. They could be up into a bureaucratic chain where 
people were thinking about a whole series of different 
problems. It really gets back to some of Dr. Radin's excellent 
points.
    And so I guess what I would ask you, no matter how good 
this looks on an organizational chart, you know, to use the two 
classic conservative dictums, you know, the perfect is the 
enemy of the good, and if it ain't broke, don't fix it. How is 
it working? I mean, it sounds to me just from the testimony and 
what I read that basically yeah, it could be tweaked better, we 
could have better communication but basically the Forest 
Service is doing a pretty good job of what it is supposed to be 
doing. Maybe we will do a better job now with a different 
focus. Interior is doing a pretty good job there is some 
economies to be had here but the dangers of just uprooting one 
and sort of making everything homogenous and uniform for the 
sake of a organizational chart seems to me to have real risk to 
it if both these agencies within the larger departments are 
actually doing a pretty good job of what they are supposed to 
do. So are they, and if they are, is the kind of change we are 
talking about really worth it? Is the risk greater than the 
potential gain?
    Mr. Meadows. Let me address that in part. I think the 
observation is correct. I think by and large the agencies take 
their mission seriously and they implement them well. In my own 
personal experience, I could do a rank order of how well each 
of those four do their work but I think there are many 
employees and many agency leaders who give their heart and soul 
to the mission and I think accomplish it. I think all four of 
the agencies in one way or another are resource constrained 
though. I think the intent is better than the performance and 
the performance I think suffers because there really are two--
the Fish and Wildlife Service, for example, has had huge staff 
cuts over the last several years and it has impact on the way 
you staff a refuge. There are many, many refuges now that have 
no staff at all and that damages community relations, it 
damages wildlife protection, it damages the natural resource 
values you are trying to protect. So this is an appropriations 
subcommittee and it is one that I think should look at what 
does it take for each of these agencies to accomplish the 
mission that it has.
    Mr. Cole. I agree, it is way beyond our purview in this 
sense of our topic today but all this stuff--I could go through 
a whole list of agencies that do not have the wherewithal what 
they need. It gets you back to entitlement reform and a lot of 
really big questions of where the real money is at because 
these things are not that expensive in the great scope of 
things for government, but entitlements are, and we are going 
to be constrained in a whole lot of areas until you get to what 
I guess the President likes to call the grand bargain someplace 
down the road and no President pulled that off so far, but that 
is where your money problems begin, I think.

                       FUNDS FOR FIRE SUPPRESSION

    Ms. MacSwords. Mr. Cole, to speak to your issue of whether 
they are doing a pretty good job, the Forest Service will 
always struggle until the fire funding problem is solved. Once 
you can get a handle on fire funding so that they do not have 
to rob from their other programs, so that they do not have to 
pick one child over the other, you know, which child gets 
shoes----
    Mr. Dicks. So you do not get the money from FEMA. The money 
comes right out of roads, trails----
    Ms. MacSwords. State and private.
    Mr. Dicks. State and private, and they take that money and 
they may not get it back.
    Mr. Cole. Speaking as a guy who lost a visitors center in a 
national park during a fire suppression season and got put all 
the way back to the end of the line, even in Interior that is a 
problem because they may be able to get the money across all 
agencies but it disrupts a whole lot of things. But again, I do 
not disagree with you but you are telling me this is a resource 
problem, not a structural problem that we spent a lot of time 
here talking about, you know, whether it would be better here 
or there but really that is not the issue, the issue is money, 
and it does a pretty good job, you just need to get it more 
money. And I am pushing you beyond your testimony because----
    Ms. MacSwords. Yes, because they are still my partner and I 
have got to go to the Forest Service this afternoon, so I just 
do not want to say anything that would make them lock the doors 
and not let me in. The issue for state foresters will always be 
that is all forest, is it landscape management, it is looking 
at the resource holistically, and Congress has always insisted 
for money that goes to state private forest interests, states 
always have to work cooperatively with other partners. We have 
to work with Fish and Wildlife, we have to work with the Forest 
Service. We work with the universities. We are told to do that: 
to get federal money, work together. So we know how to do that. 
If you can get that sense of making the Forest Service and BLM 
and the Interior agencies, if you tell them you have to work 
together, then that will improve everybody's opportunities.
    Mr. Cole. But you are pretty happy with the structure now? 
Am I drawing that conclusion?
    Ms. MacSwords. We are happy in the sense that we know we 
can go to the Forest Service for the technical expertise that 
we need to deal with our forestry issues. We are increasing our 
partnership with other USDA agencies. We are working to 
increase our partnerships with some Interior agencies because 
we are all about partners. But we want that one centralized 
agency responsible for the forests.
    Mr. Dombeck. I also think the agencies are full of very 
good, dedicated people that really are doing an excellent job 
and want to do an excellent job. I do think the fire issue in 
the Forest Service stands out. I agree with my colleague state 
forester that that is an issue that can be fixed. I hope you 
can do that. I hope you can do it fast. So that said, I also 
think that organizations need to be pushed to maintain their 
edge, to look ahead. Bureaucracies do not change just sort of 
inherently. The push either has to come from within, from 
without, from someplace, just as with private sector 
organizations, to increase efficiency so you can get a lot of 
efficiencies and I think boost the morale of a lot of employees 
that want some of this change to come about. The roads funding 
issue is another one I think that there is a fix for that can 
make a tremendous difference, and just keep on pushing them to 
move forward.
    Mr. Dicks. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. I just have a 
procedural question before I ask questions of the panel. If I 
come on time, will I get out of this doghouse?
    Mr. Dicks. If you are on time, you are in line first.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Dicks. I believe in seniority, and we are going to go 
by seniority, but when somebody gets there on time when the 
committee starts, we are going to recognize them first on both 
sides and try to be fair.
    Mr. LaTourette. I am all about the rules and I appreciate 
that. I just wanted to ask the question so I am clear.
    Mr. Dicks. You are not in the doghouse, and we understand 
you have other important responsibilities.
    Mr. LaTourette. Thank you so much.
    Mr. Dicks. I always liked it when you were the chairman of 
the committee as a whole, so you always did a good job.
    Mr. LaTourette. Well, thank you very much. I was also 
pleased to learn as a long-term authorizer that the 
Appropriations Committee never authorizes on appropriations 
bills, and I learned that this morning, so thank you.
    Mr. Dicks. Unless we have to.
    Mr. LaTourette. Two quick things, and then I want to ask 
you about the purpose of the hearing, but I think from the 
testimony, two of the big issues are the matter of simple 
fixes, and one is that whoever the committee of appropriate 
jurisdiction is, if the fire suppression activities of the 
Forest Service are given the same authorities of BLM to access 
unobligated funds within their agency and/or to be reimbursed 
by FEMA--this discussion reminds me a little bit of when we go 
visit our school districts and they say by the way, we would 
love to have a robust science department but the Individuals 
with Disabilities Education Act is causing a shift of our 
resources and as a result we cannot do all of the things that 
we need to do and you cannot budget for it and you cannot plan 
for it. It seems to me, Mr. Chairman, if we could just either 
tweak or go to the people that have the authority and give the 
Forest Service the same ability as BLM to access those or talk 
to our friends at Homeland Security and say that if you have a 
big fire in California, it does not come out of the O&M account 
of the Forest Service, they get reimbursed for those fire 
suppression activities.
    And on the roads, you know, the six-year highway bill is up 
this year, and I do not know what it is going to be called, but 
if you also made the contract authority that is available to 
the three Interior organizations available to the Forest 
Service, you would solve that problem too and then it is just a 
matter of how much goes into that account, but it is not 
unusual. The Appalachian Regional Commission, for instance, 
gets a certain chunk of money out of the trust fund every year, 
and just put the Forest Service into the trust fund and figure 
out how we are going to----
    Mr. Dicks. How do we expand the trust fund?

                        A CASE FOR CONSOLIDATION

    Mr. LaTourette. Well, we appointed a blue ribbon panel and 
we are working on that part.
    But the question is, and it came about I think from Ms. 
MacSwords, that this land is land. I visited a plant last week 
when we were off in my area that makes risers and laterals for 
people in the natural gas business. They were just bought by a 
Swedish company, and what they did was, they changed the sign, 
and they are still making risers and laterals for gas and the 
same people still work there, and it has not really seemed to 
be a huge disruption of their lives. As I look at your maps, I 
understand that there are different things that go on in 
forests and go on in prairies and so forth but land is land, 
and if our overarching concern, Mr. Meadows, is climate change, 
then the stewardship of all lands, I think, would be critical 
to that. I am not embarrassed, but we do not seem to have a lot 
of Park Service stuff in Ohio. We do have a lot of privately 
owned forest. Well, listen, we have a lot of trees. But how 
that is managed, you know, how our wetlands are managed, which 
really feed our aquifers and cleanse the air and do a whole lot 
of things, to me, what is wrong with having an agency within 
the government that--we are always appointing czars around 
here. Why do we not have a land czar and what is so hard about 
getting the forest people to be an agency in the land 
department and the meadow people and the wetlands people? I 
mean, why can we not do that? In your last observations, 
Doctor, you mentioned that private folks do it all the time, 
and that is one of the criticisms of the government, that we 
are not as flexible as some people in the private sector. So 
why can we just not change the sign, get them new uniforms and 
have the same people work there and streamline some of their 
operations?
    Mr. Dombeck. Well, I think if we were starting from 
scratch, that we would certainly do that. If we were in utopia, 
that would certainly be something to really move on. The 
reality is that we are not and we are where we are based upon 
this history, but I think that we certainly ought to strive for 
that goal and function.
    Mr. LaTourette. I have a great deal of respect for your 
body of work, but I have to say, that is the criticism of what 
we do here. I know it is not utopia but we are going to hurt 
somebody's feelings? A ranger is going to go up and hide in a 
tree and not behave himself? I mean, why can we not change the 
sign, give them new uniforms, have the same people work there, 
have the same budget authority and have them do the same work 
but recognizing, you know, that when the camelback cricket 
crawls out of the forest and he goes into the meadow, we do not 
need the BLM guys to take care of that problem. You are all 
preaching the holistic approach except it appears that nobody 
wants to change because of history. Just to give you a longer 
example, I have a bank in my town, National City Bank, founded 
in 1863. It has just been gobbled up by a Pittsburgh bank, 
which is a horrible crime if you are from Cleveland, but what 
have they done? They have changed the sign on the door, the 
same people are there, they still greet you in the lobby, they 
still give loans if they have any money and they still bother 
you when you do not pay. So I guess my question is why. I do 
not think you have to be in utopia to have an agency that takes 
care of land. I mean, if we are really concerned about climate 
change, we should not have all these little bailiwicks and say 
well, you know, why do we do it this way; well, because we have 
always done it this way. I know it is not going to happen but--
--
    Mr. Dicks. But it is interesting to think about.

                           CONCLUDING REMARKS

    Mr. Simpson. Mr. Chairman, before we close this hearing I 
need to defend myself a little bit in that I----
    Mr. Dicks. If you want to correct the record, you are 
welcome to.
    Mr. Simpson. I do not want the FBI to come to my door.
    Mr. Dicks. Chandler too.
    Mr. Simpson. But when is say blow it up, you missed the key 
point there. I said theoretically blow it up. I like to blow it 
up on paper, and I will tell you how I came to this conclusion 
is that when I sat on the Labor Health and Human Services 
Committee, every year the department would come in, the 
Secretary of Health and Human Services would come in, they 
would have Band-Aids to try to fix the healthcare system and 
what we were paying out in Medicare. I never knew if this was 
moving us toward a better system or a worse system. All I knew 
was, it was a Band-Aid that would last for a year. And what I 
would like is--and when I say blow it up, is to create, you 
know, in your mind a theoretical in an ideal world, the utopia 
that you talked about, what would it look like and I would know 
if changes we were making to the system moved us closer to this 
or further away from it. That is the only reason I want it 
blown up. I realizes we are never going to say, hey, let us 
wipe out what we currently have and go there but we have to 
have some direction, which means we have to have an ideal out 
there, and that is why I say blow it up. Maybe that is not the 
best term.
    Mr. LaTourette. Will the gentleman yield to me for just a 
second? Just so you can completely get out of trouble today, 
the elk that you and Dr. Dombeck got from Frank Church, is that 
a pet store? These are pets?
    Mr. Simpson. You have to come to Idaho, do you not?
    Mr. Dombeck. Actually I do think that would be a valuable 
exercise. My understanding, that was the goal of the public 
land law review commission and to focus on the big picture, 
which I think Bill implied also in discussion of the missions 
and how do we link them to the future versus struggle with all 
this history would be a very good exercise. You know, for 
example, a lot of the culture and the business model in the 
agencies is still tied to the production of commodities where 
we have emptied that piggybank and they have to sell something 
to reinvest. Well, you know, the old growth is cut. The easy 
stuff is gone and it is going to be gone for a long time.
    Mr. Simpson. Let me suggest one other thing before the 
chairman closes then, when we talk about the fire costs. The 
way they do it in Idaho is that every year the fire costs come 
in, they expend whatever is necessary to fight the fires and 
every year when the legislature meets it knows that it is going 
to have an emergency supplemental levy to pay for whatever the 
fire costs were. It does not hurt the rest of the public land 
agencies or anything else. They fight them with deficiency 
warrants every year. And if we can do something like that, 
because I think we have to quit using--you know, we go out to 
these communities where they reduced the fire hazards around 
them and stuff and they do all this planning and all this kind 
of stuff and the funds are never there because they have used 
them to fight fires. And so consequently local communities say 
to heck with you, we are not going to spend our time doing it.
    Mr. Dicks. All right. We want to make sure that Leah 
MacSwords gets down to the Forest Service. I will just say 
this. I think this hearing today gave us a discussion of a lot 
of the issues that we are faced with and a better understanding 
of the issues that face the Interior Department and the 
Agriculture Department through the Forest Service. So even if 
we cannot inspire the authorizers, we can at least have 
knowledge for all of our members about these kinds of issues, 
sustainability, climate change. The whole thing is very 
important and we have to do better and we have to figure out 
how to do better.
    Thank you. We are adjourned to next Tuesday.

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                         Wednesday, March 11, 2009.

                        FOREST SERVICE OVERSIGHT

                               WITNESSES

ROBIN M. NAZZARO, DIRECTOR, NATURAL RESOURCES AND ENVIRONMENT, GAO
PHYLLIS K. FONG, INSPECTOR GENERAL, DEPARTMENT OF AGRICULTURE

                            Opening Remarks

    Mr. Dicks. I want to welcome our panel of witnesses this 
morning from the Government Accountability Office and the 
Department of Agriculture's Office of Inspector General. Our 
first witness will be Ms. Robin Nazzaro, Director of the 
Natural Resources, Environment Division of the GAO. She will be 
followed by Ms. Phyllis Fong, the IG at USDA. We appreciate 
both witnesses appearing here today.
    I have asked the GAO and the IG's Office here today to 
discuss areas of concern and material weaknesses in programs 
within the Forest Service. The Forest Service has been the 
subject of a lot of controversy in recent years regarding its 
various management problems, and especially for its huge and 
important Wildfire Program.
    The Forest Service has a very broad mission. Therefore, 
there is tremendous push and pull from many competing interests 
with opposing viewpoints.
    Nevertheless, the hearing today affords us an opportunity 
to be aware of various management issues before we get started 
on the fiscal year 2010 budget activities.
    I also want to point out that this subcommittee will be 
holding another hearing on April 1, focusing specifically on 
funding options for wildfire suppression. That hearing will 
cover suppression reserve accounts as proposed by President 
Obama's Administration and the Flame Fund as proposed by Mr. 
Rahall, Mr. Grijalva, Mr. Simpson, myself, and others. Both GAO 
and the Inspector General have issued many reports on the 
Forest Service in recent years. I would like the GAO and the IG 
to summarize the findings of these studies and identify the 
most important issues which this subcommittee should be aware 
of as it carries out its oversight of these programs.
    We may discuss individual reports, but I am especially 
interested in various trends and why certain management 
problems seem to be persistent over many years. But where there 
is good news we should also discuss that. We should also look 
at how past experience may suggest areas of concern in the 
future.
    The Forest Service land managers, researchers, and state 
assistance providers will need new approaches to deal with 
climate change. In addition, we should ask how this past 
experience may inform our oversight of the Forest Service role 
in the Economic Recovery Package recently passed.
    As we begin the hearing, I want to remind members that the 
format of this session is somewhat different from a regular 
hearing. We have allocated approximately 15 minutes for opening 
statements by each witness because I believe it is important 
that members hear about the broad range of issues which the 
testimony raises. We will first hear from GAO and then from the 
Inspector General, and then we will begin member questions.
    Mr. Dicks. Mr. Simpson, I yield to you for your opening 
remarks.
    Mr. Simpson. Mr. Chairman, thank you once again for 
scheduling today's oversight hearing relating to the US Forest 
Service. I want to commend you because every Chairman likes to 
be commended by his Ranking Member.
    Mr. Dicks. Very frequently, too.
    Mr. Simpson. But also because oversight is one of the key 
functions of our committee. As I mentioned during last week's 
Department of Interior Oversight Hearing, the Appropriation 
Committee's focus is so often tied to how much is being spent 
rather than how we spend what we appropriate. We tend to 
overlook our oversight role.
    One of my biggest concerns with the Forest Service is the 
impact that fire suppression costs are having on other program 
areas within the agency. With nearly one-half of its budget now 
committed to fire-related costs, the Forest Service has been 
forced to transfer money from various program areas year after 
year just to pay for fire suppression. Some years this funding 
is repaid. Some years it is not. Last year $400 million was 
transferred from a variety of program accounts to cover fire 
costs.
    Fortunately, these funds were paid back because of the work 
of this subcommittee and the passage of the Emergency 
Supplemental Funding Bill. My feeling is that there has got to 
be a better way.
    I am hoping that your testimony and your subsequent back 
and forth conversations will shed some light on how to better 
address this and other issues that demand our attention. I also 
look forward to your perspective on how best to provide a 
central oversight of the Forest Service funding contained in 
the recently-signed Stimulus Package. The role of both the GAO 
and the Forest Service Office of Inspector General are critical 
to our work, and I look forward to today's testimony.
    Thank you, Mr. Chairman.
    Mr. Dicks. All right. Robin, why don't you start?

                    Statement of Robin Nazzaro, GAO

    Ms. Nazzaro. Thank you, Mr. Chairman. Good morning. And 
members of the subcommittee. I am pleased to be here today to 
discuss the management challenges facing the Forest Service.
    As a steward of over 190 million acres of land encompassing 
155 national forests and 20 national grasslands, the Forest 
Service within the Department of Agriculture is responsible for 
a wide array of programs to ensure access to and use of natural 
resources within its lands, while also ensuring adequate 
protection of those lands. Carrying out these often-competing 
responsibilities has presented a daunting challenge to the 
agency, exacerbated by the increasing costs of wildland fires 
and budgetary constraints necessitated by our Nation's long-
term fiscal outlook.
    Over the past decade we and others have identified numerous 
management challenges facing the Forest Service and made many 
recommendations to improve the agency and its programs. While 
the agency has improved in some areas, progress has been 
lacking in other key areas, and management challenges remain.
    My testimony today focuses on the findings from a number of 
our reports issued over the past several years. Specifically, I 
will discuss management challenges in three key areas: wildland 
fire management, data on program activities and costs, and 
financial and performance accountability.
    I will also discuss a number of emerging issues facing the 
agency, which increase the importance of addressing these 
management challenges.
    Perhaps the most daunting challenge facing the Forest 
Service is the dramatic worsening of our Nation's wildland fire 
program over the past decade. The agency's annual acreage 
burned has increased by about 70 percent, while the agency's 
related appropriations have more than doubled and represent a 
much more significant percentage of its appropriations.
    We have focused on four steps we believe the agency needs 
to take to better understand the extent of and address this 
challenge. Specifically, the Forest Service needs to first 
develop a cohesive strategy that lays out various potential 
approaches for addressing wildland fire, the estimated cost 
associated with each approach, and the tradeoffs involved. This 
past January agency officials told us they were working to 
create such a strategy, although they have no estimate of when 
it would be completed.
    Second, establish clear goals and a strategy to help 
contain wildland fire costs. While Forest Service officials 
identified several documents they argue make up the agency's 
strategy to contain costs, we believe these documents lack the 
clarity and specificity needed by officials in the field to 
help manage and contain wildland fire costs.
    Third, continue to improve its processes for allocating 
fuel reduction funds and selecting projects. The agency has 
taken steps to improve its process for allocating fuel 
reduction funds, to improve the information it uses in 
allocating those funds and selection projects, and to clarify 
the relative importance of the various factors it considers 
when making allocation decisions. We believe the Forest Service 
must continue these efforts.
    Fourth, take steps to improve its use of a new inter-agency 
budget and planning tool known as Fire Program Analysis or FPA. 
FPA was intended to allow the agencies to analyze potential 
combinations of firefighting assets to determine the most cost-
effective mix of assets and strategies. However, as developed, 
it cannot identify the most cost-effective mix and location of 
assets for a given budget and has only limited ability to 
project the effects over time of different approaches to fuel 
reduction and fire suppression.
    The second challenge area is the lack of complete and 
accurate data on activities and costs. Without such data the 
agency has difficulty recognizing and setting priorities for 
needed work, tracking activities, and understanding the true 
costs of its operations.
    For example, the agency lacks sufficient reliability to 
accurately quantify its specific needs, establish priorities 
among treatments, or estimate a budget in its program for 
reforestation and treatments to improve timber stands. A year 
later we reported on a similar shortfall in the agency's 
program for rehabilitating and restoring lands unlikely to 
recover after their own fires, noting that the agency lacked 
nationwide data on the amount of needed rehabilitation and 
restoration work it had completed for recent fires.
    And in 2008, we reported that the agency did not maintain 
complete nationwide data on its use of stewardship contracting 
authority. Data such as the value of products sold and service 
procured through agreements rather than contracts were not 
systematically collected or were incomplete.
    In addition, the Forest Service lacks complete data on the 
costs of activities. For example, although Congress had limited 
the funds the Forest Service could spend on competitive 
sourcing activities, the agency lacks sufficiently complete and 
reliable data to determine whether it had exceeded the 
Congressional spending limitations.
    The last challenge area is the ability to provide adequate 
financial and performance accountability. Regarding financial 
accountability, the agency has had shortcomings in its internal 
controls and has had difficulty generating accurate financial 
information. For example, in a 2008 report we cited internal 
control weaknesses in the case of a Forest Service employee who 
had embezzled almost $650,000 from the Forest Service's 
National Fire Suppression Budget.
    Regarding performance, the agency has not always been able 
to provide Congress and the public with an understanding of 
what its 30,000 employees accomplish with the approximately $5 
billion the agency receives each year. Again, our concerns in 
this area date back over a decade. In 2003, we reported that 
the agency had made little progress in its ability to link 
planning, budgeting, and results reporting and was years away 
from implementing a credible performance accountability system. 
In 2007, we surveyed federal managers on their use of 
performance information in management decision making. The 
Forest Service scored lowest of 29 federal agencies.
    We also asked federal managers about their views on their 
leadership's commitment to using performance information to 
guide decision making. Only 21 percent of the Forest Service 
managers we surveyed agreed that their leadership demonstrated 
such a commitment to a great or very great extent compared with 
50 percent of their federal counterparts.
    Several emerging issues are likely to have profound 
implications for the agency, complicating its management 
responsibilities and underscoring the importance of addressing 
the management challenges I have highlighted. The evolving 
effects of climate change and increasing development in and 
near wildlands are likely to lead to increased fire activity 
and habitat change. Retiring federal workers threaten to leave 
critical gaps in leadership and institutional knowledge, and 
effective and efficient spending will be critical with 
potentially static or even shrinking budgets.
    In conclusion, Mr. Chairman, the Forest Service's mission 
is without doubt a difficult one, managing millions of acres of 
diverse lands for often-competing purposes, while ensuring that 
the current uses do not impair long-term productivity. 
Nevertheless, the repetitive and persistent nature of the 
shortcomings that we identified points to the Forest Service's 
failure to fully resolve, perhaps even fully grasp, its 
problems. Absent better data, better internal controls and 
accountability, and a more strategic approach to wildland fire, 
the agency cannot hope to improve upon its performance and may 
ultimately be unable to respond effectively to the new 
challenges it faces.
    If on the other hand the Forest Service is to face these 
challenges head on, it will require a sustained commitment by 
agency leadership to identifying and resolving the agency's 
long-standing problems.
    This concludes my prepared statement. I would be pleased to 
answer any questions you or members of the subcommittee may 
have.
    [The statement of Robin M. Nazzaro follows:]

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Dicks. Phyllis, why don't you go ahead and provide your 
statement.

                     Statement of Phyllis Fong, OIG

    Ms. Fong. Thank you, Mr. Chairman, Mr. Simpson, and members 
of the subcommittee. We appreciate the opportunity to come up 
here and talk to you a little bit about the work that we have 
done vis-a-vis the Forest Service and its programs. I know you 
have my full statement, so I will limit my comments to a brief 
summary of the key work that we have done on wildland fires and 
some soon-to-be-released work that we have in progress.
    I will just note for the record that we have 14 audits 
currently in process pertaining to Forest Service, and a number 
of those reports will be rolling out in the next few months, 
and we will be sure to provide those to you.
    I would like to spend a few minutes on our views on recent 
wildfire management issues at the Forest Service. We have 
looked at a number of aspects of that. First off was our work 
evaluating Forest Service's large fire suppression costs, and 
our primary recommendations were that the Forest Service should 
allow its staff to concurrently manage wildland fires for both 
wildland fire use as well as suppression. We felt that that was 
a very significant and critical ability that the Forest Service 
managers needed to have in order to most cost effectively use 
their resources.
    We are continuing to discuss this issue with Forest 
Service. We believe that they are making progress on this 
towards more effective fire suppression policies. We have 
noticed that their incident command leaders now have more 
flexibility to change management approaches to fire during the 
suppression stage, and they are now, they have the authority to 
evaluate the fire to determine what is the most cost-effective 
approach.
    We also note that Forest Service is in the process of 
looking at how it measures success in efficiently suppressing 
wildfires and also how it reviews large fire suppression costs. 
They have developed an inter-agency large fire cost review 
guide in conjunction with other agencies, and they are now 
using that guide.
    The second update we want to provide is on the Healthy 
Forest Initiative. We had issued a report a number of years ago 
where we found that Forest Service lacked a consistent process 
for assessing wildland fire risk and the benefits of fuels 
treatment programs and, again, we are seeing some progress in 
this area. Forest Service reports that it is now in its third 
year of using a prioritization process for determining where it 
puts its hazardous fuels reduction resources, and we understand 
from the Forest Service that their headquarters office is 
keeping a tighter control on this process, vis-a-vis its 
regional offices. And they are also using prioritization 
initiatives to develop and allocate their budget in this 
program.
    So in light of those policy changes, we feel that we do 
need to keep an eye on this. We will be planning oversight work 
on this program this year to make sure that things are moving 
as they should be.

                    WILDLAND FIRE: AERIAL RESOURCES

    Finally, with respect to wildland fire issues, we want to 
note that we are doing some work on Forest Service's air safety 
and aerial resource issues. We had done a couple of audits a 
few years ago on the Air Safety Program, and we believe that 
Forest Service has taken some steps to implement some of the 
safety recommendations that came out of those audits.
    The issue that we see on the table now is that the Forest 
Service must focus on the advancing age of its firefighting air 
tanker fleet. By its on estimation the Forest Service believes 
that by 2012, their fleet of air tankers will become 
exceedingly expensive to maintain or no longer airworthy.
    And so to assist the Forest Service and the Congress in 
considering this issue, we are about ready to issue an audit on 
our evaluation of this program. The Forest Service feels very 
strongly it needs to replace its aerial fighting resources, and 
that will involve a significant cost to the Forest Service to 
do that as these air tankers do cost a lot of money. We will 
get that report to you as soon as it is issued.

                               ACCOUNTING

    In terms of financial statements, I know that is an issue 
of interest to the committee. We as, you know, perform the 
financial statement audit through KPMG every year, and I just 
would like to note that in 2008, the most recent year, the 
Forest Service was able to sustain its unqualified opinion. It 
is continuing to make progress on its financial management 
reporting. It does have issues that need to be worked on. The 
information technology area is one such area, timeliness of 
reporting, and accuracy of reporting is also an issue that they 
need to work on. But we do think that looking back over the 
course of the last 10 years the Forest Service has made 
progress in this area.
    In terms of pending audits that we have going, vis-a-vis 
the Forest Service, we are looking at firefighting succession 
plans, because we recognize that human capital is a significant 
challenge in the Forest Service. We need to come up with 
recommendations for the Forest Service to assist them in 
addressing the severe shortage of qualified firefighters that 
they are facing, with the aging of their workforce, and 
mandatory retirement.
    We are also continuing to look at the issue of safety of 
firefighting personnel to determine whether the Forest Service 
has adequately implemented some of the recommendations that we 
have made in a number of our audits to ensure that their 
firefighters are safe when they go out and do these critical 
jobs.
    On the investigation side of our house, we have a number of 
open investigations pertaining to Forest Service. The Esperanza 
fire is perhaps the most significant investigation that we have 
ongoing right now.
    So in conclusion, I just want to note that we appreciate 
the support of this subcommittee for our activities. We 
recognize that we have some challenges ahead of us in terms of 
oversight of the stimulus funding that the Forest Service has 
received. We appreciate your support in providing resources to 
us to do that oversight, and I want to assure you that stimulus 
oversight is an issue that we will be spending quite a bit of 
time on in the next few years.
    So I thank you for your attention and welcome your 
questions.
    [The statement of Phyllis K. Fong follows:]

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                          FINANCIAL STATEMENTS

    Mr. Dicks. I can remember a time when the Forest Service's 
financial statements were such a high-risk item that some here 
on the Hill, including myself, talked about putting the Forest 
Service into receivership as was done for the District of 
Columbia. Now you indicate that a lot of progress has been 
made. Can you please summarize some of the trends you have seen 
on financial management of the Forest Service?
    I get the impression that they are improving, but they 
still have a way to go in order to be able to clearly 
demonstrate what they are doing with the money they receive 
from the Congress, how it is spent, and actually to balance 
their books at the end of the year.
    How would you react to that?
    Ms. Nazzaro. Well, one area we have seen improvement is 
that they are getting clean audit opinions, however, that is 
only one aspect of financial accountability.
    Mr. Dicks. Yes. Well, explain that, because, you know, we 
had NAPA come in. This was something that Mr. Regula liked to 
do, and the National Association of Public Administration, and 
they took a look at their situation, and the committee tried to 
move them, obviously----
    Ms. Nazzaro. Uh-huh.
    Mr. Dicks [continuing]. But explain that. I think that is 
an important distinction. You can get a clean audit but still 
not be there. Is that not what you are saying?
    Ms. Nazzaro. Well, I guess the easiest way for me, who is 
not an accountant----
    Mr. Dicks. Right.
    Ms. Nazzaro [continuing]. To try to understand it is that 
you can have the data but then what you do not have is a 
reasonableness of the cost analysis that is being performed 
using that data. So that is where there is still a problem, and 
apparently it has been described that in some cases to get that 
clean audit opinion they actually went through what they use 
the term historic efforts. So apparently you can go in and 
actually adjust the data to get that clean audit during the 
audit.
    Again, like I say, I am not an accountant, so I am not 
exactly sure how that works, but it is my understanding that 
you can go in and do some clean up of the data, and they have 
done that in the past, which has enabled them to get this clean 
audit opinion.
    But our concern is that that is only part of the picture, 
that then it is how you use this data and some of the analyses 
that are being done do not necessarily get that same clean 
opinion.
    Mr. Dicks. Phyllis, do you want to give us----
    Ms. Fong. Yeah. You know, I think Robin, you are right. The 
way we look at it is, Mr. Chairman, you are also correct. Way 
back ten years ago the Forest Service was not even able to get 
an audit of its financial statements because the data just were 
not adequate to be audited. We are now at least at the point 
where we can audit the books, but you are correct that a 
financial statement audit is really a snapshot in time, you 
know. As of September 30 we are going to look at your books and 
do the books balance, is there support for your transactions, 
what do you need to do to make that happen? And the Forest 
Service has engaged in heroic efforts, they have had tremendous 
leadership and will in this area. They made it a priority to 
get a clean audit opinion.
    Now that being said, there are still processes that they 
need to clean up. They need to be able to have good data all 
the time on a timely basis. They need to have good accounting 
processes.
    Mr. Dicks. Is there IT equipment suitable to do that?
    Ms. Nazzaro. I know they have IT systems, and I know that 
they are trying to upgrade a number of those. There are some 
issues with IT security, which impact the financial statements, 
and we have pointed out a number of those as a significant 
deficiency for the Forest Service. They need to make sure that 
the data that is maintained in their systems are secure, that 
there are not people going in there who have the ability to 
change that data in an unsecured way. Those kinds of system 
weaknesses we are focusing on.

                      WILDFIRE PROGRAM MANAGEMENT

    Mr. Dicks. Going to the wildfire program, you know, there 
has been an escalation. The '90s it was like 13 percent of the 
budget. Now for both the Forest Service and BLM it is close to 
50 percent of the budget. That is very concerning to us, and we 
are also concerned about, you know, you say they do not have a 
strategy, I think that was in your statement, that they do not 
have--or maybe it was your statement. They do not have a 
strategy for how they are going to deal with wildland fires and 
suppression.
    And in several of your audits you asked them, you have 
urged them to do this. Why are they resistant to writing down 
on paper or in the computer what their strategy is? I mean, why 
do you think they have not done this?
    Ms. Nazzaro. Well, initially they did concur with our 
recommendations, and we thought that they were working toward 
that strategy, and then after a few years when we still were 
not seeing much progress, that was where we asked them then to 
come up with a tactical plan that would lay out for you, you 
know, as well as us a timeline that they would do that and what 
it would cost.
    They still have not gotten to that point, and what they 
tell us is that, you know, the conditions change every year, so 
to develop a strategy that says this is today's condition and 
here is how we are going to proceed, they feel that it would 
not be relevant, you know, two years down the road, then a huge 
investment.
    We see it more like an investment strategy, that you--it is 
something that you would tweak from time to time, but you go in 
at least laying out what are your options, and then with those 
options what are the costs going to be. So at least when you 
are making the decisions particularly in a limited-budget 
environment, you can decide that you are going to get the best 
payoff for those funds that you are committing at that time.
    Mr. Dicks. Our staff thinks that they are stuck, this is 
stuck at OMB for some reason, that OMB has not allowed them to 
come forward with this strategy. Is that accurate or----
    Ms. Nazzaro. Well, we did hear that at one time.
    Mr. Dicks [continuing]. Is there a speculation----
    Ms. Nazzaro. At one time the agency did tell us that the 
reason that they could not provide these numbers, they could 
not actually lay out a strategy and then assign a budget to 
that was because OMB was not allowing them to do it. We met 
with the budget examiners at OMB and said, you know, what 
gives? You know, I have done work at other agencies over the 
years, and I know DOE sets up a budget for their long-term 
clean-up strategies, so I did not see this as being any 
different. OMB said that they had no problem with it.
    Mr. Dicks. Okay. Well, that is good to know.
    Mr. Simpson.
    Mr. Simpson. Thanks, Mr. Chairman. I am not sure I know how 
to ask any of these questions, because it seems like there is 
obviously a huge problem out there.
    When we talk about wildfires, you mentioned that the number 
of acres burned is up 70 percent, and the budget is about 
doubled from $1 billion to $2.2 billion. So I guess with the 
number of acres burned increased by 70 percent, it is not 
surprising that the budget is doubled.
    When you talk about a fire strategy, to sympathize with the 
Forest Service just a little bit, they are right in that when a 
fire breaks out, you do what you have to do to try to contain 
it, to put it out, to protect communities, whatever. How do you 
plan a fire suppression, or when you say a fire strategy, what 
do you mean exactly?
    Ms. Nazzaro. We would want it to take into----
    Mr. Simpson. I mean, my best fire strategy is have no 
wildfires. I cannot plan that, though.

               BALANCING FUELS TREATMENT AND SUPPRESSION

    Ms. Nazzaro. Well, but we think maybe there is an 
opportunity here. What we want them to look at is all aspects 
of the fire, not just suppression but also what you do as far 
as fuel treatments and vegetation management. And is there a 
point in time where if you spent more on the fuel reduction 
activities that you would see a reduced cost or the severity of 
fires which ultimately would result in reduced costs? So we 
would like them to look at various options.
    Now, it may be cost prohibitive. You know, we are not 
saying that you are going to see the immediate savings as far 
as dollars----
    Mr. Simpson. Right.
    Ms. Nazzaro [continuing]. And severity of fire because you 
also have these other competing demands now or other factors 
like climate change that could also exacerbate the situation. 
But we feel at least you should come up with options. If we 
spent X amount of dollars in vegetation management over the 
next 10 years, what is that going to result in? Are we going to 
see finally that we have hit that point where there may 
actually be less severe fires, and it will cost us less for the 
fire suppression activities.
    Mr. Simpson. Well, and I understand that, and then I, you 
know, I think, man, we have got so much fuel on the ground out 
there, and how can we reduce that fuel, and then I go stand on 
top of a mountain and look out across the forests in the west. 
You are not going to--what is going to reduce the fuel, quite 
frankly, is fire, because I mean, these are huge. There is not 
enough money in the United States to go out and do fuels 
reduction across these forests in the United States. Can you do 
it around communities to help protect them so that when a fire 
occurs, it is less likely to cause property damage and those 
types of things? I thought that was what the Healthy Forest 
Initiative and the Forest Service was supposed to be doing now.
    And also, I understand that whenever they plan a fuels 
reduction program in a particular area, that oftentimes, at 
least in some areas, that they are held up because of lawsuits, 
and they cannot go in and do them. And add to that a fire comes 
along, and we transfer the budget that was used for, that was 
going to be used for fuel suppression in the next year into the 
fire reduction or fire suppression, and we never get the money 
into the fuels reduction program. And that seems to be a 
problem.
    Ms. Nazzaro. Well, we were talking about this yesterday, 
and it does seem, I mean, everything is so interrelated.
    Mr. Simpson. Uh-huh.
    Ms. Nazzaro. But how in these current economic times what 
came to mind with us is what we are doing with bailing out the 
banks. It is almost like the Forest Service is too big to fail.
    Mr. Simpson. Yeah.
    Ms. Nazzaro. You know, these fires come. We have no choice. 
We have to, you know, we focus on suppression. In the spring I 
am here every year, we are talking about budget, and in the 
summer we are talking about saving houses, saving peoples' 
lives. You know, at some point you have to decide how are we 
going to get a handle on this, or are we just going to let it 
continue to go on? You know, and we think the smarter approach 
is to have a strategy, so at least we are consciously, and it 
may be that the costs are going to continue for a number of 
years, but at some point--will we ever be able to get a handle 
on it?
    The cost of fighting fires, the severity of the fires are 
going up every year.
    Mr. Simpson. Yeah.
    Ms. Nazzaro. Is that just going to be a fact of life? And 
then the way that they have been estimating, doing the 10-year 
average, it is never enough. So as you mentioned, you know, 
then you are borrowing from other accounts, which, you know, 
always does not get paid back as the example Mr. Cole brought 
up last week.

                         IS PLANNING POSSIBLE?

    Mr. Simpson. Well, and it is, you know, I understand to 
some degree the frustration of the Forest Service. It has 
become the Fire Service. Forest Service in trying to develop a 
strategy here. I go hiking out here, and all of a sudden you 
can see trees where you have got the bark beetles that have 
burrowed in because the temperatures have not been cold enough 
to kill them, and you know that two or three years from now 
that is going to be a dead tree, and it is going to be central 
to a lightening strike and bam, there you go.
    And how do you plan to address that? I honestly do not 
know, but I do understand the issue of trying to reduce the 
potential damage around communities and those types of things, 
and then, of course, we have got the issue of more and more 
people are moving into the wildland urban interface that is 
causing more and more problems.
    And we need to look at how we want to handle that, quite 
frankly, as a society, and you know, on one hand, it is costing 
us a bunch of money. On the other hand I understand why a guy 
likes to wake up and see the pine tree touching his house. It 
is a difficult, difficult issue.
    Ms. Nazzaro. If I could just add----
    Mr. Simpson. Sure.
    Ms. Nazzaro [continuing]. You are right. I mean, and we do 
not want to minimize it, but also we do not want to make 
recommendations that are not doable. So, I mean, this is 
something that we talked with the agencies, not only the Forest 
Service but Department of Interior about at the time we did our 
work, and actually they had had a group that was trying to come 
up with something like this. So the agency does think it is 
doable. Like I said, they did agree with our recommendations.
    So I think it is feasible. You get people who are 
knowledgeable about strategies for fighting fire and what works 
and understands how much vegetation is out there and how these 
activities could certainly help the problem. But part of the 
problem is that they do not have adequate data on all of these, 
you know, so I do not know, you know, what formulas you would 
plug in.
    But I do think they think it is reasonable to try to get a 
handle on it.
    Mr. Dicks. You know, one thing that I think everybody 
should get in context is that 1 percent of the fires are the 
ones that are costing the money. One percent. So we are 
stopping the other 99 percent. And, in your comment you 
suggested that hazardous fuels removal may be too expensive. It 
would be one of those things you got to do because it is going 
to be more expensive. It is pay me now or pay me later. If you 
do the fuels removal, you have a better chance of reducing 
those fires or making them less severe. That is what I think. 
And I honestly think that the previous Administration just was 
unwilling to put the money up to do a robust forest health 
mitigation approach to this. And I think that is the only 
option you have got.

        STRATEGY FOR SUPPRESSION, FUELS TREATMENTS, AND FIRE USE

    And the other problem here, of course, is climate change. 
The fire season is now one month longer on both ends, and as 
you mentioned, with the droughts and with the bug infestation, 
that comes right from the climate change. You are going to have 
more severe fires, especially if you do not go in and clear out 
the understory.
    Mr. Simpson. Well----
    Mr. Dicks. So I think we have to look at a robust strategy 
here.
    Mr. Simpson. And I do not disagree with you around 
communities, but if you are talking about reducing the fuel 
loads out in the middle of these forests where you stand on a 
peak and all you can see is forests for as far as you can see, 
there would be an argument to be made by many forest managers 
that one of our problems is we put out too many fires, in that 
when you do that all you do is build up the fuel underground. 
Dead trees fall over and pretty soon there is tons per acre, 
and that increases the likelihood of catastrophic fires when 
they happen.
    As you know they had a plan in Yellowstone, in our national 
parks, that they did not suppress wildfires until a fire came 
through Yellowstone, and everybody went, wow. We cannot do 
this. We got to go put it out. You go back today and look at 
where those fires burned Yellowstone, and there are trees 
coming up, there is more vegetation and wildlife there than 
there ever was. That is part of our natural cycle.
    Mr. Dicks. But then sometimes we have not done enough on 
federal forestlands, we have a huge backlog of thinning work 
that needs to be done. When you do the thinning, the fires are 
less intense, and therefore----
    Mr. Simpson. That is right.
    Mr. Dicks [continuing]. You know, so that is one area. And 
also it helps to grow bigger, better trees that are going to be 
sinks for carbon sequestration.
    Mr. Simpson. Yeah. I do not disagree with that.
    Mr. Dicks. You know, to me there is a way to move forward 
here, and especially on the thinning aspect of this, which has 
not been done. Region six probably has the most forestlands of 
any region in the country, and we are way behind in thinning 
and doing the adaptive management kind of things that would 
make fires less intense.
    Mr. Simpson. Yeah. I do not disagree with you, but again, I 
would state, you know, the idea that we are going to go out and 
thin all of these forests to try to make them less likely to 
have wildfires or catastrophic wildfires, there is not enough 
money in the United States to do that.
    Mr. Dicks. Well, we have to look and see what the costs----
    Mr. Simpson. It has got to be in certain areas. In fact, 
one of the big problems right now is that when you do thinning, 
guess what you put in there? A vehicle. You put a road in. And 
every one of these, I should not say every one, an awful lot of 
these programs to thin the forests are before courts right now 
because they get sued when they want to do a thinning project, 
even around a fuels reduction project, even around communities 
sometimes.
    As I understand it the ones in Northern Idaho and Montana, 
every project, and I would have to check this out, I am not 
absolutely certain, but every project that has been proposed to 
thin around the forest has been sued. They have been sued on 
it.
    So there are issues that we have got to address, and I am 
not sure that there is any one answer to this. I think it is a 
combination of all things, but I am not disagreeing with what 
you are saying, Mr. Chairman. I think we have got to do a 
better job----
    Mr. Dicks. We have to have a strategy.
    Mr. Simpson. Yeah. We do. I agree.

                  MANAGEMENT TRAINING WITHIN THE USFS

    Let me ask you one other thing. The most devastating thing 
that I think I see in your whole report, your GAO report, is 
where you write, ``The Forest Service has struggled to 
implement adequate internal controls over its funds, generate 
an accurate financial information, and provide clear measures 
of what it accomplishes with the appropriations it receives 
every year.''
    I find that a devastating comment. If I cannot tell you 
what I am accomplishing with the budget, why should I ask for 
another budget? I mean, I do not think you could write anything 
more devastating about the way they handle their finances.
    Have you ever looked at--it seems to me that within the 
Forest Service people are promoted up. Most people began in the 
Forest Service as a ranger, worker out on the forest , you 
know, and they move up. How much training do these people have 
in actual management as opposed to Forest Service management? 
Actual management.
    And the reason I ask that, when I went to dental school, 
they taught us how to practice dentistry. They never taught us 
how to be small businessmen. You see an awful lot of dentists 
get out in the world and want to practice dentistry, they do 
not know diddly about how to run a small business and the 
implications of that.
    I wonder if some of that is true with, I do not want to use 
the word inbreeding, but, you know, I mean, everything comes 
within the Forest Service and moves up. And if they would be 
sometimes more effectively managed with professional 
management, not necessarily someone that is a Forest Service 
individual, has anybody ever looked at that?
    Ms. Nazzaro. We have not looked at that. Have you, Phyllis?
    Ms. Fong. Not specifically but I can offer some comments on 
that.
    Mr. Simpson. Sure.
    Ms. Fong. We know that the Forest Service has a 
significantly large core of senior executives, and within USDA 
they spend quite a bit of time training and developing their 
executives. But given the nature of the mission, I think it is 
safe to say that most of their senior management do come from 
within the Forest Service because they have got the experience 
fighting fires, they know what the issues are, and it is very 
hard to transport somebody who has never done that into a 
senior-level position.
    We, you know, just a comment on GAO's observation about the 
need for planning and good performance measures and strategic 
development, we also have noticed that, but we also see that as 
a trend within USDA as a whole. The department as a whole needs 
to have better strategic planning and better performance 
measures to really measure what they are doing. And so we have 
pointed that out as one of our management challenges for the 
department, as well as the Forest Service.
    I do understand your comment about, you know, I am a 
lawyer. I was never trained to be a manager per se, and so when 
you hit that first management job, there are significant levels 
of challenges that an individual has to face. And the Forest 
Service is attempting to do that. They are attempting to train 
their people.
    Mr. Simpson. With me it is, you know, we are kind of 
managers in the job we have. I am not an expert in every area. 
What I expect to get around me is people that are experts and 
then as a manager be able to listen to them and try to weigh 
the pros and cons. And management is different than knowing how 
to fight a forest fire or how to manage a forest or anything 
else. Management is something that is substantially different, 
and just a thought. Anyway----
    Mr. Dicks. The gentleman's time has expired.
    Mr. Calvert. Mr. Olver suggested he wanted to wait a little 
bit, so we will go to Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.

                    BUSINESS MANAGEMENT IN THE USFS

    Just to carry on what Mr. Simpson was talking about, just a 
management culture. It seems to me from your testimony that 
that does not really exist within the Forest Service, I mean, 
to a significant degree, and I share his concern. He was 
reading my mind about bringing in outside, possibly others that 
are expert in financial controls.
    I am just curious on one issue. Let us take one part of 
this: Inventory control. I would imagine that the Forest 
Service has a significant amount of equipment spread over a 
significant area. Do they have any type of inventory control 
system that is traceable, that they know where every piece of 
equipment is at any given time? Is that a yes or a no on that?
    Ms. Fong. My sense is that we have not done work recently 
in that area, but I do believe that property and inventory 
control has been a long-standing area of concern at the Forest 
Service. My staff here is going yes. And we do look at that in 
the financial statement process, because that is a major line 
item for them.
    Mr. Calvert. You mentioned the embezzlement case where 
someone stole $600,000, and typically in these types of large 
businesses, it does not really matter what kind of business we 
are talking about, at some point in time it usually tracks back 
to inventory. If you can track your inventory, you can track 
how that equipment is being utilized and whether it is being 
utilized correctly or incorrectly.
    But I just wanted to make that point, and I just wanted to 
follow up with what Mr. Simpson was saying, but on the part 
about forest fires, I am from Southern California. We have our 
experience with forest fires. Fuel load is an important issue. 
It is not trees that we are worried about. It is scrub or 
chaparelle. It is overgrown. Fire is a natural occurrence in 
California. You know, we had the Santa Annas that come up, fire 
historically for thousands of years. Cleared it out.
    In some cases I think the Forest Service has been, you 
know, suffering from their own success in that they have put 
out these fires quickly, and the fuel load has grown, and then 
we have these catastrophic fires, one of which you talked about 
is the Esperanza fire. I am pleased to report that Mr. Oiler, 
who set that fire, was convicted last week for the murder of 
five firefighters that were killed in that fire by an overburn.

                        FATALITY INVESTIGATIONS

    But on this investigation, you mentioned there were unique 
challenges. What are those unique challenges?
    Ms. Fong. These investigations are very difficult because 
by definition we are dealing with mortalities of firefighters 
during situations where there has been property destruction and 
people have been displaced, and the firefighters themselves are 
very sensitive because, of course, they want to do the best job 
that they can. And some of the challenges that we face in doing 
these investigations involve being able to talk to the people 
involved at a time when they are dealing with the crisis 
itself.
    We are also dealing with a situation where there are other 
entities coming in to do investigations as well. I think in 
Esperanza OSHA was involved in an inquiry, the Forest Service 
has its own inquiry going on, and so there is a real need to--
and Cal Fire, of course, was the lead agency on that fire. They 
were the incident command. And----
    So there is a real need to coordinate.
    Mr. Calvert. I can understand people's personal reluctance 
to, especially when they are talking about friends and 
colleagues, but is that an effective way to have an 
investigation into those types of circumstances? You know, when 
the Santa Anna winds come up, you can be literally looking at a 
fire a mile away, and you could be standing there, and the fire 
will be on you in less than 15, 20 seconds. That is how quickly 
it will move. And I can understand from the firefighter 
perspective that it is very difficult to defend yourself in 
those kind of circumstances. And so they, I think they are 
somewhat reluctant.
    But are there any recommendations you would make in trying 
to manage this type of investigation in the future?
    Ms. Fong. Well, as you know, we are required by law to do 
these investigations whenever there is a death by burnover, and 
so we know that we need to do them. One of the things that I 
think we need to do from a management perspective is to develop 
some protocols before the next one happens with the fire, with 
the Forest Service and others so that we, all of us understand 
our respective roles and figure out a way to handle it so that 
people are not subjected to multiple interviews at a time when 
it is very difficult. I think that would be one step forward 
that we could take.

                       WILDFIRE AERIAL RESOURCES

    Mr. Calvert. One other issue, something that is important 
to all of us in the west is the aircraft. It is very 
frustrating to us in that when the fire first occurs, that we 
do not get the aircraft up immediately and put that fire out as 
quickly as possible, especially if it is close to an urban area 
where you can start getting considerable damage.
    And we talk about grounding aircraft and possible 
maintenance problems on aircraft or difficulties in utilizing 
that aircraft, that is something that we need to fix as quickly 
as possible. So any recommendations on that I am sure this 
committee would be very interested in.
    Ms. Fong. Okay. We do have a report that is just about 
ready to be issued on aerial resources, and we will make sure 
to get it up to you as soon as we get it out.
    Mr. Calvert. And, you know, this new technology that is out 
there by using bladder technology which is more accurate, has a 
GPS monitoring system and all that, I think we will have to 
take a look at that technology versus just the old technology 
of loading up water and spraying it out in the atmosphere. It 
just does not work as effectively.
    Ms. Fong. Okay. Thank you.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Cole.

                   DIFFERENT TONE FROM TWO STATEMENTS

    Mr. Cole. Thank you, Mr. Chairman.
    You know, I do not mean to try and pit you two against one 
another, but I will tell you, when I read the two reports, it 
was like the tale of two Forest Services, because one was 
getting better and the other one was hopelessly broken. Thank 
you very much. And so, you know, I would like to sort of get 
down to that deeper level for a moment and just ask for your 
judgment.
    I mean, clearly from a GAO standpoint you have had enormous 
resistance. You can sense the frustration as you read through 
the report. We talked about this for ten years, we have talked 
about this, and they say it is getting better, and it never 
does get better, you know, or it is pretty halting. I mean we 
get a little bit of stuff at the edge, and then the Inspector 
General report is a little bit more positive. So which one is 
it, and tell me why? Why so much resistance to, you know, a 
continuance stream of suggestions in terms of developing a 
strategy? I want to get to that strategy issue, too, in a 
minute but----
    Ms. Nazzaro. Well, I do not want to paint a picture to say 
that the agency does not do anything right or has not been 
receptive to recommendations, because like I say, I think they 
have made efforts to make improvements. I mean, certainly in 
the area of how they are allocating fuel reduction funds, some 
of the tools that they are developing. I mentioned FPA. That 
tool is going to be implemented with the 2010, budget, I 
believe.
    So they are developing tools. It is just they have got a 
long way to go yet in our estimation.
    And as to why more does not get done, I mean, I do see 
sometimes shifting focuses that, you know, we issue a report on 
one issue, they start taking steps and making progress and then 
we go back and start looking at implementation, and that has 
been dropped, and now they are shifting in another direction.
    So I do not know if it is a lack of resources or, you know, 
that ultimately leads to that problem.
    Mr. Cole. What is the problem? I mean, why is that?
    Ms. Nazzaro. I would say the overall problem is lack of 
accountability, you know, that that is why we continue to see 
the same problems, because I think what has been more 
frustrating to us is we report on one particular program, and 
some problems there, we give them recommendations, they take 
action there, and then we look at another program, and they 
still do not have data to implement that program or internal 
controls. And so we are seeing these broader concerns continue 
time and time again for a particular program. They may have 
taken action, then that is taken care of.
    But the one that we were just talking about, internal 
controls, I mean, it is not just the embezzlement of the fire 
budget, but we have seen it with the recreation fee program. 
You know, we have seen it more where it is managing money, not 
inventory. We have not really done work on the inventory.
    Mr. Cole. Do they have a fundamental disagreement with you? 
I mean, sometimes you run into these things where literally 
people are telling you, no, you need to do this, and you think, 
I cannot do that. You know, it is kind of to Mr. Simpson's 
point maybe that, okay, we cannot have a strategy. They are 
really, I mean----
    Ms. Nazzaro. Once in awhile we will get pushed back, but I 
have to say I think we have a very good working relationship 
with the agency, and like I said, when my teams go out there, 
they talk to them about what is reasonable, you know. So we are 
not just going to make recommendations that we know are going 
to be way too costly or extremely difficult to implement.
    So it is usually a happy medium, that we say, okay, here is 
what is broken, you know, and try to get their input of what 
challenges do you have in trying to implement this program, 
what would help you, and get them to buy in.
    So I would say the vast majority of the time they concur 
with our recommendations.
    Mr. Cole. You know, I have seen these issues on Armed 
Services in a different kind of way. You want to talk about a 
vast problem, try and think about global security of the United 
States. You cannot have soldiers everywhere, and they have 
developed since 9/11 this whole idea of, okay, there cannot be 
ungovernable spaces in the world. Okay. We cannot govern it, 
but what do you do to help a military someplace else be a good 
military, so in other words, they sort of have an intellectual 
framework that they approach this by, recognizing that they 
cannot do everything. But they have got a way to attack this 
around, and it does not sound like from a GAO perspective there 
is just that kind of strategic ability to think it through.
    Ms. Nazzaro. I would tend to agree that that is where, when 
we tried to pull this statement together that we went beyond 
just looking at individual programs to try to figure out what 
was broken. And I do think that they need much better 
information to be able to manage, and there definitely has to 
be more accountability.
    Mr. Cole. Yeah. I mean, sometimes it may literally be, hey, 
we cannot put firefighters everywhere, but this is what we 
could do to help the local people on the ground when this thing 
gets started, you know. This is, you know, you have to have 
some way to address it if the problem is 70 percent bigger than 
it used to be, and it is increasing you cannot just keep doing 
the same stuff.
    Ms. Nazzaro. Definitely, and what are other options then? 
If fuel reduction is not the answer, if that is too costly, you 
know, can we do more to encourage local communities as far as 
fire-wise-type programs, you know, educate the public. What can 
they do, get fire retardant roofs, create defensible space. I 
mean, there may be education programs, so I am not saying it is 
an either or that you are either going to fire or you have to 
do fuel reduction. There may be other strategies as well that 
could come into play.
    Mr. Cole. Ms. Fong, I have been fair to you to let you, 
because I sort of set up this contest, and you may want to say 
no, it is not--I do not know.
    Ms. Fong. Well, you know, I echo Robin. We, I think GAO and 
the OIG, we have focused on many of the same issues at the 
Forest Service over the last 10 years. We both recognize that 
there has been progress. We both recognize that there are still 
many things that need to be done.
    And I will say that we are encouraged because the Forest 
Service has been receptive to our recommendations. They have 
not disagreed with many, if any, of our major recommendations. 
They have reported progress. Now, the next step for us is to 
actually go in and verify that they are actually doing what 
they say they are doing, and I think that is where we can start 
to offer some information as to whether true progress is being 
made or whether it is still being planned and thought about.
    Mr. Cole. I know you probably need to--I assume there will 
be a second round. I do not want to abuse my time, Mr. 
Chairman, but one other question because I want to talk later 
about some of the aerial stuff maybe in the second round.

                   CONCERN OVER ACCOUNTING PRACTICES

    But I am always bothered when I hear, you know, for a long 
period of time there has not been a ``clean financial audit.'' 
And when you go ``reconstruct'' one historically, that is 
enormously expensive, and you are going to uncover enormous--I 
have done this relatively recently at a political committee. 
And I can just tell you. You know, when there has not been 
audits, there has been--and it is not even the potential for 
corruption. That is bad enough but what the real thing is is 
nobody has been thinking about things systematically, and there 
is no management structure at all. And lots of bad decisions 
get made.
    So tell me or reassure me that it is not just we found an 
audit. We now have one that is clean, but what are they doing 
with the audit as a management technique to go and say, okay. 
We have really found fundamental weaknesses in this area and 
this area and this area, and here is our management team's 
strategy to go and address these problems, or, we do not have 
management or good administrators here. Fine. We are going to 
fire these guys and bring in an administrative unit. We do not 
have adequate controls on the flow of money here. We do not 
suspect anybody, but we are going to do this. Do they do that? 
Or are they just saying, ``here.'' ``Here is our clean audit,'' 
as opposed to using it as the first round to make a management 
plant?
    Ms. Fong. I would like to offer a couple of comments. The 
situation on the financials, I think Forest Service views this 
as a real success story. They recognized back in 2001, 2002, 
that they could not continue to do what they were doing, and so 
the CFO at the time brought in, as you had mentioned, 
professional financial management expertise. He brought in a 
team of people from the private sector who had done a lot of 
financial work. And he told them, I want a clean statement. I 
want you all to get this, these financial management programs 
in place, and I want them to work.
    And it took a heroic effort over a period of several years 
to get the Forest Service to the point where they could get a 
clean opinion. The first one was in 2002, I believe. Since then 
and it was tough in 2002, 2003, 2004, we would come down to the 
wire on the last day of the financials. There were all kinds of 
issues that needed to be resolved. The opinion would hang on 
the balance.
    But since then they have been able to take a step back and 
say, okay. We now know what we need to do to get it to look 
good on that one day. Now, what do we do to make it, make the 
processes better for the rest of the year?
    And what they have done is take steps towards that. They 
have consolidated all of their financial management activities 
into one location. It used to be very decentralized across all 
the regions of the country. They got it centralized in 
Albuquerque, and that has brought more accountability to the 
process and more expertise.
    They have also started to implement new accounting policy 
and procedures that they are using to account for their funds, 
and they are paying more attention to documenting their 
transactions as those transactions occur. Their leadership in 
this area I think has, to me, demonstrated the fact that when 
the Forest Service decides it is going to go after an issue and 
it decides to put the human capital into it and the leadership, 
the will to do it, they can do it. Now, the trick is to make 
that happen, you know, across the agency in other areas as 
well.
    Mr. Cole. I will wait for another round, Chairman. Thank 
you.
    Mr. Dicks. Mr. Olver.

                       DEVELOPING A FIRE STRATEGY

    Mr. Olver. Thank you, Mr. Chairman. Mr. Cole at one point 
mentioned strategy. I am not sure that he was going to get to a 
strategy and have questions on that. So I am just going to try 
to explore that a little bit, because Ms. Nazzaro, you have 
mentioned that there isn't any clear strategy for wildfire 
suppression, and that fire suppression costs dealing with that 
is lacking.
    I am curious, what would be necessary to develop a strategy 
and what might a strategy look like? For instance, does the 
agency collect good data on whether the frequency of fires is 
mainly related to lightening strikes in isolated areas or to 
encroachment of development in places where human development 
is going on, or being usage for high usage of recreation, which 
might occur in very different kinds? I have no idea where that 
territory is.
    For one thing, we have the type of data that really 
examines whether there is a difference in frequency, is it 
random, or what? And then what would the components of the 
strategy be? I know we have infestations of bark beetle in the 
west. Can you know as soon as you have got a bark beetle that 
you will now go in and cut and get valuable forest products out 
of that before it becomes so severe that it is past any 
possibility of anything but providing more fuel on the ground 
floor?
    In the Northeast, we have had the wolly adelgid on hemlock 
or gypsy moths on red oak and things like that, which if you 
are lucky, you can get out the red oak, which is very highly 
valuable as forest product material. Just as a comment, I think 
if one wants to get to carbon sequestration, probably the 
highest uptake of carbon occurs not when there is a fully-grown 
forest but rather at the early-growth level when it has been a 
few years after the fire, and when there is just a lot of new 
growth going up before there is a lot of selection for what is 
going to survive in the process.
    And I suppose one could have a strategy, cellulosic ethanol 
plants in places where you want to do some serious clearing out 
to reduce the density of the forest land. And then, of course, 
you have got intermittent kinds of forests which are more like 
the national forest that I have hiked in, where there are 
clumps of trees distances apart, but it is still part of a 
national forest and so forth. This is not an easy problem.
    Anyway, either of you may speak to this.
    Ms. Nazzaro. Well, I think you do raise a number of issues, 
and let me try to sort some of them out maybe.
    What is hard is the interrelationship among all of this, 
and you asked the first question about whether they have got 
data on what causes the fire. I mean, ultimately, you know, 
when you go back to what causes it, I would say the vast 
majority are lightning strikes, and it does seem like the 
agency has information. They do investigative work that they 
know in some cases it is arson, but, you know, in a lot of 
these cases they are lightening strikes.
    But then it is more that they are exacerbated by the 
effects of climate change. It is not that because there is more 
development in the wildland urban interface or climate change 
that cause the fire but that exacerbates the fire. So, you 
know, if the fire spreads and it gets to an area such as the 
wildland urban interface, then that is going to automatically 
increase your costs of fighting the fire because you have got 
higher-cost items at risk. So, you know, trying to just fight a 
fire out in the wilderness is a lot cheaper than fighting a 
fire where you have got a lot of assets to protect.
    The other issue with climate change, again, things like 
bark beetle infestation certainly weakens the trees and makes 
them more susceptible to a fire, but that is not really the 
cause of the fire.

                     MULTIPLE STRATEGIES REQUESTED

    Then on your issue of the strategies that we are asking 
for, and maybe this is confusing because actually we have asked 
for strategies in a number of different areas. One, we have 
asked for strategies on just the bigger picture, this cohesive 
strategy that brings everything into place. We have also asked 
for strategies on cost containment.
    And specifically on cost containment, what we found there 
was when we talked to the line managers who are actually out 
there trying to develop how they are going to approach a 
particular fire, they said that their guidance is not always 
clear, you know, that you have got competing factors again. You 
have got the safety of the people that potentially are at risk, 
including the firefighters or individuals from the Forest 
Service. You have also got various structures that you are 
trying to minimize the impact on them.
    And so what we saw was that there is no means to assess the 
relative importance of these various competing factors, and how 
do you approach the fire? What we found was more often then 
they are going to err on the side of protection rather than 
cost containment. So we felt more guidance needs to go out to 
the field staff for how to make these tradeoffs and to actually 
establish, you know, while the goal everybody says is to 
contain costs, at what expense? And you do have to value these 
various elements that factor into it and make these tradeoffs. 
So what we are asking for there in cost containment is focus 
more on how you make these tradeoffs.
    Then we are talking about this cohesive strategy, which 
takes into effect or takes into consideration the fuel 
reduction activities, the suppression activities. That is kind 
of on a different level.
    Mr. Olver. It is complicated, is it not?
    Ms. Nazzaro. It is complicated. And maybe our mistake is 
using the same term that we are asking for a strategy. That is 
why on the fire side we have always been calling it a cohesive 
strategy to try to keep that separate because we have asked for 
a strategy as far as cost containment.
    Mr. Olver. I had mentioned lightning, and you say the vast 
majority seem to be lightning.
    Ms. Nazzaro. I believe so.
    Mr. Olver. I am curious. I mentioned two aspects of human 
activity. One is just the casual usage of the camping and 
hiking type of usage of the forest that there is a lot of----
    Ms. Nazzaro. Uh-huh.
    Mr. Olver [continuing]. But also then developing 
encroachment close with a lot of people with intense activity 
close at the interface. What would be the percentage of the 
lightning strikes versus the other two? Which involve intensive 
or less intensive human activity?

                       STATISTICS ON FIRE STARTS

    Ms. Nazzaro. I do not have the specific numbers, but it was 
always my understanding that lightning strikes are the vast 
majority, so I would think we are even 90 some percent 
probably. Yeah. We do not have exact numbers, but I think these 
other things are much more in the minority. I do not know, 
Phyllis, if you have ever put statistics together.
    Ms. Fong. That is our stance as well.
    Mr. Dicks. We will get that from the agency when they come 
up.
    Mr. Olver. Thank you.
    Mr. Dicks. Yes.
    Mr. Olver. Thank you, Mr. Chairman.
    Mr. Dicks. Okay. Thank you. It is very important as we have 
been talking about here now, to reduce fuels if we want to get 
ahead of the wildfire program. Last week you indicated that the 
Interior Department did not have a good method of allocating 
funds among the four firefighting bureaus.
    How does the Forest Service system of choosing wildfire 
projects compare with that of Interior?

                       CROSS BOUNDARY MANAGEMENT

    Ms. Nazzaro. Actually, they have similar processes. We have 
looked at both Forest Service and BLM and now they are jointly 
developing this Fire Program Analysis, FPA Program. What we 
think is, I mean, what they need to do, though, is to identify 
the highest priorities without regard to jurisdictional 
boundaries. I know last week we talked a lot about ecosystem 
management and----
    Mr. Dicks. Right.
    Ms. Nazzaro [continuing]. Where these boundaries are very 
close and that they need to have similar strategies so that you 
are focusing on the ecosystem and not just on the specific 
agency. But certainly I think it has got to be a little bit of 
both that if you have got a higher priority, you have got to 
focus on that. I mean, they have limited resources to be able 
to reduce these fuels.
    Where we have had more of a problem is just identifying how 
they are allocating the funds, and you and others have actually 
asked for a report on this from the agencies. We know they are 
working on it. We were not able to evaluate it because it is 
not yet released. It is still a pre-decisional document.
    But they certainly are making progress, and I think it 
needs to be done jointly in the future.
    Mr. Dicks. So there needs to be a common strategy between 
both Interior and----
    Ms. Nazzaro. And that is what we talked about last week. 
Yes.
    Mr. Dicks. What about bringing in the counties and the 
states and the private sector? How do we do that?
    Ms. Nazzaro. I think everybody has to be involved in it. We 
have talked about collaboration in the past as well, and 
clearly, you know, one of the issues that was raised earlier 
was this issue of every time you set up a program to thin or to 
reduce these fuels that then somebody is suing and does not 
want it done. So certainly that can be minimized through a 
collaboration, and I think you need to be transparent in the 
processes. You need to get communities involved both at the 
state and local level so that they know what you are doing and 
why you are doing it.

                         WILDFIRE COST DRIVERS

    Mr. Dicks. In California has that been attempted? Are there 
efforts like that underway there since a huge part of the fire 
effort last year was in California?
    Ms. Nazzaro. Certainly on cost containment they do have 
strategies that they work with the state and locals and try to 
figure out who is going to be responsible for what, both as far 
as the suppression activities and the cost. Where we found the 
problem was there was little guidance and there was little 
consistency. So one state maybe treated one way by the Federal 
Government, another state being treated a different way.
    Mr. Dicks. Yes. If you looked at it a little differently, 
we look at suppression, we look at the urban, rural interface 
and those things, but what about looking at it in terms of 
manpower? How much of this is done with firefighters, and what 
is the cost of that, and is that under control? Or looking at 
the aerial tanker program, other aspects of this. Has there 
been any attempt to look at this from, is it the cost that we 
are hiring all these people to come in and fight these fires? 
And is that what is escalating, or is it the equipment side of 
it. Have we looked at it in that aspect, that way?
    Ms. Nazzaro. Yeah. We have never really, I guess, looked at 
what is, you know, what constitutes the increased cost I guess 
is what you are saying.
    Mr. Dicks. That is right.
    Ms. Nazzaro. Are the increased costs due to manpower 
increase or increased use of equipment? We really never, not 
that I am aware of. No.
    Mr. Dicks. That might be something we want to ask you to 
take a look at.
    Ms. Nazzaro. Uh-huh.
    Mr. Dicks. Because you hear stories that we are hiring 
companies and the cost has escalated and that the government 
again is being taken advantage of----
    Ms. Nazzaro. Uh-huh.
    Mr. Dicks [continuing]. By private-sector firms who come in 
and do this, and it is not just a hiring haul where you are 
bringing in firefighters. I mean, you have companies that 
actually do this, and just as we have seen in other areas of 
the government, sometimes these contractors take advantage of 
the situation.
    Ms. Nazzaro. Uh-huh. No. That aspect we have not looked at. 
We have looked more prospectively what is the agency trying to 
do to reduce its costs, and there they did identify a number of 
programs, and that is where I said, again, what we were looking 
at as well. There seems to be guidance lacking when we talk to 
the people out in the field. They are always saying, well, we 
do not know what tradeoffs we should be making. And they did 
admit that they err, though, more on the side of protection. 
When you are fighting a fire, you have got this thing breathing 
down your neck, and people are angry, and people want it to be 
dealt with. And so they said at that point they are forced to 
err more on the side of protection rather than cost 
containment.
    Mr. Dicks. Yes.

                        COST SHARING ON WILDFIRE

    Ms. Nazzaro. So if they had more guidance----
    Mr. Dicks. What about who pays for what? I mean, when you 
have states and counties----
    Ms. Nazzaro. Uh-huh.
    Mr. Dicks [continuing]. And the Federal Government in 
there, I mean, is there a fair allocation of costs based on 
responsibility, or does the Federal Government wind up picking 
up the tab for a lot of this?
    Ms. Nazzaro. There is a cost-sharing agreement, and when 
each fire starts, they come onboard and everybody gets 
involved, and they work up an agreement as who is going to pay 
for what, but that is where I said that there is, again, not 
very clear guidance so the arrangement that is reached is not 
always the same. You know, it can vary from state to state, 
from locality to locality. Some of it does have to do with who 
can bring what to the table, though, too, I mean, to be fair. 
There are some localities that are better prepared to 
contribute than others are with equipment and in-kind services.
    Mr. Dicks. I have got some concern that there has been a 
cutback in state and private forestry, and that is probably the 
wrong thing to do, because you need the states and the privates 
to be partners in this, and the Federal Government cuts back 
these programs. It worries me that that is going to have a 
negative effect.
    Ms. Nazzaro. Well, I agree with you that it does need to be 
a partnership arrangement, and that is why, you know, we have 
talked in the past also about the need for having a separate 
fire agency and would that be the answer to a lot of these 
problems. You know, we feel it has to be an integrated 
approach. All the programs have to come into play. The state 
and locals have to be involved. Everybody has got to be 
concerned with cost containment. Everybody has got to be 
concerned with fuel reduction activities. It does need to be an 
integrated approach, and everybody needs to be involved.
    And if you take the cost-sharing issue out of the states, 
then you do not have incentive to reduce the cost, which is why 
we also talked against having a fire agency because if you set 
these funds aside for this agency, then the others are not 
going to be concerned with fuel reduction activities because, 
well, I do not have to deal with that. That is, you know, fire 
suppression. That is their job and I do not have to be 
concerned with it. It is an integrated issue, and it needs to 
be dealt with in that manner.
    Mr. Dicks. Phyllis, do you want to make any comments on 
this?
    Ms. Fong. Well, in terms of the cost of firefighting and 
how they are allocated between the feds and states, we do feel 
that the Forest Service should be looking at the allocation. 
Right now the way we understand it is that if a forest, if a 
fire occurs on national Forest Service lands but the costs and 
suppression are really directed at protecting private property 
in that wildland urban interface area----
    Mr. Dicks. Right.
    Ms. Fong. That there should be a way to negotiate the costs 
so that the state and local governments pick up some of that. 
And the reason we are advocating this is because we think that 
this is an appropriate allocations of costs. We believe that 
the state and local governments need to have some incentives so 
that they can encourage homeowners to enact more fire-wise 
protections; to clear the area around their houses, to use 
certain kinds of shingles on their roofs, which will in the end 
reduce the cost of firefighting.
    And we think this is one way to get at one of those cost 
drivers. So we are encouraging the Forest Service to talk to 
the state and local governments, renegotiate these agreements, 
and try and pass some of those costs to the localities.
    Mr. Dicks. Mr. Simpson.

                       COMMUNITY FIRE PROTECTION

    Mr. Simpson. You just hit on what I was going to ask and 
that is the forest or the Forest Service policies, have we 
looked at what they are doing to encourage fire-wise 
management, because you are not going to get control out of 
this unless the homeowners are involved in trying to create a 
fire-wise space around their homes and that type of stuff.
    And also, when we look at, if a forest fire starts on 
Forest Service land and moves into private land, we are looking 
at then having the local communities and homeowners pay a cost 
of that. What about when a forest fire starts on private land 
and moves into the public forest? I understand that they can 
then recover the cost from the private landowner.
    Ms. Fong. I do not know that deep, that level of detail on 
that issue, but you are exactly right. We think there needs to 
be a way to incentivize homeowners and state and local 
governments to really take stronger measures, because the 
rising cost of fires is what is really driving the cost of 
suppression.
    Mr. Simpson. Right.
    Ms. Fong. And so if homeowners and state and local 
governments can start doing preventive and proactive 
activities, that will in the end bring the cost of suppression 
down.
    Now, the Federal Government does not control local 
ordinances as you mentioned. So we need to figure out ways to 
incentivize them, state and locals, to make this more of a 
matter of urgency.
    Mr. Simpson. Well, and that is one of the reasons we are 
doing things like conservation easements and stuff in forests 
so that they are not developed because you can go up, you can, 
you know, fly a helicopter up the side of a mountain, and you 
can see little houses poking out everywhere up there. When that 
goes up in flames, and it will go up some day, those houses are 
going to go up with it.

                        OVERSIGHT OF ARRA FUNDS

    One other question or a couple other questions. The 
Inspector General has a huge job in overseeing the Forest 
Service and what they are doing and so forth and so on. How are 
you planning to oversee the stimulus funds that are going into 
the Forest Service now?
    Ms. Fong. Yeah. We were actually talking about that this 
week. We brought all our audit managers into Washington to 
figure out how we are going to provide that oversight. We have 
already started to talk with the Forest Service to determine 
how they plan to spend their stimulus money. We are engaged in 
developing a number of audits in some of the areas we have 
talked about; forest health, wildfire suppression.
    There is also an area, biomass grants, woody biomass, where 
we have in the past noted some difficulties with grant 
management in the Forest Service. And so we plan to focus on 
grant management under the Stimulus Bill to go in there and 
talk with the Forest Service and say, look--you really need to 
make sure that when you put those monies out that the monies 
are for expenses that are properly vouchered and there are 
receipts for that.
    So we have, we are developing our oversight plan now, and 
we have got----
    Mr. Simpson. Are you planning on hiring more personnel?
    Ms. Fong. We plan to hire between 20 and 30 new audit staff 
and about 10 new investigators to deal with the whistleblower 
complaints that we anticipate.

                       ALBUQUERQUE SERVICE CENTER

    Mr. Simpson. Okay. Whose idea was it to consolidate 
activities at Albuquerque?
    Ms. Fong. I believe it was the Forest Service's.
    Mr. Simpson. Under the recommendations of anybody in 
particular? Was that GAO that made those recommendations or--do 
you believe it has been a success?
    Ms. Fong. From all indications, yes. It seems to be running 
much more efficiently.
    Mr. Simpson. It is interesting, because I talk to people 
actually on the ground in the forest across this country, or at 
least in the West. One of the big complaints they have is that 
consolidation at Albuquerque and the difficulty it has made 
their job, and they will tell you almost to a person that I 
talked to that the morale in the Forest Service has gone 
through the floor because of that.
    Ms. Fong. That is interesting information.
    Mr. Simpson. Yeah.
    Ms. Fong. Yeah. Thank you.
    Mr. Simpson. It is something that I think this committee 
wants to look at, whether that has been successful or not and 
stuff.
    You know, we have a tendency, and whenever something goes 
wrong, and you know as well as I do that in a government of 
this many employees there is going to be some crooks. We find 
that even in Congress that occasionally there is one. 
Fortunately those guys are in jail.
    But there are going to be some people that skirt the rules, 
do things they should not like the embezzlement of the $650,000 
or whatever it was. Then we have a tendency to go in and say we 
have got to stop this from ever happening again, put in rules 
that make it more and more difficult for honest people to do 
their job. And no matter what rules you put in place, somebody 
is going to violate those. If you are a crook, you are a crook. 
You are going to violate whatever rules.
    And the question is not how can we ever prevent that from 
ever happening again, because we will never prevent----
    Ms. Fong. Uh-huh.
    Mr. Simpson [continuing]. Any malfeasance from ever 
happening, but are they getting caught? Are we finding it out 
and catching them? And that to me is the measure of whether the 
measures that we put into place are effective.
    But sometimes we put in things as I talk to people at work 
in the forest that have made it tougher and tougher for them to 
do their job. And it is something that I think we ought to look 
at. I mean, it is as simple as talking to a guy who works in 
the Forest Service. He has snow machines and stuff that are 
Forest Service owned, trucks, all this kind of stuff. He has 
got a credit card for each snow machine, each truck, everything 
else. You know, of course, if he does not have the right credit 
card for the right snow machine, then he has got to call his 
boss, and if she does not happen to be at her desk, then he is 
stuck at a gas station waiting for her to get back from 
wherever so that he can get gas in the snow machine to get 
wherever he has got to go and that kind of stuff.
    And consequently morale has just gone through the floor, 
and it is something that I think we really ought to look at how 
we are managing all this.
    Ms. Fong. Well, I appreciate that feedback, and we will 
factor that into our reviews. Thank you.
    Mr. Simpson. One last thing. I will be interested in the 
report that you put out on the aerial, the need for the forest 
firefighting with our aerial fleet and stuff.
    Thank you.
    Ms. Fong. Okay.
    Mr. Olver [presiding]. Mr. Calvert.

                       DEFENSIBLE SPACE CONCERNS

    Mr. Calvert. Thank you, Mr. Chairman. I would just make a 
comment. There was some discussion about the Forest Service 
working with the local communities about clearing around the 
homes and being proactive about clearing out potential fire 
areas. I want to bring up a couple of fires in the past and 
some of the difficulties we have had in California.
    One was the Winchester fire in the early 1990s, where the 
homeowners were not allowed to clear around their homes because 
of conflict with the Endangered Species Act for the Stevens 
Kangaroo rat. This was a somewhat famous case. The people were 
not able to clear, wanted to clear, could not get permission 
from the Fish and Wildlife Service--I mean, Cal Fire and other 
agencies wanted to clear. Fish and Wildlife would not allow it 
happen at that time. Of course, the fire eventually happened, 
the houses got burned down, and of course, the rats did not do 
very well either.
    And then there was the Laguna Fire or the Emerald, I think 
they call it the Emerald Fire at Emerald Bay, California, where 
Emerald Canyon, which was habitat for the California gnat 
catcher, they were not allowed to do controlled burns to bring 
down the fuel load within Emerald Canyon. Of course, the fuel 
load continued to build, and eventually there was a 
catastrophic fire. It burned the entire Emerald Canyon to a 
crisp, along with 450 homes along the California coast. And all 
the gnat catchers were killed in the process.
    So, you know, at some point common sense has got to get 
involved, because sometimes you have a conflict within federal 
agencies. You will have the Forest Department or the Forest 
Service and other agencies understanding what they need to do 
to control or to manage the situation, and you will have 
another agency who at that point trumps safety and prevention.
    So I just bring that point to get on the record because I 
think all of us have seen this conflict in the West. So we need 
to make sure that when we put together a management plan that 
other agencies are brought in to this and understand that there 
has to be reasonable compromises made to protect lives and 
property and wildlife that they are ultimately trying to 
protect. Thank you, Mr. Chairman.
    Mr. Olver. Thank you. Mr. Cole.

                AERIAL RESOURCES: EXTENDING SERVICE LIFE

    Mr. Cole. Thank you, Mr. Chairman. I wanted to focus just a 
moment on the aerial firefighting issue that Mr. Simpson raised 
and that is a lot of your report, and by way of preface we had 
an outbreak of wildfires, we have very little federal land in 
Oklahoma, but the assets were available, and they were 
incredibly valuable in saving property. And, you know, we 
obviously use these well beyond federal land. We use them any 
place you have got a problem.
    And so one, can you tell us, well, I will offer a second 
observation. The United States Air Force is actually awfully 
good at keeping old airplanes in the air. You know, the entire 
tanker fleet for the United States, almost all of it is, you 
know, KC-135. The last one was built in 1962. We have over 500 
of them in service, and they are periodically totally redone at 
Tinker Air Force Base. I mean, so there is a technology to keep 
old planes flying for a very long time and people that know how 
to do it. So I am just curious, is there any discussion between 
the Forest Service, I mean, I would rather them have new 
equipment, I will just be honest with you, because I think you 
do go through it, but, again, we are talking about tanker 
planes that are 50 years old and older that are in combat 
conditions, you know, in Iraq and Afghanistan, places like 
that. So they are getting as much wear and tear as any plane 
flying inside the United States, if not more.
    Ms. Fong. We are focusing on the air tanker fleet, and as 
you mentioned, when planes are flown in circumstances for which 
they were designed, they can operate 40, 50, 60 years and do 
just fine if they are well maintained and certified and all of 
that happens.
    What we are seeing in the Forest Service is that the Forest 
Service has purchased a number of old military planes as you 
know, which were not really designed to do firefighting kinds 
of activities. And so the Forest Service has focused on this. 
They had a number of blue ribbon panels came and make some 
recommendations on how to address this issue, and some of the 
findings that have come out have been that when you put a 
military air tanker into a situation where they are flying up 
and down, the air currents are very dense, they are making more 
flight hours than they probably should be making, and the 
Forest Service maintenance program is not what it should be, 
that, in effect, these planes are aging at a rate of seven 
years to one. They are aging much more rapidly than they should 
be.
    And so the best estimate that these blue ribbon panels are 
coming up with is that these air tankers by 2012, or so will 
start, stop being effective, and there needs to be some 
reasonable approach to replacing them. Otherwise we are going 
to see some safety issues, we are going to see, you know, 
potential crashes, and certainly we do not want to have that 
happen.
    Mr. Cole. Is there any discussion literally about working 
directly with the military, both in terms of designing 
maintenance routines and periodic overhauls, typically since 
these are military aircraft in some cases?
    Ms. Fong. We are not aware of any of those discussions.
    Mr. Cole. I do suggest maybe they ought to, but again, I do 
not disagree at all if you do not have the airplanes when you 
need them, it is just terrible. So this is a national 
investment, and we ought to be willing to make it at the end of 
the day. And what I do worry about if that flight, fleet ends 
up largely grounded and you have massive outbreaks, it is not 
like you can go get one. There are not a lot of these things 
around.
    So you really do have to have the inventory available and 
ready to go at a moment's notice. So, anyway, well, thank you 
for focusing on that. It is a huge problem.
    Ms. Fong. Thank you.
    Mr. Olver. Thank you. I am going to make one short comment 
in a question and then close the hearing, and I just want to 
let the staff know and members know that they have three days 
to submit questions for the record to the staff or the other 
committee members who are here.
    I am very curious about your comment about incentivizing 
local communities and state governments to take on some of 
these costs which otherwise now are being taken on by the 
Federal Government. My guess is that the effort would probably 
cost the Federal Government more to incentivize them, and I am 
curious. This is a question for the record. Is there an 
analysis of what sort of mechanisms you might use for 
incentivization of the local communities to do that? We would 
like to see it.
    Ms. Fong. Okay.
    Mr. Olver. Thank you.
    Ms. Fong. Thank you.
    Mr. Olver. Thank you very much. And with that the hearing 
is adjourned.

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, March 31, 2009.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                    NATIONAL ENDOWMENT FOR THE ARTS

                                WITNESS

THE HON. LOUISE McINTOSH SLAUGHTER, A MEMBER OF CONGRESS FROM THE STATE 
    OF NEW YORK

                     Opening Statement of Mr. Dicks

    Mr. Dicks. We are here today to celebrate both the role of 
art in our daily lives and its impact on who we are as 
Americans. This subcommittee has a long history of supporting 
the arts. We provide the funding for many of the Nation's most 
treasured cultural institutions, including the Smithsonian 
Institution, National Gallery of Art, and the Kennedy Center. 
We also fund the National Endowment of the Arts, and the 
National Endowment for Humanities.
    I am pleased to note for fiscal year 2009 we were able to 
increase both endowments by 14 percent over the previous year. 
In fact, during the last Congress we added 63 million dollars 
to the request received from the prior administration. As you 
can see on the charts displayed here, through this 
subcommittee, Congress has provided 155 million dollars for NEA 
in regular 2009 appropriations. That was a 21 percent increase 
above the budget we received from President Bush. We hope to be 
able to continue to provide increases in the coming year.
    As you can see on the other chart, this industry supports 
5.7 million jobs and has annual expenditures of $166 billion. 
That is why this committee insisted on including an additional 
$50 million for the NEA grants through the American Recovery 
and Reinvestment Act. That $50 million plus the $155 million I 
mentioned earlier gives the NEA a total of $205 million in 
fiscal year 2009. That is the most money ever provided to the 
NEA in one year. We did this because we simply could not and 
cannot ignore such a vibrant portion of our economy.
    Leonardo DaVinci once wrote that to develop a complete mind 
one must ``study the science of art, study the art of science, 
develop senses to learn how to see and only then realize that 
everything connects to everything else.'' I cannot question the 
logic of such a great artist and wise man. We know that the 
study of art and music connects us with our world. We also have 
learned since his time that the study of art and music makes us 
better students by improving our understanding of logic, math, 
and many other subjects.
    Just as important, the Federal investment in the arts 
creates jobs and contributes to the economic base of many of 
our communities.
    We have before us today an impressive panel of artists and 
art advocates, all of whom are uniquely qualified to explain 
why the arts and arts education are important. I want to thank 
Americans for the Arts for helping to organize today's panel. 
At the appropriate point I will ask their President, Robert 
Lynch, to introduce the panel and we will call them up 
individually to testify. I want each witness to know that we 
appreciate the time they have taken to appear before us.
    Our panelists all have different roles in the arts 
community and bring their different perspectives to our hearing 
today. Some of you finance art programs, others of you manage 
art programs, and still others perform. Many more of us here 
today simply listen to, watch, and enjoy the arts. And I think 
we can all agree, and I know we will hear this today, the arts 
make our lives better. We know that arts teach us and, just 
like DaVinci wrote so many years ago, we understand that art 
makes us more intelligent and complete human beings.
    Our challenge today is to make the case for increased arts 
funding, which will in turn fund programs that will reach more 
communities, more students and more budding artists.
    For our first panel today, we have two Members of Congress 
devoted to the arts and who support Federal funding for the 
arts. Congresswoman Louise Slaughter and Congressman Todd 
Platts are the cochairs of the Congressional Arts Caucus. We 
are pleased to have them here today.
    Chairwoman Slaughter, before I turn this over to you, I 
want to call on Mike Simpson, our new ranking Republican 
member, who is a strong advocate for the arts as well from 
Idaho for his opening remarks.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman. As you can imagine, 
there is a great deal of excitement about the extraordinary 
talent represented in our fine panel of witnesses for today's 
hearing, and I am not just talking about Congresswoman 
Slaughter and Congressman Platts.
    Ms. Slaughter. We are pretty sure of that.
    Mr. Platts. We know that.
    Mr. Simpson. You have talent in your own ways.
    Wynton Marsalis, Josh Groban and Linda Ronstadt are among 
the finest and most accomplished musicians of our time. Their 
body of work spans not only decades, but many different genre 
of music.
    As a long time supporter of the arts and sometimes called a 
struggling artist myself, I look forward to each of you sharing 
your views on the Federal role in supporting culture in the 
arts.
    My own State of Idaho has a distinguished record of service 
with the National Council on the Arts. It may surprise you that 
our small state has produced two National Council members, Mark 
Hofland, who recently stepped down from a 3-year term of 
service, and Louise McClure, the wife of a great statesman, 
Senator Jim McClure, who served on the council from 1991 to 
1997.
    I have to admit when I heard that Linda Ronstadt would be 
appearing before our subcommittee today I was tempted to make 
my opening statement a compilation of all my favorite Linda 
Ronstadt lyrics. I was going to open my remarks by saying, 
people say I am the life of the party because I tell a joke or 
two. And I was going to complain to, Chairman Dicks that while 
this is the first time in my career I guess for the last 3 
years, that I have been in the minority, that I have been 
cheated, I have been mistreated, and ask when will I be loved. 
But this wouldn't be true because Mr. Dicks and I have a great 
working relationship.
    Mr. Cole. Why don't you to go back to Blue Bayou?
    Mr. Simpson. Linda, your music is so prolific that there is 
no way I could possibly work all of your lyrics into my 
statement in the short time allowed this morning. However, let 
me assure my friends that as a member of the minority party I 
know a thing or two about crying like a rainstorm and howling 
like the wind.
    In all seriousness, it is wonderful to have each of these 
witnesses here today to share your insights and, I hope, their 
music.
    In closing, let me say this: I don't know much, but I know 
I love the arts and that may be all I need to know. Thank you, 
Mr. Chairman.
    Mr. Dicks. Thank you, Mike. I am going to call first on 
Louise Slaughter.
    Ms. Slaughter. Mr. Cole.
    Mr. Dicks. We hear first from the Chair and Ranking Member 
and then the witness. Louise Slaughter is Chair of the Rules 
Committee, one of the outstanding Members of Congress, and she 
has been a long time advocate for the arts. When we were in the 
minority, Congressman Simpson, she and I would go to the floor 
and offer these amendments much to the chagrin of others. But 
it always sparked a genuine debate on the House floor about the 
importance of art all over the country. Witness after witness 
would come up and talk about their community and what the arts 
meant to them. And Louise, I have always enjoyed working with 
you on this, and we are honored to have you here today. You may 
proceed, Chair Slaughter, as you wish.
                              ----------                              --
--------

                                           Tuesday, March 31, 2009.

    TESTIMONY OF MEMBERS OF CONGRESS AND INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS


                                WITNESS

HON. TODD RUSSELL PLATTS, A MEMBER OF CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Dicks. Congressman Platts. We are very pleased to have 
you, I think this is the first time you are testifying here.

                        Statement of Mr. Platts

    Mr. Platts. Yes, thank you, Mr. Chairman, Ranking Member 
Simpson, committee members, delighted to have the opportunity 
to testify before the subcommittee. I am delighted that my 
cochair had to follow Mike's opening statement, and I am 
delighted to share the table here with my distinguished 
colleague who has been long-time champion of the arts, 
Representative Slaughter.
    I want to add two thanks before getting into my testimony, 
that is one to my predecessor as cochair, Chris Shays, who was 
a great advocate for the arts many years, cochaired with 
Representative Slaughter the Arts Caucus, and know that I have 
big shoes to fill in succeeding him in this role.
    Also to the true artists and talented individuals who will 
be on the second panel to their testimony and their willingness 
to be here and give of their time and advocate before your 
subcommittee is much appreciated.
    The arts enrich and improve the lives of all who encounter 
them by providing educational value, therapeutic services, and 
positive economic impacts to local communities. It is for these 
reasons that I believe the Federal Government should continue 
to provide investments to the Federal arts programs, the 
National Endowment for the Arts and the Arts in Education 
Program.
    For over 40 years the NEA has provided steady investment to 
the arts infrastructure across this great Nation of ours. 
Funding arts programs that emphasize a wide variety of art 
activities such as dance, literature, music and theater, the 
NEA is able to engage Americans with varied interests. The NEA 
partners with State arts agencies to serve all corners of the 
United States and funds grant programs, as my cochair said, in 
every one of our congressional districts.
    The arts play a critical role in educational and cultural 
well-being of all American citizens. A study published by the 
National Assembly of State Art Agencies and the Arts Education 
Partnership found that students with an education rich in the 
arts have better grade point averages in core academic 
subjects, score better on standardized tests and have lower 
dropout rates than students without arts education.
    The NEA not only provides educational programs for adults 
but also creates partnerships between arts institutions and 
kindergarten through twelfth grade educators to ensure that 
children and young adults are engaged in participatory learning 
programs.
    In addition to the thousands of grant programs administered 
by the NEA, it also operates a number of Nation initiatives 
aimed at engaging art scholars of all ages. One example is The 
Big Read. The Big Read gives communities the opportunity to 
come together, to read, discuss and celebrate selections from 
American and world literature. The NEA equips schools, 
libraries and other community organizations with reading 
materials, discussion guides, DVDs and additional resources to 
hold panel discussions, exhibits and theatrical readings 
related to the stories.
    Another example of an NEA national initiative is Operation 
Homecoming. The NEA created Operation Homecoming in 2004 to 
help U.S. troops and their families write about their wartime 
experiences. Through this program some of America's most 
distinguished writers have conducted workshops at military 
installations and contributed to educational resources to help 
the troops and their families tell their stories. Operation 
Homecoming hosted 59 writing workshops at Department of 
Veterans Affairs medical centers, military hospitals, and 
affiliated centers and communities around the country. In 
tandem with the workshops, the NEA offered an open call for 
writing submissions to active military personnel and their 
families.
    This ongoing call has resulted in more than 1,200 
submissions and 12,000 pages of writings. Almost 100 of the 
submissions to the NEA were featured in the anthology Operation 
Homecoming: Iraq, Afghanistan and the Home Front in the Words 
of United States Troops and Their Families.
    I commend the subcommittee for its past support for the 
NEA. The last 2 fiscal years included an increased investment 
in the arts through the NEA. This funding was critical in 
maintaining the NEA's ability to help local arts agencies 
maximize their economic and social contribution to our 
communities. The nonprofit arts industry generates, as was 
stated, over $166 billion annually in economic activity and 
returns over $12 billion in tax revenues to the Federal 
Government. In fact, for every one Federal dollar invested in 
the arts, almost $9 are returned.
    Through their thousands of grant programs and national 
initiatives, the NEA has exposed a countless number of 
Americans to the arts in a cost effective way. I urge the 
subcommittee to continue its important work and support for 
this investment, and provide additional funding as available 
for the NEA in the fiscal year 2010 Interior appropriations 
bill.
    And although I would be honored to submit this for the 
record, I more proudly want to display it to my office, my 
latest addition to what I call the T.J. And Tom Art Gallery. 
T.J. is my 12-year-old and Tom is my 10-year-old. And unplanned 
this was given to me last night by my just turned 10-year-old 
son Tom, his latest artistic addition, creation, that will be 
proudly displayed in my D.C. Office. As I said this morning at 
arts breakfast, the T.J. And Tom Art Gallery is always open for 
view by any and all. So I welcome your visits to the office, 
and again thank this committee and your leadership, Chairman 
Dicks, Ranking Member Simpson, for your support for the arts, 
and I yield back.
    Thank you, Mr. Chairman.

                       LINKING ARTS AND EDUCATION

    Mr. Dicks. Thank you both for outstanding statements. Again 
I think the link here to education is what needs to be talked 
about. As we are trying to educate our children, if they are 
exposed to music or engaged in playing an instrument or 
involved in dance or opera maybe, you know, all of this 
contributes to their academic development. I think the evidence 
for that is very strong, and so making sure that art programs 
are linked with the educational programs I think is crucial.
    Mr. Simpson.
    Mr. Simpson. Thanks, Mr. Chairman. I don't have any 
questions, but there is one name that we haven't mentioned 
today, and that is the Chairman of the NEA, Dana Gioia, and the 
tremendous job he has done over the last several years----
    Ms. Slaughter. A wonderful job.
    Mr. Simpson [continuing]. In leading the NEA and really I 
guess establishing credibility among Members of Congress, and I 
don't think we should let him go without thanking him for the 
tremendous work he has done.
    Ms. Slaughter. Oh, absolutely.
    Mr. Simpson. He really has done a tremendous job. I think 
last year they did a project in each 435 Members of Congress's 
districts, which is both smart politically but the right thing 
to do to try to get the arts out to the rest of America. There 
was a time when a lot of people thought that the NEA was 
interested in doing the arts in New York and San Francisco and 
other places. But he gets it out to Salmon, Idaho, which is 
very, very important. And I think we should thank him for the 
job he has done over the last several years. Thank you.
    Ms. Slaughter. I agree with you. And one of the things he 
was a renaissance man, he wrote incredibly beautiful poetry. As 
a businessman every place I went with him I was astonished. He 
had ideas on how everybody could improve their business. But 
what he was dedicated to was to try to get Americans to read 
again, and I think he made a big difference in that. And his 
Shakespeare program that he did in high school was very, very 
remarkable.
    Mr. Platts. I have seen that in the Big Read Program in my 
district. As you said, that reach-out participated in the kite 
runner book back in the district. And throughout my district 
the libraries are all coordinating the Big Read and getting 
people to not just read but come out and participate and it 
would lead to discussions and dialogue with all corners. And 
your accolades to him and the NEA are well earned.
    Mr. Dicks. Mr. LaTourette.
    Mr. LaTourette. I don't have any questions.
    Mr. Dicks. Mr. Cole.
    Mr. Cole. No questions.
    Mr. Dicks. Well, thank you very much for being our lead-off 
panel, and we appreciate your being here and your leadership in 
the House on these issues.

                       Statement of Ms. Slaughter

    Ms. Slaughter. Thank you very much.
    Delighted to be here this morning again Chairman Dicks. I 
said this morning that the Dicks and Slaughter combination has 
been working pretty well, I think. And delighted to see you, 
Mr. Simpson. I think you and I could have done a mean duet 
here, I wouldn't be surprised. Mr. Cole, how nice just to be 
here with you as well this morning.
    I couldn't make it as a blues singer, so now I am a Member 
of Congress and see if I can make that stretch out here a 
little. We are happy to be here with you, because it has always 
been such a pleasure, Mr. Dicks, for your great strength and 
courage and what we have worked through together to support the 
National Endowment for the Arts. Thank you for that. It is a 
pleasure to work with you every single year. And I appreciate 
all your efforts. But I especially want to thank my cochair 
this morning, Congressman Platts, for joining me. Congressman 
Platts is from Nebraska, he has been really quite a leader. We 
are planning some great things to do together and I am 
delighted to have him as cochair.
    Thank you all for your help in getting the $50 million for 
arts this year. I think a lot of people learned a lot about 
what arts means to the United States during that debate.
    As you recognize, our creative industries have not been 
immune to the ongoing economic crisis. In fact, they have been 
particularly hard hit. As corporate donations decrease, 
consumer spending on arts and cultural activities dwindle, as 
organizations struggle to maintain their budgets in the arts 
and humanities funding declines, estates struggle to manage 
their fiscal challenges.
    The NEA funding is being used to directly support employee 
positions that are critical to an organization's artistic 
mission and that are in jeopardy or have been eliminated as a 
result of the current economic climate.
    This funding is being distributed in a timely and targeted 
manner to our most deserving organizations. And again, Mr. 
Dicks, I deeply appreciate all of your efforts to ensure that 
they get the proper recognition they deserve.
    As our Nation continues to shift from an industrial 
manufacturing economy to one based on ideas and information, 
the cities and States increasingly recognize that the arts and 
culture are important economic assets. They create a hub of 
economic activity that helps an area become an appealing place 
to live, to visit, and to conduct business. Industries also 
create jobs, attract investments, generate tax revenue, and 
stimulate local economies through tourism and urban renewal. 
And that is why both the National Governors' Association and 
U.S. Conference of Mayors agree that investing in arts and 
culture-related industries provides important economic benefits 
to both local and regional economies.
    It is also no surprise that America's overall nonprofit 
arts and culture generates $166.2 billion of economic activity 
every year. The national impact is significant, it supports 5.7 
million jobs, and generates $29.6 billion in government 
revenue. Think about that for a moment. The small amount of 
money that we put in we get back $29.6 billion. Art more than 
pays its way, we are not giving gifts to anybody. We are 
helping to support something that means so much to the economy 
of our country.
    Increasing funding is a proven mechanism to help facilitate 
the regional economic growth. The NEA is the largest national 
source of arts funding in the United States. Forty percent of 
all NEA program funds, approximately $47.8 million in fiscal 
2008, are distributed directly to State art agencies, ensuring 
that Federal funding reaches every State in the country.
    Moreover, in fiscal year 2008 the NEA awarded nearly $122 
million through more than 2,200 grants reaching all 435 
congressional districts. And while the budget represents less 
than 1 percent of total arts philanthropy in the United States, 
the NEA grants have a powerful multiplying effect, with each 
grant dollar typically generating 7 to 8 times more money in 
matching grants. No other Federal agency or private 
organization facilitates nationwide access to exceptional art 
to this extent.
    In the late 1980s and early 1990s Congress funded the NEA 
at $170 million to carry out its mission to support excellence 
in the arts and to ensure that all Americans have access. But 
the NEA's funding was slashed in 1995 and 1996 and has never 
really recovered from the 40 percent budget cut that it 
sustained.
    2008 was a breakthrough year for the arts as the NEA 
received nearly $20 million increase in funding, thanks to your 
hard work, Mr. Chairman. We all appreciate the $10 million 
increase for the NEA in fiscal 2009. Nevertheless, its 
invaluable programs remain seriously underfunded and the agency 
continues to struggle to meet the growing demand for its 
popular programs.
    From the work of nonprofit arts agencies to the impact of 
cultural tourism, the creative sector is important to State 
economies all across the country. Federal support for America's 
nonprofit cultural organizations must go on if we hope to 
continue enjoying the substantial benefits that they bring. In 
addition, we must continue to cultivate arts to expose our 
children to the arts. It is essential if we ever hope for them 
to reach their fullest potential.
    Exposure to the arts fosters learning, discovery and 
achievement in our country. Research has proven that 
participation in arts education programs stimulates the 
creative, the holistic, the subjective, and intuitive portions 
of the human brain, and we need all of that we can get.
    Employers today in America and abroad are looking for 
creative and dynamic young men and women to fill their rosters. 
Learning through the arts reinforces crucial academic skills in 
reading, language, arts, and math. Just as important, learning 
through the arts gives young people the skills they need to 
analyze and synthesize the information and to solve complex 
problems.
    Educating children early and continuously in the arts will 
prepare them for work in today's innovative and creative post-
industrial society. But these instrumental benefits are not 
what ultimately draw people to the arts. People seek experience 
with the arts for emotional and cognitive stimulation. We know 
the transformative power of a great book, a painting, or a 
song.
    A work of art can invoke extraordinary feelings of 
captivation, deep involvement, amazement and even wonder. The 
evocative power is so rare in a world where we tend to grasp 
things almost exclusively in terms of their relationship to 
practical needs and purposes. Stimulating this mental and 
intellectual activity only enhances our creativity and 
imagination. Only strengthens our ability to empathize with 
others, deepens our understanding of the human spirit. In 
today's globalized world these factors cannot be ignored. We 
cannot assign a price tag to the intrinsic benefits that the 
arts bestow on individuals and across communities and society 
at large.
    I know that there are many important requests before your 
subcommittee today and there are many Federal agencies 
struggling to overcome funding shortages, but I am compelled to 
ask that you take into consideration the returns we get on our 
investment in the arts. American artists share with us a piece 
of their spirit and their soul with every creation. It is a 
labor of love for artists and it brightens the life for each 
one of us. Bringing us joy, and comfort, enlightenment and 
understanding in ways impossible to find otherwise. The arts 
and the artists of America are our national treasure, what this 
great Nation needs, deserves, and must support as do other 
nations around the globe.
    Let me add one thing that is fascinating to me as a 
scientist. I have learned that the only doctors who really 
understand and know what they are hearing in a stethoscope are 
doctors who studied music. So the next time you have to have a 
physical, ask the doctor if they could play a little piano or 
sing a little song first.
    We would do it, wouldn't we, Mike?
    Thank you very much for the opportunity to testify before 
all of you today, and thank you for your support.
    Mr. Dicks. Thank you, Louise.

                               WITNESSES

ROBERT L. LYNCH, PRESIDENT AND CEO, AMERICANS FOR THE ARTS
WYNTON MARSALIS, ARTISTIC DIRECTOR OF JAZZ, LINCOLN CENTER, AND MUSIC 
    DIRECTOR OF THE JAZZ, LINCOLN CENTER ORCHESTRA
JEREMY NOWAK, PRESIDENT OF THE REINVESTMENT FUND
JOSH GROBAN, GRAMMY AWARD-NOMINATED SINGER, SONGWRITER, AND PIANIST
LINDA RONSTADT, ACCLAIMED SINGER, PRODUCER, AND ACTRESS
    Mr. Dicks. Our next witness is Mr. Robert Lynch, President 
and CEO of Americans for the Arts. Mr. Lynch, I would like to 
ask you to come up and give your testimony and then introduce 
each witness before their testimony. And we appreciate 
especially your help in organizing this hearing. We are all 
glad to work with you and appreciate your leadership on this 
important issue.
    Mr. Lynch. Good morning and thank you.

                         Statement of Mr. Lynch

    So now good morning and thank you all very much, and 
particular thanks to Chairman Norm Dicks and Ranking Member 
Mike Simpson for giving Americans for the Arts this opportunity 
to assemble today's witnesses. And I bring greetings from last 
year's witnesses. Robert Redford, John Legend, Kerry Washington 
all said to say hello. They were a little disappointed that we 
hadn't invited them back this year, and they referred to--and I 
hope this is okay--they referred to this as that fun group. I 
am not sure how often that happens for the Appropriations 
Subcommittee on Interior, but there it is for the record.
    I have submitted written testimony for the record.
    Mr. Dicks. Without objection, that will be included in the 
record.
    Mr. Lynch. Thank you, sir. In that written testimony we 
call for an investment of $200 million in the National 
Endowment for the Arts in 2010. But what I am here to do today 
is to talk about the arts in general, all the arts, literature, 
which has been eloquently spoken about already today, folk, 
visual, performing arts, the creative industries in general and 
the local and State arts agencies that also fund with the local 
government and Federal Government money passing through.
    I actually have only four points to make, but I will take a 
long time to do it, not that long, Congressman. The four points 
are this, thank you for what you have done for 100,000 
nonprofit arts organizations in America.
    Secondly, the arts today are more important and necessary 
than ever in our Nation.
    Third, support for the arts is at risk in our Nation.
    And finally, fourth, you, this committee and Congress, can 
make all the difference with modest action. Those are the 4 
points that I would like to make.
    So starting off with a thank you, Chairman Dicks, with you 
and with Appropriations Chairman David Obey, Louise Slaughter, 
who was here before and others, $50 million in the American 
Recovery and Reinvestment plan is a lifeline that has been 
thrown to thousands of arts organizations and many, many more 
people working in the industry. In this time I just want to 
tell you how grateful the creative industry and community is 
actually to you. It is often overlooked as we know. And the 
fact that it was recognized by you and by Congress and by this 
administration is a very large boon to what they have to do as 
they raise that State money and that local government money 
through the local arts agencies out there.
    I also want to compliment the National Endowment for the 
Arts in what they have done with the recovery money that you 
have given them. They have actually moved faster than I think 
almost any other government agency to put into place a 
distribution mechanism that could be a model for the rest of 
government.
    I also want to thank you for the $10 million that came in 
the 2009 appropriations, 10 million for the NEA, 10 million for 
the NEH. Mr. Chairman, your leadership has put the National 
Endowment for the Arts on a pathway back to that $176 million 
high mark that was talked about before and perhaps beyond at 
some point.

                   THE IMPORTANCE OF ARTS IN AMERICA

    My second point, the arts are important. Last night, and I 
am not sure how many of you were there, but our 22nd annual 
Nancy Hanks Lecture on Art and Public Policy, Wynton Marsalis 
gave one of the most moving, most beautiful, most insightful, 
most valuable demonstrations of the true value of art to every 
American that I have ever witnessed.
    He is going to try to do that hour and a half speech today 
in 5 minutes apparently. But it was the value of art to every 
American from an inherent point of view, but we have to 
understand in addition to how we can understand ourselves as 
humans, how we understand ourselves as Americans. The arts also 
have a very practical side, too. And today's hearing's title is 
actually something that addresses that, arts equal jobs, 5.7 
million jobs in just the 100,000 nonprofit organizations that I 
mentioned. There are actually 686,000 creative art centered 
businesses, for profit and nonprofit out there, 4 percent of 
the American workforce. This is a big asset. Real jobs, local 
jobs in congressional district, jobs that can't be outsourced, 
green jobs. And yes, I think besides the artists themselves, 
there is an entire apparatus of support and ancillary positions 
that get funded.
    So that is why groups like the United States Conference of 
Mayors talked about to the administration this year that they 
wanted 10 things to create a better America, and one of them 
was the arts and arts education. That is unprecedented, but 
they see the value at the local level of the transformational 
value of the arts. So we see the arts as not part of the 
problem, but part of the solution to America's problems and 
hope to be a good partner in there.

                            ARTS IN DECLINE

    My third point, support for the arts is at risk. The 
nonprofit arts are a fragile ecosystem of support. If you add 
all the budgets of the 100,000 nonprofits up, it is $63 
billion, that is a lot. Half of that comes from earned income. 
A lot of people don't know that. These are small businesses 
earning their way with ticket sales. Forty percent from private 
donation with the biggest piece being the individual. And 
government is in there at 10 percent with the biggest piece 
being local, and then State and finally Federal. But the 
Federal investment in the last 50 years is what has leveraged 
all the rest of that industry. It is a model of industrial 
development, if you want to think about it, the Federal 
investment in the arts.
    Today we see some rough news. In the Seattle area in the 
Pacific Northwest a study just finished, funded by the Paul 
Allen Foundation and the Mayor's Office of Cultural Affairs, 
and it showed ticket sales declining 5 to 30 percent, 
contributed dollars in trouble, 7 to 20 percent down, and 
corporate donations down 20 percent to 50 percent because of 
the troubles that those industries are facing. Programs 
canceled, projects delayed and some organizations going under. 
In Boise, for example, corporate funding is down, affecting 
arts grants there. In Phoenix, staff reductions, layoffs at the 
art museum, the symphony, at the Free Arts of Arizona. At 
Theatre West Virginia in Beckley, they had to sell off assets 
because of the loss of its $100,000 State grant. In Greensboro, 
North Carolina, the United Art Council, 5 percent cut in grants 
of all of their organizations. And in Riverside, California, we 
have seen a new cut of 12 percent at the Office of Cultural 
Affairs. So there is trouble out there.
    Finally fourth, you can make a difference. I have a couple 
of charts here. This first chart shows that some 30 years ago 
the NEA received $0.12 per $100 of nonmilitary discretionary 
spending, 30 years ago. Today it receives $0.03 per $100 of 
nonmilitary discretionary spending. If we had maintained that 
same 1979 percentage, the NEA's budget would be $613 million 
today.
    Mr. Chairman, we are not asking for $613 million today, you 
will be pleased, but I would want to point that out for 
context.
    And one other chart, the second chart. In 1992, the NEA 
budget was 176 million. That is the high mark from which it was 
cut. If that had simply kept pace with inflation today that 
budget would be $265 million instead of $155 million. Again, we 
are not asking today for $265 million, but I think it is 
interesting for context. This great investment that did so much 
and still continues to do so much can be funded at a higher 
level. So with that, we hope for $200 million eventual goal for 
the National Endowment for the Arts. We hope that there will be 
the creation of a formal regranting partnership program with 
local art agencies to keep that Federal Government money better 
serving all the congressional districts and all the communities 
out there.
    The arts must not be taken for granted. They are not only 
integral to our lives but to our economy. Most citizens 
appreciate the arts for their intrinsic value. They open new 
horizons and sharpen and challenge our thinking. But everyone 
must understand the essential contribution of the arts to the 
growth of our economy. They provide cultural, economic 
benefits, real jobs for real people. They are the heart of 
countless U.S. industries other than the arts that rely on 
talents fueled by design and creative content. Art centric jobs 
are core to building a new kind of workforce in the 21st 
century global economy according to the Conference Board, and 
the arts are fundamental to putting Americans back to work.
    I thank you for your attention, and thank you for having me 
here.
    [The statement of Mr. Lynch follows:]

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Dicks. Thank you very much for your statement. Are 
there any questions? Mr. LaTourette.
    Mr. LaTourette. Thank you very much for your testimony. I 
apologize for being a couple of minutes late, but I was here in 
1995, as was the chairman, and I think that is it for the 
moment. And the former Chair of this subcommittee, Ralph Regula 
of Ohio, stood pretty tall when there was a move by members of 
my party to eliminate the NEH and NEA. And I would be as bold 
to suggest that his standing up and fighting in 1995 and in 
years subsequent cost him the ability to be the Chairman of the 
Full Appropriations Committee. I don't want this hearing to 
pass, and we all know what the history is, but the history 
could have been a lot worse if it had not been for Congressman 
Regula.

                      CHANGES TO CHARITABLE GIVING

    My question is we had an experience with the Cleveland Art 
Museum, which is renowned around the world. They just did a 
$220 million renovation and expansion. The Federal investment 
was $7 million and the rest was raised through donations. We 
are going to be discussing a budget for the country for the 
next fiscal year this week. Included in some of the drafts that 
I have seen is a change in the way that charitable 
contributions are treated. I have seen figures that if that 
provision becomes successful, it will potentially eliminate up 
to 46 percent of the donations to not only arts organizations, 
but every philanthropic organization.
    I am just wondering if you have taken a look at that and 
what your position is on that.
    Mr. Lynch. We have taken a look at that, and what I would 
say is that if you take a look at the three funding sources 
that I talked about, the earned income piece and the foundation 
piece and the government piece, the number one thing that we 
are hoping for is a bigger, ongoing improvement of the economy 
because that leads to more discretionary spending individual, 
and so on. So anything that is done from an investment point of 
view like what you have been doing here with the committee is 
at the top of our list.
    At the same time we want all the breaks we can get in the 
arts. And although most charitable giving to the arts is at a 
lower level and we certainly welcome the highest levels as 
well. And we want to look at the whole package, be fair, be a 
team player, the arts always are a team player, but within the 
context of wanting to get all the breaks, the top priority is 
simply getting the economy going. We thank you for what you 
have done on that.
    Mr. LaTourette. And lastly I know what the schedule is 
here, but I am a big believer in the arts and job creation, but 
I was somewhat amused when you called arts jobs green jobs. Is 
that because the artists doesn't emit CO<INF>2</INF> when they 
sing? What is a green art job?
    Mr. Lynch. Actually what is interesting is that arts 
organizations all around the country and around the world are 
interestingly taking a big interest in how to make their 
operations more fuel efficient, getting people to take public 
transportation versus always driving, and so on. In fact 
Americans for the Arts is in partnership with Wolf Trap to 
actually do national discussion on this. What we have found is 
that yes, they are doing it because they are good people, but 
also doing it because they save money. They are able to cut 
costs for fuel or lighting or other things like that. So while 
they are not entirely green, they tend to be trying to be a 
little more that way, a little more efficient.
    Mr. LaTourette. Got it. Thank you, Mr. Chairman.
    Mr. Simpson. It is a mixture of yellow and blue.
    Mr. Dicks. Why don't we go ahead and proceed? Why don't you 
introduce your witnesses?
    Mr. Lynch. Great. Well, I am going to introduce each one as 
I ask that witness to come up. I would like to start with 
Wynton Marsalis. And as Wynton is coming up here, let me say 
Wynton Marsalis is, as you know, a world renowned trumpeter and 
composer. He is the Artistic Director of Jazz at Lincoln Center 
Orchestra. Mr. Marsalis made his recording debut in 1982, and 
has since recorded more than 30 jazz and classical recordings 
which have won him nine Grammy awards.
    An internationally respected advocate and spokesman for 
arts education, Wynton Marsalis has received honorary 
doctorates from dozens of universities throughout the United 
States. He delivered the Americans for the Arts' 22nd annual 
Nancy Hanks Lecture on the Arts and Public Policy this year 
last night.
    I am very honored to ask Wynton Marsalis to join us.
    Mr. Dicks. Wynton, welcome and congratulations on your 
speech last night. I heard many people this morning talking 
about it and it was certainly extremely well received.

                       Statement of Mr. Marsalis

    Mr. Marsalis. Thank you very much. Chairman Dicks, it is a 
pleasure to be here.
    It is a great honor and pleasure to be here again to speak 
to you all about the arts. I notice Mr. LaTourette was talking 
about the Cleveland Art Museum. And the Director that brought 
that museum to such promise was a man named Bob Bergman. I met 
Mr. Bergman, and we both received honorary doctorates about 15 
years ago. We were in the line and we were talking and I asked 
him if he could give me an education. I told him I was not 
familiar with some of the more modern art that he liked. I 
said, could you give me a tutorial? He said, well, when you 
come to Cleveland, call me and I will take you through the 
museum. We had a gig in Cleveland and I called Mr. Bergman and 
we got together and he convinced me to do an educational film 
and talk about the art work. So he sent me pictures of all the 
art before and said study these art works and when you get to 
the museum you come an hour and a half early, I will take you 
through the museum and we will discuss all of these works, and 
then I want you to talk about them on film and act like you 
know what you are talking about. I said, okay.
    So we went through the museum, and one piece that he was 
very proud of was the earliest piece in the museum, which was 
called the Star Gazer. It was a small figure, kind of milky 
white color with a flat head pointing up to the heavens. I 
looked at it. I said, okay, you love this, okay. He said, do 
you notice the optimism in this piece? I said, not necessarily. 
He said, that is because you don't know anything about art. He 
said, look at it. So I looked at it, I kept looking at it. He 
said, think about this, that somebody that long ago was looking 
at the heavens with that type of awe, that type of reverence 
and that feeling. And just look at the piece and allow the 
feeling of the person that created that piece to come into you.
    He told me those things. I looked at it and I began to see 
the piece another way. And as we continued our tour he took me 
through the history of the arts and American arts. We talked 
about Stuart Davis, Romare Bearden, a lot of artists that I 
knew about, French artists, Matisse. And he said, this is all 
our heritage. It is important for all of us to know this. And I 
told Mr. Bergman, I reflected on my own education. I had a very 
good education, I went to a good school, had good teachers, had 
the opportunity to meet many, many great artists. But many 
times when I was in their presence because of the nature of my 
education, I didn't really understand what made them important. 
I didn't understand what the value was of the arts.
    Mr. Bergman has passed on, but one thing that I will tell 
you that was very significant also in that day is he had a 
group of students come, he had me speak to students. We did a 
benefit at the same time and we talked to kids about music and 
how it comes together with art, and the fact that all of us in 
the arts are part of one big family and we train the senses and 
we train memory. And it gives us confidence to face the world 
that we are a part of something that is great and something 
that is important and something that is very significant.

                     ARTS BRINGING PEOPLE TOGETHER

    We always talk about our kids and our children. The 
question always is what do we want to pass on to them. But what 
about our senior citizens, too? The thing that the arts does is 
it integrates all of us. At our organization, Jazz at Lincoln 
Center, we always say we don't believe in any gaps of any kind. 
There is no such thing as a generation gap.
    I will tell you a story of how our band got together. In 
the story of that band there is also something important about 
education and important about the arts. Because the thing that 
always hurts you is what you don't understand, that you don't 
know. So I had played music for many years. And we had a band 
that got together and all the surviving members of Duke 
Ellington's great band from 1955 to 1974 were going to play 
with members of my septet, and we were all in our late 
twenties, early thirties. So we sit down in this rehearsal with 
all these old men, they were like our grandfathers. We start to 
play and of course we are used to playing loud. We don't know 
that it is loud, because we have only played loud our entire 
lives. We have no idea we are playing loud. That is how we 
play, loud. So we start playing and the great Frank West, who 
actually was not a Duke Ellington band member but a Basie 
member stopped the band and asked the question, why do you 
young--play so loud? That was the first time any one had ever 
told us we were playing too loud. We started thinking why are 
we playing so loud? Why are we playing so loudly? He said, when 
you play that loudly, you cannot hear anything that is going 
on. And if you can't hear, you can't play music. So from that 
moment we started to concentrate on playing at a much softer 
volume.
    In that experience we began to understand that there is no 
such thing as a generation gap. We learned so much from those 
members of the Ellington orchestra and the Basie orchestra 
about how to project our own personalities, how to play in 
balance, the significance of living history, the fact that we 
are part of a continuum and that continuum has produced some of 
the greatest art on the face of the planet earth.
    The question for us is why don't we feel it is important 
for our kids to know this? Why is it there is always a struggle 
for us in the arts to say that the American identity is 
something significant to bring to the world. Why is it always 
the feeling that the arts is the last thing to think of?

                         ARTS AS COMMUNICATION

    I am going to conclude by saying that many times we justify 
training in the arts to say it helps people with math or it 
helps them with sciences. Music is super math, math helps 
people with music. We don't play music to learn how to add, we 
know how to do that, calculus. Music is a way to converse and 
to face the world with confidence. Our country has produced 
some of the greatest musicians, some of the greatest thinkers 
in the arts, some of the greatest poets. It is incumbent upon 
us to take a leadership role and say these things are important 
to us.
    In this time, at our time of need, it is important for us 
to return to our real identity and to integrate our country in 
fact because it already is. We are talking about John Philip 
Sousa, John Philip Sousa's music and the marches, how they 
related to ragtime, and how ragtime is related to two-beat 
music.
    As we go around the country, around the country and meet 
with people all the time, I often wonder why would 60 or 70 
parents in Brighton, Illinois wait for an hour and a half to 2 
hours after a concert so that their kids could meet with some 
musician from somewhere to talk about music. Why do people wait 
in Sacramento, California? Why do people wait in all kind of 
towns, small, large, hours after concerts with kids, 2, 3, 30?
    Why do band directors and other teachers drive 200 miles to 
a gig, go to a 2-hour concert and sit and wait when they have 
kids to get home so that you can address them for 30 or 40 
minutes after a concert, to talk to their kids about how we are 
all together and the significance of our music? Why do people 
have such emotion around this issue? It is because we know they 
know that it is the life we have lived and the most significant 
thing for us to pass on to our kids the best of who we are.
    So I am deeply honored to be here and to speak about the 
arts. There is no greater task that confronts our Nation in 
this time than coming to grips with who we are in an artistic 
standpoint. Bless you, bless you, two times. The arts are laid 
out for us, the artists have done their work, Thoreau did his 
work, Whitman did his work, Duke Ellington did his work, John 
Philip Sousa did his work, Gershwin did his work. It is up to 
us to capitalize on the riches that they have bequeathed us and 
to see that this stuff is so important and so valuable and it 
is. And I know that we are going to continue to do a beautiful 
job and do the right thing.
    Thank you for allowing me to address you.
    [The statement of Mr. Marsalis follows:]

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Dicks. We appreciate very much your statement. And the 
lecture of last night, it will be long remembered.
    Mr. Simpson.
    Mr. Simpson. Mr. Chairman, I don't have any questions, but 
very interesting statement, and I appreciate listening to it. 
It is interesting that if you want to know the importance of 
the arts, just look back at past civilizations and at what we 
remember of those civilizations and what we celebrate about 
them. It is not their businesses and their politics or anything 
else, but it is the arts that they created. Whether it is the 
music or the dance or the pictures or paintings or whatever, 
sculptures, it is the arts that we remember.
    I have always said, and I am a big supporter of education 
and math and science and all that, I know it is important, but 
when we do that at the expense of the arts then I think we lose 
something.
    Mr. Marsalis. Yes.
    Mr. Simpson. I am concerned in this day and age we are 
concentrating so much on math and science, which I admit are 
important, that in the school curriculum arts get left out, and 
that is a concern to me. But I appreciate your statement very 
much, thank you.
    Mr. Marsalis. Yes, sir, thank you.
    Mr. Dicks. Mr. Moran.

                      THE NEXT GENERATION OF ARTS

    Mr. Moran. Thanks, Mr. Chairman. That is a very evocative 
statement. We appreciate it very much, as well as your 
statement last night. You have been a real leader because you 
can enable so many other people to empathize with the point 
that you are making.
    I do wonder how you would appraise the state of arts among 
young people, the next generation. We have been struggling to 
keep alive many of the theaters and other venues that are 
primarily of course directed at adults. I wonder in terms of 
the evolution of the next generation to appreciate what we see 
as art or is there a coarseness perhaps that is in a way 
obviously less refined, but perhaps somewhat less artistic. I 
am not sure. I struggle with it, you know. And I know that I am 
of a different generation, so sometimes I have trouble bridging 
appreciation for some of the songs and videos that we see now 
that young people seem to be just fixed to. There always have 
something in their ear or they are always watching the 
television or now You Tube or whatever.
    Can you kind of address that, where you think we are going 
in terms of the arts? Do we need to provide more intervention 
perhaps at a younger age or is there nothing to worry about?
    Mr. Marsalis. Well, I think that intervention is an 
interesting word. And I am just going to give an observation, 
because I am always in schools and always around kids and 
people of all ages. If you go to Brazil, they have the same 
problems, we all have the same problems all over the world, but 
the Samba music is their national music. You can see a person 
80 years old dancing with a person 8. It is a dance that has 
sexuality, it is not a dance that is devoid of touching. If you 
go to Argentina you see the older people dance--I had a young 
lady explain to me that the dancers today want to dance with 
older men because they really know how to do the dance. The 
older and the younger people dance together, dances that have 
sexual but not pornographic content.
    For some reason in our country at a certain point we 
decided that we were going to allow the young to be separated 
from the older people in rituals of courtship and matters of 
sexuality, and it has had catastrophic results. We can't figure 
out how to get past that. Let's think to ourselves, when do we 
see older and younger people dancing together? When do we ever 
see older people in our country and younger people not in a 
lecture relationship, in a natural, human relationship, about 
human subjects that are very important to our continuation in a 
natural easy manner. We don't see that. So we have left our 
kids exposed to business interests. What is the easiest thing 
to exploit? The sexuality of a 12 or 13 years old. Then after 
30 or 40 years of that we are shocked. What happened, why are 
these kids doing that. We left them out to dry. We hung them 
out to dry.
    It is important for us to take those difficult steps now to 
bring our younger people back with us through love and through 
an understanding of rituals of courtship. I think the best 
vehicle for us to do that in this time is through the art of 
swing dancing. It is painless, but it teaches kids how to 
couple dance and there is a natural respect in that form and it 
will have results much greater than we might think. That is the 
symbolic value of the arts, and that is how arts can be used 
for practical purposes, and then you don't have to lecture 
them. They can just dance and we can dance with them, and it 
will be clear what it is.
    Mr. Moran. That was an eloquent response.
    Mr. Marsalis. It was quite long, I am sorry.
    Mr. Moran. No, it was perfect. It told me something I 
hadn't considered. Thank you.
    Mr. Marsalis. Yes, sir.
    Mr. Dicks. Are there any other questions?
    Mr. LaTourette. I will be brief. Just on your next visit to 
Cleveland on the issue of young and old people dancing 
together, I will take you to a wedding and we can do the 
Chicken Dance. You will see everybody moving.
    Thank you for the kind words on the Cleveland Art Museum. I 
have had the same tour you have had and I would say the great 
value that Louise Slaughter and Todd Platts and others talked 
about, the multiplier effect of Federal assistance to the NEA, 
I think is seen at the Cleveland Art Museum, because when you 
are done with that Etruscan figure you know what brings kids 
into the museum, right?
    Mr. Marsalis. Right.
    Mr. LaTourette. It is the armor court. Everybody, every kid 
wants to see the knights dressed up and the swords from the 
collection. Once you get them in, you hook them, and that to me 
is what the NEA does. It is the seed money that hooks people 
and then lets the genius of the community take over. So thank 
you for your testimony.
    Mr. Marsalis. Yes, sir.
    Mr. Dicks. Mr. Cole.

                   ARTS AND THE DISCRETIONARY BUDGET

    Mr. Cole. Thank you, Mr. Chairman. I just want to thank you 
for remarkable testimony. One of the things that always 
impresses me when we are at these hearings is when you have 
people who frankly know what they do obviously better than any 
of us up here know and understand and how eloquently and 
directly you can communicate that and its importance. It is 
quite moving.
    I think we will have an obviously interesting discussion 
about this. I think there is probably a bipartisan desire to do 
whatever we can to be supportive. I think the longer term 
problem is one that really probably is not even inappropriate 
for this panel directly to deal with, but it is appropriate for 
all of us as members. Every time I look at what I consider very 
worthy discretionary spending programs I always wonder why are 
they all being squeezed? Because the problem that you have is 
not unique to the arts. There is no special hostility towards 
it, it is just simply until you deal with the entitlement 
problem, which every Member up here knows, we have a larger and 
larger proportion of our national spending moving in the 
direction that really is beyond immediate congressional 
appropriations control.
    So I have no doubt we will try to do everything we can to 
be helpful in the long run. We also have to refocus outside 
this committee back to our job and deal with that. I just 
commend anybody in the audience who hasn't had the opportunity 
to look at the bill that Mr. Wolf and Mr. Cooper on a 
bipartisan basis have commanded to try and force Congress to 
confront that so that frankly we can be more responsive on the 
discretionary side to do that. It would basically set up a 
bipartisan commission and confront us with a lot of the tough 
choices that as politicians we are pretty adept at putting off 
for as long as we possibly can.
    Again, that is a problem and discussion for another day. I 
want to thank you for your testimony. I thought it was quite 
moving and quite remarkable.
    Mr. Marsalis. Thank you.
    Mr. Dicks. Thank you.
    Mr. Lynch. I would next like to call Jeremy Nowak, 
President of the Reinvestment Fund and a nationally recognized 
leader in urban development. As he comes up, we are talking 
about more practical things here, I would like to simply point 
out a creative industry study that the Americans for the Arts 
did with Dun & Bradstreet that took a look at jobs and 
organizations that are part of the arts industries in every 
single congressional district. We can say, for example, in Mr. 
Cole's district there are 879 art centric businesses with 3,103 
employees, 3,000 people working there. And in Mr. LaTourette's 
district 5,599 jobs. In Mr. Simpson's district 6,200 jobs. And 
the winner in Mr. Moran's district, 11,790----
    Mr. LaTourette. There are more art jobs in Idaho?
    Mr. Lynch. I am not sure, we can have a contest.
    In addition to Jeremy's work at TRF, he is a board member 
of the Federal Reserve Bank of Philadelphia. He is the author 
of numerous articles which have examined the role of art and 
culture in neighborhood regeneration, currently a Fellow at the 
Aspen Institute in a program for entrepreneurial leaders in 
education and a member of the Harvard University Kennedy School 
Executive Session on Transforming Cities Through Civic 
Entrepreneurship.

                         Statement of Mr. Nowak

    Mr. Nowak. Thank you. Thank you, Mr. Chairman and 
distinguished members of the subcommittee.
    When I told my daughter that I was going to be on a panel 
with such an illustrious group of performers, she suggested 
that this would be a future SAT question of, ``Who does not 
belong in this room?'' What can you do? But I will do my best.
    And I am here as president and CEO of the Reinvestment Fund 
to support the $200 million appropriation for NEA. It is my 
pleasure to be here on behalf of Americans for the Arts, on 
this Arts Advocacy Day. And as someone who has invested now 
more than a billion dollars in some of America's poorest 
communities, my interest in a well-funded NEA is not only a 
matter of my appreciation for the intrinsic value of art but it 
is also rooted in what I have encountered over two decades of 
investing and developing.

              THE CONNECTION BETWEEN DEVELOPMENT AND ARTS

    The theme of my testimony is really pretty simple: Arts and 
culture are important to the development prospects of older 
American cities and communities, and the work of the NEA ought 
to be viewed as one aspect of a more integrated approach to 
renewal and development that focuses on maximizing knowledge 
and creativity throughout our society.
    I am pleased that the NEA was included in the Recovery and 
Reinvestment Act passed by the Congress and signed by President 
Obama. Its inclusion ought to be viewed as a recognition of the 
importance of art and culture to our economic infrastructure 
and not as a mere side event to the economy. In fact, as we 
have heard today, arts and culture are a vibrant part of the 
real economy.
    Two decades of research have demonstrated the economic role 
of arts and culture in urban and metropolitan economies. It is 
a sector that can be quantified in jobs, sales, and real estate 
value. And Americans for the Arts has taken a leadership role 
in doing this kind of quantification. By doing so, they have 
given arts and culture a voice in the public realm. Our meeting 
here today is really a testament to this recognition.
    We live in a nation that has sometimes overvalued things 
like complex financial instruments, while undervaluing the 
creativity of ordinary Americans. We do so at our own peril. 
For the past 15 months, I have been a board member of the 
Federal Reserve Bank of Philadelphia. And, of course, I have to 
say here now these are my words and not the words of the 
Federal Reserve Bank of Philadelphia. It has been a remarkable 
experience. Interestingly, it has given me a new appreciation 
for the creative sector.
    A financial crisis, such as the one we are undergoing, 
forces us to ask very basic questions about what is important. 
What have we overvalued for short-term returns, and what have 
we undervalued that could result in longer-term gain if we pay 
more attention? Today we have an opportunity and, I think, an 
obligation to rethink this. You know, we spend a lot of time 
thinking about systemic risk as it relates to the bailout of 
individual companies, and yet we all know that various parts of 
civil society, and therefore our democracy, have a systemic 
risk that have accrued to them.
    My belief that arts and culture are critical to the 
regeneration of urban places comes from decades of economic 
experience. My organization has financed more than 18,000 
housing units, seven-and-a-half million square feet of 
commercial space, hundreds of businesses, as well as real 
estate for urban charter schools and child care centers. We are 
rebuilding communities in Philadelphia and Baltimore, as well 
as very poor small towns like Chester, Pennsylvania, and 
Camden, New Jersey. In many of those communities, arts and 
cultural institutions serve as the key incubators for 
development.

                        THE CRANE ARTS BUILDING

    Let me cite a good example. We financed, not long ago, the 
Crane Arts Building partially through the use of Federal New 
Market Tax Credits. A former plumbing supply building, it now 
has 120,000 square feet of artist work and performance space in 
a very poor and partially depopulated section of north 
Philadelphia. It is occupied by artists and designers of every 
imaginable kind.
    It symbolizes how a once obsolete manufacturing building 
can be a site for new product development. My hunch is that 
important product development in the 21st century is more apt 
to come from the industrial arts design and techno-media 
businesses emerging in renovated mills than from the fast money 
trails of global finance.
    Just as importantly, Crane is a hub of social engagement. 
Performances are held that draw people from throughout the 
region. NEA support, for example for events such as the 
Philadelphia Fringe Festival with performances that are held at 
Crane, help integrate that community back into the regional 
economy; it becomes a regional asset once again. Audiences that 
would have never ventured into that area now attend events 
there, and, as a consequence, they rethink the boundaries of 
their personal social geography.
    Today new buildings nearby are under renovation, as the 
vision of the Crane entrepreneurs has become an economic 
success and a community anchor.
    I could give dozens of other examples. The key point here 
is that NEA support for new production and installations is a 
business complement to the rebuilding of commercial and 
residential real estate in many communities. This is certainly 
true of many new projects that we are involved in right now. I 
can think of a new movie studio that we are building near 
Chester, Pennsylvania; an artist workspace complex not far from 
the train station in Baltimore that we just got financed for; a 
music center in downtown Wilmington, Delaware.
    I am particularly fond of the Wilmington project, as it is 
a replication of the successful World Cafe Live, a wonderful 
performance space in Philadelphia that provides art and music 
classes, among other things it does, for public school kids not 
able to use school-based facilities due to funding cuts. This 
is very common in American cities and in rural areas.
    The art centers are connecting to a broader audience, not 
only globally but locally. The famous Clay Studio, for example, 
in Philadelphia, a famous worldwide renowned ceramics center, 
runs a Claymobile that travels to homeless centers throughout 
the city, providing educational support for children of 
homeless families.

                   ARTS OPPORTUNITIES AND COMMUNITIES

    Artist work and performance spaces become community centers 
where a cross-section of Americans socialize, recreate, learn, 
and produce. The social network value of these spaces is 
critical to urban change and development. They create what 
economists refer to as positive externalities--value that 
cannot be captured immediately through a price but have 
benefits that accrue to the community and to the public at 
large.
    A well-funded NEA is important to the economy of the 
nation, both directly and indirectly. The direct impact is 
counted in familiar economic terms, and the indirect impact can 
be valued through longer-term leverage. The longer-term 
leverage turns out, in my experience as an investor and 
developer, to be critical to the place-making process that 
reenergizes older towns and cities. Said differently, the 
rebuilding of our great cities is linked to how we creatively 
repurpose the built environment and transform old liabilities 
into future assets. This is what the creative sector does so 
well.
    Governments organize streams of funding across a spectrum 
of organizational and content silos: housing, commerce, 
transportation, health, and so on. An unfortunate consequence 
of this division is the way it structures our sense of reality 
and our notion of possibilities. This gets reinforced, of 
course, by the constituencies of each silo, who support the 
reproduction of the current system as, in most instances, it is 
their only choice.
    Art and cultural funding has been on the defensive for many 
years, as that chart demonstrates to my left. And it is natural 
that we would be here today to advocate on behalf of what is a 
very small part of the Federal budget dedicated to arts and 
culture. But I would like to suggest that we expand Federal 
support for creativity by infusing it within other parts of the 
budget.

                          PUBLIC WORKS AND ART

    Take the opportunities that are afforded by transportation, 
parks, and housing investment. They offer immense possibilities 
for integrating art and public life. Many cities have a 1 
percent or a 2 percent rule, where every development project 
that uses public subsidy dedicates a percentage, 1 percent or 2 
percent, of the development budget to public art. What if we 
thought about budgets in these terms and saw to it that the 
next generation of American infrastructure could transcend the 
false dichotomy between function and aesthetic possibility?
    I will leave you with a brief anecdote. Today, in 
Philadelphia, the largest employer of artists is the mural arts 
program, which at last count had produced 2,800 murals on the 
vacant walls of the city. When the Prince of Wales visited 
Philadelphia recently, after stopping by the usual historical 
sites--the Liberty Bell, Independence Hall, Constitution 
Center--he went to visit an inner-city community with dozens of 
wall murals. He saw what we all see: the ability of people to 
take ordinary brick and stone on tattered blocks and give it 
the kind of meaning that fuses physical beauty, individual 
achievement, and social organization.
    Behind each of those murals there lies an invisible social 
contract constructed by neighbors organized to get assistance 
from the program, making decisions regarding the content of the 
mural, forming partnerships between professional artists and 
local aspiring artists and neighbors, and taking responsibility 
for the maintenance of the wall after the mural is completed. 
The mural is simultaneously a piece of art, a community 
investment, an educational opportunity, and a platform for 
social connections.
    If we think of public budgets in as creative a way as we in 
Philadelphia have begun to think of murals, we will stop 
marginalizing art and culture as a peripheral component of the 
public good. It will become more central to all that we do.
    I thank you for your time, and I wish you the best.
    [The information follows:]

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Dicks. Well, thank you very much. I think what you have 
just said builds upon what Wynton said earlier, about how the 
arts can stand on their own two feet and they are important in 
their own right, though they have all these other benefits that 
we have discussed.
    And I can say, from my own district example, we started 
with the arts in Tacoma, Washington, which needed to be 
completely restored. The first thing we did was the Pantages 
Theater, a performing arts venue. And then we went to work on a 
Museum of Glass and the Tacoma Art Museum. And now we have a 
school for art students in high school. And then we took old 
historic buildings and used them for the branch campus of the 
University of Washington in Tacoma.
    So all the things that you have discussed, I have seen 
that, over 30 years in my district, occur. Now we have 
livability again. I mean, there is a major difference.
    Mr. Simpson.

                    ARTS PROJECTS IN A DOWN ECONOMY

    Mr. Simpson. Thank you, Mr. Chairman.
    And thank you for your testimony.
    Let me give a little different perspective. I agree with 
your testimony, but I will tell a different story. You are 
talking to the choir here, essentially. I think everybody in 
this room probably supports the arts. I think everybody on this 
panel probably supports the arts.
    Sometimes, you know, the--I am a big believer in historic 
preservation. I think that in this country we are still young 
compared to the rest of the world, and we can preserve our 
history.
    And I will tell you this story. Last year there was a 
community in my district whose mayor and city council asked 
that I try to help them get some funding to restore an old 
theater that they wanted to use for the performing arts. We 
ended up in last year's budget getting them a $150,000 earmark, 
a small portion of one of those earmarks, bad things.
    Mr. Dicks. It is very positive, in some eyes.
    Mr. Simpson. Yeah, in some eyes. I am there with you.
    But the community asked for this; I didn't go out and seek 
this out or anything. But I support what they are doing. It is 
an old theater that is on the National Historic Registry. Under 
the Historic Preservation Act, there are funds available. We 
got $150,000 for it.
    Now the economy sort of turns down. And, in USA Today, 
there was a list of about four or five projects of these 
``pork-barrel, wasteful spending programs,'' and it listed this 
theater. And, of course, now there are people who don't believe 
that the Federal Government should be in the arts at all, 
should do any of this kind of stuff.
    So, for the last month, there have been letters to the 
editor. Every time I make a local phone call or a radio call or 
anything, there are people that call in and say, ``Why are you 
doing that wasteful spending,'' yada, yada, yada.
    Do you know how many responses from the people that 
requested the funding have come out? Zero. And I have not 
called them up, saying, you know, ``Could you guys respond to 
this, why you wanted this,'' or anything. I was elected, I can 
take the heat, that is okay. You know, our job is to do what we 
think is right, and if we get dis-elected we get dis-elected, 
that is okay.
    But how do we convince the American public that investment 
in things like historic preservation, that investment in art 
and those types of things are important? It is one thing to 
come to us--and, as I said, we are pretty much talking to the 
choir here. But we respond to our constituents. And when 
constituents start saying, you know what, we need these types 
of things, Congress will respond, I will guarantee it.
    And what I have seen--and believe me, one of my staff 
people is the chairman of the Idaho Commission on the Arts. I 
encourage her to do that. So I am supportive of it. But it is 
the public that we respond to. And somehow we have to get the 
message out to the public. And that is when Congress will 
respond to the degree that I think you are asking us to do.
    Mr. Nowak. Can I answer, take a shot?
    Mr. Simpson. Sure.

                     ARTICULATING THE VALUE OF ART

    Mr. Nowak. It is a terrific question. I think there are 
three kinds of answers, and I think we have often not had a 
narrative that organized the three kinds of answers together in 
the right way.
    So one answer is a competitiveness answer. In some context, 
it is about economic competitiveness and value. Another answer 
is the kind of answer that I think we heard so eloquently last 
night from Wynton Marsalis, which is cultural identity, 
emergent cultural identity, and self-knowledge.
    And then the third is--going to make a little distinction 
between--``competitiveness,'' I meant in a broad sense, in 
terms of workforce and creativity and new jobs, but just local 
economic value, right? Commercial real estate value and the 
like.
    I think what we have done is not make the argument clearly, 
not organized all the complex constituencies around it. I mean, 
one of the things I have liked so much and admired about 
Americans for the Arts and many of the other arts groups I have 
seen that I have worked with is their willingness to go outside 
their circle and work with others to articulate the value in 
new ways. Because, otherwise, art and culture get marginalized, 
right? There has to be this other value. I mean, the real 
estate people who care about the revitalization of Tacoma have 
to be the people that call into the radio show, not just the 
person who is worried about the NEA grant. They have to 
understand the connections between the two.
    At the same time, on preservation--and I thought you were 
going in a different place when you first started to talk. I 
was in Pittsburgh yesterday, in the Hill District, which is an 
historically African-American district, and there is an old 
theater there that we just helped preserve. It is the new 
Granada Theater. It was one of the great, great spots for jazz. 
Anybody that came through Pittsburgh, any of the great jazz 
people stopped at Granada.
    And it is going to be a very, very difficult and very 
expensive theater to preserve. And we sat there with a large 
group from the community and outside the community, and we 
posed three kinds of questions in trying to move this forward.
    Number one, how do you preserve it and preserve it in such 
a way that honors its history, but at the same time not be 
captive by its history? Because we all know instances where 
people get so hung up on the edifice, so hung up on the 
building, that the ability to support it long-term falls apart. 
Right? And that may be part of what happened in your case.
    Secondly, how do we understand what the market demand would 
be, in a very clear sense, for services within that building 
whose history we are going try to honor? What should it be? 
Maybe it wouldn't be a performance space, although it would 
still honor the history of performance.
    And third, when we do it, how do we do it in a way that is 
sustainable, that will have the kind of revenue that is not 
only going to depend on the public or any particular sector? 
What is our, kind of, theory of how we are going to run this as 
a business, albeit as a nonprofit and civil society business?
    And we had a great conversation, and hopefully we will have 
success.

                   THE FEDERAL ROLE IN SUPPORTING ART

    I think, in all of that, we need to articulate some theory, 
if you will, of subsidy. What is the role of public money in 
this? Why public money, why Federal public money? What is the 
role of Federal money? There is a role, but let's try to be 
clear about it. Why would it go for this, why not for that? 
What is the role of the State? What is the role of the 
marketplace?
    Because we haven't had a clarity, I believe, about that, I 
think we have been vulnerable to people saying no. Right? We 
haven't had a clear reason to say yes. I think it is incumbent 
on all of us to really construct that reason, both in terms of 
economic value and cultural identity, but, in doing so, saying 
there is a role for public money, there are things the 
marketplace can't do, there is an innovation role here for 
public money.
    Mr. Simpson. I appreciate that. Thank you.
    Mr. Dicks. Are there any further questions? Mr. LaTourette?
    Mr. LaTourette. I just have a question for Mr. Simpson. 
What the heck is a ``the-ater''?
    Mr. Simpson. He has hit me with that before.
    Mr. Dicks. Mr. Moran, do you have anything?
    Mr. Moran. Yeah, well, I want to wait until their deep 
conversation is concluded there.
    I appreciate the point you are making. And we have seen 
evidence of that, multifold, in Virginia, particularly in my 
congressional district.

                         THE HIGH PRICE OF ART

    The one thing I am concerned about, when we talk about 
bringing money into the economy and develop a lot of the 
artistic productions, is that they are out of the reach of many 
of the people that you are describing, particularly, if you 
will, the indigenous population within these communities. I 
mean, we are not talking about the Kennedy Center, but even 
some of the regional theaters, they are very expensive.
    And I don't know how to get around it. I mean, I guess it 
is generating more revenue for the community. People come in, 
they will spend money and the like. But you focus particularly 
on lower-income, African-American neighborhoods. And generally, 
if you put in a nice theater or whatever, it is the white 
suburbanites that are going to come into that community 
oftentimes, because it is just too expensive and out of reach 
for the local residents. And now, with the economic downturn, 
we are seeing some of those theaters, particularly, threatened 
economically with their survival.
    If you have any thoughts about that? I mean, I don't have 
any solution. And the reality is the performing artists are 
grossly underpaid.
    Mr. Nowak. Yes, absolutely.
    So, my experience is that we have learned a great deal in 
the last 20 years about how to have a more integrated approach 
to this. I can think of my own experience of so many theaters 
that--I will use the example of People's Light in Malvern, 
which is in Main Line of Philadelphia, which on the one hand is 
a high-quality repertoire, does just terrific work, and on the 
other hand, part of what it does is spend an enormous amount of 
time with 15 or 20 local high schools in some of the poorest 
communities in the region and has brought theater and has 
brought kids in through their system, into the theater, because 
of that.
    So there are, I think, a lot of great examples of theaters 
trying to embed who they are and what they are into the local 
community. Sometimes that works through direct audience 
participation; sometimes it works through educational efforts. 
But I see more examples of that now than I ever have seen, 
despite the economy.
    I also see another kind of movement, which is to--you know, 
there is a funny little place in eastern north Philadelphia. I 
am from Philadelphia, so I am sorry, I keep using these 
examples just from this one city. There is this funny little 
place called the Village of Arts and Humanities. And a 
wonderful artist by the name of Lily Yeh went there many years 
ago. And she decided--and I just can't--if you haven't been in 
eastern north Philadelphia, this is a former manufacturing site 
with an extraordinary amount of depopulation and disinvestment, 
thousands of vacant lots and abandoned buildings, all the 
issues that we read about and worry about.
    And so she started working with a group of kids to reclaim 
vacant lots. And in the reclaiming of vacant lots, they decided 
to use the materials largely from those vacant lots to 
transform the vacant lots into a sculpture garden. And she has 
now done it through a string of gardens. It looks a bit like 
Gaudi came to north Philadelphia. I mean, really, by the 
design. It is just an extraordinary design. It just goes all 
over. Which then turned into a theater, which then began to 
train kids.
    So there are two models. The one is the established theater 
that then becomes a networked enterprise that moves outward and 
begins to figure out new ways to bring people in. And the 
second one is the thing that moves from the ground up, self-
organizes, uses the materials from the community, with people 
with artistic talent, as a way to create art from the ground 
up. I think both of those are being played out all over America 
right now.
    Mr. Moran. I think so. And, actually, it is an opportunity 
to put in the plug for the NEA. Denyce Graves told us in very 
compelling testimony how she grew up in the shadow of the 
Kennedy Center, but it could have been the other side of the 
world, because she would never have access to be able to afford 
the tickets were it not for an NEA grant. With NEA she found a 
way to experience opera, and it led to one of the finest 
operatic performers in American history.
    But I appreciate the examples that you gave us, and I 
appreciate particularly your work. Thank you, Mr. Nowak.
    Mr. Nowak. Thank you.
    Mr. Dicks. All right. Thank you very much.
    Mr. Lynch. And we have two more wonderful witnesses, Josh 
Groban and then Linda Ronstadt. So I would like to ask Josh 
Groban to come up.
    And I would like to introduce him as a Grammy Award-
nominated singer, songwriter, and pianist. His debut self-
titled album, ``Josh Groban,'' went double platinum, making him 
the best-selling new male artist of 2002. Classically trained, 
able to sing in four different languages, he has performed all 
over the world and recently at the We Are One concert 
celebrating the inauguration of President Barack Obama.
    He is also a philanthropist. In 2004, he established the 
Josh Groban Foundation and has contributed over $2 million to 
children around the world for arts, education, and health care.
    Josh Groban.

                        Statement of Mr. Groban

    Mr. Groban. Thank you so much, Chairman Dicks, Ranking 
Member Simpson, and members of the subcommittee. This is such a 
great thrill for me, as an artist, to be here on this great 
day. And to be here on a political level is a very new thing 
for me and something that I am proud to say so many past 
artists have done, and I am proud to be in front of the fun 
group finally today. And hopefully many artists will follow in 
the future and continue this on.
    I am here today, along with my fellow witnesses, to talk 
about how the arts have not only enriched my life and provided 
me a living but how the decisions made here in rooms like this 
to fund the National Endowment for the Arts have a direct 
impact on the lives of those who wish to not only pursue their 
passions but to contribute as public members of their 
communities.
    I also believe the arts are a refuge, and not merely an 
escape, from the troubles of the day and can provide hope 
during these traumatic economic times, and I hope my story 
reinforces that belief.
    I owe my livelihood to the arts and to music, not only 
because I have been able to sing and write for a living but 
because there is a market for those who appreciate my work and 
choose to buy my recordings and come to my concerts. The arts 
are a truly interactive experience that creates a portal that 
connects those who want to do and those who want to enjoy, to 
mutual benefit of both. Arts Advocacy Day is a perfect 
opportunity for me to share my story about how the power of 
artistic expression and the forces that enabled me to do what I 
love can be the story for so many others.
    First and foremost, when I refer to ``forces,'' I am 
including the love and commitment of my parents, who are here 
today. Appreciation of the arts was just something that was 
very normal in our household. My mother was a high school art 
teacher in a Los Angeles City school. My dad plays a mean 
trumpet and played jazz trumpet all through college.
    Mr. Lynch. Wynton is taking notice.
    Mr. Groban. Not to create a tense atmosphere in the room 
here.
    So I didn't grow up in an environment where creative 
expression was pushed upon me; it was something that I very 
much discovered on my own. It was a fundamental building block 
that enriched my development. There is no doubt that I had an 
advantage in that regard, being surrounded by a nurturing 
family who viewed the arts as necessary for making a well-
rounded individual. But my parents never--they were never stage 
parents. There was never any sense of feeling that there had to 
be that push. Like many artists, it felt like a gravitational 
pull.
    You have to have the bug, I said it earlier today, but 
growing up in a city like Los Angeles, the choices that they 
made to introduce me to all that a big city like that had to 
offer were life-changing for me. I would sit in the audience, I 
would get chills at a classical concert or musical theater or 
Blue Man Group or whatever it was. And I would say to myself, 
you know, if I could ever make somebody feel the way I am 
feeling right now, that is my goal in life. And I had blinders 
on from that moment on.

                         ART FOCUSED EDUCATION

    It is one thing to discover that is what you want in your 
life. It is quite another thing to find your direction in a 
school environment. So one of the main reasons I am here is to 
talk about the incredible educational system that I had, with 
the arts programs and as a product of that system.
    While my first high school was a fine academic institution, 
there were not many opportunities for creative outlets. This 
inspired me to create my own theater club during a free period. 
It beat, you know, sitting around eating corndogs for an hour. 
And it drove me to realize that I needed a school system that 
gave me more of a creative outlet and let me have my theatrical 
fix.
    I found the Los Angeles County High School for the Arts, 
and it is an incredible school. It specializes in training of 
music, theater, dance, visual arts, and film. It was the place 
that I realized was a home for me, for my voice, and for my 
soul. It is one of two public arts high schools in Los Angeles 
that allows students from any district in Los Angeles to 
attend. My acceptance finally deployed me on to familiar 
terrain: artists, musicians, actors, and more than a few other 
outsiders who now had a community to explore their talents and 
start imagining a way to translate their gifts into productive 
careers.
    For many of the students from troubled or disadvantaged 
homes, it was a life-changing experience that I saw personally, 
to be placed in an environment where the arts provided such 
hope and positive growth. In my opinion, their lives were saved 
by the arts and by that school.
    During my high school years, I had the opportunity to 
experience the far-reaching influence of the federal agency 
that my fellow witnesses and I are here to support. I also 
attended the highly regarded Interlochen Arts Camp in northern 
Michigan, which is a phenomenal place. It is also much funded 
by the NEA. It is in northern Michigan. It is very rustic. You 
are on the water and, again, surrounded by many, many students 
that share your passion. There is music everywhere. I shared a 
cabin with a flutist who is now in the Boston Symphony and a 
number of different actors who are now doing great things. And 
it really changed my outlook on the possibilities in the arts.

                          WORK ETHICS AND ART

    What is sometimes lost in any discussion of the arts, and 
in particular arts education, is that those lessons learned, 
through whatever medium one chooses to pursue, are more likely 
to teach you more about the world around you and how it works. 
Learning piano isn't just about being able to produce notes in 
a melodic and harmonic structure that becomes ``Moonlight 
Sonata''; it is about the personal discipline that is hours of 
practice. Trust me on this one, there is no better place than a 
theatrical production to test the characteristics of humility, 
work ethic, patience, the value of team work, and a commitment 
to a common goal. We have only our current financial situation 
to turn to for an examination of what happens when those values 
are not learned.
    Armed with the tools to pursue my dream and chosen 
profession--this is where I got a bit lucky, but I have always 
viewed luck as preparation meets opportunity--I met a wonderful 
man named David Foster, who is a great producer, and he kind of 
plucked me out of obscurity. I found my first situation 
performing for then Governor-elect Gray Davis in Sacramento. I 
found myself going from living room, family and friends, to 
wearing a really ill-fitting tuxedo for 25,000 people and a 
full orchestra, and I was terrified.
    Two weeks later, he called me back, and he said, ``I am at 
the Grammys. I am with Celine Dion. We have written a song. The 
great Andrea Bocelli can't show up. We need you to show up.'' I 
was 17 years old. ``I am going to fax you the lyrics. Can you 
please be here at 3 o'clock?'' I said no. With a pit in my 
stomach, I said no, and I hung up the phone. And I thought to 
myself, ``I am not going to put myself in this embarrassing 
situation. I am not old enough to be doing this. I can't sing 
like that.'' I had a number of insecurities. He then called me 
back and he said, ``I am not asking you, I am telling you. Get 
your butt over here. I need you here.'' That is politely, 
believe me.
    And being thrown into the fire like that taught me so many 
lessons. And the reason I bring up that story is because it was 
the teachers that pushed me into those fires when I was younger 
that gave me the strength to be able to get up there and do it 
later on in life. And it pains me to think of how many 
thousands or millions of kids have the energy, have the talent, 
have the smarts, have the path that they don't yet know is in 
front of them, and don't ever have that push. So I owe a lot to 
those teachers who gave me that strength.
    My career also has given me a great opportunity to give 
back and meet some incredible people. The opportunity to sing 
for President Obama, to perform at the Vatican, to meet and 
befriend Nelson Mandela are not only incredible and humbling 
honors but prime examples of how the arts are a universal 
language that connects us each to each other's humanity.
    As I mentioned, the philanthropic efforts, I have the Josh 
Groban Foundation, which helps children in need through 
education, health care, and the arts. And it has also 
galvanized my fans, to whom I owe another huge debt of 
gratitude to raising money benefitting a number of institutions 
dear to my heart, including NOAH, which stands for Nurturing 
Orphans of AIDS for Humanity, in South Africa, and also the 
South Central Scholars Fund in Los Angeles. The arts, in my 
opinion, just continues to keep on giving, as everybody has 
mentioned today.
    So when asked, ``Why do this,'' the answer is simply, it 
feels like my duty. The arts have crafted me into the person I 
am today. With so many of my colleagues being affected by the 
economic downturn, it is more important than ever that those of 
us who are still able to make a living inform others that 
creative expression means real jobs. As performances close 
down, the ripple effect is not only felt by the lead performer 
of the cast but also the orchestra members in the pit, to the 
incredible stage hands who are artists in their own right, and 
the restaurants across the street who rely heavily on audience 
flow every night.
    That is why I wanted to share my story with you today. It 
is a great honor to be here in our Nation's capital and make a 
case why the arts are so vital to our communities in our bottom 
line. I applaud the already extraordinary efforts that this 
community has made in providing funding for the NEA in the 
stimulus bill and the incremental increases in the fiscal year 
budgets for the last 2 years, so thank you so much for that. 
But there is so much more that is needed to ensure that my 
story is a possibility for millions.
    But, more importantly, that we continue to fund the arts so 
that we maintain our cultural soul. And I will reiterate what 
everybody has said: I highly recommend that anybody who has not 
seen it take a look at Mr. Marsalis's speech last night for a 
much more eloquent way of capturing our history and that soul.
    So I join my colleagues here in respectfully requesting, 
again, the $200 million. And I thank you all so much for this 
opportunity to testify before you today.
    [The information follows:]

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Dicks. Well, thank you, Josh, for your tremendous 
statement and for recognizing your parents and the role that 
they played.
    My parents were not musical, but they arranged for me to 
have a clarinet teacher who was in the John Philip Sousa Band. 
This is how old I am. I played quite loud, of course, but also 
learned how to play the saxophone too. So, you know, you have 
to have instruction, you have to have somebody to inspire you 
to get involved in this. My teacher was Waldo Thompson, and he 
worked in the shipyard in Bremerton, but he had been one of the 
original members of the marching band. And everybody in 
Bremerton who played clarinet took lessons from this man. He 
was the guru. He taught me a lot about reeds.
    I always told the story about how I got a clarinet, and, 
for 3 days, I took it home and tried to get a note out of it--
nothing. My parents had no clue. And so I went down to the 
Brown's Music store in Bremerton, Washington, walked upstairs, 
and I said, ``There is something wrong with this clarinet.'' 
And he said, ``Yes, young man, you don't have a reed.''
    Mr. Groban. You see?
    Mr. Dicks. So it was a humbling experience.
    Mr. Groban. Yeah, yeah.
    Mr. Dicks. I did better after I got the reed.
    Mr. Groban. That is good to hear.
    Mr. Dicks. Mike?
    Mr. Simpson. I don't think I can follow that, Mr. Chairman.
    I would just say that I needed a different kind of parent, 
one to push me. I have told my mother a number of times--great 
mother, still is a great mother--that the one fault I have with 
her is that when I was 8 years old she let me quit piano 
lessons. It was one of those things where, you know, you are 8 
years old, you want to go outside and play baseball. And it 
was, ``If you take them 1 more year, then if you want to quit, 
we will let you,'' and she let me quit. Big mistake. I wish I 
could have----
    Mr. Groban. How is your baseball game, though?
    Mr. Simpson. Baseball didn't work out either.
    Mr. Groban. All right.
    Mr. Simpson. But, anyway, thank you for being here today.
    Mr. Dicks. But he is a wonderful politician. When all else 
fails.
    Mr. Simpson. That is a statesman. Thank you for being here, 
and thank your parents for being here too.
    Mr. Groban. Thank you, Mr. Simpson.
    Mr. Moran. How did you do subbing for Andrea Bocelli?
    Mr. Groban. I am sorry?
    Mr. Moran. How did that go, when you subbed----
    Mr. Groban. It actually went really, really well. I stood 
on the stage for half an hour, and they are going, ``Where is 
this Groban kid? Oh, you? Oh. Stand on the X.'' It really was, 
it was one of those ``a star is born'' moments, except it 
didn't happen that way.
    But, you know, everybody was so gracious. I did my best. I 
walked out of there feeling like it was one more little badge I 
could put on. And every little bit of that has built my 
confidence. I am 28. I have been doing this now about 9 or 10 
years, and I still feel like every one of those moments 
continue to build the strength for me. And there is a lot more 
to continue.
    Mr. Moran. Good for you. Thank you.

                       NEA GRANTS TO INDIVIDUALS

    Mr. Dicks. I think I have this right. The NEA does not give 
grants now to individual artists. You talked about going to 
Michigan, and you were in a camp kind of setting. What do you 
think of that? Do you think that ought to be revisited or 
rethought?
    Mr. Groban. Absolutely. I think that it was nice to see 
many of the scholarships that occurred at that camp. You saw 
people coming in--seeing the gentleman play the violin this 
morning, who had a full scholarship to Juilliard. It is very 
important to me to see when and where there are artists that 
have a particular ability and a passion, who aren't able to 
financially get to where they need to go, get that help.
    So, as far as the camping system goes, as far as whether it 
was specifically NEA granted is not something I specifically 
know. But whoever granted it, yes, it is exceedingly important, 
and it is something that I think should be revisited.
    Mr. Dicks. Thank you.
    Any other questions?
    All right. Thank you very much.
    Mr. Groban. Thank you, Mr. Chairman.
    Mr. Lynch. Thank you.
    And now I would like to call Linda Ronstadt up to testify.
    Linda Ronstadt is an acclaimed singer, producer, and 
actress. Her unique vocal blend of rock and country has won her 
numerous awards, including 11 Grammys, an Emmy Award, an ALMA 
Award, and one of the most commercially successful female 
singers of the last four decades. Ms. Ronstadt is the singer of 
such hits as ``He's No Good'' and ``When Will I Be Loved'' and 
many others that the subcommittee has referenced.
    Ms. Ronstadt has since turned to traditional Mexican and 
Spanish material and is the artistic director of the annual 
Mariachi Festival hosted by the Mexican Heritage Corporation.
    Linda Ronstadt.
    Mr. Dicks. Welcome.

                       Statement of Ms. Ronstadt

    Ms. Ronstadt. Thank you.
    Before I discuss the topic of my remarks, I would like to 
share a bit about my personal background, which informs my 
conversation with you today.
    I grew up in the desert in Tucson, Arizona, on what was 
then a rural route. My grandfather's cattle ranch had been 
whittled down considerably in size as a result of the financial 
storms of the last depression, but we were pretty happily 
established there amid the cactus and the cottonwoods. My 
family had built a little compound with my grandparents in one 
house, my father and mother and the four of us kids in the 
other.
    I don't remember when there wasn't music going on in some 
form: my father whistling while he was figuring out how to fix 
something; my older brother practicing the ``Ave Maria'' for 
his performance with the Tucson Boys Choir; my sister sobbing a 
Hank Williams song with her hands in the dish water; my little 
brother struggling to play the huge double bass.
    Sundays my father would sit at the piano and play almost 
anything in the key of C and sing in his beautiful baritone 
love songs in Spanish for my mother, maybe a few Sinatra songs 
while he remembered single life before children and 
responsibilities and before the awful war that we won that 
time. My mother would play ragtime or something from Gilbert 
and Sullivan.
    When we got tired of listening to our own house, we would 
tramp across to my grandmother's, where we got a pretty regular 
diet of classical music. Evenings, if the weather wasn't too 
hot or freezing and the mosquitoes not threatening to carry us 
away to the land of Oz, we would haul our guitars outside and 
sing songs until it was time to go in, which was when we had 
run out of songs.
    There was no TV. The radio couldn't wander around with you 
because it was tethered to the wall. And we didn't get enough 
allowance to buy concert tickets. In any case, there weren't 
many big acts playing in Tucson. So if we wanted music, we had 
to make our own.
    The music I heard there in those two houses before I was 10 
years old provided me with enough material to explore for my 
entire career, which has stretched from the late 1960s until 
now.
    It gave me something else too, something even bigger than 
that: It gave me an enormous yardstick to measure my 
experiences against generations of other people. It placed me 
in a much larger cultural context and helped me to locate my 
humanity.

                      ARTS AS EMOTIONAL EDUCATION

    Sometimes it shocked me when music revealed the intensity 
of an emotion I was feeling, something I hadn't even realized I 
felt so keenly or disturbingly until I had a musical lens to 
bring it into focus. Years later, I would have the same 
emotional experience paging through works of classic 
literature. It occurred to me: No school curriculum would be 
complete without the works of Shakespeare, Dostoevsky or 
Tolstoy, Henry James, Edith Wharton or F. Scott Fitzgerald. 
Why, then, would it be complete without a working knowledge of 
Mozart, Beethoven, or George Gershwin?
    In the United States, we spend millions of dollars on 
sports because it promotes team work, discipline, and the 
experience of learning to make great progress in small 
increments. Learning to play music together does all this and 
more.
    Jose Abreu, the founder of El Sistema, the children's music 
curriculum currently considered to be the best in the world, 
says this: ``An orchestra is a community that comes together 
with a fundamental objective of agreeing with itself. 
Therefore, the person who plays in an orchestra begins to live 
the experience of agreement. To agree on what? To create 
beauty.''
    Music exists to help us identify our feelings. Through 
music, one can safely express strong emotions like anger, 
sorrow, or frustration that might otherwise find a release in 
violence or, just as bad, cause one to seek the numbing relief 
of drugs.
    I am continually stunned and deeply concerned when I hear 
groups of school children trying to sing something as simple as 
``Happy Birthday'' and they are unable to match pitch. Many 
recent school children's performances that I have observed 
sounded like a gray wash of tone-deaf warbling. Not the 
children's fault.

                         ARTS AND MENTAL ACUITY

    As I am now 62, I have become concerned about keeping my 
mental faculties intact and recently acquired--that is why I am 
reading--recently acquired from National Public Radio a program 
I can do at home called Brain Fitness. It was developed by 
Michael Merzenich, a leading researcher on neuroplasticity, 
which is how our brains can change and adapt to meet new 
challenges like stroke, head trauma, or old age.
    When I opened up the program on my laptop, I was very 
surprised to discover that hours and hours and hours of the 
exercises were based on one's ability to distinguish pitch. It 
turns out that this ability has a great deal to do with how our 
brains process and store information. Do you know a way of 
putting in sequence 26 things and remembering them? Well, the 
alphabet has 26 letters, and we all learned it the same way: 
``A, B, C, D, E, F, G.''
    I can still remember a bit of a grammar lesson the nuns at 
Saints Peter and Paul School drilled into my head by using the 
tune of ``Sweet Betsy from Pike'': ``First person refers to the 
speaker, you see. For personal pronouns, use I, mine, and me,'' 
which came in handy when I was trying to write this speech 
because I have never written anything longer than a thank-you 
note.
    For thousands of years, human history was passed down the 
generations using music as a way to remember long sagas before 
they could be written down. In these modern times, we tend to 
think of music as entertainment or something that helps a troop 
of soldiers to step out smartly in a parade. Music is not just 
entertainment. Music has a profound biological resonance, and 
it is an essential component of nearly every human endeavor.
    Oliver Sacks, a noted neurologist, wrote a book called 
``Awakenings,'' in which he describes his patients whose brains 
were severely damaged by Parkinson's disease. These patients 
were unable to walk, but when music was played they were able 
to get up and dance across the floor. Music has an alternate 
set of neurological pathways through our bodies and our brains.
    Increasingly, people's experience with music is passive. We 
delegate our musical expression to professionals. Music cannot 
be learned without both listening and playing. We need to teach 
our children to sing their own songs and play their own 
instruments, not just listen to their iPods. Do we really want 
our children's musical experience to be limited to the 
mainstream, commercial music that is blared at them 
continually? They deserve and are fully capable of learning to 
express themselves in the more subtle and profound ways of 
traditional and classical music.
    In the written testimony that I submitted, I cite examples 
proving the power of music education to raise test scores for 
all the other subjects: math, science, and reading. Currently, 
I am acting as the artistic director of the Mexican Heritage 
Foundation in San Jose, California. We have a mariachi program 
that has functioned successfully in the school since 1992 and 
an exciting math and music program in development.
    So I urge you to increase funding for all the arts and 
especially for music education. Access to quality music 
education should not be only for those who can afford it. The 
benefits are too great. For underserved families, and indeed 
for all families, participation in music and the arts can help 
people reclaim and achieve the American dream.
    Thank you.
    [The information follows:] 

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      THE IMPORTANCE OF LIVE MUSIC

    Mr. Dicks. Well, thank you very much. And I think it is 
another case where your family made a major difference in your 
appreciation and your involvement in music. And I think that is 
very helpful.
    Ms. Ronstadt. Well, I was lucky enough to have a family 
that everyone--I mean, everyone in my family plays and sings. 
You won't find a Ronstadt in Tucson that can't play something 
and sing. But there are a lot of children that don't have any 
music at all in their houses. And they think music comes out of 
their laptops, they think music comes out of their television 
sets. I have been in schools singing to schoolchildren that 
don't believe that music comes out of your face and your 
fingers. And they are absolutely astonished.
    Talk about loud, you know, little children often, when I go 
to sing for them in their classroom--because I always insist on 
singing in the classroom, not in an auditorium--and we don't 
have any volume knobs on our heads, so they will be like this, 
``Agh!,'' until they realize that it is not going to swallow 
them whole.
    But they are always completely stunned and captivated, and 
they always want more. It is something that they need to have 
live. There need to be more programs where people go actually 
into classrooms and sing for children and inspire them, I 
think.
    Mr. Dicks. Inspire them to either be a singer or a musician 
or whatever.
    Ms. Ronstadt. And make them know what it is, what kind of 
an animal music is. It is just this thing--they have also 
gotten into the habit of thinking that music is something that 
goes on in the background. Because when you go into a store, 
you are shopping, or you go to the dentist's office, it is the 
first thing I always ask to turn off. It is like being tortured 
twice.
    Mr. Dicks. He is a dentist.
    Ms. Ronstadt. Sorry.
    Mr. Dicks. Mr. Simpson is a dentist.
    Mr. Simpson. That is okay. I agree.
    Ms. Ronstadt. Anyway.
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. Yeah, let me respond to that--no. I was a 
dentist in the real world.
    Ms. Ronstadt. Good.

                     PARTS OF SUCCESSFUL EDUCATION

    Mr. Simpson. And that music of the drill just doesn't seem 
to quite cut it, does it?
    You know, it is interesting, my grandfather, who was 
superintendent of public schools in Idaho, in one county, told 
me--and he was superintendent in the 1940s, 1950s, 1960s--he 
told me that, for any school system to be successful, you 
needed two things besides the academics: You needed an athletic 
program, and you needed a music program. I never saw how those 
two were related, but they are actually what keeps a lot of 
students in school.
    Ms. Ronstadt. Well, they are completely related. When you 
are exercising, you can do it longer and better to music. When 
people have a job of heavy work to do, of hard work, they start 
to chant and sing. You know, from the Irish walking songs, 
where they would pick up the heavy wool and beat it to, you 
know, pulling in their nets. It simply moves to an alternate 
set of neurological networks. It is completely different from 
just speaking. And so, it makes you stronger.
    Mr. Simpson. Yeah. The other thing that you mentioned when 
you were talking about brain research, it is kind of 
interesting you brought that up. If you look at the research 
that has been done on the early development of the brain in 
childhood development, from birth through the third year, and 
the difference in a child's brain and how it develops based on 
how you interact with that child, music being one of those 
things, it is incredible the differences that occur.
    And we lose a lot of children by not interacting with them 
appropriately in the first 3 years of their development. By the 
time they get to school and stuff, they are 6 years old. And we 
need to do a better job, I think, of informing parents of those 
types of interactions and how it will help in their brain 
development. And, again, music being one of the interactions is 
very important.
    Ms. Ronstadt. And we need to play our own music. We need to 
play our own music.
    Mr. Simpson. You don't want to hear my music.
    Ms. Ronstadt. But maybe we do, you know?
    Mr. Simpson. I have always said the great thing is that the 
Lord made it so that when you sing to yourself in the shower, I 
sound like Frank Sinatra, I swear I do. But my wife doesn't 
agree with me, so I don't do too much of it.
    But, you know, music is obviously very important. One of 
the--you kind of criticized iPods a little bit, but one of the 
tough things about being in Congress from the West is the plane 
rides that we are on all the time. The good thing about the 
plane rides is that I get on, put on my headphones, and turn on 
my iPod, and it is like 4\1/2\ hours of just listening to 
music, and the rest of the world is tuned out.

                           MEMORIES AND MUSIC

    But I have always said that music is like the bookmarks in 
our life story. Because when Josh mentioned how he wanted to be 
able to make people feel from what he had felt when he went to 
concerts and types of things like that, I can listen--with your 
example, with your song, ``Different Drummer.'' When I hear 
that song, I am in a different place. When I first heard it, I 
used to work on a farm. I am driving down a certain road, and I 
am there. It is the same smells, the same feelings, and 
everything else.
    Ms. Ronstadt. That is why I don't want to hear music in the 
dentist's office. I don't want to be transported back to that 
dentist's office.
    Mr. Simpson. I agree with you.
    Ms. Ronstadt. I want to go to that farm with you.
    Mr. Simpson. Thank you for being here today. I appreciate 
it very much.
    Mr. Dicks. Mr. Cole.
    Mr. Cole. I have learned a lot today, Mr. Chairman.
    I have heard athletics and music are related. And I have 
got to tell you, Mr. Simpson, we liked your band a whole lot 
better than your football team when you beat us in the Fiesta 
Bowl. One entertained us, one did beat us.
    But I am struck by your testimony--first of all, thank 
you--thank all of you for being here. Because, frankly, we 
know, certainly, in some of your cases, how famous you are and 
how much in demand your time is. And the fact that you would 
give of your time to come down and do this when I know there is 
lots of options for your energy and your talents and your time 
in other directions tells us how important it is, and it really 
makes a very powerful statement and means a lot that you would 
be here.
    I would just like your reaction. You know, we are not 
talking about what we normally talk about, enormous amounts of 
money. I mean, we have now gotten to the point that it is a 
substantial amount of money, but it is not what we deal with in 
almost any other area. And so, sometimes there is an argument 
that, well, how with this amount of money can you really affect 
an individual artist?
    I always think of it as, actually, if we do anything at all 
with this, we probably create audiences for artists more than 
we actually help artists individually. I wish we could do more 
in that regard. But a lot of you are just so incredibly 
talented and driven, come from the right set of circumstances 
and background, however varied it may be, that you succeed on 
your own.
    But how important is it for you as an artist to have an 
audience that can appreciate your artistry?
    Ms. Ronstadt. Well, you know, that is kind of a complicated 
question. The talent doesn't ever leave the gene pool, 
generation after generation, but what the culture resonates to 
changes profoundly. And that has a lot to do with events in 
history.
    So what we are resonating to now--when you go back and look 
at Mayan art and say, oh, this is a classic period when things 
are really hot, and this is when things were starting to fall 
apart, and then the thing was gone and nobody knew what 
happened to that civilization, sometimes I think we are seeing 
that.
    You know, this fellow over here--he is gone--was second-
guessing himself a little bit, saying, ``I am not sure whether 
it is a generational thing, whether I just don't understand 
what is going on with music with these young kids today.'' A 
lot of it is really profound stuff, but the culture is falling 
apart a little bit, it is becoming a little unravelled, and so 
you see indications of that. So you can have somebody with a 
tremendous talent and if the culture doesn't resonate to that, 
they might fall by the wayside.
    Things like opera, people often will come to a realization 
of how profound and how distilled the description of an emotion 
is in an operatic performance. I happen to love opera and 
always have since I was little, but lots of people think it 
sounds like screeching.
    The movies lately have had opera in them in their sound 
track. And people have just become huge, rabid fans of opera, 
because they are finally exposed to it in some kind of way that 
they can relate to. So we have to expose kids to those things. 
They are not going to get it in commercial radio. They are not 
going to get it in their schools, because it takes too much 
training, and you have to be too good to really sing. I know, I 
tried to sing one once. I tried to sing Boheme for Joe Pabb at 
the Public Theater. It is really hard unless you are an opera 
singer. I was telling you that.
    So you have got to have a culture that has been exposed to 
this stuff, too, so these people can be nurtured and developed 
and resonate in a greater society.
    Mr. Cole. I just thank you for being here. Being here helps 
us to achieve that goal in and of itself. So thank you.
    Thank you, Mr. Chairman.
    Ms. Ronstadt. Thank you very much.
    Mr. Dicks. Well, I want to thank again all the witnesses 
and Robert especially for organizing this, and I think this is 
something we always look forward to. The fun group looks 
forward to next year. Thank you very much.
    Mr. Lynch. Thank you so much.
                                           Tuesday, May 12, 2009.  

                          U.S. FOREST SERVICE

                               WITNESSES

ABIGAIL R. KIMBELL, CHIEF OF FOREST SERVICE
RONALD KETTER, ACTING BUDGET DIRECTOR
JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST SYSTEMS

                     Opening Statement of Mr. Dicks

    Mr. Dicks. Today we welcome the Chief of the Forest 
Service, Gail Kimbell, the new Acting Budget Director, Ron 
Ketter. Although there are some notable holes, the new request 
certainly is better than the request this subcommittee was 
accustomed to from the previous Administration. I think this is 
something my friend and Ranking Member, Mr. Simpson, can also 
agree on.
    Earlier this year we have held oversight hearings on the 
Forest Service issues. The oversight hearing we had on wildfire 
budgeting was very interesting, and some aspects of the new 
budget request are consistent with our concerns.
    However, the main feature of the new fire request is the 
huge amount of funding for wildfire suppression. While this is 
a valid concern, it should not come at the expense of almost 
all other programs, including those programs which actually 
reduce fire impacts and suppression costs.
    The budget request includes 282 million for a new 
suppression contingency account, which would be available only 
after a Presidential declaration. The regular suppression 
account is increased 135 million over last year to a total of 
1.13 billion. The Forest Service budget request now has 1.4 
billion just for fire suppression. This is an increase of 417 
million over last year.
    I note that the supplemental bill under consideration right 
now also has an additional 200 million in emergency funds for 
wildfire suppression.
    While suppression funding expands dramatically, the 
preparedness account which funds all the firefighters and 
equipments is level funded with no pay costs or inflation 
adjustment at all, and hazardous fuels, state fire assistance, 
and forest health programs are all reduced. I think the fire 
budgeting hearing made it clear that these prevention efforts 
are extremely important if we are ever going to get out ahead 
of the wildfire situation.
    We also held an oversight hearing at which GAO and the 
Inspector General summarized their management review of the 
Forest Service. There was some good news to be heard regarding 
much better financial management. This is something this 
committee insisted on, and we are pleased the Forest Service 
has responded, and it is much better but not perfect.
    However, there are lingering concerns about data collection 
for environmental and performance monitoring. We all need to 
work on that.
    I am pleased that the request maintains the Legacy Road and 
Trail Remediation Program at its fiscal year 2009, funding 
level. The Legacy Road Program improves stream and water 
quality conditions by removing unneeded roads that are eroding, 
and the program also improves roads and trails which are 
essential for public use of the forest.
    In addition, I also am interested in hearing the Chief 
explain the new 50 million Presidential initiative to protect 
national forests.
    I will close with brief comments on climate change and the 
Forest Service. This agency needs to be a full partner with the 
other federal and state agencies for both climate change 
research and land management which adapts to changing 
environments. The national forests and grasslands were 
originally established in large part to protect watersheds and 
guarantee the steady flow of water. Western America gets over 
half of its rain and snow from the national forest system.
    Nationwide state and private forestlands provide the water 
for over 125 million people. As climate changes, the treatments 
and conditions of all these forestlands will be even more vital 
for the country.
    I look forward to discussing at this hearing.
    Mr. Simpson, do you have any opening remarks?
    Mr. Simpson. Thank you, Mr. Chairman, and I was glad to 
hear that you got that previous Administration thing in there. 
I agree with you on that.
    Mr. Dicks. Well, you know, just for the facts.
    Mr. Simpson. I did not mean to prolong it.
    Mr. Dicks. That was a 35 percent cut in the Forest Service 
budget, so it was painful, but we are beyond that.
    Mr. Simpson. And I agree with your remarks.
    Mr. Dicks. Okay.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Thank you, Chief Kimbell, for joining us this 
afternoon. We have met on several occasions recently, and our 
conversations have run the gamut of topics near and dear to 
both of us. I also want to thank you for your willingness to 
assist my office with some complex Forest Service issues in my 
home State of Idaho.
    There seems to be no shortage of challenges and 
opportunities within the Forest Service. For many years this 
subcommittee and the Congress as a whole have struggled with 
the issues of budgeting for wildfires as the Chairman 
mentioned.
    Fortunately, this effort has resulted in some constructive 
dialogue that appears to be yielding positive results. Chairman 
Dicks has been a champion in this regard, and I thank him for 
his leadership.
    Today we have moved beyond merely talking about inadequate 
fire budgets and are considering actual legislative solutions. 
Our common goal is to establish credible, sustainable wildfire 
budgets without decimating non-fire-related programs and 
undermining the very core essential functions of the Forest 
Service. To that end I look forward to hearing from you on 
budgeting for fire suppression and more specifically your views 
on the President's proposed Wildfire Suppression Contingency 
Fund.
    Another area of interest is the extent to which the Office 
of Management and Budget, as we talked about yesterday, is 
helping or hurting the development of your annual budget. It is 
puzzling to me that the Department of Interior has 100 percent 
of its pay and fixed costs covered by the President's budget 
request, while the Forest Service under the Department of 
Agriculture has roughly 60 percent of the pay and fixed costs 
covered.
    I am also puzzled by the fact that the capital improvement 
and maintenance portion of your budget is slated to receive an 
additional $50 million through a new Presidential initiative, 
even after those accounts received $650 million in the Stimulus 
Bill. By way of comparison the national forest system accounts 
covering things like forest products, habitat management, and 
law enforcement did not receive any stimulus money, and these 
accounts are flat under the President's budget proposal. They 
actually lose ground when you factor in inflation. Frankly I do 
not get it. I may offer an amendment down the road requiring 
the Office of Management and Budget to testify before our 
committees to explain some of these proposals that do not seem 
to make any sense.
    Working with members of this subcommittee, Chairman Dicks 
and I are determined to find common ground on these and many 
other issues related to the Forest Service. It is in this 
spirit that I look forward to continuing our dialogue, 
discussing your budget, tackling many Forest Service issues in 
Idaho and around the country and perhaps even one day inviting 
you up to hike in the Boulder White Clouds if you would like to 
go with us. Several of my staff members and I go up every 
August and spend time with your employees, the Forest Service, 
and have a great time, and it is good to get our minds clear 
when we get up there. So I appreciate it and would invite you 
up there any August when we go.
    Ms. Kimbell. Great.
    Mr. Simpson. Thank you for being here today.
    Mr. Dicks. I would like to call on Mr. Lewis, the Ranking 
Member of the full committee and someone who has been very 
helpful over the years on helping us get emergency funding, 
with California having been so hard hit. We are pleased that he 
is here today.
    Mr. Lewis. Chief Kimbell, thank you very much for being 
here. I came really to express my appreciation to you, members 
of the Forest Service for the fabulous job you have done on 
behalf of those of us concerned about the forest over the 
years. Regardless almost of the funding but funding is pretty 
fundamental as well.
    In the meantime, I came also because I wanted to express my 
deep appreciation to Chairman Dicks and his Ranking Member, Mr. 
Simpson. The two of them are obviously working together, you 
know, as though they were a lifelong team, and the Chairman has 
a fabulous membership on both sides of the aisle, people who 
are concerned about the forest. I think as you look forward, 
you will want to communicate in a way that causes this 
committee to say the forest is first and partisanship is 
second.
    So I am here to listen more than anything. I do very much 
appreciate the work that you are about and will have a couple 
of questions regarding some of the challenges I see, but in the 
meantime thank you for being here.
    Ms. Kimbell. Thank you, Mr. Lewis.
    Mr. Dicks. Chief, why do you not go ahead with your opening 
statement, and we will put the entire statement in the record, 
and then you may proceed as you wish.

               Statement of Gail Kimbell, Chief Forester

    Ms. Kimbell. Thank you, Mr. Chairman. Chairman Dicks, Mr. 
Simpson, members of the committee, I have submitted my written 
comments, and I hope that they will be accepted into the 
record.
    Mr. Dicks. That will be without objection.
    Ms. Kimbell. Thank you, and I want to start by thanking you 
for your fabulous support in the American Recovery and 
Reinvestment Act. I am sorry. I have been calling it ARRA for 
so long that I kind of lost the ``R'' there.
    Mr. Dicks. So people think it is error.
    Ms. Kimbell. And I grew up in New England, but I am not 
adding that ``R''. ARRA. It just gives us fabulous opportunity 
to complete work in some real critical areas while we are 
creating jobs in some real important areas.
    This is a far better starting point for the Forest Service 
to be sitting here before you to talk about the 2010 budget 
than we had perhaps for the 2009, the 2008. We have had some 
very rough years.
    This budget essentially holds agency programs level as the 
Chairman pointed out, and yet it provides the three 
Presidential initiatives; the responsibly budgeting for 
wildfire, and I think the Chairman adequately covered what is 
included in the 2010, in wildfire, including the $282 million 
reserve.
    It also includes an initiative to conserve new lands. It 
shifts money from what has been a very active land acquisition 
program. It shifts some of those monies and adds monies to 
forest legacy, and it specifies that the $34 million in forest 
legacy will be used to protect forested lands under significant 
development pressures, to protect air and water resources, 
habitat for threatened and endangered species, and to provide 
access to national forest system lands.
    The legacy program has been an immensely popular program 
with many communities and states, and there continues to be 
interest in what might be possible in this 2010 budget 
proposal.

                        PRESIDENTIAL INITIATIVES

    Under Protect the National Forest there is $50 million of 
CIM that talks about protecting the investments made under the 
work that was done on ARRA. We have had quite some discussion 
internally about the opportunity to focus those monies on 
specific areas to do all the things that were included in the 
language, including implementing our travel management plans, 
protecting investments, and provide for health and safety needs 
in some of our facilities.
    At the same time we have all the normal work or all the 
regular work of the Forest Service. We have focused on climate 
change in the last several years, and as I testified before 
Chairman Grijalva earlier this year we have developed a seven-
point framework by which the Forest Service is addressing 
climate change. It counts on having quality science, 
mitigation, adaptation, policy issues, education, sustainable 
operations, and having partnerships, having alliances with 
other agencies and other peoples who are working so hard on 
climate change in forests.
    A real niche for the Forest Service is in adaptation. It is 
a real opportunity to make our national forests and grasslands 
showcases for the work that can be done in adapting to what is 
going on with climate change and then utilizing the science 
that we have been working so hard to garner.
    This budget reflects $27 million being committed to Forest 
Service research in climate change, and this is research that 
can be used by all forest owners, not limited to just the 
national forests.
    There is continuing emphasis on making the national forest 
system showcases, and even in our state and private programs 
where we have done some redesign of the delivery of our state 
and private programs to emphasize work across landscapes and 
certainly climate change is part of what we are aimed at there.
    We have also been emphasizing water. This budget reflects 
$57 million for managing aquatic habitat and 60 million for 
managing and improving watershed conditions. This will be 
complementary to the work that we are doing in ARRA and 
wildland fire, and much of the wildland fire work is also 
complementary to the bunch of work we are doing with repairing 
roads under the construction and maintenance, looking at 
passage of aquatic organisms and protection of different 
drainage systems.
    We have also had a significant emphasis on kids and what we 
do with young people around the country and how we are able to 
target populations in urban areas. More than 80 percent of our 
population currently lives in urban areas, and our population 
is becoming more and more diverse and trying to find ways to 
connect with young people in those urban areas to hopefully 
stimulate an interest in natural resources, while at the same 
time not forgetting all of the communities that we live in and 
that we serve in rural areas and the importance of being able 
to work with kids in rural areas.
    We hope to benefit in many ways from having a better-
informed citizenry, certainly have kids better informed about 
conservation, and hopefully some of those kids will choose to 
want to come to work for the Forest Service as some of us gain 
on retirement age more than we know.
    So I look forward to being able to respond to questions you 
might have, and you have already laid out some real 
opportunities in your opening remarks. So thank you.
    [The information follows:] 

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       FIXED COSTS NOT ADDRESSED

    Mr. Dicks. What is done in the budget on fixed costs? They 
are not covered?
    Ms. Kimbell. Essentially the total values are held flat 
through national forest system, state and private programs, and 
there is a little bump up in research that actually covers pay 
raises.
    Mr. Dicks. So it is on an ad hoc basis? One account maybe 
there is fixed costs covered, another account, it is not. I 
mean, I think interior covers fixed costs.
    Ms. Kimbell. There are many adjustments made to this 
proposed budget after it was first laid out, and though pay 
costs were discussed, they do not appear in all our accounts. 
No.
    Mr. Dicks. What impacts will you have if you do not get 
fixed costs?
    Ms. Kimbell. It has an effect on our ability to produce at 
the same levels that folks have come to expect of us.
    Mr. Dicks. So do you have to lay people off, or you will 
not be able to cover pay raises, or how do you do it? How do 
you manage it? Attrition?
    Ms. Kimbell. We will cover pay raises, but attrition and 
seasonal hiring are usually what is affected or even 
contracting opportunities, capacity for contracting is 
affected. But it has over the years affected our ability to 
have seasonal employees and to have the capacity that we have 
in previous years.

                             WILDLAND FIRE

    Mr. Dicks. You have a pretty good budget for suppression, 
but on preparedness and forest health it is not so good.
    Ms. Kimbell. Preparedness and forest health and all of 
those accounts are essentially held flat if you compare both 
those line items that are under wildfire suppression and all 
those items that have the label of national fire plan. If you 
compare those to what is under state and private programs, they 
essentially level out, but they do level out.
    Mr. Dicks. You know, we had a hearing this year on this 
subject of wildland fires and the Hazardous Fuels Reduction 
Program is held out by both GAO, I think, and the Inspector 
General and others as probably the most important thing we can 
do if we are going to try to get ahead of the curve on these 
fires and try to get this cost under control, which is, as you 
know, is having a terrible effect on your budget.
    There are other things in this budget that have been added 
to it. I honestly think that this is one area where we are 
going to have to make some adjustments because I do believe, 
based on what we have learned, that this is the one thing you 
can do that will really make a difference. We have a huge 
backlog. What is it, 80 million acres?
    Ms. Kimbell. It is a very large backlog, and the $250 
million that was provided through ARRA for the national forest 
will be a tremendous help, and we will be implementing those 
projects----
    Mr. Dicks. How many acres can that take care of?
    Ms. Kimbell. Oh, shoot. I cannot recall how many acres we 
have. It is millions.
    Mr. Dicks. Millions.
    Ms. Kimbell. But it is acres across the country, and we 
will have that number for you here shortly, Mr. Chairman.
    Mr. Dicks. Okay. Well, and reforestation, too. What about 
reforestation? We are behind on that, too, are we not?
    Ms. Kimbell. We are behind at least a million acres in 
reforestation, and then with the fires last summer in 
California, we will be doing surveys this spring. We do have 
the information on fire severity from last summer, but we 
expect to be adding to that one million acre backlog.

                             CLIMATE CHANGE

    Mr. Dicks. You mentioned climate change. Does the Forest 
Service have scientists working with the USGS and BLM and NASA 
and NOAA and all these other agencies on climate change 
research?
    Ms. Kimbell. Absolutely. In fact, our scientists work very 
closely with USGS and NOAA and work closely with universities. 
We have a number of scientists who participate in the 
Intergovernmental Panel on Climate Change. Thirteen of our 
scientists shared in the Nobel Peace Prize just a year ago. Our 
scientists are very actively engaged with other scientists, not 
just here in the United States, but around the world and 
looking at what is happening with temperate forests, tropic 
forests and boreal forests.
    Mr. Dicks. In your judgment as a professional, we see all 
the manifestations--drought, bug infestation, longer 
firefighting seasons--of the effects on Forest Service lands of 
a warming climate. There is no question about that, is there?
    Ms. Kimbell. No. The data is pretty undeniable that we have 
a change going on in our forests across the United States. Just 
recently a report was published by a scientist here in the 
eastern United States specific to 30 species of trees whose 
range has effectively moved north. And so those species have 
disappeared from ecosystems in the southern parts of their 
ranges and are moving further north, and it is something that 
we can document.
    We have a system of experimental forests and ranges that 
give us a really good track on what is going on with forest 
ecosystems across the country, and that has allowed us to have 
100 years of data in some places, in some forest ecosystems, 
and that has been important information to be able to track 
what is happening with forests, forest health, forest 
composition, invasive species. It has been really valuable to 
us.
    But the data is really clear that forest soils are drier, 
that we have droughtier conditions, we are having larger insect 
epidemics than have ever been recorded, we are having larger 
fires than exist in anyone's memory and fires are burning 
hotter and doing more damage. Just our experience last summer, 
again, in California with the lightning bust that went through 
northern California in late June, some of the severity of those 
fires will render some of those sites inhospitable to 
vegetation for some time. So the damage being experienced with 
some of these fires is pretty serious stuff.
    Mr. Dicks. Did you find anything?
    Ms. Kimbell. Yes, he did, and I was off by a factor of ten.
    Mr. Dicks. Well, I may have been, too, in my questions.
    Ms. Kimbell. The anticipated target with the $250 million 
from ARRA that is targeted to the national forest systems would 
be somewhere around 400,000 acres.
    Mr. Dicks. Four hundred thousand acres.
    Ms. Kimbell. Four hundred thousand acres.
    Mr. Dicks. All right.
    Mr. Simpson.
    Mr. Simpson. Let me follow up on the Chairman's question on 
the fixed costs.
    The budget covers fixed costs this year in the Forest 
Service at 60 percent. Interior is 100 percent. Is that your 
priority, or is that OMB's priority?
    Ms. Kimbell. I am not entirely certain as to where those 
adjustments get made, but I know that from the initial look at 
what might have been the 2010, proposed budget, there were 
earmarks removed from that, there were a number of things 
removed from those total numbers that resulted in the numbers 
that you have before you.
    Mr. Dicks. If you will just yield just for a second.
    Mr. Simpson. Yes.

                  RESULTS OF NOT COVERING FIXED COSTS

    Mr. Dicks. Is that a difference between the Department of 
Agriculture? Do they treat everybody in the department the same 
way as they are treating you?
    Ms. Kimbell. And I do not know because I have worked for 
the Forest Service for so long, and I have not worked in 
another USDA agency.
    Mr. Simpson. But if an employee works for you and we give 
pay raises, that employee is going to get a pay raise?
    Ms. Kimbell. Absolutely.
    Mr. Simpson. And the only way to cover that other 40 
percent that you are not funded is as you said, not to do 
contracts, not to hire seasonal employees, not to replace 
employees that might retire, those type of things. Any idea of 
what that does to the morale of the people in the Forest 
Service?
    Ms. Kimbell. I have a real good idea. I spent the first 28 
years of my career on ranger districts and at national forest 
levels, and it is a real difficult thing when folks see their 
budgets erode year after year after year, at the same time 
demands for services from the national forests, you know, from 
recreation services to forest products to even roads, driving 
for pleasure on roads, hunting opportunities, fishing 
opportunities. It is a very demoralizing kind of thing when you 
have diminished capacity to be able to provide for the things 
that the public is demanding.
    Here we are with this address to climate change, and I have 
insisted that employees not only learn more of what is 
happening in the areas that they are responsible for, but they 
continue to learn and that they continue to explore and examine 
different questions with what is happening with climate change. 
And that all takes time and energy and so there is this 
tremendous change going on in the ecosystem at the same time we 
have changed their abilities to be able to produce on the 
ground.
    Mr. Simpson. Well, what bothers me a little bit about this 
is if you only give 60 percent of the fixed costs, you are 
effectively setting policy. Now, you might be saying to you in 
the Forest Service, we are only going to fund 60 percent of 
this. You have got to find it somewhere within your agency, 
which means you are not going to be able to do something.
    Ms. Kimbell. That is correct.
    Mr. Simpson. And why OMB looks at the Forest Service and 
says that and does not say it in some other area is of concern 
or they are trying to, and in fact, are affecting policies 
somehow directly by doing this. It is just a strange thing to 
me because you are obviously going to have to get that money 
somewhere.
    Ms. Kimbell. Yeah. I have never had an employee complain 
about a pay raise.
    Mr. Simpson. Yeah.
    Ms. Kimbell. But at the same time it can be, you know, 
accumulatively it has its affect over the years, and we have 
ranger districts that have greatly reduced staffs, national 
forests with greatly reduced staffs.

                       USFS CONSOLIDATED SERVICES

    Mr. Simpson. Right. I have also in terms of employee morale 
and stuff that is going on, you and I have discussed this a 
little bit in my office, and that is the Albuquerque Center and 
the consolidation of activities in Albuquerque and the impact 
that that is having on employees. And I hear this from Forest 
Service employees quite frankly all over the country that have 
talked to me and their concern of the morale. Are you looking 
at how Albuquerque is working and if it is achieving the goals 
that it originally was meant to achieve when we consolidated 
these activities in Albuquerque and also the impact that it is 
having on decisions being made by individual foresters out in 
the field?
    Ms. Kimbell. Yes. Yes. When we first made the decision to 
consolidate activities in Albuquerque, the first unit of 
business that we put there in Albuquerque was our accounting 
business, our accounting and finance. We appeared before this 
committee a number of times with some regrettable records and 
yet in the last 7 years we have passed out audits, which has 
been not just a little bit of effort. It has been an extreme 
effort, but we have gotten to a point where our consolidated 
services there in Albuquerque are really performing very well 
for the agency for financial services.
    We also have IT services there, information technology 
services, and we are reexamining some of the assumptions we 
made when we went into our whole competitive sourcing and most 
efficient organization analysis some years ago. We are 
reexamining some of those things and building a strategic plan 
for where we are going with information technology in the 
Forest Service.
    Human resources we consolidated there in Albuquerque 2-1/2, 
we started 2-1/2 years ago. There has been probably more 
concern about human resources than financial and IT functions 
within the agency, and I would suspect that that is some of 
what you are hearing.
    A year ago I made the decision that we would stop 
implementation of part of what had been earlier decided on 
because it was not working for the employees in the field, it 
was not working for the employees in Albuquerque, nor for the 
National Finance Center, and we really needed to do something 
different. So we pulled back from that and put other systems in 
place while we are reexamining that one software system that 
everyone in the agency was using.
    At the same time we are going through a reexamination of 
the assumptions that went into the whole consolidation there in 
Albuquerque in the first place for human resources, and I am 
expecting a report out next month.
    Mr. Simpson. Okay. What I hear from the employees that I 
talk to--and probably more so than any other employees in the 
Federal Government--Forest Service employees get very attached 
to the places they work, you know, that is their baby. And they 
start to tell me they feel like they are working for 
Albuquerque instead of working to protect the land that is 
their primary objective and stuff.

                    FOREST SERVICE AIR TANKER FLEET

    One last question: Tankers. As you know the tankers are an 
issue in fighting wildfires. We know the aging of the fleet for 
the Forest Service. What are your plans?
    Ms. Kimbell. You know, we have examined this issue with the 
age of aircraft for a number of years. You may be familiar that 
some years ago we stood down all of our air tankers, all the 
air tankers we utilize through contract because of safety 
concerns. There are just too many airplanes going down, and 
there was just too great a concern for safety. With a lot of 
discussion with the Federal Aviation Administration, we have a 
system in place for certifying aircraft to be used on our 
contracts for flying retardant.
    Just a month or so ago there was yet another crash with a 
P2V based out of Missoula, Montana, that crashed in Utah on its 
way to a fire in New Mexico. You know, again, it is causing us 
to ask those questions.
    Along with all of that, we have been going through an 
examination of the fleet of air tankers, and it is an aging 
fleet for sure, and we have prepared an analysis, and we have 
provided it to the Office of Management and Budget, and it is 
there with the form 300, and we are hoping to be able to work 
that loose from OMB soon so that we can have that discussion.
    Mr. Simpson. Can we get a copy of that report?
    Ms. Kimbell. As soon as they release it.
    Mr. Simpson. As soon as OMB releases it.
    Ms. Kimbell. Absolutely.
    Mr. Simpson. Okay. Thank you.
    Mr. Dicks. Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman.

                         FIREFIGHTER RETENTION

    Ms. Kimbell, in the early days in the Congress some of my 
constituency was a bit concerned about me because they thought 
I was some kind of an environmental freak. I was the author of 
the Air Quality Management District in Southern California. Our 
national forests were important to me, although I had no 
specialty at all in that arena, but I can imagine a young 
person who is focusing upon our environment and the future of 
our ecosystem falling in love with the forests and wanting to 
join of all things the U.S. Forest Service.
    So we attract some of the best, highest-quality people 
around, and in turn, we have a pattern apparently of those 
people serving for awhile and some of the frustrations you have 
been discussing with Mr. Simpson begin to have an impact upon 
that service, and they look around and maybe Cal Fire looks a 
little more interesting than they might have ever thought or 
even local fire services look more interesting because of a pay 
differential.
    I would be very interested in what your thinking is right 
now regarding a recruitment plan or retention plan. What kinds 
of steps do you think are absolutely necessary in the near term 
for us to take to ensure the kind of retention and quality we 
would like?
    Ms. Kimbell. Now, Mr. Lewis, are you speaking specifically 
to firefighters in southern California?
    Mr. Lewis. I am.
    Ms. Kimbell. Okay.
    Mr. Lewis. That is really where I am coming from.
    Ms. Kimbell. Okay, and we hire quite a number of 
firefighters, as does Cal Fire, as do the local communities. We 
provide a different job than Cal Fire and the local communities 
in that we are a wildland firefighting agency, whereas Cal Fire 
in some locations and the locals in nearly all locations 
provide a different kind of community service in that they 
provide structure protection, EMT services. They provide just a 
very different kind of, though they both go by the name, 
firefighter, they are different jobs.
    And yet we do have people because they qualify for 
different jobs, they may come to the Forest Service, go through 
a training program, and become qualified to compete for jobs 
with Cal Fire and the locals, but they will apply for those 
jobs because the hours are different, the pay is different, and 
they work year round instead of working seasonally as a 
wildland firefighter.
    Mr. Lewis. Right.
    Ms. Kimbell. And those are different life choices for sure. 
A year ago we went through an effort to really analyze what was 
going on in recruitment and retention with our firefighters in 
southern California, and what we found is that we have no 
problem recruiting at the entry level, and we have no problem 
at the management levels. It is that in-between level where, 
you know, there are folks who move back and forth between the 
agencies with Cal Fire, with the locals, and so we in 2009, we 
put into place a retention bonus for certain grade levels of 
firefighters in California.
    What we found in analyzing the statistics--it is a huge 
issue in southern California because there are so many 
firefighters.
    Mr. Lewis. Right.
    Ms. Kimbell. But there are issues all over California, and 
actually there are issues elsewhere in the country where cost 
of living can be very, very high, and it is hard to retain 
people in those firefighter positions.
    So we provided a retention bonus, we have also provided 
opportunities for people to move through the grade levels, to 
become qualified to be able to move through the grade levels 
faster than they had been in their apprentice positions. We 
have provided improvements to some of the firefighter 
facilities, and we are continuing to examine how all of that is 
working out.
    Now, with the current downturn in California's economy, Cal 
Fire is not hiring at near the rate they have been. There was 
actually a recent news story about how the Forest Service was 
the employer of choice in southern California. So these are 
things that do shift over time, but we are keeping a very close 
eye.
    Mr. Lewis. Well, thank you for that, and frankly, I would 
hope this committee would work intensely with you to try to 
help implement any policy changes that you might see as a 
priority.
    Ms. Kimbell. Thank you.

                       HAZARDOUS FUELS REDUCTION

    Mr. Lewis. I am very interested in knowing what you do when 
you have limited resources, and you are evaluating this backlog 
of brush and otherwise, the management of the forest at a basic 
level to help us prevent fires. When you find forests that are 
in similar condition and resources are short, how do you go 
about making decisions between which forest gets the attention 
first?
    Ms. Kimbell. We have two different systems. Nationally we 
do have a prioritization system to look at the different data 
on vegetative condition, on the kind of terrain it is in, its 
proximity to community, to different things that may be at 
risk, and we try and prioritize those in our budgeting system 
so that our monies are going to the highest priority projects 
on the ground.
    Now, each of the regions has taken that a step further in 
working through finer detail, and I came to this position from 
the northern region, from Missoula, Montana, and I know there 
we had developed a system that looked at vegetative conditions, 
communities at risk, resources at risk, and also looking at 
different wildlife habitats that were part of critical habitat 
plans. And prioritizing then our advanced work in hazardous 
fuel reduction hopefully in advance of a fire bust.
    So it is, you know, there is work we do nationally when we 
disseminate the funds to the regions, and there is work at the 
regional level using local data.

                         AIR TANKER CONTRACTING

    Mr. Lewis. Help me to better understand what I do not know 
about the tanker issue. An aging fleet is one thing, but this 
layman does not know exactly who owns those tankers, and if 
there is a contracting relationship, I would think if a 
contractor or someone who is essentially leasing or using 
temporarily one of your airplanes that is one thing. On the 
other hand if they are contracting out for work, I would think 
their responsibility for maintaining the highest level of 
quality would be pretty significant.
    Help me know what I do not know about that.
    Ms. Kimbell. Oh, dear. There might be two of us who do not 
know all that we could know about that, but the aircraft, the 
P2Vs and the P3s that are essentially the super tanker fleet--
--
    Mr. Lewis. Right.
    Ms. Kimbell [continuing]. Or the large tanker fleet, they 
are owned by private contractors. Those companies are 
responsible for the maintenance and responsible for the 
operation of those airplanes. There are strict maintenance 
schedules, they are inspected regularly, and there has been a 
lot of attention to the airworthiness of the P2Vs and the P3s.
    And some airtankers were taken out of consideration for 
contracting due to airworthiness issues in 2002. There are 
currently 19, and we have had many more in the fleet in 
previous years. And in looking at that when they will reach the 
end of their useful lives, there comes a time . . . will 
decline to eleven aircraft available by 2014, and then by 2021, 
it is eight aircraft still available.
    And so this is a very serious concern for us as to how we 
will deliver fire retardant or will there be some other system 
in place for fire suppression. We utilize helicopters, heavy-
lift helicopters for direct work on initial attack of fires and 
also on fires once the initial attack is done. Essentially the 
heavy tankers are used for initial attack. Then we use the 
heavy helicopters or single-engine air tankers in more direct 
attack once we get into fire suppression.
    Mr. Lewis. Well, it is really not appropriate for me to 
make suggestions like this, Ms. Kimbell, but I could not help 
but look with interest for the variety and mix of money flows 
that came as a result of this huge, huge stimulus package we 
had recently. We delivered an awful lot of money to every one 
of the agencies, and we gave those agencies a lot of 
flexibility in terms of their priorities and the way they would 
use those monies. If I were in your shoes or nearby, I would be 
seriously in the lobbying business of applying some of that 
money to capital requirements such as this. Not thinking about 
the 2016, date but while the money is in the pipeline and 
before it is spent or obligated.
    And a discussion within the agency relative to this very 
high-priority area I think might be appropriate. You do not 
even have to respond if you do not want to.
    Ms. Kimbell. Well, we have had a lot of discussion with the 
Department of Interior, with the Office of Management and 
Budget, with the previous Administration, and we certainly have 
had the opportunity to start into that discussion with this 
Administration.
    Mr. Lewis. Okay.
    Ms. Kimbell. It is very, very important to us, and I 
mentioned the form 300 that is over there at the Office of 
Management and Budget right now and certainly before I expend 
anything on aircraft I need to go through that approval process 
with the Office of Management and Budget. And so we are hoping 
that we will get to that point someday.
    Mr. Lewis. Well, you know much better than I the old 
business of green money and red money in terms of forestry or 
forestry needs. When we got a fire rolling, there is plenty of 
cash flowing, but in the meantime we always short shift at the 
management level, and it is really important we try to overcome 
that in every way that is possible.
    Just one more item. We have had this series of fires in 
southern California, and in the past we have had kind of the 
extremes addressing the forests. Eco freaks like me did not 
want people cutting down a single tree. On the other hand, 
there were people who wanted to build a roadway anywhere just 
so that we could get through the place.
    Once we found ourselves faced with infestation like the 
bark beetle and millions and millions of trees being infected, 
these two kind of pockets began coming together and actually 
talk to each other because they all care about the forest.
    That has created an environment in which training and 
retraining, various levels of agency working together, has 
improved at a level like I could never have imagined. And I am 
wondering if you are experiencing that elsewhere as the 
southeast is having its problem, et cetera.

                              PARTNERSHIPS

    Ms. Kimbell. Yes. Actually, there are people who are coming 
together, recognizing the importance of having not only forests 
but having healthy forests, the importance for wildlife 
habitat, the importance for clean air, clean water. Here we 
have had all this discussion about carbon and carbon 
sequestration and forests are sucking up carbon every day. We 
have 758 million acres of forestland in the United States, and 
I think people are valuing more and more keeping those lands 
forested for all the different things they provide for us.
    So I have had the privilege to observe different 
communities coming together, bringing, you know, people who may 
have operated on the fringes in the past, coming together to 
want to identify a better future for the forest that they 
depend on.
    There are great examples in western Montana. There was a 
very diverse group that put together management guidelines for 
Ponderosa Pine in western Montana. There are groups that have 
put together similar kinds of guidelines in New Mexico and 
certainly California has had a number of different groups that 
have worked together on providing different guidelines than for 
the use across the landscape, not just on national forests but 
on all forested lands with very willing partners.
    And that has been an exciting thing over my 35-year career 
to finally see community coming together around this idea of 
having a healthy forest.
    Mr. Lewis. Mr. Chairman, if you would give me lead for just 
a moment----
    Mr. Dicks. Go right ahead.
    Mr. Lewis [continuing]. There is a homeland security 
hearing where Secretary Napolitano is there for the first time 
and both their Chairman Price and Ken Calvert are not here 
because of that. It is not because of a lack of interest.
    Ms. Kimbell. Thank you, Mr. Lewis.

                          CARBON SEQUESTRATION

    Mr. Dicks. Thank you. Let me ask you one thing, and then I 
will go to Mr. Cole. When you talk about the forest absorbing 
carbon dioxide, would it not be better if we thinned the forest 
and have your trees growing at a greater rate? I mean, have you 
ever done any calculations about the difference?
    Ms. Kimbell. In fact, we have, and there are a number of 
different projects ongoing right now that we hope to have data, 
the hard data to provide to you. But there are a number of 
projects going on looking at the difference in carbon 
sequestration in a healthy stand versus a stagnant stand, and a 
healthy growing stand and then in the different age classes.
    There is so much, you know, discussion about age and 
diameter and so many other characteristics of a tree and yet 
its ability to take in carbon dioxide and sequester that carbon 
has more to do with the health of the tree than strictly the 
age or the diameter.
    And so working towards adaptation to climate change and 
thinking about what the moisture availability is, what the 
nutrient availability is on a site, and actively managing the 
forests on those sites to be able to best utilize what is 
available and to remain healthy.
    Mr. Dicks. Do different types of trees absorb different 
amounts of carbon dioxide?
    Ms. Kimbell. Yes, and I do not have the details of that in 
my head, but yes, and there has been a lot of work done with 
the different hardwood trees here in the east to look at what 
species absorb more carbon than others and in conifer species 
and hardwood species in the west.
    Mr. Dicks. And as long as we keep it in furniture that 
carbon dioxide stays in the furniture.
    Ms. Kimbell. And it is beautiful wood that is full of 
carbon.
    Mr. Dicks. Full of carbon.
    Mr. Cole.

                             WILDLAND FIRE

    Mr. Cole. Thank you, Mr. Chairman. Every time we get into 
these forest discussions I always like to start off with the 
fact that I am from Oklahoma, so we are just happy to see a 
tree, you know. We do not have a lot of forest. I do not 
pretend to be especially knowledgeable about them, but I am 
delighted, I want to go on record, this idea of having a 
contingency fund to deal with the fire problem, because I have 
seen it in my district a couple times. We lost projects 
literally when interior appropriately had to cannibalize 
accounts and literally in one case a visitor's center that I 
lost several years ago and have never been able to get back. 
But they did the right thing, but I am glad we hopefully will 
not have to resort to that.
    Can you tell me just rough-water magnitude what we have 
been spending on fire suppression in recent years, and how much 
outside the norm that is? And I suppose I am particularly 
interested in your view as to whether or not this contingency 
fund that we are talking about is really large enough.
    Ms. Kimbell. Well, that is a really good question. 
Actually, fire suppression has gotten more and more expensive 
in the last several years. We work on budgeting a 10-year 
average, and that average has been going up every year, and I 
think that is what was referred to earlier as what has been 
robbing all of the other accounts in order to keep the total 
Forest Service budget flat and fund fire suppression at that 
10-year average. It has required taking monies from all the 
other accounts.
    So we have been spending this last year, 2008, we spent a 
little over $1.4 billion in fire suppression. The big year for 
us was 2006, and we spent just under $1.5 billion. And, you 
know, there were years that started dropping off of the average 
of 600 million, 500 million, 400 million. Those were the good 
old days.
    So it pushed us into a system of things that started in 
2002, with evaluating what we had appropriated for fire 
suppression, the kind of fire season we were anticipating, and 
the time of year, and in 2002, we worked hard to withdraw money 
from the field because the language is very clear. It is all 
monies available to the Chief of the Forest Service, so it is 
all the monies available to the Chief that need to be withdrawn 
then to be spent on fire suppression, because we know we are 
going to be working to suppress fire, and I can cancel a 
project like a visitor's center easier than I can tell 
somebody, no, I am not going to fight that fire. Neither is 
very easy, and yet not fighting the fire is not an option.
    So the language used to say available to the Secretary of 
Agriculture, but it currently says available to the Chief of 
the Forest Service.

                      FORECASTING FIRE SUPPRESSION

    This year we are expecting and looking at the current 
forecasts here in 2009. We are expecting to need another $200 
to $400 million beyond what is already appropriated for 2009. 
We are very anxious about this defense bill and what 
opportunity there might be if that goes through to bring us up 
to the bottom of the confidence interval for 2009.
    For 2010, we are at a much different starting point, and so 
in this budget with that starting point and the $282 million 
contingency reserve that the President can authorize, that is 
just a really different place for us than where we have been 
the last several years.
    It still includes that 10-year average, so that 10-year 
average still comes back and affects then all the other 
programs.
    Mr. Dicks. That is CBO that makes that request, is it not? 
Is not CBO the one that says you have to put the 10-year 
average in?
    Ms. Kimbell. It is an agreement between OMB and CBO--
    Mr. Dicks. What a nasty thing that is.
    Ms. Kimbell [continuing]. Is how I understood that. Well, 
back when it was 400 million a year----
    Mr. Dicks. Yes.
    Ms. Kimbell [continuing]. It was not as bad as when it is 
1.5 million a year. Billion.
    Mr. Dicks. Billion.
    Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman.
    I am going to assure you because my Ranking Member has told 
me we are going to support the President of the United States 
in this effort, that the defense bill is going to go through.
    Ms. Kimbell. I am liking that.

                             FUELS BACKLOG

    Mr. Cole. And I think you are going to do well out of that.
    Let me ask you this. Obviously we have an accumulated 
problem here, and you sort of went into some of the statistics 
drawing off the American Reinvestment Recovery Act it would 
take to catch up with the backlog of work that we have. Let me 
try and capsulate in my mind how big a backlog in terms of 
millions of acres, how much money, how much time? And we seem 
to sort of nibble at this. The numbers are staggering to me.
    Ms. Kimbell. The numbers are staggering, and of course, 
every year with the fire seasons we have it changes some of 
those numbers. When the National Fire Plan was first put into 
place in the early 2000s, there was identified across federal 
lands 170 million acres for the Forest Service. For the 
national forest and grasslands there is somewhere around 60 to 
80 million acres still needing treatment. Since the time of the 
National Fire Plan we have treated almost 20 million acres, 
which has just been a fantastic accomplishment, and yet there 
are some of those acres that even though they might have been 
treated 5 years ago, they might need to be treated again. So 
some of those, especially in a place like Oklahoma, some of 
those acres just, you know, keep coming back. There are things 
that grow very fast in some parts of the country.
    So 60 to 80 million acres and as to expense, it depends on 
whether or not it is in California. There are some acres just 
so expensive because of the wildland urban interface, because 
of all the homes that have been built into the wildland urban 
interface, it has just really changed the complexity of 
firefighting.
    You know, there are some real encouraging things. I just 
heard from the forest supervisor on the Lake Tahoe Basin Unit 
in South Lake Tahoe, California, who has actually been able to 
work out arrangements where the fuels, the hazardous fuel 
removed or thinned or treated, are actually being used by two 
different counties for cogeneration plants and by the prison 
over in Nevada for cogeneration. And there are tons and tons 
and tons of materials that have been removed to those places 
for cogen.
    And I look forward to further opportunities in woody 
biomass utilization to be able to economically better treat the 
lands that are ahead of us.
    Mr. Cole. That would be great. Let me move quickly if I may 
to this tanker issue and just offer what is probably a very 
naive suggestion. I mean, you clearly have an aging fleet, and 
it is hard to keep those things airborne, and I am sure your 
private contractors do a good job, but do you ever have any 
interface with the military who actually does this very well?
    We have got a KC-135 tanker fleet, the newest one is 47 
years old, and there is over 500 of them in the Air Force. I 
actually know about these because they come through Tinker Air 
Force Base in my district. But they do an utterly superb job of 
keeping planes that really are too old in the air and the 
workforce there, the technical capability they have really is 
unrivaled anyplace in the world on what do you do with aging 
airframes.
    So I bet there is some really smart guys there that could 
help you look at your problem and literally think through 
whether or not there is some way to stretch out the life while 
ultimately what you need obviously are new tankers.
    Ms. Kimbell. Ultimately, and there are eight aircraft that 
are fitted with MAFFs, Military Aviation Firefighting. Is 
that--Mobile Airborne Firefighting. I was close. Mobile 
Airborne Firefighting and there are eight units, and they are 
Air National Guard and Air Force Reserve in California, and 
they wind up serving the whole west. And they have been a real 
fabulous help during a big fire bust.
    Now, you know, those pilots are not always as well seasoned 
as some of the pilots who fly the heavy tankers, and so there 
is, you know, until they get that experience, sometimes there 
is a loss in efficacy and yet it gets better through the 
season.
    Mr. Cole. Okay. Thank you. Thank you, Mr. Chairman.

                   FIRE STRATEGY AND COST REDUCTIONS

    Mr. Dicks. Have you brought in any outside consultants? 
Have you gotten any outside experts giving suggestions maybe 
about a better way to fight these fires? You know, 98 percent 
of them we do well, but 2 percent, the big fires, the mega 
fires are the ones that are really costing us a huge amount of 
money. Are we looking for new ideas on how to do this better?
    Ms. Kimbell. Absolutely. You know, last year we had over 
7,000 fire starts. We caught 98 percent of them in initial 
attack. Of those that got bigger than, you know, just what 
happens in initial attack, 0.25 percent of the fire starts we 
had are what turned into our mega fires, the big ones, the ones 
that cause millions of dollars, the ones that CNN loves.
    And if we go back over the last 10 years, we have picked 
out the 30 national forests in our system that are usually host 
to these mega fires when they happen. And so this year we have 
worked with a number of different experts in fire suppression 
and in data analysis, and we have been working to not only have 
those 30 forests identified, but we have national incident 
management teams that have been working with the leadership on 
those 30 forests and their partners and their communities to 
talk about fire suppression and how fire suppression might be 
handled in a different way.
    If you have ever been on a fire crew, you know that things 
change when the weather changes, and you can fight fire on the 
next ridge or on the right ridge. And it is a very difficult 
concept for a lot of people to understand that you would not 
just fight fire where it is, when it is, and yet in examining 
all the information and talking to all the people who are 
experienced firefighters, there is a difference, a huge 
difference in fighting fire on the next ridge versus the right 
ridge.
    So it might mean stepping back a ridge and catching a fire 
on that ridge rather than building a line, building another 
line, and building yet another line and putting people at risk 
every time you go out to build a line.
    So we have had quite some discussions through this winter 
with our partners at the Department of Interior, you know, with 
all of our different research specialists, with our 
researchers, and we have been putting together a system of 
tools for our fire managers and our line officers to use that 
help analyze risks, that analyze fire potential, fire spread, 
rate of spread, and will provide tools to our fire managers on 
the ground when they are actually involved in having to make 
decisions about fire suppression.
    A real critical piece of this and a critical piece of 
working to reduce the cost here is going to be that interface 
with community. You know, when I was a district ranger, I know 
that when we had a fire, there was extreme interest in just 
putting it out where it was, when, immediately, and just 
stopping it. Well, there is some times when that is just not 
possible.
    And there is a tremendous need here to work with community 
to help people better understand fire behavior, fire spread, 
and the opportunities to be able to suppress a fire might be on 
that next ridge instead of this ridge.
    So it is going to be a very complex summer.
    Mr. Dicks. Do you have town hall meetings or anything like 
that where you try to bring in these people to explain to them 
some of the pressures you are under?
    Ms. Kimbell. We do, and we have not always but more and 
more that has proved to be not only something effective but 
something that local communities demand, because they want 
information, and they want it now, and they do not want to wait 
until it is on television or on the Internet.
    So we have held a number of public meetings. Actually 
received really good information through those that help us in 
the further suppression efforts.
    Mr. Dicks. Now, you say you have 30 forests where most of 
the mega fires have occurred. Now, do you take your money for 
hazardous fuels reduction, for example, and focus it on those 
forests, or do you use some other system?
    It would seem to me that if I were running it, I would want 
to use that hazardous fuel money in the areas where we have had 
a history of these mega fires.
    Ms. Kimbell. Yes, and it is not just hazardous fuels money. 
Actually, I am joined here by Deputy Chief Joel Holtrop, and 
Joel is Deputy Chief of the National Forest System and----
    Mr. Dicks. He can come up here if you want him to.
    Ms. Kimbell. This is Joel Holtrop.
    Mr. Holtrop. Do you want me to talk about the sustainable 
landscape management----
    Ms. Kimbell. Yes.
    Mr. Holtrop [continuing]. Board of directors, where we have 
within both the national forest system and in our state and 
private forestry area, as well as our research branch, we have 
a group of directors, all of which have a set of 
responsibilities around vegetation management. And they have 
been working together for the past couple of years in a way to 
make sure that we are focusing on how we accomplish all of our 
vegetation management work that accomplishes the greatest good 
for our mission.
    That is looking at whether we are doing a timber sale, 
whether we are doing wildlife habitat improvement or watershed 
improvement projects, range management, and forest health 
protection work, that we are doing that in an integrated way 
that considers all of the various components of each of those 
programs to try to find ways to make sure that we are 
accomplishing in an integrated fashion the best that we can 
that is looking at restoring fire-adapted ecosystems and making 
sure that we are addressing those issues around communities at 
risk.
    Mr. Dicks. Anybody have a question you want to ask here?
    Mr. Lewis. Just a comment, Mr. Chairman.
    Mr. Dicks. Yes.
    Mr. Lewis. First I was in that homeland security meeting 
before coming here, and it has been popping in and out of mind 
as I am listening to this, you may not know this but it could 
begin to help. Some of our fires of late, particularly the ones 
that we have experienced in my own territory, have been man-
caused and not by accident man-caused.
    Do we have any idea what percentage of forest fires end up 
being the result of somebody with malice and forethought 
wanting to see a fire?
    Ms. Kimbell. I do not have that number right now, but I can 
certainly get that information for you for the record.
    [The information follows:]

    Approximately 46% of Forest Service wildfires are human caused, and 
approximately 20% of those human caused fires are classified as arson. 
So, approximately 9% of total Forest Service wildfires are classified 
as arson.

    Mr. Lewis. Is it a serious problem? Any fire is, of course.
    Ms. Kimbell. Yeah. Any fire is and when there are millions 
of dollars of taxpayer money spent to suppress wildfire, yes.
    Mr. Lewis. My staff reminds me in Esperanza we lost five 
firefighters, and there was human activity involved. I am 
wondering for your consideration, Mr. Chairman, if we should 
not help the service in an intensive way evaluate these people 
who fall in this pattern and working with other agencies, law 
enforcement, et cetera, identify those people who are such 
threats. Because there is huge money involved but also, you 
know, huge impact upon an ecosystem. Just a thought.
    Mr. Dicks. Well, why do we not get the Chief to give us a 
report on it and then we will make a decision.
    Mr. Lewis. Yeah. Okay.
    Mr. Dicks. All of us about what we should do next. I have 
no problem with collaboration with the local communities.
    Well, how does that work with, you know, let us say you are 
out there in California, and you got this urban rural 
interface, and how do you work with these counties, local 
communities to try and get them to help and cooperate in things 
that can be done in terms of construction of the houses and 
clearing the under-storage and all this stuff to make the 
fires, if they do happen, less damaging? How does that work?
    Ms. Kimbell. Well, Firewise is actually a program that we 
work on, the states work on this, and local fire departments, 
but it is a set of tools where people can work with community 
on identifying what kind of hazards there might be, what kind 
of building materials they might want to consider limiting 
themselves to and all. And it has been a tremendously 
successful program in many locations, and in others there is 
some resistance to, you know, having any kind of governmental 
regulation around it.
    We also, though, as a result of, you know, so much of the 
work that was done in the early part of the decade, we have 
been working to develop community wildfire protection plans, 
and we have done these all over the country, but sometimes we 
lead them, sometimes the Bureau of Land Management leads it, 
sometimes it is led by a local fire department or the state 
forester, and sometimes it is led by a whole group of us. But 
we work very closely with community, taking public comment, 
identifying, you know, what is the expanse of the community 
influence area, and what kind of wildfire protection plan does 
the community want to put in place.
    Sometimes those include national forest acres. They 
certainly do not always. There have been plans completed in 
thousands of communities. There are some still that need to be 
completed. The State of Idaho was, I think, the first to 
complete them for absolutely every single community in Idaho, 
but there are more to be done.
    The implementation of the community wildfire protection 
plans can sometimes have some controversy with it, and yet 
still there are folks who are very anxious that their homes, 
their communities be protected from fire, and the community 
tends to be very vocal through any discussion of controversy 
around implementation.
    Mr. Dicks. I assume there is good evidence that this works.
    Ms. Kimbell. Tremendous evidence.
    Mr. Dicks. When there is a fire, that it does make a 
difference.
    Ms. Kimbell. And I think we saw that actually in the Angora 
fire in South Lake Tahoe, and we have documented evidence of 
where that fire came to areas that had been treated as part of 
the community wildfire protection plan, that that fire behaved 
in a very different way. Now, when the fire reached the 
structures, the fire actually burned from structure to 
structure and not through the vegetation. So there was quite a 
lesson learned there about building materials.
    Mr. Dicks. I do not know that these numbers are 
sustainable. I think we have to figure out, keep working on new 
ideas, and it sounds like you are doing that.
    Ms. Kimbell. We are trying, and we are open to anymore new 
ideas that might come down the road.
    Mr. Dicks. All right. Mr. Lewis. Mr. Cole.
    Well, let me look in here and see what can I find here. 
Earlier this year we held a hearing at which the GAO and USDA 
Inspector General reviewed Forest Service studies that have 
been completed in previous years. The GAO continued to maintain 
that the Service does not have short and long-term strategies 
for addressing the growing wildland fire problem.
    Now, is that just not true? Or do you disagree with that 
or----
    Ms. Kimbell. There are certainly differences of opinion and 
yet we are working hard to meet what GAO is describing in that 
as a cohesive strategy.
    Mr. Dicks. You got the words right here. It makes sense.
    Ms. Kimbell. So we are working hard on that to meet GAO's 
definition, and you know, truly, there is----
    Mr. Dicks. It says it lacks performance targets and 
associated funding requirements. So they are still saying you 
do not have a plan. They are saying that you still do not have 
a fire plan. Sometimes when we talk about cleaning up Puget 
Sound, you know, we say there are random acts of kindness. 
Well, maybe there are random acts of good deeds, but that is 
not a plan.
    So I would hope that you would keep working to develop a 
plan, an action agenda to try to get this thing under control.
    Ms. Kimbell. And with the refinement of the----
    Mr. Dicks. Nobody has got more at stake than the Forest 
Service.
    Ms. Kimbell. Absolutely. With the refinement of the 
prioritization tools I was talking about earlier, that will go 
a long ways towards addressing some of what GAO was referring 
to as what was needed in a cohesive strategy.

                   BUDGETING, PERFORMANCE, AND COSTS

    Mr. Dicks. GAO also stresses that the Service lacks 
accurate data on agency activities and their costs.
    Please explain your budgeting process, and how do you 
monitor the implementation of activities? Do you disagree with 
the GAO assessment? What are you doing to improve your analysis 
of energy management efficiency and effectiveness?
    Do you want to do that for the record?
    Ms. Kimbell. I would love to do that for the record.
    Mr. Dicks. The GAO also found that you have insufficient 
internal controls to reduce the agency's vulnerability to 
improper or wasteful purchases and performance accountability 
systems to provide a clear measure of what it accomplishes with 
the funds it receives every year. Do you think the Service has 
adequate performance process in place?
    Ms. Kimbell. I think we do have adequate performance 
processes in place for the work we do. We passed clean audits 7 
years in a row. We will continue to work with GAO to be sure 
that we are clear on what it is they are intending.

                       FOREST SERVICE ROAD SYSTEM

    Mr. Dicks. Okay. Now, I have been an advocate over the 
years for getting the Forest Service into the Highway Trust 
Fund. Now, did the Administration send up a proposal for what 
should be in or out of the Highway Trust Fund, or do you know?
    Ms. Kimbell. Well, we have reapply appreciated your support 
in getting the Forest Service involved, and beyond what happens 
at USDA and our work with OMB, I do not know what is sent 
forth.
    Mr. Dicks. Well, we are trying to find that out. We are 
trying to find that out. I think, you know, the Park Service is 
in. Is fish and wildlife in?
    Ms. Kimbell. Yes.
    Mr. Dicks. Yes, and then the only one that is not in is the 
one that has got the biggest problem, and that is the Forest 
Service. So I am still trying to talk to our Chairman, and I 
would love some help from your side with Mr. Young. I think the 
Forest Service should be in this thing at some level, a 
reasonable level.
    Ms. Kimbell. And the Forest Service has like 375,000 miles 
of road, and of that 75,000 miles is what we call class three, 
four, and five. And those are the bigger roads, the arterial 
roads, the roads that are in the best condition, that provide 
access to major recreation facilities, and actually we can 
further refine that list and take it down to somewhere between 
20,000, 20 and 25,000 miles of the most critical roads on the 
national forest of class three, four, and five that provide 
access to major trail heads, major campgrounds, you know, 
different recreation facilities on the national forests.
    And we can provide that and would be happy to provide that 
to the committee.

                           THE ROADLESS RULE

    Mr. Dicks. Well, again, you know, that would be very 
helpful. We would appreciate that.
    Let me go to another subject. The Roadless Rule. There 
seems to be endless litigation about the roadless areas of the 
national forest. How much land is involved, and where?
    Ms. Kimbell. The Roadless Rule that was signed in 2001, 
examined those areas that were inventoried as part of the 
Roadless Area Review and Evaluation I and II that was done in 
the 1970s. Those areas are located mostly in the west and with 
a large piece in Alaska. When the Wilderness Act was passed in 
1964, it intended that every state go through a process by 
which they would offer legislation to Congress for the 
establishment of wilderness areas, using those inventoried 
roadless areas as kind of a basis for coming up proposed 
wilderness.
    Several states did not, Idaho and Montana amongst them. 
Both with very large roadless acreages. Currently in Montana 
those roadless areas are being managed as per forest plan 
direction, some has been designated wilderness by Congress. 
Some have gone into other land use designations by Congress. 
Others are being managed per land use classifications with the 
forest planning process.
    In Idaho, of course, the then governor of Idaho, Mr. Reesh, 
petitioned the Secretary of Agriculture for a long-term 
management of those areas inventoried as roadless in RARE I, 
RARE II, and in 2008, we signed an Idaho Roadless Rule, a rule 
for the management of those 9.3 million acres of inventoried 
roadless area in Idaho. That has been challenged in court, and 
we still await further progress on that challenge.
    So it has been a tremendously controversial issue since 
there were national forests. There were primitive areas 
identified in the '30s. There was the Wilderness Act in '64. 
There have been many wilderness bills since then and many 
addresses to how national forest system acres should be 
managed. We have had some discussion with Secretary Vilsack. I 
look forward to further discussion with Secretary Vilsack as to 
how we might move forward with the evaluation of roadless areas 
into the future.

                           KIDS IN THE WOODS

    Mr. Dicks. I see that one of your emphasis areas is trying 
to get kids out in nature. I appreciate that very much. Tell us 
what you are doing for conservation education and for getting 
kids out into the woods.
    Ms. Kimbell. And Joel and I are exchanging a smile because 
we just left a meeting this morning where we had quite some in-
depth discussion.
    We do have a very active conservation ed program and have 
always had in the Forest Service. We work with local 
communities, sixth grade classes or whatever the local school 
system might have for their outdoor programs. Scout troops. We 
have worked with a lot of outdoor programs for many, many 
years.
    We have a conservation education program in the Forest 
Service headquartered in Washington that actually works on 
curriculum for K through 12, and we work with the North 
American Association of Environmental Educators, we work with 
many, many partners in developing the curriculum and delivering 
the curriculum. We work with many partners.
    We also have a program that we are calling More Kids in the 
Woods, and this is a program where from the national office we 
have been soliciting grants from the field and communities can 
submit the grants, different national forest, range districts, 
research labs can submit for the grants, and we had almost 200 
project proposals this year for $500,000 that was set aside 
that is to be leveraged with private dollars to have programs 
that actually give kids experiential opportunities, not just 
classroom opportunities, but something outdoors where they 
actually get to interact with nature in some way.
    And, you know, just following on the discussion with Mr. 
Lewis from before, this, you know, I have several different 
objectives in that I want to better inform citizenry that can 
think about conservation, but I also want to have employees 
coming from all over the United States and have that 80 percent 
of our population that lives in urban environments have some 
sense of what forests are, what they provide, and how special 
they are.
    So we have taken advantage of a lot of different 
opportunities to partner with other agencies, NGOs, schools, 
scouts, whomever.

                        YOUTH CONSERVATION CORPS

    Mr. Dicks. What about the Youth Conservation Corps? 
Interior works that pretty hard. Are you doing anything on 
Youth Conservation Corps?
    Ms. Kimbell. Absolutely, and some of our very first ARRA 
projects were in California, Colorado, and Oregon to fund 
different work with the Youth Conservation Corps. We have a 
number of different programs including things like the Central 
California Consortium, which is a take on Youth Conservation 
Corps, which brings kids from many different environments and 
really works them into a lot of different things with 
conservation.
    We also have a Job Corps Program, which we have 22 job 
corps centers that the Forest Service is responsible for, and 
with some recent legislation we are soon to take on the six job 
corps centers from the Bureau of Reclamation. So all 28 job 
corps centers that are part of the CCC job corps centers will 
be in the Forest Service.
    We are working to examine right now and revamp some of the 
training programs within those job corps centers for more green 
jobs so the kids will come out certified to be able to do 
things like install solar panels and you know, install 
different kinds of windows and insulation and all to give kids 
trades, young people trades where they might be able to make a 
living wherever they are.
    So with our 28 job corps centers, what will be 28, we are 
working very hard to ensure that connection with national 
forests so those young people are also getting not only trades 
but they are also getting opportunity to get some exposure to 
conservation.

                           FOREST MANAGEMENT

    Mr. Dicks. You are requesting a decrease to the forest 
products activity. Is this in response to the overall sad 
situation of the economic status of the forest products 
industry and the decreased demand for wood products?
    Ms. Kimbell. There is a slight decrease proposed in forest 
products. It is approximately 1 percent, and, yes, that is 
right along with all of what we were discussing earlier.
    Mr. Dicks. It is not clear if your budget is keeping up 
with the need as we talked about earlier for reforestation and 
thinning of previously-harvested lands. I understand that 
particularly in the pacific northwest where Mr. Simpson and I 
are from, there is a large backlog in areas needing both pre-
commercial and commercial thinning in order to maintain forest 
vigor.
    Do you have any figures that we can do this on the record 
on this thinning backlog and on the reforestation backlog? I 
think we got into that a little earlier, but I want to make 
sure we get that.
    Ms. Kimbell. And we can get those numbers for you for pre-
commercial thinning, and reforestation is somewhere over 1 
million acres, soon to be refined with the information from 
northern California.
    Mr. Dicks. I was pleased to see that you kept the Legacy 
Road and Trail Program. Can you tell us how that is doing?
    Ms. Kimbell. I know it has been a very popular program 
across the Service. There is a continued need to work on 
barriers to fish passage, but we are making progress. In 2008, 
we improved 22 miles of trail. We replaced 180 stream 
crossings, we decommissioned 531 miles of road, and we 
maintained 1,533 miles of road. We were able to treat 849 miles 
of trail to maintain them to standard. It has been a very 
exciting program. We look to have double those accomplishments 
in fiscal year 2009, and to carry the '09 level into '10.

                        PRESIDENTIAL INITIATIVE

    Mr. Dicks. Tell us about the President's new initiative, 
this 50 million that he has put in as a Presidential initiative 
for the Forest Service.
    Ms. Kimbell. Well, we are just getting a chance to look at 
it and examine it as you are, and we are looking for 
opportunities to focus those $50 million on different 
geographic areas around the country to actually make a 
difference in some specific areas, you know, with the criteria 
that are given with the $50 million. I do not know that we are 
far enough along in the process yet to have identified those.
    Mr. Holtrop. We have not identified the specific areas yet, 
but what the Presidential initiative funds will give us is the 
opportunity for us to look at things like facility management, 
road management, trail management, and an array of----
    Mr. Dicks. But you have programs in all those areas.
    Mr. Holtrop. But this will give us an opportunity to look 
at ways of how we can integrate. We do have programs in all 
those areas, but what the Presidential initiative gives us, we 
believe, is an opportunity for us to focus those in a way that 
will integrate some of those programs that are important to us. 
Like travel management in the work that we have been doing on 
travel management and what are the things that we need to do 
now to implement some of those travel management plans.

                           TRAVEL MANAGEMENT

    Mr. Dicks. Well, tell me about travel management. What are 
you doing with travel management.
    Ms. Kimbell. Well, we have been working on travel 
management since, well, we have always been working on travel 
management, but when we finally had a travel management rule 
that gave some consistency across the national forest system, 
we have been implementing local planning processes across the 
country. Some have been pretty exciting. With travel management 
it actually identifies the trail system and the road system to 
meet the recreation needs on a particular unit through 
extensive public involvement and environmental analysis.
    It does result in needing to close some trails and to close 
some roads. Just in this last year we decommissioned over 1,300 
miles of road, and half of that was system road, half of that 
was user-created road. Some of that is the result of travel 
management plans. Some of it is the result of just a roads 
assessment and understanding what the needs are with roads and 
taking out roads that have created some environmental issues.

                         NORTHWEST FOREST PLAN

    Mr. Dicks. In previous budgets you have had the Pacific 
Northwest Forest Plan specifically mentioned. In this year's 
budget it is not mentioned. What is the reason for that?
    Ms. Kimbell. It is certainly our intent to fund the 
capability on those forests and we are intending to do that in 
2010, just as we did in 2009, and 2008.

                                BIOMASS

    Mr. Dicks. And one thing also. What about biomass and woody 
debris and all of this? I notice that I think there is 15 
million that you have got in the ARRA for that.
    Ms. Kimbell. Yes.
    Mr. Dicks. Are you accepting applications? Are people 
sending in applications, or how are you going to use that 
money?
    Ms. Kimbell. Well, those were to be shovel-ready projects, 
the ARRA projects, and when we solicited project proposals from 
the field, we got quite a number. We got $4 billion worth of 
proposed projects, and the Forest Service was allocated $1.5 
billion. So we got four times----
    Mr. Dicks. Four billion. Okay.
    Ms. Kimbell. We got $4 billion worth of project proposals 
from the field of shovel-ready projects that created jobs that, 
you know, also helped accomplish our mission on the ground.
    Biomass is a part of that. It was up to 50 million. It was 
authorized to be spent on biomass. We had proposals for way 
more than that, both on national forest and on state and 
private land.
    Mr. Dicks. Did DOE not get a lot of biomass funding? Are 
they working with you at all?
    Ms. Kimbell. DOE was allocated $800 million for biomass, 
and there has been discussion going on between the Department 
of Agriculture and DOE, and we have not yet seen the benefit of 
those discussions.
    Mr. Dicks. So we better help you a little bit.
    Ms. Kimbell. We are looking forward to working further on 
biomass. There is such opportunities. The ones that I shared 
that are going on at South Lake Tahoe or on the Tahoe Basin 
unit with different counties in California and with the prison 
over in Nevada, there is just such great opportunities that we 
have seen in the last year for removing biomass from the 
forest, not putting it into atmospheric carbon but rather using 
it to create energy. And there are opportunities across the 
United States.
    Now, the definition of renewable energy credit that 
appeared in the Energy Bill and has appeared in other bills 
gives us cause for concern in that----
    Mr. Dicks. That is being adjusted.
    Ms. Kimbell. I am very glad to hear that.
    Mr. Dicks. That is being adjusted as we speak.
    Ms. Kimbell. I am very glad to hear that.
    Mr. Dicks. You know we have had several meetings. There is 
a great deal of concern by the members on both sides of the 
aisle in the northwest, and I am sure it is northern California 
as well, about the high unemployment rates in the rural areas. 
Are you trying to do more on things like the thinning and these 
biomass projects, et cetera.
    So I certainly hope you will be sensitive to that.
    Ms. Kimbell. Absolutely.
    Mr. Dicks. And the concerns of these communities, I mean, I 
represent Gray's Harbor county that is up to 14 percent or 
maybe higher unemployment, and so we are very concerned about 
that. I know Congressman Baird and Congressman Walden and 
others have been working with you, but we are still very 
interested in that.
    I yield.
    Mr. Lewis. As we are discussing biomass I am just reminded 
that in beautiful downtown Big Bear we have a biomass facility 
that we are attempting to move forward with. Part of it 
involves a land swap needed with Forest Service land to make it 
practical, but these kinds of exercises of natural resource in 
the most positive way are extremely valuable.
    And if I could just for a moment, Mr. Chairman, we have 
taken----
    Mr. Dicks. Right.
    Mr. Lewis [continuing]. So much time of Ms. Kimbell's 
regarding subjects that are very important to us, but I wanted 
to share something with you that kind of took me outdoors not 
long ago just to get him off track for a moment.
    Ms. Kimbell. But he is the Chairman.
    Mr. Dicks. That is impossible.
    Mr. Lewis. You can carry legislation to change the world, 
but it will never get you on the front page of the Los Angeles 
Times. I climbed Mount Whitney with a 90-year-old woman about 
20 years ago, and I was on the front page of the Los Angeles 
Times, and it was this woman who fell in love with Mount 
Whitney and the environment since she had helped develop this 
trail that was very, very fit for the territory we are talking 
about. But she drew attention to our forest, to our mountains, 
to the environment in a way that was really, really incredible.
    But we had to get a waiver some years afterwards. My staff 
back here who was on that trip with me up the mountain reminded 
me some years after that we decided the peak right next to 
Mount Whitney had not been named, and we found a way to name it 
Crooks Peak for Hilda Crooks and with Moe Udall. He was very, 
very helpful in that process.
    And anyway, but to take her up to sit on a rock at about 
8,000 feet so we could tell her about this peak, we had to get 
a waiver from the Forest Service to helicopter her in. 
Initially David almost lost his job because we were not having 
much success but it turned out to be a fabulous thing. I think 
good for everybody, including the Forest Service.
    I just thought I would share that with you.
    Ms. Kimbell. Thank you. Thank you. That is a great story.
    Mr. Lewis. Crooks Peak.
    Ms. Kimbell. And he is still employed.
    Mr. Lewis. Yes, he is.
    Mr. Dicks. And doing a fine job.
    Mr. Lewis. Mr. Chairman, you are doing a fine job as well.

                           FOREST VISITATION

    Mr. Dicks. I am almost done unless Mr. Cole has a few 
things.
    Let me ask you this. Your visitation appears to be 
declining. Is this true, and if so, why?
    Ms. Kimbell. Whether or not it is true I cannot really say. 
The numbers, back when I worked on a ranger district, every 
winter, you know, was when we used to then fill out the data 
forms, and we used to, you know, think about, okay, such and 
such a site, let us see. How many recreation visitors were 
there. And it depended on how you felt that day. It was not 
based on data.
    And so----
    Mr. Dicks. Oh, you cannot be serious. You are not still 
doing it that way, just making it up?
    Ms. Kimbell. No, we are not.
    Mr. Dicks. Okay.
    Ms. Kimbell. No, we are not. And actually we had a lot of 
names for it at the time that were most unflattering. But then 
we started this national visitor use monitoring, and so we 
actually----
    Mr. Dicks. That is salvation right there, I guess.
    Ms. Kimbell. Well, it is data.
    Mr. Dicks. We like data.
    Ms. Kimbell. And we started collecting data, so, yes, it 
would indicate that the numbers are lower, but whether or not, 
in fact, the numbers are lower, I do not think that is borne 
out in----
    Mr. Dicks. Over the made-up numbers.
    Ms. Kimbell. Over the made-up numbers they are lower.
    Mr. Dicks. Okay. What are the numbers?
    Ms. Kimbell. They are around 179 million visits to the 
national forests.
    Mr. Dicks. That is huge.
    Ms. Kimbell. It is huge. It is huge.
    Mr. Dicks. It is way over the Park Service. Right?
    Ms. Kimbell. Well, I am not certain what the National Park 
Service visitor use is.
    Mr. Dicks. Well, the staff says the Park Service is over 
200 million.
    Ms. Kimbell. Well, they have gates, you know, and you have 
to go through the gate, and you have to buy----
    Mr. Dicks. And they are probably still making up numbers. 
He just said that the Park Service counts 12 million for the 
Mall.
    Ms. Kimbell. Well, that is just not fair.
    Mr. Dicks. They should share a little bit.
    Ms. Kimbell. No. I would just as soon they continue taking 
care of the Mall. They do a fine job.
    Mr. Dicks. Yes. You do not want to have to pay for that.
    I do not have any further questions unless you guys have 
anything else.
    Mr. Lewis. Frankly, I thank Ms. Kimbell and her----
    Mr. Dicks. Done a great job.
    Mr. Lewis [continuing]. Friends for doing a great job. 
Thank you very much.
    Ms. Kimbell. Well, thank you very much, and thank you for 
your support, not only today but through ARRA and all the 
different things that we have worked with you on, and I look 
forward to continued dialogue about things like air tankers and 
fire suppression and all the other great things we do to make 
our forests healthier to be able to address climate change.
    Thank you.
    Mr. Dicks. Thank you. The committee stands adjourned until 
tomorrow morning at ten o'clock. 

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                             Tuesday, May 19, 2009.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

LISA P. JACKSON, ADMINISTRATOR

                  Opening Statement of Chairman Dicks

    Mr. Dicks. Good morning, Ms. Jackson. On behalf of the 
subcommittee, I want to welcome you and congratulate you on 
becoming the twelfth EPA administrator. I know I speak for the 
committee when I say we are looking forward to working with 
you.
    Today we will review and discuss the fiscal year 2010 
budget proposal for the U.S. Environmental Protection Agency. 
It is a healthy budget, with significant increases. Your budget 
includes large initiatives and major increases, like those for 
the State revolving funds.
    Before we get into the details of the budget, I would like 
to mention a number of actions you have taken in the few short 
months of your tenure.
    This subcommittee has had a long-standing interest in many 
of these issues and programs. First and foremost, you made the 
decision to propose an endangerment finding under the Clean Air 
Act that greenhouse gases contribute to climate change and may 
endanger public health and welfare. This proposal has 
significantly moved the ball forward on the climate change 
debate.
    And now we have your most recent announcement here on the 
automobile situation. I read somewhere that upon the 
announcement of your decision, an environmental advocate said, 
``Duh.'' It may not be a scientific term, but it applies here.
    I disagree. Given the debate this decision has engendered 
and potential regulatory structure it might create, I know you 
did not make this decision lightly, and I am sure it was made 
with the utmost scientific scrutiny.
    I also want to mention recent incorrect press reports that 
suggest OMB found fault with the proposed finding. I was glad 
to see that Mr. Orszag addressed that misconception.
    We are pleased to see that you recently issued the first 
list of pesticides to be screened as endocrine disrupters. You 
will note that this subcommittee has encouraged, directed, and 
pushed your agency to act on endocrine disrupters. We hope that 
you will continue to expedite this important work.
    In addition, you have initiated careful and thorough 
reviews of the Army Corps of Engineer permits for mountaintop 
removal of coal. This is long overdue. I understand that these 
issues may delay issuance of permits; however, a thorough 
scientific and legal review is certainly within the bounds of 
reason, given the extreme environmental impacts caused by this 
practice.
    I also hope that you are working with the Corps and 
Congress to resolve the confusion caused by the Supreme Court 
decision on wetland permits. This subcommittee has supported 
programs to encourage and promote partnerships with other 
levels of government, the public, and industry. However, we 
agree with your decision to review the Performance Track 
partnership program and other programs that rely on voluntary 
compliance while you look for opportunities to improve these 
programs. We firmly believe programs that promote voluntary 
compliance with the law are valuable, but they should augment, 
not replace, the regulatory framework.
    This committee, through the 2009 omnibus bill, prohibited 
the use of funds to implement the previous administration's 
changes to the Toxic Release Inventory Program. We are pleased 
to see that you have replaced those less stringent rules with 
the requirements that were originally in place. As you take 
other actions on rules and regulations issued by the previous 
administration, I would ask that you keep this committee 
informed.
    Finally, I applaud the extent to which your budget request 
recognizes the importance of our great water bodies and the 
imperative that we protect these resources from further 
pollution. We will, of course, have to carefully review your 
plans for spending all of the requested money. We must have a 
credible science plan for each of these massive efforts and an 
action agenda so that money spent actually implements the 
scientifically credible action agenda.
    Your request of 3.9 billion for the clean water and 
drinking water State revolving funds will provide significant 
protection of our most important water bodies. This request 
shows that the administration recognizes that American 
communities simply cannot afford to repair and rehabilitate 
water systems alone. The Federal Government helped build many 
of these systems in the 1950s, 1960s, and 1970s, and it is time 
that we stepped up to the plate to help maintain what we helped 
to build. Just last month this subcommittee received over 1,200 
requests to assist American communities with funding this need. 
I think it is important that we continue to provide this 
assistance in the form of both loans and grants.
    As you know, many small, rural, or disadvantaged 
communities cannot afford the loans offered by the revolving 
funds. This is why in the Recovery Act this committee provided 
additional subsidies for up to 50 percent of the funding 
appropriated for these two programs. I would note that the 2010 
request for the water and wastewater infrastructure, coupled 
with the 2009 appropriations and the 6 billion in the Recovery 
Act, will provide over 11.4 billion for infrastructure in less 
than 1 year.
    Finally, I understand that the total increase for your base 
program is only 3.8 percent. I cannot help but wonder if that 
is sufficient, given all you have on your plate right now.
    Again, we are pleased to have you here before us today, and 
I want to turn to Mr. Simpson for his opening comments.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman.
    And thank you Administrator Jackson for coming here today 
to testify before our committee. I appreciate our recent 
conversation in my office, and know that you will face many 
potentially difficult choices in your new role. I remember very 
clearly, and agree with your comment that no one becomes EPA 
administrator to be the most popular person in town. 
Nevertheless, you have risen to the challenge of leading a key 
agency at a critical time in our Nation's and our world's 
history. I applaud your courage and your resolve.
    Earlier this month, in a memo to EPA employees, you stated, 
``Science must be the compass guiding our environmental 
protection decisions; we cannot make the best decisions unless 
we have confidence in the integrity of the science on which we 
rely.'' Well said. I could not agree with you more.
    I would also humbly and respectfully encourage you to 
embrace collaboration as the agency moves forward. While some 
environmental problem challenges we face are severe and perhaps 
even dire and while regulation is a necessary tool, we should 
not regulate our way to environmental solutions. I believe that 
true, lasting solutions will come from empowering people to do 
the right things when they know what to do and can reasonably 
afford to do so.
    Our primary Federal investment ought to be in financial and 
technical assistance to citizens, landowners, small businesses, 
communities, States, tribes, and other nations. And to 
paraphrase a proverb made famous by a former President, the EPA 
carries a big stick, but collaboration can oftentimes preclude 
the need to use it.
    Mr. Chairman and Administrator Jackson, as you well know, 
this Nation and most of the world is facing an unprecedented 
combination of environmental, societal, and economic problems. 
Every day we learn more about how intertwined these problems 
are. So too should our solutions be intertwined.
    Our Nation's current economic and financial crisis is still 
front and center. In a January 2009 study by the Pew Research 
Center, which asked a random sample of adults to prioritize 20 
policy issues of concern, the economy and jobs topped the list, 
as you might well expect. Global warming ranked last. While I 
do not necessarily agree with that and while the study is 
perhaps not a definitive statement of the people, it does 
support the notion that we must find reasonable and prudent 
solutions to our environmental problems.
    The President's 2010 budget for the EPA is nearly $10.5 
billion, by far the largest amount in the Agency's 40-year 
history and a 37 percent increase over last year. The increase 
includes 3.9 billion for the Clean Water and Drinking Water 
State Revolving Funds, a 157 percent increase over last year.
    At the same time, our Nation is spending more than any 
other time in our history, borrowing nearly 50 cents on every 
dollar, and running an annual deficit this year of $1.8 
trillion. As a fiscal conservative, I am deeply troubled by our 
rate of spending, particularly with no clear plans in place and 
no reasonable estimates for the return on our investments. 
However, as a lifelong conservationist from a western State, I 
am acutely aware of the value of our environment and the water 
crisis we now face that only threatens to worsen in the future.
    Difficult decisions await this committee, this Congress, 
this administration, and this Nation. I am honored to be a part 
of the deliberation, and look forward to working with you. 
Thank you again for being here today.
    Thank you, Mr. Chairman.
    Mr. Dicks. Thank you, Mr. Simpson.
    Administrator Jackson, we will put your entire statement in 
the record, and you may proceed as you wish.

                   Opening Statement of Lisa Jackson

    Ms. Jackson. Thank you.
    Good morning, Mr. Chairman and Ranking Member Simpson and 
members of the committee. Thank you for inviting me to appear 
here.
    Mr. Dicks. Is it on? Yeah, there, now it is on.
    Ms. Jackson. There we go.
    Mr. Dicks. If it is red it is on.
    Ms. Jackson. It is always red. This is red.
    Thank you again, and thank you for accommodating a timing 
change in order to allow me to join the President at his 
announcement later with respect to autos. I do appreciate it 
very much. I will be very brief.
    The President's budget requests $10.5 billion for fiscal 
year 2010 to carry out EPA's mission to protect human health 
and the environment. That reflects the challenges and promise 
that we face at this critical time in our Nation's history. For 
far too long the American people have been offered a false 
choice of either economic prosperity or environmental 
protection. We believe we can do better. In fact, we believe 
that clean energy, clean air and water, and a healthy 
environment have powerful economic potential.
    You will see that in this budget. Economic recovery and 
environmental protections go hand in hand here.
    The President's budget starts work needed to transform our 
economy and to put Americans back to work, while at the same 
time helping our communities, our children, and our health. It 
also provides a substantial increase in support to address 
public health and environmental challenges that can no longer 
be postponed. Water infrastructure, fresh water resources, 
climate change, critical research, and chemical management all 
require urgent action.
    As you mentioned, Mr. Chairman, the most significant 
investment in this budget is $3.9 billion for Clean Water and 
Drinking Water State Revolving Funds that support water 
infrastructure projects for States, for tribes, and for 
territories. These investments will prepare us to match the 
success we had in the 1970s and 1980s when EPA construction 
grants helped build much of the infrastructure that 
dramatically increased our Nation's water supply and its 
safety. We estimate that this 157 percent funding increase in 
the revolving funds will finance 1,000 clean water and 700 
drinking water projects across America and create well-paying 
American jobs.
    At the same time, the President's budget focuses on 
vulnerable and unique ecosystems that are especially affected 
by poor water quality. Through initiatives aimed at 
ecologically important water bodies such as the Great Lakes, 
Puget Sound, and the Chesapeake, this budget request combines 
strong science, real metrics of accountability, and detailed 
planning and coordination with the funds necessary to get the 
job done. EPA's fiscal year 2010 budget also supports efforts 
to develop a comprehensive energy and climate change policy 
with measures to increase our energy independence, move into a 
low carbon economy and reduce greenhouse gas emissions. There 
is a $19 million increase to help EPA implement its greenhouse 
gas inventory that will ensure we are targeting major sources 
of emissions, without overburdening small businesses.
    Just as we need to address climate change, we need to 
manage the risks associated with the chemicals we use. The 
budget requests $55 million, an increase of $8 million over 
fiscal year 2009 levels, to fund an enhanced toxics program. 
This 17 percent increase will help EPA complete hazard risk 
characterizations and initiate regulatory action, when needed, 
on more than 6,700 organic U.S. chemicals.
    The President's budget also contains an increase of $24 
million for the Superfund program. The budget also includes a 
proposal to reinstate the Superfund fee that expired in 1995. 
Beginning in fiscal year 2011, the so-called Polluter Pays 
measure would generate $1 billion a year, rising to $2 billion 
a year by 2019.
    Along with increases in Superfund, the budget provides a 
total of $177 million for the brownfields program, a $5 million 
increase from 2009 for States, tribes, local communities, and 
other stakeholders interested in economic redevelopment and 
safely cleaning up and reusing brownfields. Revitalizing these 
properties helps communities by removing blight, by limiting 
urban sprawl, by enabling economic development, and finally, 
improving quality of life.
    Mr. Chairman and members of the committee, the fiscal year 
2010 budget request sets EPA on a clear path to addressing the 
pressing environmental challenges facing our Nation. It enables 
us to accomplish important work that Americans support, and has 
clear benefits to the economic, environmental, and human health 
of our communities.
    Thank you again for your time, and I am happy to answer 
your questions.
    [The information follows:]

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                          ENDANGERMENT FINDING

    Mr. Dicks. Today's Washington Post reports that you have 
plans to propose tough new standards for tailpipe emissions 
from automobiles. This would be the first nationwide regulation 
of greenhouse gases. If you finalize your proposed endangerment 
finding that greenhouse gases threaten the public health and 
welfare, then the next step would be to regulate emissions from 
automobiles. Please explain to me how today's announcement 
relates to EPA's work on the endangerment from greenhouse 
gases.
    Ms. Jackson. Right.
    The endangerment finding that is out for public comment is 
a precursor to EPA's having the authority to regulate. So if 
and when that endangerment finding is finalized, then EPA is 
authorized to regulate. The announcement today caps off a 
significant amount of work EPA has been doing with an eye 
towards the potential for future regulation of automobiles.
    The President tasked us and the Department of 
Transportation with coming up with a national strategy, a 
national roadmap, if you will, so that automakers who are 
already suffering economically would have one clear set of 
national standards. Today's announcement embodies a lot of 
work. It says that EPA and DOT have agreed that they will 
propose a joint set of standards that addresses fuel economy, 
which is DOT's responsibility, greenhouse gas emissions, which 
could become EPA's responsibility, and it loops in the State of 
California, which presently has a waiver request pending before 
the EPA as well.

                       CALIFORNIA WAIVER REQUEST

    Mr. Dicks. According to the Post, you plan to grant the 
California waiver request in June.
    How will today's proposed rule affect California's ability 
to set more stringent fuel economy standards in the future?
    Ms. Jackson. We have made no announcement, Mr. Chairman, 
with respect to the waiver request. Congress has asked us to 
act by June 30th, and we intend to meet that date one way or 
the other. Assuming it is granted, California has agreed, for 
their part, that the agreement that has been reached between 
EPA and DOT and the standards that would be embodied in the 
joint rulemaking would satisfy them; therefore, although they 
would have the waiver, they would agree that----
    Mr. Dicks. They would not exercise it?
    Ms. Jackson [continuing]. They would not exercise 
rulemaking pursuant to it from now until 2016. Thank you.

                           ENERGY EFFICIENCY

    Mr. Dicks. I saw Carol Browner on the Today Show, and she 
said that there would be some increase in the cost of the 
automobiles, but that would be offset by the energy efficiency, 
the savings on fuel.
    Do you agree with that?
    Ms. Jackson. That is right. EPA's analysis shows, working 
with DOT, that there was already an increase in auto prices as 
a result of the existing fuel economy requirements. I believe 
it was $700 per auto. This adds another $600 per automobile, 
but it is offset in about 3 years by the savings in fuel and 
fuel prices.
    Mr. Dicks. Mr. Simpson.

                   DRINKING WATER--ARSENIC STANDARDS

    Mr. Simpson. Thank you, Mr. Chairman. Let me first ask 
about a couple issues that are kind of important locally to 
Idaho.
    One is, Idaho's geology creates naturally occurring arsenic 
in our drinking water. Several years ago the EPA, as everyone 
is well aware, lowered the arsenic standard from 50 to 10 parts 
per billion, and many of our smaller communities could not 
afford the upgrades required to meet the new standards.
    The 2010 budget proposal includes 1.5 billion for the 
Drinking Water State Revolving Fund, a $671 million increase 
over 2009, and I applaud your efforts in that area. While I 
agree that the Federal Government must help States and local 
communities to comply with the Federal drinking water 
standards, help cannot only be in the form of loans. Small 
communities simply cannot afford these loans; in fact, that is 
one of the real problems we have.
    I met a couple of weeks ago with the city council and the 
mayor of a small community that is attempting to address this 
issue. They simply cannot afford it even under a loan program. 
Do you plan to address that in any way?
    And I think the chairman mentioned in his opening statement 
the difference between loans and grants. And there are some 
small communities that, you know, we can put all the loans out 
there we want to, they still cannot afford to address it.
    Ms. Jackson. Yes. Thank you, Mr. Simpson.
    I think you and I spoke in your office that small 
communities deserve the same caliber and quality of water as 
larger ones. They just have fewer people amongst whom to split 
up the costs, and so it is more per homeowner; and oftentimes 
they and small businesses cannot afford it.
    I think it is a very important issue. I think it is one 
that is ripe for discussion. EPA would like to work with 
Congress to come up with a solution that makes clean water 
affordable for rural communities, smaller communities across 
this country.

                      PESTICIDE LICENSING PROGRAMS

    Mr. Simpson. I appreciate that. I look forward to working 
with you on that.
    In this particular case, something like 60 percent of the 
residents are on fixed income--retired there, have lived there 
their whole life, and they are faced with not being able, 
literally, to be able to pay their water bills. So I look 
forward to working with you on that issue.
    In January 2009, the Sixth Circuit Court of Appeals ruled 
that pesticide residuals and biological pesticides are 
pollutants regulated under the Clean Water Act, striking down a 
2007 EPA exemption for those who apply approved pesticides in 
accordance with the law. Despite urging from the Congress and 
Department of Agriculture to seek a rehearing, EPA instead 
filed a motion for stay of the mandate for a period of 2 years.
    How does the EPA intend to address this issue during the 
stay? Do you anticipate a significantly increased workload in 
order to implement the court ruling? Of the 137.5 million in 
the 2010 budget for pesticide licensing programs, how much will 
EPA invest in this issue? And will you ensure that all Federal 
stakeholders will be brought into the process for resolving 
this matter from the beginning?
    Ms. Jackson. Yes. I will start with your last question.
    I think key to a successful resolution is bringing in the 
other Federal stakeholders, obviously USDA being a very 
important one there. EPA's decision to ask for a stay, rather 
than a remand, was based on the legal advice, the best legal 
advice we could muster from the Department of Justice as well 
as our own internal counsel. There is a request for remand 
still pending, and so EPA will wait to see what the court says, 
but will not wait in the meantime to start the process of 
pulling together States, the USDA, other stakeholders to look 
at a regulatory scheme that works.
    There is certainly an increased workload, and it is not 
only for EPA. It would be for the States, many of whom 
implement pesticide licensing and pesticide permit programs 
right now. So this would be an increased workload to them.
    We are going to have quite a bit of work to do in the next 
2 years to come up with a regulatory scheme that is reasonable, 
that addresses the worst potential for agricultural nonpoint 
source runoff--because there is evidence that that is a 
significant source of water contamination--but does not put an 
undue burden without resulting in environmental protection on 
the regulated community.

                               CARBOFURON

    Mr. Simpson. Thank you. In the last administration, 
Chairman Dicks and I jointly voiced concern over the way in 
which the EPA was proceeding on a regulatory matter involving 
the insecticide Carbofuron--I knew I would get one of those 
words in there somewhere; you would think having a B.S. in 
chemistry would address that--which has been used on potatoes 
and other crops in our region for over 40 years. What is 
important to us with this regulatory procedure is that the EPA 
follow what we call around here ``regular order.''
    I am concerned that Friday's announcement that the EPA is 
revoking all food tolerances for this product before the 
cancellation procedures under the FIFRA Act are completed is 
out of the normal sequence. I believe it is important that the 
USDA findings that this product still has important benefits be 
included, but the decision announced on Friday did not leave 
any room for discussion of benefits.
    Recognizing that this is a recommendation that you 
inherited from what the chairman likes to call a ``previous 
administration,'' can you discuss this issue and explain how 
the EPA intends to consider these types of decisions within the 
FIFRA process so that benefits are considered?
    Ms. Jackson. Yes. I agree there are more chemical names to 
keep track of. The Carbofuron decision Friday has provoked 
quite a bit of concern from--it is a small population, but I 
believe it is primarily sunflower growers and a few other crops 
that----
    Mr. Simpson. Potatoes. Idaho.
    Ms. Jackson. Potatoes? How could I not get that right?
    So our decision to cancel and revoke all tolerances, I have 
heard some concerns about proper procedure. I will look into 
those. I will commit to looking into those and getting back to 
you, Mr. Simpson.
    [The information follows:]

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Simpson. I appreciate it. Thank you.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.

                   GREAT LAKES RESTORATION INITIATIVE

    Let me talk about the Great Lakes. In your budget you have 
a very large new initiative, or expanded initiative, to deal 
with the challenges facing the Great Lakes. And I obviously 
appreciate that.
    We have a huge number of issues. We have got the issue of 
how you deal with the ballast water problem, which is causing 
fierce problems. You have got pollution all over the lake. You 
have viral hemorrhagic septicemia, which threatens the entire 
fisheries of the region. You have got mercury deposits. You 
know the list.
    You have got eight States, 80 percent of the fresh water or 
more in the country in that region. And so I am certainly 
pleased about the administration's request, and I do not want 
to look a gift horse in the mouth, but nonetheless, I would 
like to make sure--and I know because I have had conversations 
with the Chairman here--I would like to make sure that the 
money that is spent is actually going to do something, because 
it is a lot of money, and it is a big problem to deal with.
    So I guess my question to you is this. I know there have 
been various studies by various agencies, but in the end it is 
crucially important that an initiative, which costs as much as 
this one does, have a basic underlying basis of sound science. 
And to do that, I think it is important that we not just have 
episodic studies by agencies or scatter-dash studies, it is 
important that we move from tactics to strategy.
    And so I guess my question is, what actions do you think 
can be taken to assure that we have a substantial, coordinated, 
disciplined, detailed plan, not just a series of goals? And do 
you think that there needs to be perhaps outside scientific 
review of what the individual agencies do in order to make sure 
that we have the most effective approach possible for this 
problem?
    Ms. Jackson. Thank you, Mr. Obey. I just want to point out 
a couple of things.
    The Great Lakes Regional Collaboration Strategic Plan was 
developed after a year-long effort amongst hundreds of 
stakeholders. The Great Lakes are big not only in their 
geographic size and the amount of water they hold, but the 
number of entities that actually have some stewardship 
responsibility over that system. So there is a strategy 
planning document which will guide EPA spending of the $475 
million that is in the President's proposed budget.
    That said, I think you know as well as I do that that plan 
called for a $20 billion investment in the Great Lakes. So 
literally one could say, even though it is a half a billion, 
that is still a drop in the bucket. You want to make sure it is 
not lost in the noise of all the work that needs to be done. I 
think that is a valid concern, and one that I share.
    The chairman expressed it to me as well. I am certainly 
going to take that seriously. I see this as a real opportunity, 
and one that I would like to make sure EPA has nothing but A-
plusses on after we are done, because it is an opportunity to 
put real significant amounts of money on projects that will 
actually accomplish something in a reasonable period of time 
and demonstrate to the stakeholders around that system that 
when you invest in clean water, you get clean water back.
    In developing our plans for invasive species, the areas of 
concern with toxics, near-shore health and nonpoint source 
pollution, habitat and wildlife protection, and accountability, 
monitoring and evaluation, and partnership, I have asked my 
staff to emphasize that we will not accept projects that do not 
demonstrate measurable improvements. We want to see 
improvements, even though we know that real, long-lasting 
improvement will take sustained effort over many years.
    I would welcome review of those projects to the extent 
there are monitoring or scientific reviews that can be done to 
ensure that we are not fooling ourselves or the American people 
about results so that we are honest brokers of information and 
not inflating results. I am happy to do that. The only thing I 
would say is that I have also asked for a preference to spend 
money on engineering projects quickly, on work projects.
    To the extent that we can, I am happy to have engineers or 
practitioners review those projects. But a scientific or a peer 
review I would like to leave for the science questions. The 
engineering questions, I want to make sure we are getting the 
best return on our investment.

                            CLEAN WATER ACT

    Mr. Obey. Okay. One other question. Well, actually, one 
request and a question.
    A year-and-a-half ago we tried to put some additional money 
in the budget to deal with viral hemorrhagic septicemia. We 
were laughed at by some people in the Congress who claimed that 
we were providing funding for a tropical fish study. In fact, 
that is not what it was at all. And I simply think that--given 
the immense threat that it is to Great Lakes fisheries--it 
would be helpful if your Agency, along with others, can help to 
make people understand that this is not something to mess 
around with.
    Beyond that, I would simply say that one of my great 
frustrations has been clean water. I came here in 1969, a 
disciple of Gaylord Nelson. The very first bill I voted on was 
amendments to the Clean Water Act. It was supposed to get us 
fishable, swimmable waters.
    It has been 40 years since then, and we still have lots of 
streams and lakes that are messes. Why do you think it has 
taken so long to produce so few results in comparison to what 
people were hoping for in 1968 and 1969?
    Ms. Jackson. It has taken a long time, but I would say that 
the results are not small. We moved to a system of point source 
regulation of pollution in this country that has literally 
changed standards of sanitation with respect to wastewater, 
that has made huge strides forward in drinking water quality, 
and changed our rivers from being streams where we used to 
dispose of material to valued resources again.
    I would never in any way downplay the extraordinary work of 
your first piece of legislation that you voted on, because it 
has been remarkable. The Clean Water Act is a remarkable 
statute.
    That said, the challenges, as we have learned, have 
evolved, as well, over 40 years. Nonpoint source pollution now, 
whether that be agricultural runoff, which is a serious issue 
and one we have to deal with, is hard to do, but we will have 
to figure out how to do it or the products of development. 
Runoff from communities is now the next big frontier for us and 
I think we need to redouble our effort.
    I think efforts like the Great Lakes or Puget Sound or 
Chesapeake Bay, those place-based efforts are the way we are 
going to learn what is the key to unlocking the next quantum 
leap forward on water quality.
    There are frustrations when we hear about communities that 
do not now have clean drinking water. That is a frustration 
that most people do not understand. We have also learned a lot 
more about what makes water unclean: arsenic, a naturally 
occurring material; or radon; or now, as we are finding out, 
some synthetic organic chemicals that are showing up in our 
water, sometimes deposited by air, sometimes deposited by the 
very plants that we built which do not remove them.
    So we learn more, we learn about the new threats. We need 
to be proactive, we need to be ready for the next 40 years. As 
much work as we have to do, I have to tip my hat to all the 
tremendous work that has been done by States, by tribes, by 
Congress, by the Federal Government.
    Mr. Dicks. Would you yield just for a quick second?
    Mr. Obey. Sure.

                            GRANTS VS. LOANS

    Mr. Dicks. Do not you think the fact that we gave up on the 
grants--this was a congressional decision--has hurt us, that we 
would be in a better place if we had both grants and loans?
    And, in fact, we have tried to do that in the Recovery Act. 
We changed the wording so that States can forgive the loan, 
make them more affordable.
    I know USDA rural development has some grants, but you 
know, the list we get of communities that need help, many of 
these communities simply cannot afford, as Mr. Simpson said, to 
do the projects with loans alone. The rates get so high that 
the people in local communities cannot afford it.
    I really feel that it was a mistake when we walked away 
from grants. When Bill Ruckelshaus, our mutual friend, was 
administrator of EPA, he had $4.5 billion in grant money. It 
was 75-25, 80-20, whatever it was. Now that was a real program. 
And I worry that just having the revolving funds is not 
adequate. And you know, the backlog is like $680 billion. When 
you take safe drinking water and clean water, it is huge. So as 
much as we appreciate the increases, we are not really 
addressing the problem in the magnitude that it exists.
    Thank you for yielding.
    Ms. Jackson. Thanks.
    Yes, I believe affordability and the ability to fund 
improvements. We have reached a point where some communities 
are having to say, we do not want to make a choice, but we have 
to. I think that is an issue that bears some discussion and 
thinking. Obviously, in any budget tough choices have to be 
made.
    Mr. Dicks. Yeah.
    Ms. Jackson. As we move from a grant program to a loan 
program, it does force some hard choices in communities. I 
think that the time is right to have those discussions again.
    Mr. Dicks. Yeah.
    Mr. Obey. Thank you.
    Mr. Dicks. Mr. Cole.

                             TRIBAL NATIONS

    Mr. Cole. Thank you, Mr. Chairman.
    And congratulations, good to have you here. And I want to 
begin with a comment, having read your testimony. And I really 
want to say how much I appreciate the fact that at every point 
in your testimony that you talked about governmental units you 
included tribes. That is really unusual. And I have special 
sensitivity and interest there, and I really, really 
appreciated the emphasis. It was obvious and noticeable.
    Along those lines, I want to pick up on a point that both 
Mr. Simpson and Chairman Obey and Chairman Dicks made, because 
tribes have the same sorts of problems that, frankly, 
underfunded local communities do when we deal with match 
programs. And it is really compounded to some degree because 
they do not have taxing authority. If they do not have some 
outside source of revenue, they literally only have Federal 
dollars, which are matching Federal with Federal, and that is a 
problem.
    So do you have any thoughts about what could be done so 
that these tribes, particularly the great land-based tribes 
that are some of the poorest tribes in the country and live 
under some of the toughest circumstances, could also be in a 
position to compete for grants and have that resource at their 
disposal?
    Ms. Jackson. Yes, thank you.
    The need to build capacity amongst the tribes has actually 
grown, not decreased. Although we have begun investing through 
our general assistance program--and I will get the number for 
you for next year--it goes up again. As you build capacity you 
need more capacity. I think that that is a point that is very 
well taken.
    [The information follows:]
    What we want is actually for these tribal nations to become 
real stewards and real shepherds of the environment and their 
lands. It is so important to them environmentally and for their 
health, but also culturally, because then they do our job. I 
mean, they become fellow governments that do the same work we 
do here. So I do believe that additional increases are 
important.

                   Tribal General Assistance Program

    ** GAP budget amount for 2010. The total is $62.875 million.

    With respect to water quality, the Recovery Act again made 
quite an investment in tribal nations. It allocated additional 
money, and the budget follows suit. The 2010 budget doubles the 
SRF fund and raises the tribal set-aside to 2 percent. That was 
a mark that was set in the Recovery Act. That is another $48 
million. There is $26 million for Clean Water Act section 106 
grants, $8 million for section 319 grants, all for tribes. So 
we will continue to invest.
    We talked yesterday about ways to invest in things besides 
water to make sure tribes have drinking water and sanitation 
and all the same things that we enjoy.

                           CORN-BASED ETHANOL

    Mr. Cole. Well, thank you again. I look forward to working 
with you on that. And I appreciate the emphasis.
    Let me ask you on another, you are going to be leaving 
shortly to discuss the new emissions standards and fuel 
standards; and you mentioned this earlier in your testimony. 
Sometimes when we try and solve these problems, we generate 
problems at the same time.
    There is a lot of controversy now about ethanol that did 
not exist--corn-based ethanol that did not exist a few years 
ago. Do you have any plans of looking into some of the 
solutions, that one in particular where there are a lot of 
discussions, there is more environmental damage, and there is 
certainly a lot of market distortion by some of the mandates we 
put down on corn-based ethanol?
    Ms. Jackson. Yes, we have a couple of actions before EPA 
now that we will turn to after public comment. We have opened 
the public comment on increasing the percentage of ethanol 
allowed in gasoline from 10 percent, which is allowed now, up 
to as high as 15 percent. We are taking comment and receiving 
data. We are very interested in receiving data on engine 
performance, durability, distribution, any concerns that anyone 
might make along the supply chain about that increase, because 
obviously we want that fuel, if it is approved, to be workable 
for the American people.
    We just recently put up for public comment a renewable 
fuels standard that would become effective, once adopted, for 
the year 2010. That was mandated by law by EISA. One of the 
major concerns has been the impact of growing corn-based 
ethanol, essentially when you use a food as a fuel stock on 
land use, not only in this country but internationally. That is 
the indirect land use discussion we have seen so much in the 
paper.
    We have it open for public comment now. EPA did propose to 
take into account indirect land use, because that is what the 
law requires us to do. We are also peer reviewing our models 
for indirect land use. There have been some concerns about 
whether or not those models, are ready for prime time. This has 
not been tried, and certainly has not been tried from a 
regulatory standpoint. We welcome the peer review and are 
working with OMB. I think we have already put together the peer 
review panel, and that will be commencing simultaneously with 
the public comment.

                             SUPERFUND TAX

    Mr. Cole. I hope you will keep that emphasis, because I am 
a big believer in biofuels. I think Mr. Simpson's forests are a 
prime source, and there is a lot of places.
    I am not sure ethanol, in retrospect, will turn out to have 
been as wise a choice as we thought when we started down this 
road, but it has quite a political constituency behind it now.
    Last question. You mentioned restoring the Superfund tax in 
your testimony. Could you tell me exactly--I kind of remember 
it, and then we did not do it in 1995. So could you tell me 
number one, what that constitutes, who is going to pay it, that 
sort of thing?
    And you did mention, I think you expected a billion 
dollars--you expected that to rise to $2 billion. What do you 
see in 5, 10 years, what the level of that tax might be?
    Ms. Jackson. The projections are that the first years would 
raise about a billion dollars a year. It would rise to $2 
billion, I believe it is, by 2019. The President's proposal 
proposes reinstatement not right away, in recognition of the 
fact that our economy is, we hope, recovering, on the road to 
recovery, and giving us additional time for that. That was a 
tax on chemical feedstocks that then goes into a fund to be 
used for the assessment and cleanup of Superfund sites. I think 
there is no doubt that when we put money into the program we 
get results out the other end in terms of sites where there are 
cleanups. We also get jobs that Superfund cleanups are, a small 
part, but a part of the Recovery Act. And we have actually had 
some wonderful events going around the country to communities 
that welcome us not just for cleaning up, but for being there 
and starting up the economic engine of having workers out 
assessing and cleaning up these sites.
    We want Americans to know that, like the SRF, it is an 
opportunity to invest in our environment in a way that gives us 
back not only a cleaner site and healthier community, but also 
gives us jobs.
    Mr. Cole. You have done some great work, and it is not in 
my district, but in Oklahoma a Superfund site around Picher, 
Oklahoma, which is an old lead mining area. And it has really 
been a quite a spectacular success thanks to the EPA.
    Thank you very much, Mr. Chairman.
    Ms. Jackson. Thank you so much.
    Mr. Dicks. I want to call on Mr. Moran, our vice chairman, 
and I want you to know he has been the leader on endocrine 
disrupters on our subcommittee.

                          ENDOCRINE DISRUPTORS

    Mr. Moran. Thank you, Mr. Chairman.
    Then I think I will ask a question about that. She has, but 
I think it is still worthwhile bringing this up, because it has 
been 13 years since the Congress directed EPA to require that 
pesticides be tested to determine the potential to disrupt the 
human endocrine system.
    And you have the authorization. If substances are found to 
have endocrine disrupting effects in humans, I think that it is 
pretty clear that EPA has that responsibility. And I know you 
are aware of it.
    I am particularly concerned about endocrine disrupters, 
because we did the study of fish in the Potomac River that, you 
know, could not be closer to all the folks here in Washington. 
We see it every day, cross it every day, and yet 90 percent of 
the Smallmouth Bass that were studied were intersex, which just 
is not normal. And endocrine disrupting chemicals, are believed 
to be the likely cause.
    But also we have reason to believe that these chemicals are 
causing increased rates of cancer, infertility, diabetes, 
childhood obesity, birth defects. And many of the effects that 
we are seeing in humans have been observed in wildlife and fish 
that have been exposed to endocrine disrupters.
    You know, you do have an enormous job to do, and you have 
got to make up for lost time. But--EPA finalized a list of 67 
chemicals that would be subject to Tier 1 testing to screen for 
endocrine effects--and I am very appreciative of that, very 
impressed--but when will the orders requiring the manufacturers 
of these 67 chemicals, when will they be required to test them? 
And do you have all the clearances from OMB? And then how long 
will the companies be given to submit the required data?
    I would like to get some sense of the timeline that we can 
pursue this. Because that is 67 chemicals, and there are 80,000 
chemicals in commercial transactions today that have not been 
tested. So that is my first line of inquiry, and I appreciate 
the chairman bringing it up.
    Ms. Jackson, can you elaborate on that?
    Ms. Jackson. Absolutely, Mr. Vice Chairman. Thank you for 
your advocacy on endocrine disruptors. It is important work.
    I agree that it has taken too long for the screening. I am 
happy that we now have the first 67 pesticide chemicals to be 
screened this summer. The issuance of Tier 1 test orders is 
expected in the summer, and we are waiting. We need to get OMB 
approval on the information collection request. I am not sure 
if it is over there now, so I do not want to blame them for 
something they may not even have in front of them. But 
certainly we will have to go through OMB in order to get that 
out this summer, and we will work with them to do that.
    You are right that the actual screening results will take a 
process of years to result in potential regulatory action, if 
the testing indicates that additional regulatory action is 
needed by EPA, under the Food Quality Protection Act, and we 
will certainly do that. The assay development process was 13--
well, 10-years-plus--in the making. I am optimistic now that we 
have a validated assay by the scientific advisory panel, we can 
now move forward with more of these. So we will have another 
list of chemicals coming out in fiscal year 2010.

              COAL COMBUSTION: TENNESSEE VALLEY AUTHORITY

    Mr. Moran. Thank you. I am so glad you are. And I have 
great confidence in your leadership.
    Mr. Chairman, I would like to ask one other subject, and 
that is coal combustion waste. The worst stationary source of 
air pollution in the whole Washington area is an outdated coal-
fired power plant right on the banks of the Potomac River in 
Alexandria. And part of the problem is that the better we get 
at preventing the toxins that are emitted from the burning of 
coal through the smokestacks, the greater the quantity and 
toxicity of the solid waste products that we have to manage.
    In 2007, the last year for which we have data, electric 
utilities generated 131 million tons of coal combustion waste, 
and as you know, it contains at least a dozen heavy metals such 
as arsenic and boron and so on, many of them toxic.
    There was an EPA report written in 2002 that found that the 
cancer risk was 500 times greater from exposure to arsenic in 
drinking water for residents living near unlined landfills 
containing coal ash and coal refuse. Last December, we had an 
enormous breach of an impoundment pond in the TVA down in 
Tennessee, and it destroyed homes and properties; the cleanup 
costs are going to be about $800 million.
    There was a smaller spill in March in Maryland, but 
enormous costs to drinking water, the fish, the wildlife, and 
several national parks, including the C&O Canal and the 
Chesapeake Bay.
    There is little role now in this coal combustion waste for 
the Federal Government, but the regulations that are governing 
these disposal requirements, they vary from State to State, and 
then there are some multiple agencies within a State. It seems 
to me it is a national problem, and yet we do not really have a 
Federal policy to regulate it. But it does seem that wet 
storage of disposal of coal combustion waste is difficult to 
manage and presents a continual risk to health and the 
environment.
    So would you address that concern, Ms. Jackson?
    Ms. Jackson. Yes, I am happy to.
    I have committed that by the end of this calendar year, by 
December, we will propose rulemaking to govern coal combustion 
waste.
    Mr. Moran. Great.
    Ms. Jackson. EPA is presently evaluating current disposal 
practices, as well as all the information we have, so that that 
rule is based on the best science we have and follows the law.
    I do agree--the other thing that you mentioned is the 
catastrophic spill down in Tennessee. EPA issued an order on 
May 11, 2009 to basically take over and work in partnership 
with the State of Tennessee that had been doing yeoman's work 
on the cleanup. I believed it was important because that is a 
Federal facility; it was a Tennessee Valley Authority (TVA) 
impoundment. TVA has stepped up, they have been doing it, but 
this is going to be a very expensive cleanup. As you said, it 
could easily top a billion dollars, and we wanted to bring 
EPA's technical expertise, its enforcement might, to the table 
if it becomes necessary to enable the cleanup.
    So as we move forward, obviously--I think you mentioned the 
facility in Alexandria, the Potomac River generating station; 
there we have a particular chemical. We are waiting on a health 
consultation from ATSDR on the--I forgot; I know it starts with 
a T--trona, that we will be reviewing that as we get the 
consultation from ATSDR.
    Mr. Moran. Wonderful. Thank you very much. Very impressive.
    Thank you, Mr. Chairman.
    Ms. Jackson. Thank you.
    Mr. Dicks. Mr. Chandler from Kentucky, who is very 
concerned about mountaintop mining.

                           MOUNTAINTOP MINING

    Mr. Chandler. Welcome, Ms. Jackson. I want to congratulate 
you on your position. I think I should congratulate you, 
although maybe condolences might be more in order, because you 
really do have your work cut out for you. I do not remember a 
time where we have had so many issues all at once that the EPA 
has got to deal with, and I wish you the greatest of luck. And 
I know you have got a lot of folks here on the committee who 
want to help you.
    I also want to thank you for the statement you just made 
about the coal ash ponds and the difficulty there. It has been 
a concern to a lot of people around the country that the EPA 
was not in a position to regulate that, and it is wonderful 
that you are going to get involved in it. Thank you for that.
    A couple of questions. I appreciate the chairman's mention 
of mountaintop removal, and I would like to pursue that a 
little bit with you.
    First of all, have you had the opportunity to do a flyover 
of the Appalachian Mountains?
    Ms. Jackson. I have not yet, but it is on my list of things 
to do.
    Mr. Chandler. Very good. I would like to be a part of 
facilitating that for you, if I could. The chairman's been on 
one, and I think he can say that it is enlightening.
    Mr. Dicks. Definitely.
    Ms. Jackson. Okay.
    Mr. Chandler. I also appreciate that the EPA under your 
leadership has recently begun to take a more careful look at 
mountaintop removal mining and valley fills.
    Prior to the Bush administration, under the Clean Water 
Act, as I am sure you know, waste material was not allowed to 
be used to fill streams. Now, that was not enforced 
necessarily, but the rule was such that it was not allowed. As 
a result of a Bush administration rule, waste now may be placed 
in the streams.
    Will you reconsider or think about revising this rule?
    Ms. Jackson. Yes. Thank you.
    Actually, the Department of Interior under Secretary 
Salazar announced recently that they are looking to rescind 
that rule, and looking at new rulemaking to govern surface 
mine, mountaintop mining, and stream--that was the so-called 
``stream buffer rules.'' So they have agreed to roll that back.
    Mr. Chandler. And they are going to move in that direction?
    Ms. Jackson. That was the announcement. EPA has been 
working with them through the White House Council on 
Environmental Quality to beginning the discussions of what 
environmentally sound mining should look like and how to ensure 
that there are not undue impacts on water quality.

                      ``FILL MATERIAL'' DEFINITION

    Mr. Chandler. What I am actually talking about is something 
that is under the Clean Water Act, which is a little bit 
different.
    Ms. Jackson. Yes.
    Mr. Chandler. It has to do with what is, in fact, the 
definition of ``fill material.''
    Ms. Jackson. Okay.
    Mr. Chandler. There had been a change under the Bush 
administration about the definition of ``fill material,'' and 
what I was wondering is whether that would include waste or 
not.
    Ms. Jackson. Okay.
    Mr. Chandler. So a little bit different take on that 
particular issue.
    Ms. Jackson. Okay. Yes, I think maybe I should agree to get 
back and talk to you on that plane ride out to Appalachia, 
because I think we have some work to discuss on that particular 
regulatory issue.
    [The information follows:]

                            Mountain Mining

    The issues related to ``fill material'' and ``discharge of fill'' 
are very technical matters. I will address them briefly, and offer to 
follow-up with more detail if you wish. Since 2002, EPA and the Corps 
have had a common ``effect-based'' test, which considers any discharge 
to waters of the United States that have the effect of replacing an 
aquatic area with dry land or of changing the bottom elevation of a 
water body as ``fill'' under Section 404 of the Clean Water Act. 
However, the term ``fill'' does not include pollutants discharged into 
the water primarily to dispose of waste, which are regulated under 
section 402 of the Clean Water Act 33 CFR 323.2(e)(2001). I will also 
acknowledge that there have been legal challenges to the issuance of 
Clean Water Act (CWA) section 404 permits for valley fills for 
mountaintop mining operations and for other mining operations. While 
the validity of the Fill Rule itself is no longer directly at issue, it 
is likely that upcoming decisions in the courts could affect our 
interpretation of ``fill.''

    Mr. Chandler. Well, it is an important issue, and it is 
covered in a bill that Representative Pallone has had up here 
in Congress for a number of years. You might want to have a 
look at that bill too; it has got quite a number of cosponsors 
on it.
    On another matter, the budget request that you have put in 
for criminal enforcement is the largest ever. According to your 
budget, it looks like you will be able to finally employ 200 
criminal investigators, as authorized by the 1990 Pollution 
Prosecution Act.
    Can you describe for us the level of success that EPA 
criminal enforcement has had in the past few years and your 
feeling about where that criminal enforcement has been and 
where it needs to go?
    Ms. Jackson. The commitment of EPA to ramp up its criminal 
enforcement resources and its cases has been a bright spot on 
the landscape, I think, for environmental enforcement.
    You know, I was a long-time enforcer at the Federal level 
and then at the State level, and I know full well that 
enforcement has two effects. It deters future bad behavior, but 
it also levels the playing field for business, you know, 
business cannot see one company making a larger profit because 
they choose to ignore the laws of our land.
    Criminal enforcement--there is nothing like the threat of 
jail time or criminal prosecution to really make management, 
all the way up to the highest levels of a company, realize that 
they are, indeed, responsible for corporate behavior.
    EPA has had some noteworthy cases. As I was on my way over 
here today, I was looking through the clips. There was an 
article about a fugitive who has been doing illegal asbestos 
tear-out and disposal, you know, that EPA's criminal team is 
looking to find and prosecute.
    So I think it sends a very strong message about the 
seriousness of our country's commitment to enforce the 
environmental laws that we work so hard----
    Mr. Chandler. And I guess you have been deeply concerned 
about the lack of resources in the past that have been 
available to the Agency to do this work?
    Ms. Jackson. Yes. As you said, the idea that we will be 
able to finally get up to the funding that was anticipated by 
Congress in the Pollution Prosecution Act is very, very good 
news.
    Mr. Chandler. Okay. Thank you.
    Mr. Dicks. Mr. Hinchey of New York.
    Mr. Hinchey. Thank you very much, Mr. Chairman.
    And, Administrator Jackson, thank you very much. It is very 
impressive to listen to you and, particularly, listen to the 
answers that you provide to the questions that are given to 
you. You are doing some very, very important work with regard 
to the safety and security of people all across this country 
and their health, as well.
    And just to start off, I want to express my deep 
appreciation to you for the attention that you focused on the 
PCB problem, polychlorinated biphenyls, in the Hudson River and 
the cleaning up of those PCBs--I am happy to see you smiling 
about it--the cleaning up of those PCBs, which has been 
delayed, as you know, for decades. And there were some 
administrations, like the Clinton administration, which moved 
forward on it, but then it was blocked by the Bush 
administration, and nothing happened for 8 years.
    But now you are moving forward on it, and I very much 
appreciate what you are doing. You are going to make a big 
difference in the quality of that river and the quality of 
health and a whole host of other things. So I just want to 
thank you very much for that.
    Ms. Jackson. Thank you.

                         TCE--TRICHLOROETHYLENE

    Mr. Hinchey. There is a number of concerns that we are 
dealing with. One of them is TCE, trichloroethylene, and the 
suspected carcinogen and neurotoxin effects of exposure to that 
particular chemical and how it was used so broadly decades ago 
and how it is still lying out there in a lot of places, and the 
way in which there are no national health safety standards for 
this kind of material.
    I have been working with your operation and a number of 
others over the last several years, and some progress has been 
made. And I am just hoping that--and I am sure that you will be 
doing some things that are going to be very important.
    Back in January of this year, the Bush administration 
finally put out a statement with regard to what should be done 
with regard to TCEs, but it was fairly weak. And now I see that 
your agency has withdrawn that memorandum, and I believe that 
you are considering a different standard. And I am just 
wondering if you are planning to issue a revised memo on TCE 
toxicity levels and the health risks that they pose.
    Also, in July of 2006, the National Research Council 
recommended that the human health risk assessments for TCE be, 
you know, just finalized, something clearly be done about it, 
as they said, and I quote, ``with currently available data so 
that risk-management decisions can be made expeditiously.''
    So does EPA have a schedule for completing that risk 
assessment?
    Ms. Jackson. EPA is working to develop a schedule for TCE 
and a number of other, I call them, ``marquee contaminants,'' 
ones people have heard of but which EPA has yet to speak on, in 
terms of putting out a risk assessment that the American people 
can rely on.
    There are two places where we deal with TCE. Obviously, one 
is the Superfund program; you mentioned that first. A 
recommendation will be made in the fall of this year regarding 
non-cancer TCE cleanup values that can be used out in the field 
by States and the Federal Government and tribes to do cleanups.
    [The information follows:]

                       TCE Risk Assessment Number

    On April 4, 2009, the Office of Solid Waste and Emergency Response 
(OSWER) withdrew a guidance memorandum that had been issued to EPA 
Regional staff and managers on January 15, 2009, entitled ``Interim 
Recommended Trichloroethylene (TCE) Toxicity Values to Assess Human 
Health Risk and Recommentations for the Vapor Intrusion Pathway 
Analysis.'' The Agency withdrew this guidance to further evaluate the 
recommendations regarding the noncancer TCE toxicity value for use in 
risk assessments of inhalation exposures.
    In the interim, toxicity values for TCE should be determined 
consistent with the National Contingency Plan (e.g., 40 CFR 300.430(e)) 
and the 2003 Toxicity Hierarchy (OSWER Directive 9285.7-53, December 5, 
2003). The Directive provides guidance on a hierarchy of approaches 
regarding human health toxicity values in risk assessments, and 
provides guidance for regional risk assessors to help them identify 
appropriate sources of toxicological information that should generally 
be used in performing human health risk assessments at Comprehensive 
Environmental Response, Compensation and Liability Act (CERCLA or 
``Superfund'') sites. This hierarchy of approaches is also appropriate 
for human health risk assessments at Resource Conservation and Recovery 
Act (RCRA) corrective action sites.

    In the meantime, there is an assessment, and I do expect 
that we will be moving forward with a risk assessment number 
for TCE. I don't have a date for you today.
    Mr. Hinchey. I hope so. And I know you are focused on that. 
It is very important that you are. There are a number of 
places, just in the district that I represent, the city of 
Endicott, for example, on the southern tier, just above the 
Pennsylvania border; another city, the city of Ithaca. In the 
city of Endicott, there are about 500 homes, families who are 
exposed to the gasic effects of TCE coming up into the air.
    So what you are doing is very critical, and I am hoping 
that you move forward on it very effectively. If there is 
anything that I can do or we can do or the chairman can do, I 
am sure we will do everything we can to help.
    Ms. Jackson. Thank you. I will look into that.

                          HYDRAULIC FRACTURING

    Mr. Hinchey. One other thing I wanted to talk about was the 
hydraulic fracturing and water supply issues. There is a lot of 
attention now, with the price of gas having gone up, to drill 
for gasoline, including the Marcellus shale area that stretches 
across Pennsylvania and New York. But this hydraulic fracturing 
which is carried out shoots vast amounts of water, sand, and 
chemicals--some chemicals, including things like benzine--down 
into the ground, and then drills along horizontally.
    And, unfortunately, in that legislation that was passed 
back in 2005, that Energy Policy Act, Congress exempted 
hydraulic fracturing from the Safe Drinking Water Act, which 
was designed to protect people's water supply from 
contamination from these kinds of toxic chemicals.
    So we have now, in many places across the country, more 
than a thousand cases of contamination that have been 
documented by courts, by State and local governments, in places 
like New Mexico, Alabama, Ohio, Texas, Pennsylvania, Colorado, 
and elsewhere. In one case, there was a house that exploded 
after hydraulic fracturing created underground passageways and 
the methane seeped into the residential water supply and just 
blew the place up.
    So, obviously, there is a lot of damage and danger that is 
potential here, and this is something that really needs to be 
addressed. So I wanted to just ask you a couple of questions.
    Is EPA aware of and monitoring the reports of water 
contamination related to hydraulic fracturing of gas wells in 
those States that I mentioned, including Pennsylvania?
    And, in 2004, EPA's study concluded that fracturing--
amazingly concluded that fracturing did not pose a risk to 
drinking water. However, the contamination incidents I referred 
to have cast a lot of obvious, significant, different attitudes 
about that, making it clear that this is a very serious 
problem. The report's own body contains damaging information 
that wasn't mentioned in the conclusion. In fact, the study 
foreshadowed many of the problems now being reported in all of 
those places, all of those States across the country.
    So, given this new information, what do you think EPA 
should be doing? Should it reconsider its earlier findings on 
fracture risks in drinking water? Should something more 
effective and aggressive be done here to deal with this serious 
problem?
    Ms. Jackson. Well, obviously, as new information comes in, 
you bring up some startling cases of places where EPA should, 
at a minimum, even though we are forestalled by law in acting 
except when there is diesel fuel from hydrofracting, we could 
certainly play a role in starting to track and keep information 
and data on these issues as they come up.
    I do think that it is well worth looking into. I am happy 
to do that in conjunction with you or through this committee. 
At EPA's prior testimony, I think the last time EPA spoke on 
this was October of 2007 when, at that point, EPA's position 
was that there was no need for any additional concern. I think 
it is probably time to look at that again.
    Mr. Hinchey. Well, I hope this Congress, frankly, corrects 
all of the serious damage which was done--the one I mentioned, 
but others, which were done in that 2005 Energy Policy Act. 
That is something that we are going to have to do. And I am 
very happy to be able to work with you, and I very much 
appreciate what our chairman is doing on these issues. So 
please keep in touch with us about these circumstances and let 
us know what we can do, what you are doing, what kind of help 
that we may be able to give to you.
    And I thank you very much for everything that you are 
doing.
    Ms. Jackson. Thank you. I will.
    Mr. Hinchey. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Olver from Massachusetts.

                          SENATE CONFIRMATION

    Mr. Olver. Thank you very much, Mr. Chairman.
    Ms. Jackson, this is the first opportunity--well, easy 
opportunity that I have had to congratulate you on your arrival 
at the Administrator position and your confirmation.
    Your arrival marks a very significant change in the kind of 
budget that we are seeing this year. There are some very large 
increases. Rarely does one see an agency get more than a one-
third increase in its proposed budget. At the same time, there 
are some quite significant reductions or removals that also 
show up.
    Let me just ask you, how many administrative people in your 
agency require Senate confirmation?
    Ms. Jackson. I believe the number is 14, including myself.
    Mr. Olver. Fourteen, including yourself. How many of them 
have been confirmed now, other than yourself?
    Ms. Jackson. I believe it is three. Three, yes.
    Mr. Olver. How many of the remaining--including yourself, 
you and two others have been confirmed?
    Ms. Jackson. No, no, no. Four altogether.
    Mr. Olver. You meant four in total. So how many of the 
other 10 names have already been sent up for confirmation?
    Ms. Jackson. I believe there are three.

                         STATE REVOLVING FUNDS

    Mr. Olver. So there is still half of your total crew here, 
5 months into the administration, whose names have not gone up 
for confirmation. Okay.
    Coming here down the line, I have just a lot of things that 
I would like to, sort of, comment on quickly and maybe come 
back for a second round, if we have a second round.
    One is, I, too, am very pleased that you are noting the 
needs of tribes. The question of capacity of tribes is 
paramount in so many different areas. I happen to chair the 
Housing and Urban Development and Transportation Subcommittee 
of the Appropriations Committee. We do 98 percent of the 
housing that is done on reservations. Two percent of it is done 
by the BIA, which is also part of the Interior Subcommittee. 
And, of course, your water issues are all here in this 
committee.
    And, in these areas where grants are available and tribal 
capacity is critical to be able to access those grants, and the 
use of them, once they have gotten them, the effective and 
expeditious administration and completion of the grant process 
is also critical to being in line for the next time. If you 
don't have a good history, you are going to be less likely to 
get the money the next time.
    So the capacity in my subcommittee and the capacity in this 
subcommittee are really critical, but it is also important in 
other places. I don't need to go into the other places. So I, 
along with Mr. Cole, am very interested in how one builds that 
capacity and maintains it, sustains it, and makes it grow.
    I commented that there are very large increases. The amount 
in the Recovery Act for the STAG grants is a very large 
increase. It is two and a half times what has been appropriated 
year by year; comes in in the Recovery Act. And the amounts for 
the Clean Water Fund, the revolving funds, which are basically 
loan funds, those are huge increases, in any case. So there are 
very large increases there.
    But I do want to note, as has been done by a couple of the 
other members, including Chairman Obey and Ranking Member 
Simpson and the chairman of this subcommittee--probably others 
have made it, too--the problem that occurs in those increases 
for the very small communities.
    There were, in the loss of funds, the inclusion of the 
Rural Water Program for communities of under 3,000 population 
and the program under the National Rural Water Association. The 
sum total of those programs is less than $15 million, but it 
represents a huge need.
    We have thousands of communities in this country which are 
losing population. When they are losing population, they are 
almost certain to have lost their capacity to maintain service 
programs and to pay water shares. And in moving over to the 
STAG grant program and the revolving fund programs, there is a 
20 percent match at the State level. Most of the States are 
undergoing very severe economic problems and would have serious 
difficulty this year in coming up with those monies. The ARRA 
funds are 100 percent--that process has been waived for the 
Recovery Act.
    And in the case of grants, that is not a problem. But in 
the case of loans, especially going to the very smallest 
communities, many of which--you know, the thousands of 
communities that are losing population are huge numbers in 
certain parts of the country, but there are communities in 
every State. In upstate New York, there are communities that 
are losing population. In my original home State of 
Pennsylvania, there are a substantial number of communities 
losing population. And they fall, often, in that lower range.
    So I am kind of curious. See, they lose economies of scale. 
The capital cost per product that comes out is much higher in 
such small communities because there is just no economy of 
scale.
    How does the way you have structured, with the huge 
increases in the basic grants, STAG grants, and then in the 
revolving funds--which are grant increases. I mean, I think 
that part of the answer to why we may not have made as much 
progress over the years, as Mr. Obey was commenting, why that 
has been in his mind half-empty and in your mind half-full, the 
glass, it is that we haven't put enough money into it to keep 
up these programs. And the ARRA program has put a huge amount 
of money in, more than the whole year's for each of the 2 years 
in a couple of those programs.
    And I am sort of curious, how are you going to substitute 
for these two rural programs--which were called earmarks, when 
in fact not a single community was designated for any of the 
money. They were all competitive after they got to the two 
agencies that were using those monies. And yet they were 
serving a group that I don't see where they are going to be 
served appropriately in the situation that has been set up.
    Mr. Dicks. Why don't we let her comment?
    Do you want to comment on that?
    Ms. Jackson. Sure, Mr. Chairman.
    I think and share your belief that the National Rural Water 
Association and the Rural Community Assistance moneys went to 
good purpose, that they were moneys well spent. Yes, in the 
principled elimination of earmarks, they are two of the 
programs that are not in the President's proposed budget. EPA 
will do the very best it can to ensure that the large increases 
in SRF are distributed fairly to communities.
    I do believe that the ongoing discussion that is happening 
now in Congress--certainly, the Senate EPW has had lots of 
discussion about reauthorization of the revolving funds. I 
think there is a place where now is a good time to ask 
ourselves questions about affordability, about small 
communities, about the economies-of-scale issue that you 
mentioned, about the original intent of those infrastructure 
improvements. And so I am happy to have those--

                         STATE REVOLVING FUNDS

    Mr. Olver. Do you have actual capacity to--I thought that 
the revolving fund dollars and the STAG grants--well, the STAG 
grants probably go out on a competitive basis, don't they? They 
don't go out by formula to each of the States. But the 
revolving funds go out by formula to the States, don't they?
    Ms. Jackson. The revolving funds are distributed by 
formula. Actually, the STAG grants go to State governments, and 
they often are distributed--
    Mr. Olver. They go to the State governments, and those go 
by formula to the State governments, as well. How do you then 
take into account--what authority do you have to tell them how 
they are going to then expend the moneys in the way that you 
described you might?
    Ms. Jackson. Well, right now we follow the law, and the law 
basically says that States have to give to EPA an intended use 
plan every year. And that plan is largely the province of the 
States to decide how best and where to put its money. And, 
obviously, if a community can't afford to make the match or 
can't afford the loan, then there is an issue there. It is not 
one that we can address without, probably, some legislative 
changes, though.
    Mr. Dicks. Would the gentleman yield?
    Mr. Olver. Certainly.
    Mr. Dicks. We changed the language so that the same kind of 
authority that we had under the Drinking Water Revolving Fund 
now applies to 50 percent of the Clean Water Revolving Fund. So 
we have already done that. Chairman Oberstar, in his bill, has 
exactly the same language.
    So, there now is a way to help these communities. But, 
again, I am hopeful that at some point we can get back to a 
grant program. Now, even in a grant program, you have to have a 
State match, as I understand it. But we are making some 
progress. There is some of the money that goes back to your 
State of Massachusetts that allows some forgiveness on the 
repayment. And so it is like a grant.
    And that has been there in the Safe Drinking Water for many 
years, but we have now put that in the clean water SRF program. 
And we intend, though it is not in the administration's 
request--it may have been overlooked--to put it in the bill for 
2010, as we did in the stimulus.
    Mr. Olver. If I could reclaim my time, is that a 1-year 
authorization because it is within an appropriation bill, as 
the ARRA?
    Mr. Dicks. Yes, that is correct. Unless we made it 
permanent.
    Mr. Olver. Does that have to be authorized to continue in 
the long run?
    Mr. Dicks. But Mr. Oberstar's bill, which is now going over 
to the Senate, has the same language in it. So this is a fix. 
And, as I said, I am not sure it is totally satisfactory, but 
it is a fix.
    Mr. Olver. Have you had input into the bill which has been 
described that has gone over, it has not yet occurred, so that 
you would see that that is going to solve the problem in an 
appropriate way? Or is there authority in that legislation for 
you to do the oversight that would make certain that it would 
happen?
    Ms. Jackson. Yes, well, once the legislation, if passed, 
changes the requirements and allows for grants rather than 
loans, then I do think a lot of those communities are going to 
raise their hands and stand up and say, yes, of course we would 
like to have clean water; we can now afford it.
    And, yes, EPA staff have been--I will personally take a 
look at the issue. In fact, I just the other day mentioned to 
my staff that it is time for us to roll up our sleeves. Because 
the 1-year fixes are much appreciated, Mr. Chairman, and the 
work that this committee did in the Recovery Act has made all 
the difference to many communities, they have said that, and 
was a nice marker down. And I do think that if we can resolve 
it going forward, that would be----
    Mr. Olver. My last comment on that is that you almost need 
capacity-building again in very small communities. They have a 
very hard time standing up and making their voice heard at 
State levels as well as at national levels if they don't have a 
major organization that is behind them.
    Ms. Jackson. I can agree.
    The only thing I have to point out, obviously, in these 
fiscal times, is that a revolving fund doesn't revolve if we 
give the money out in grants. So that is a serious issue, in 
terms of financing a grant-based program. It is one that 
certainly I am going to have to sit down with OMB on.
    Mr. Dicks. Now, the previous administration told us day 
after day--I know this pains some--that the revolving funds had 
all the money they needed; I mean, they could reduce the 
revolving funds. So that wasn't totally accurate?
    Ms. Jackson. Well, I wasn't there, I don't know exactly 
what they said. I am saying, if we switch the revolving funds 
to a grant program they revolve because loan repayments pay 
back the money, and, obviously, to the extent you increase 
more--we all know that there are literally hundreds of billions 
of dollars of need out there. One of the things about the 
Recovery Act that I can honestly say is that there has been a 
clamoring from communities across America to get their hands on 
revolving fund money that is in there.
    Mr. Dicks. And if you are going to do the Chesapeake Bay, 
the Great Lakes, and Puget Sound in San Francisco, they need 
these projects. In other words, you are not going to get the 
cleanup of these great bodies of water or other bodies of water 
if the local communities adjacent to those great bodies can't 
fund the projects. So it is part of the solution to the issues 
we were talking about earlier.
    Mr. Pastor of Arizona.
    Mr. Pastor. Thank you, Mr. Chairman.
    First of all, congratulations and welcome.
    Ms. Jackson. Thank you.

              CONGRESSIONALLY DIRECTED PROJECTS REDUCTION

    Mr. Pastor. My interest is in the 404 permitting process. 
But, as questions were being asked of you, one kind of popped 
up. As I was preparing for the testimony this morning and I saw 
that in the U.S.-Mexico border program, that in the 2009 
omnibus bill, we had about, I don't know, half a million, maybe 
a little bit more, of congressionally directed funding that you 
eliminated--or somebody eliminated in the 2010 budget. And 
Chairman Olver brought up the issue of earmarks in, I guess, 
the Rural Fund.
    It is a debate we are having and have had with other 
administrations. So what is your philosophy of congressionally 
directed projects? And how would you treat them--as you say, 
following the law is the law comes with you--with possibly a 
few congressionally directed projects?
    Ms. Jackson. Well, sir, I have taken an oath to uphold the 
law. If Congress directs me to do something, I am going to do 
it to the best of my ability.
    Mr. Pastor. But what happened to following the law in the 
omnibus bill when you reduced all these projects? Those weren't 
the law?
    Ms. Jackson. In the President's budget, you mean, in his 
proposal?
    Mr. Pastor. As I understand, in the omnibus for 2009, for 
the U.S.-Mexico border program, you basically eliminated all 
the congressionally directed projects, 640,000. This is 
according to the papers I received.
    Mr. Dicks. This is in the 2010 budget request. The ones 
that are in the 2009 bill will be funded.
    Mr. Pastor. Well, I guess what my question more generally 
is, since that happened in the past--and I don't know whether 
the law was followed or not--what is going to be your future 
action on congressionally directed projects for the 2010, 2011 
bills?
    Mr. Dicks. I think she answered that. I think she said----
    Mr. Pastor. I don't think she has.
    Mr. Dicks [continuing]. She will follow the law. If we pass 
the bill and the money is in there, it will be just like it has 
always been.
    Mr. Pastor. Well, maybe I am hard of hearing. Maybe I 
didn't hear her say that.
    Mr. Dicks. It is just not in the budget request.
    Ms. Jackson. Right. It is not in the President's budget----
    Mr. Pastor. Well, the question, I think, is more general 
than that. Once we do our bills, there will be congressionally 
directed projects in your bill. Since past action, at least 
from what I have seen, in the omnibus bill you reduced all the 
earmarks on that particular program.
    Is that going to be what you are going to be doing in the 
future? Or what are you going to be doing in the future? 
Because you are going to get them; they are going to come to 
you.
    Ms. Jackson. I understand the question now, Mr. Pastor. I 
am sorry, I didn't mean to be so thick there.
    Ms. Pastor. No, no, it is fine.
    Ms. Jackson. Yes, the administration reduced the amount of 
money that was set aside in the omnibus bill. It may well make 
decisions like that going forward. Those discussions are ones I 
am happy to have with you.
    On the larger issue of whether the U.S.-Mexico border 
program needs funding and needs attention, I would say, 
absolutely, it does.
    Mr. Pastor. Actually, it is more general than that. If you 
reduced them because they were congressionally directed 
earmarks and you felt that you were following the law or you 
could put them aside, you are going to get more congressionally 
directed projects in various programs in the bill that deals 
with EPA.
    I guess the question is, in general, how are you going to 
view them? Are you going to follow the law and accept them, or 
are you going to give and take? So I guess, as a new 
administrator there, what is going to be your position?
    Ms. Jackson. This one is a new area for me. I would work 
with the Office of Management and Budget and the administration 
to carry out the wishes of the administration, understanding 
that Congress has spoken through the appropriations process.

                             404 PERMITTING

    Mr. Pastor. Thank you.
    On the 404 permitting, probably right now is a good time to 
relook at that.
    In the past, the Corps of Engineers got the permitted 
request, they went through a series of studies, reviews, et 
cetera, and they either approved or disapproved. But before 
they could do that, EPA--Region 9, at least; that is my 
experience--would relook at it and then decide whether or not 
they agreed with the Corps, there was disagreement, et cetera.
    And two issues that I learned from that experience: One is 
that, coming from the arid Southwest, sometimes creeks, rivers, 
et cetera, carry water maybe once or twice a year, at best, if 
there is rainfall, and yet they are treated in a fashion that 
may reflect what may be the general description. And much to 
the consternation of the people that were submitting the 404 
permitting, they felt that EPA, for whatever reason, was either 
second-guessing or trying to develop their own definitions. And 
so the process was extended longer than possibly was 
economically feasible.
    And so the question is, is EPA going to continue looking at 
these 404s? And if you are, what are you going to do to work 
with the Corps of Engineers so that possibly the time for their 
approval or denial will be shortened, in order so that the 
applicant has a better idea of knowing to proceed or not 
proceed in that?
    And right now is probably the time to do it, because many 
of the developers are not developing right now, and maybe this 
is a time to look at that process.
    Ms. Jackson. Certainly.
    You bring up a good point. The regulated community just 
wants certainty. They want to know that a permit application is 
going to be reviewed in a timely manner, that they will get an 
answer that is an answer that will stick.
    I am committed to working with the Corps of Engineers on 
404 permits in general, on field permits, to try to give one 
consistent set of guidance. Obviously, there are times when 
EPA's review, which is focused on water quality, brings to bear 
new or different information than the Corps's review may. That 
is why we are there; that is why the laws and regs were set up 
that way.
    That being said, I do think the process can be improved. We 
should coordinate well and in a timely fashion.
    Mr. Pastor. Because I think if there was initial 
coordination when the applicant came in and as the Corps was 
reviewing the application, if there was some involvement with 
EPA, that possibly you could streamline the process so the 
applicant would have a determination in a quicker amount of 
time.
    But I thank you, and congratulations.
    Ms. Jackson. Thanks.
    Mr. Dicks. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.

                   WATER/INFRASTRUCTURE AND RESEARCH

    Madam Administrator, let me add my congratulations, and 
welcome to the subcommittee. I am glad to see you here and 
appreciate your testimony.
    This is an ambitious budget that you have submitted, the 
highest in EPA's 39-year history. But it is not just a big 
budget; I think it is also, in most ways, a very discriminating 
budget. And I compliment you on the work that has gone into it.
    I want to ask you questions about two major aspects: water 
infrastructure and research.
    Virtually everybody this morning has mentioned the 
revolving funds and the major increase that you are 
highlighting there, 157 percent increase, I believe it is, in 
the 2010 budget request for the Clean Water and Drinking Water 
State Revolving Funds. When you add that to the $6 billion 
provided in the recovery bill, we are talking about major 
increases in these funds, admittedly against a fairly low base 
because we have not done too well with those funds in recent 
years. But they are on their way back, and this is very 
promising.
    I do have one question about the way this is going to be 
administered. As I understand it, you have had a requirement in 
the recovery bill that States are required to provide at least 
20 percent of their grants for green projects, including green 
infrastructure, energy or water efficiency, and environmentally 
innovative activities.
    I wonder if that is a method the Agency plans to replicate 
with the regular-year funds. And whether you are or not, what 
is your experience thus far in terms of the States' ability and 
determination to apply their funds in these ways?
    On the research budget--and I will just ask all this at 
once, and then you can respond in sequence.
    Ms. Jackson. Okay.
    Mr. Price. On the research budget, here, too, you are 
making some very promising proposals, I think. I have a 
particular interest in that budget as the representative of the 
Research Triangle Park in North Carolina, which is home to the 
premiere EPA research facility, which I think everybody there 
knows was a 9-year project to get that funded and built. And we 
are reaping very rich benefits from that investment as we 
speak.
    Your research increases mainly are focused on green water 
infrastructure, on biofuels, on integrated risk information 
systems, and on the Computational Toxicology Research Program. 
And non-incremental increases in all those areas.
    The ecosystem side of the research has not received 
comparable increases. I am not certain why. That is really what 
I would ask you about. I know we can't do everything at once, 
and maybe you can offer me some broader overview of research 
priorities. But, as you know, the budget for ecosystems 
research has declined something like 36 percent over the last 8 
years, from $111 million in fiscal 1999 to $71 million this 
year.
    Healthy ecosystems is a major goal of the EPA research 
budget. You are proposing an increase of $5 million for fiscal 
2010, which, of course, is movement in the right direction, but 
rather modest when compared to some of these other research 
investments.
    Again, I am not suggesting we can do everything at once, 
but I am looking here for your rationale for where the research 
budget is focused and, in particular, the treatment of the 
ecosystem component.
    Ms. Jackson. Well, thank you. Yes, I do agree. We will 
start with research lessons, then we will do the green 
infrastructure you asked about.
    First, it is a matter of priority setting, and we have 
quite an agenda ahead of us. There are large increases in our 
research budget, and that money is going to be very helpful in 
dealing with the issues of the moment. Biofuels, as you may 
have heard earlier, is an issue of major concern. We will 
continue to regulate the use of and assess the greenhouse gas 
and energy implication of biofuels. There is money for that.
    There is money for the Integrated Risk Information System, 
IRIS, which--you heard earlier questions about TCE. It is the 
IRIS assessments that people are waiting for, and computational 
toxicology, this idea--that I barely understand--that you can 
assess chemicals based on non-experimental--you don't have to 
necessarily experiment on animals or others in order to assess 
the toxicology; you can guess about whether certain chemicals 
will be toxic. That guides research and development efforts in 
the private sector. Green infrastructure gets money, as well.
    I do agree with you that an ecosystem-based approach is 
really the key to sustainability and, sort of, a holistic 
environmental protection focus. I will go back and look at 
that, both for the 2010 budget but for the 2011 as well. The 
need for research is great. Not only I am eagerly looking 
forward to the nomination of a head of research and development 
by the President--but also by outside scientists on our FACAs 
and other advisory boards.
    [The information follows:]

               Ecosystem Services Research Program (ESRP)

    How has the ESRP adapted/adjusted its research priorities in recent 
years to account for reductions within the program? How have research 
results been impacted by the decrease?
    The ESRP embodies a new generation of thinking about environmental 
protection by providing information for use in conserving and enhancing 
the goods and services provided by functioning ecosystems. These 
services include clean air, clean and abundant water, food and 
productive soils, fuels, recreation, and culturally important natural 
areas. ESRP is establishing the scientific foundation needed to make 
informed choices about trade-offs among EPA's policy and regulatory 
decisions affecting ecosystem services, including, in some instances, 
creation of financial markets for public and private investment. Our 
systems-based approach uses scenarios to reduce the likelihood of 
unintended consequences, and empirical monitoring to document the 
Agency's performance in achieving environmental outcomes.
    In 2008, the Science Advisory Board (SAB) Environmental Processes 
and Effects Committee noted about the ESRP, ``The SAB strongly supports 
this strategic direction and commends the Agency for developing a 
research program that, if properly funded and executed, has the 
potential to be transformative for environmental decision making as 
well as for ecological science.'' As with any transformative activity, 
broadening and communicating to the client base is critical. However, 
the loss of extramural funding in recent years has narrowed our 
research and slowed its implementation. We have less access to 
expertise, such as to design decision-support tools, and the in-house 
Program has reduced it scope from multiple pollutants to a single 
pollutant and has reduced field data collection needed to develop and 
verify ecological models.

    With respect to green infrastructure----

                          GREEN INFRASTRUCTURE

    Mr. Price. Let me just interrupt you there. I would 
appreciate your taking another look at that and maybe 
furnishing the committee with any supplementary information you 
might have about the basis on which you have prioritized these 
items.
    I am a new subcommittee member. I don't have as full a 
sense as I would like to have of what the costs have been, I 
mean, the research costs, the costs in terms of output of that 
36 percent decrease over the last 8 years, and then what it 
takes to build this back, and, within this budget item, what 
the priorities are. So I would appreciate your filling that out 
a bit.
    Ms. Jackson. I am happy to do that, Mr. Price.
    With respect to green infrastructure, I will just say 
quickly that here is another area where the Recovery Act shows 
a potential path forward that communities and grantees are 
interested in pursuing.
    I don't have much to report yet on that. The green 
infrastructure requirement is a 20 percent set-aside. States 
can ask for permission to essentially waive it and use it for 
traditional, non-green infrastructure projects. Those waivers 
have yet to come in. We intend to hold a high bar, because we 
believe that there are communities out there who have already 
started to look at ways to cut their carbon footprint, their 
energy use, and have a win-win, because consumers end up paying 
for energy in their bills over time.
    I am looking forward to seeing whether or not that is a 
model that will take hold, and I appreciate Congress's interest 
in it.
    Mr. Price. But your immediate plans for 2010 are not to 
impose a similar condition or to set a similar threshold; is 
that true?
    Ms. Jackson. Hang on one second. I am just getting the 
information from my head of the water program.
    There is a 20 percent green infrastructure set-aside as 
part of the 2010 budget request.
    Mr. Price. Very similar to what is in the recovery bill.
    Ms. Jackson. That is right.
    Mr. Price. That is what I was asking. Thank you.
    Ms. Jackson. Thank you.
    Mr. Dicks. Mr. LaTourette from Ohio.
    Mr. LaTourette. Thank you, Mr. Chairman.
    And welcome, Madam Administrator.
    Is former Administrator Browner at the agency, or does she 
have some other post? Carol Browner.
    Ms. Jackson. Carol Browner is special advisor to President 
Obama for energy and climate change.
    Mr. LaTourette. Okay. So she is not in the EPA.
    Ms. Jackson. No. Physically, her office is in the 
Eisenhower Executive Office Building.
    Mr. LaTourette. Perfect.
    Mr. Chairman, I just want to ask you one on the last 
administration. Do you have an anticipated statute of 
limitations? I noticed, you know, you got about 50 years out of 
Herbert Hoover, and I am just wondering how long we are going 
to go with the previous administration, because, quite 
frankly----
    Mr. Dicks. Just as long as it resonates.
    Mr. LaTourette. I would say, I was interested in Mr. 
Olver's discussion of the revolving loan fund. And we all 
remember enacting the 1972 Clean Water amendments, but one of 
the big problems that cities, at least in my part of the 
country, have is that, while previous administrations that were 
not Republicans were delighting in passing new rules and 
regulations, there was no more money to keep up with the SSOs 
and CSOs and so forth and so on.
    So, just a rhetorical question.
    Mr. Dicks. I think this is one where there is bipartisan 
blame.
    Mr. LaTourette. Excellent. I just wanted to get that out 
there.
    Mr. Dicks. And truly, we need a bipartisan solution.
    Mr. LaTourette. Right.
    Mr. Dicks. Which I hope we can reach and work together on.

                         GREAT LAKES INITIATIVE

    Mr. LaTourette. Mr. Chairman, I am all with you.
    Madam Administrator, I know that Chairman Obey asked some 
questions about the Great Lakes Initiative, and if I repeat 
those, just put your hand up and tell me to stop asking 
questions.
    But we had the Secretary here last week. And the figure in 
the President's budget is $475 million. And I did not bring my 
notes from the Secretary's hearing, but there were apparently 
some decisions made by the EPA, as the lead agency in that task 
force or interagency group. And I think it was $10.5 million 
for the National Park Service; there was money for Fish and 
Wildlife. And the chairman chimed in and indicated that there 
was money for the Corps.
    And I am just wondering, is all the $475 million accounted 
for, I mean, in terms of, have you figured out where it is all 
going to go?
    Ms. Jackson. EPA staff have worked hard with the other 
agencies to come up with a funding schedule that was based on 
an agreement that there would be no pre-established allocation, 
that we would use criteria to get strategic and measurable 
environmental outcome.
    Mr. LaTourette. Okay. Who at your agency are you going to 
task with being the lead decisionmaker in terms of--I think 
Chairman Obey asked you questions about, will you make sure 
that they are based upon science. I am sure you will. Who is 
going to figure out what gets done and what doesn't get done?
    Ms. Jackson. Well, at the end of the day, I will remain 
personally involved in it. The head of the water program--right 
now that is Mike Shapiro, the Acting Assistant Administrator. 
Pete Silva has been nominated by the President but has not yet 
been confirmed. We are considering in-house the idea of adding 
someone to advise me specifically on the Great Lakes, given the 
importance of this initiative.
    Mr. LaTourette. Okay. Well, I said when the Secretary was 
here, I really appreciate the President putting this in the 
budget, because we have sort of limped along with the Great 
Lakes Legacy Act at $50 million a year. And you know that of 
the remaining areas of concern in the Great Lakes, the costs 
are astronomical, in terms of cleaning those up. And $475 
million is a lot of money, but it is not enough to get the job 
done.
    And I hope that the administration continues to value the 
Great Lakes, as the Congress valued the Everglades a number of 
years ago, with real money, to get the real problem taken care 
of.
    My concern was, as I look at the spreadsheet--and it looks 
like 49 percent of that money is going to be kept within the 
EPA. What are you going to do with that money?
    Ms. Jackson. EPA's programs will include cleaning up legacy 
pollutants. It will also include potential grants for some 
amount of accountability, monitoring communications with 
stakeholders and partnerships there. EPA is investing in 
invasive species work, in near-shore health protection, and 
habitat and wildlife restoration.
    This sounds a little general, and part of the reason for 
that is that these are initial allocations based on discussions 
amongst all the agencies about where the money would be best 
spent, but there are not specific projects yet selected.
    Mr. LaTourette. Right. No, I know that. I guess I would 
just voice my concern that, I mean, EPA does wonderful work, 
but when you are actually talking about--the new expression is 
``shovel-ready,'' the Corps has a great responsibility in 
actually helping in the cleanups and re-establishment of 
habitats and so forth and so on. And they are only down, if I 
am reading this chart right, for a little under 10 percent, 
while the EPA is keeping the lion's share of 49 percent.
    Are you indicating that, as you move forward and these 
additional people get into place, that the EPA is going to get 
off some of that 49 percent and perhaps give it to the Corps or 
give it to Fish and Wildlife or give it to whoever is actually 
boots on the ground, doing the work?
    Ms. Jackson. Well, these allocations are preliminary based 
on projects and ideas that people brought forward to a group. 
Again, my instructions to my staff were that there was nothing 
preset, there was no general rule that EPA had to keep the 
majority. In fact, EPA is keeping just under 50 percent, so we 
don't have the majority. All agencies were asked to bring to 
the table their best ideas for projects that would make a 
measurable difference in those waters. We didn't have a 
favorite agency or a favorite project.

          SPILL PREVENTION, CONTROL AND COUNTERMEASURE PROGRAM

    Mr. LaTourette. I got you.
    Last question, the Spill Prevention, Control and 
Countermeasure Program, we have heard for a while from DOD that 
they haven't gotten around to enforcing it because they didn't 
have the funding.
    Can you just make a brief comment about how the EPA and DOD 
are working together to make sure that the compliance is going 
to be complete by this summer's target date?
    Ms. Jackson. The SPCC rules, I know, EPA has delayed the 
effective date on until January of 2010. That is because there 
was a new rulemaking right in December of 2008, and EPA has 
been reviewing it to determine whether or not it is protective 
enough.
    I don't have any specific information on DOD compliance, 
but I would imagine DOD right now would be like the rest of the 
regulated community, who are eagerly awaiting EPA's rulemaking 
in that regard.
    Mr. LaTourette. And so, am I incorrect that the compliance 
date was extended to this July? Are you saying we are going 
into the next year?
    Ms. Jackson. That is on the rulemaking. I think you may be 
talking about a specific project. So why don't you and I make 
sure we coordinate on that, and I will get you an answer to 
that.
    [The information follows:]

                       SPCC Rule Compliance Dates

    EPA finalized oil spill prevention rule amendments in July 2002 and 
established compliance dates to allow time for SPCC-regulated 
facilities to comply with the revised rule. The rule was amended again 
in December 2006 and December 2008 to tailor and streamline 
requirements for a variety of facilities and industry sectors. 
Accordingly, EPA extended the compliance dates to July 1, 2009 to allow 
facility owner/operators time to understand these amendments. However, 
the Agency is currently evaluating whether certain changes to the 
December 2008 final rule should be made.
    The effective date of the SPCC amendments promulgated December 5, 
2008, has been delayed to January 14, 2010. The Agency is also working 
on a final rule to extend the July 1, 2009, compliance date to provide 
facilities sufficient time to determine their compliance obligations 
under any rule amendments that become effective in 2010. The final rule 
for the new compliance dates is under review and is expected to be 
published in the Federal Register prior to the current July 1, 2009, 
compliance date.
    SPCC compliance is the same for DOD installations as for other 
SPCC-regulated facilities dating back to the initial promulgation of 
the rule in 1973. DOD installations should continue to maintain their 
SPCC Plans and revise them in accordance with the revised compliance 
dates. Due to ongoing regulatory changes and the need for guidance, 
outreach to stakeholders will continue to be a priority.

    Mr. LaTourette. I would like that very much.
    Thank you, Mr. Chairman.

                         AIR QUALITY MONITORING

    Mr. Dicks. In March, you announced an initiative to monitor 
air quality and measure levels of toxic pollutants around our 
Nation's schools. Your 2010 request includes $3.3 million, five 
FTs, for this effort.
    I understand that you will begin the effort this year and 
that you have already selected 62 schools. Has the monitoring 
begun at any of these schools, and if so, can you discuss the 
results?
    Ms. Jackson. Mr. Chairman, the monitoring has begun at only 
two of those schools. The delay is in selection and purchasing 
and procurement of equipment. We expect a big slug of that to 
happen actually in the next 2 weeks, 2 to 3 weeks. There are no 
results yet to report.
    I did commit last week, and I do again today, that, as 
results come in, we will not hold up individual school results. 
If there is information that would be of concern to parents or 
teachers, we would get that out as we could. At some point, 
when we get results en masse, we can analyze what we are 
learning about the country as a whole in our schools.

                        CHILDREN'S HEALTH ISSUES

    Mr. Dicks. Last month, this subcommittee held a series of 
hearings for public witnesses. One of the witnesses represented 
a group concerned with protecting our children from 
environmental toxins.
    I understand that the Clinton administration issued an 
order requiring EPA to specifically consider children when it 
issues regulations, sets guidelines, and produces assessments 
and research.
    Is this order still in effect, and how are you planning to 
implement it?
    Ms. Jackson. To my knowledge, that order is still in 
effect, Mr. Chair.
    I have personally said that revitalizing and raising the 
stature of children's health issues within the Agency is 
important to our credibility with Americans. I have since 
appointed Peter Grevatt to head the Office of Children's Health 
at EPA. Peter has been charged with bringing back to me a plan 
for elevating the stature and a request for whatever resources 
he might need.
    The Children's Health Program at EPA works, first, in 
concert with all the other programs. To be effective, it really 
needs to work inside well as an advocate and outside with 
places like the Centers for Disease Control and NIEHS. Those 
partnerships will be very important for our success, as well.

     CHILDREN'S ENVIRONMENTAL HEALTH RESEARCH CENTERS OF EXCELLENCE

    Mr. Dicks. In the past, EPA has funded Children's 
Environmental Health Research Centers of Excellence. What is 
the status of this program? And can you describe the research 
results achieved by these centers in the last 10 years?
    Ms. Jackson. I believe they are considered an unqualified 
success, not only here but internationally as well. When I was 
recently in Italy, members of the G8 pointed to those centers 
as models that they were using in their own countries. So, 
obviously, they are probably doing good not only in this 
country, but abroad.
    I don't have the figure directly in front of me for funding 
them, but it is our intention that they will remain an integral 
part of our work.
    Mr. Dicks. And why don't you put that in the record?
    [The information follows:]

            Children's Environmental Health Research Centers

    The Centers for Children's Environmental Health and Disease 
Prevention Research were created to better understand the effects of 
exposures to environmental contaminants on children's health. EPA and 
the National Institute of Environmental Health Sciences (NIEHS) jointly 
have been funding these centers of excellence since 1998. The next 
round of competitions include proposals responding to two new Requests 
for Applications, which closed on April 30, 2009. Attached is a 
document describing the accomplishments of the Centers.

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       NATIONAL CHILDREN'S STUDY

    Mr. Dicks. In the past, EPA also participated in National 
Children's Studies, which try to assess the link between 
exposure to toxins and health effects on children. Does EPA 
still participate in this long-term study?
    Ms. Jackson. We are a lead partner in the National 
Children's Study. That is a major NIH effort. We have provided 
funding and partnership and helped them recruit participants 
this year.
    Mr. Dicks. Mr. Simpson.

                              ENFORCEMENT

    Mr. Simpson. Thank you, Mr. Chairman.
    And just a quick follow-up on a few questions that were 
asked earlier.
    We talked about enforcement earlier and being a former 
enforcement officer. In a March 2009 report, the GAO stated 
that, ``Enforcement activities primarily occur in EPA's 10 
regions which possess considerable autonomy, causing 
significant variations in enforcement activities from region to 
region.''
    As you and I talked in my office, not only enforcement 
procedures, but also interpretation of regulations and so forth 
and how those are applied. Companies talk to me and say--
companies that have facilities in various States across the 
country, in different regions--say that one regulation is 
interpreted one way in one region and another way in another 
region, and what they really want is some consistency.
    Do you agree with the GAO report? Is that a concern of 
yours? And are you going to address that?
    Ms. Jackson. Certainly it is a concern, Mr. Simpson. You 
and I talked about the fact that it is the Agency's job as a 
whole to make sure the EPA means the same thing across the 
country. That is with respect to enforcement, certainly. It 
means leveling the playing field, and you can't do that if it 
is not a common level.
    The previous administration had something called the State 
Review Framework. I think that was a good start at looking at 
States, making them accountable back to EPA to make sure that 
their enforcement programs are consistent with the national 
standard that we set. We need to beef that up. We need to 
continue to make sure that we are being honest brokers in 
evaluating States.

                            SUPERFUND TAXES

    Mr. Simpson. One other question, to follow up on Mr. Cole's 
question on the Superfund taxes. In March 2009, the EPA's 
acting inspector general was prepared to testify before this 
committee about the high available balances in so-called 
Superfund site-specific special accounts. According to this 
draft testimony, the acting inspector general found that one 
California Superfund site had a special account balance of 
$117.8 million, including interest. He goes on to say that, 
``Superfund special account funds often exceed anticipated 
future site needs and sit idle.''
    Given the high leftover balances in these site-specific 
accounts, are you having trouble spending those funds? Because 
if you are, we are really good at it. And if there is anything 
we can do to help, would you let us know?
    Ms. Jackson. Absolutely.
    Through the end of fiscal year 2008, special accounts had a 
nonobligated balance of $1.3 billion. That may sound high, but, 
as you know, the cost of Superfund cleanups is certainly not 
going down. The complexity of the cleanups is such that that 
money almost always tends to be needed.
    I would be very hesitant to say anything bad about special 
accounts. What they are evidence to me of is an enforcement 
program that is working, of the polluter-pays principle that, 
at some point, EPA settled with or recovered money and put it 
in an account to be used, as the Superfund was intended, from 
those polluters to use to clean up that particular site.
    Mr. Simpson. Why are they not being used to clean it up 
then.
    Ms. Jackson. Well, it depends where the site is in the 
cleanup process. They may be awaiting a record of decision in 
order to decide on a cleanup remedy. There could be contracting 
outstanding. Sometimes there is litigation.
    So the money is there and waiting and, it is my opinion, 
preferable to have it there and waiting rather than to have to 
use appropriated taxpayer money, because that money came from 
recoveries associated with that specific site.

                         CAP-AND-TRADE PROGRAM

    Mr. Simpson. Final question, Mr. Chairman.
    Your 2010 budget includes $19 million in anticipation of 
implementing a not yet authorized cap-and-trade program. Two 
weeks ago I would have said, I do not know that we are going to 
get a cap-and-trade bill passed; but it seems like we are 
creating enough exemptions, whether they are region-specific or 
industry-specific, that more and more people are buying in to 
it.
    I guess that is how you do that, by not looking at what you 
are trying to do, but looking at the exemptions that you are 
going to create.
    One of the concerns I have is, first of all, what are you 
going to do with this $19 million if cap-and-trade does not 
pass? And secondly, as you and I and many others have talked 
about, in that same GAO report in March of 2009 when it talked 
about some of the challenges facing EPA, it said addressing 
emerging climate change issues.
    In the GAO's view, the Federal Government's approach to 
climate change has been ad hoc, and is not well-coordinated 
across government agencies. For example, the Federal Government 
lacks a comprehensive approach for targeting Federal research 
dollars toward the development and deployment of low-carbon 
technologies.
    This is what really concerns me. I fully believe we need to 
do what we can in terms of climate change and trying to address 
climate change and carbon emissions and so forth. But it seems 
like every budget that comes up here has something to do with 
climate change, and I do not know how well it is coordinated. 
And GAO kind of confirmed that for me.
    How are you working with the other agencies? National Park 
Service has $10 million for climate change. Almost every agency 
has climate change money in their budgets. You know, several 
years ago you had to have something related to homeland 
security, and then you were going to get funded. Now it is, you 
have to have something related to climate change and it is 
going to get funded. In fact, I think OMB probably has a 
requirement that in every paragraph when somebody testifies 
``green'' has to be mentioned a certain number of times. That 
is how you get funding.
    What are we doing to coordinate the hundreds of millions of 
dollars we are spending on climate change?
    Ms. Jackson. Fair enough, sir. You will never hear me 
complain about ``green'' in every sentence or every paragraph. 
That is actually my job. So that is a good thing from my 
perspective.
    Just to answer the smaller question first, there is 
actually $19 million for climate-related work, for the 
greenhouse gas reporting rule, for Energy Star, a very 
successful EPA program American people have embraced. $5 
million of it is for cap-and-trade; and that 5 million is for 
the offsets program, the idea that oftentimes one of the things 
that you can do to control costs is offset emissions of carbon 
from one source with another.
    Landfill gas methane comes up; in your part of the country, 
forestation efforts--afforestation, adding forests, preserving 
forests, expanding forests, all very good stuff. So EPA will 
continue to do that work.
    In general, EPA's work is more what I would call applied 
research. It is modeling; it is information that drives or 
guides our rulemaking. There is some amount of work on climate 
and energy that might be considered more research and 
development. The vast majority of that, both in the Recovery 
Act and in the President's budget, is found and coordinated 
through the Department of Energy. Unprecedented amounts of 
money to move us forward, to actually put us not only in the 
race, but hopefully towards the front of the pack in this clean 
energy technology that the President has called for.
    Mr. Simpson. I appreciate that. And it is just--as an 
example, the arts were up here one day explaining to us what a 
``green job'' in the arts was. And everybody that testifies 
talks about green jobs. And we tried to get them to explain to 
us what a green job is in the arts; and I still don't know what 
it is other than, you mix blue and yellow together.
    Ms. Jackson. You are not asking me to explain that?
    Mr. Simpson. No, I am not. Thank you for being here today.
    Mr. Dicks. You might have a theater that was built to LEED 
standards. That would be green jobs. Quite simple.
    Ms. Jackson. LEED standards.
    Mr. Dicks. Mr. Hinchey.

                          GREENHOUSE GAS RULE

    Mr. Hinchey. Thank you very much, Mr. Chairman.
    I just want to follow up on what was just said on the issue 
of climate change, and once again just congratulate you on it, 
everything that you are doing. I think the major steps that are 
moving on this issue now, to deal with the issue of global 
warming, is exemplary.
    The information today that you are adopting, what appears 
to be the policy in California to upgrade the issue to deal 
with emissions from vehicles, all of that is very, very 
important.
    The central feature of the issue here is cap-and-trade. And 
that is the central feature of the bill that is working its way 
through Congress here. And this bill seems to be developed in a 
very effective way, and seems to be going to make a major 
positive difference, contributing to all the major positive 
differences that you are making.
    You are requesting $17 million in your budget for a 
greenhouse gas registry to support the cap-and-trade regime. 
And I am just wondering if that is enough, if you think that is 
adequate, and if there is any more funding that could be put 
into place that would be more helpful.
    Mr. Dicks. If the gentleman would yield just for a moment.
    Mr. Hinchey. Yeah.
    Mr. Dicks. This was an initiative of our subcommittee. We 
put the original money in for this, I think, last year. So we 
are pleased to see this increase.
    Mr. Hinchey. Good. Very good.
    Ms. Jackson. Yes, the greenhouse gas reporting rule is out 
in draft. EPA staff did a great job of first responding to 
Congress' call to start to have reporting of greenhouse gases. 
Those rules had not been put out until the Obama 
administration. We are certainly proud that they are out for 
public comment and that we tried to do something that some 
people think eludes us, which is, use some common sense and 
deal with the largest sources and minimize the burden on small 
business.
    The rule requires reporting by larger entities: those that 
emit over 25,000 metric tons per year of CO2 or CO2 
equivalents. We looked at the trade-off. We do not get 100 
percent coverage of every single emission, but we get between 
80 and 90 percent, how about that?
    We got the maximum amount of reporting, and we did not have 
to touch small sources.
    So, yes, I do believe that we have the resources we need to 
do it. Yes, we stand ready to do it. And we do believe it is 
going to be very important. Thanks to this committee for 
supporting it, because you cannot regulate what you do not 
measure. You cannot control what you do not have. And so it is 
a very important piece of the puzzle.

                             CAP-AND-TRADE

    Mr. Hinchey. Thanks very much for that.
    I think that there is another aspect of this issue that is 
somewhat controversial and always debated on. There are a lot 
of people who believe that carbon tax would be much more 
effective than cap-and-trade. So the cap-and-trade issue is 
moving forward, and I pretty much understand why that is moving 
forward.
    I wonder if you have any comments to make or any insight 
that you might provide as to, you know, why we are focusing so 
heavily on cap-and-trade rather than a carbon tax, which might 
be simpler and more effective.
    Ms. Jackson. Certainly.
    There are several things that argue for a cap-and-trade 
regime. I support it, as the President does; he called for it 
certainly during his campaign.
    First, there is the cap part of cap-and-trade. Cap actually 
means that there are targets and timelines that address the 
pollution that we are worried about, in this case, CO2 and its 
equivalents. We certainly have a proven track record with 
respect to the acid rain program in the northeastern United 
States, a smaller program that only deals with utilities. Many 
of us harken back to the fact that it was actually EPA, it was 
the United States that came up with the whole concept of cap-
and-trade, piloted and used it in the acid rain program.
    It allows for a transition period. It allows for a market 
to be developed that prices carbon. That is what those who make 
their life's work understanding the economy, economists and 
people like them, say is necessary to really spur private 
investment.
    True, through the Recovery Act and the budget we are 
putting public investment in clean energy and renewables. What 
we really need is for the private sector to know that we are in 
this game, we are in this race, we are going to--there is 
profit, money to be made in green and clean energy. I do not 
want to use ``green,'' because I am going to get in trouble. 
How about ``clean''? ``Clean'' is good. So that is why we are 
there.
    Mr. Hinchey. No doubt about it. And it is going to move us 
in the right direction. I think that is very clear, and I 
appreciate everything you are doing. And I think this bill is 
moving forward very effectively.
    There are other issues, there are a couple of other----
    Mr. Dicks. I want to finish everybody, make sure everybody 
gets a chance. And I want to get the administrator out of here 
by 11:30 because she has to be at the White House.
    Mr. Hinchey. Give me 30 seconds.
    Mr. Dicks. Go ahead.

                             AIR POLLUTANTS

    Mr. Hinchey. Black carbon and hydrofluorocarbons, HFCs, are 
also issues that we really need to deal with.
    Ms. Jackson. Yes.
    Mr. Hinchey. Can you tell us what is going on with them, 
what kind of initiatives may be taken, or what suggestions you 
would make for us to move on those issues?
    Ms. Jackson. The hydrofluorocarbons are being discussed 
first in the context--I think it is still in the legislation. 
There is a good model out there that I know we are evaluating 
as an administration, which is the Montreal Protocol, which was 
used to phase out CFCs, extremely efficient and effective 
mechanism for doing that. It is going to require an 
international effort, just like the CFC issue. That is one 
model certainly being discussed.
    Black carbon is an air pollution problem, certainly. Black 
carbon soot is a greenhouse gas, but it is also a horrible air 
pollutant in developing countries, where it is an indoor air 
pollutant, and probably has much more immediate impacts than 
its global warming potential, which is also significant.
    I think you can address it in either way. The current bill 
does not address black carbon or soot, but I don't think that 
means we could not partner with many developing countries to 
address it on a separate track.
    Mr. Hinchey. Thanks very much.
    Ms. Jackson. Thank you.
    Mr. Dicks. Thank you.
    Mr. Cole.

                 LEAKING UNDERGROUND STORAGE TANK FUND

    Mr. Cole. Thank you very much, Mr. Chairman.
    I had not meant to go this way, but I just want to make a 
quick statement for the record, because I am a tremendous 
skeptic of cap-and-trade, and that is putting the carbon issue 
aside.
    There is a terrific article by David Sokol today in this 
morning's Washington Post. And he is chairman of MidAmerican 
Energy Holding Company. That is a Berkshire Hathaway 
subsidiary. Last time I looked, the principal associated with 
that firm was a very strong supporter of the President. And 
very skeptical about what is going to happen when we get into 
the marketing and what is going to happen when hedge funds are 
buying these things and banks are buying these things, and 
investment--people that actually have no relationship at all 
with the energy end of it.
    I mean, my instinct would tell me, we are going down cap-
and-trade because those of us that believe in taxing carbon, 
frankly, either do not think we can get the votes or do not 
want to have the vote; and that is why we are going to use cap-
and-trade, in my opinion.
    It is going to be a big disaster. A lot of people are going 
to get very rich, and markets are going to get manipulated. 
There are serious problems in the mechanism by which we have 
chosen to go about confronting the issue of carbon.
    So I would actually argue, my friends who have the concern 
on carbon, it is a legitimate concern; but look at a carbon tax 
as opposed to this. But, again, my opinion.
    But I did not want us to stray down that line. I actually 
had another thing I wanted to ask you about that is in your 
testimony, and that is it seems almost risque to use the term 
``LUST fund,'' but I will since it is the Leaking Underground 
Storage Tank program.
    If I am correct, we put $200 million in that fund in the 
stimulus. Is that accurate?
    Ms. Jackson. Yes, that is right.
    Mr. Cole. And I also think that we added $112 million in 
the fiscal year 2009 omnibus as well.
    So I guess I had two questions: One, what is roughly the 
current balance--because it is a good program; I have no 
particular problem--and two, given those levels of 
expenditures, do we really need another $15.4 million for 
fiscal year 2010? I mean, we have made a pretty big hit here as 
it is.
    Ms. Jackson. As of September 30, 2008, the fund balance was 
$3.2 billion. From fiscal year 2003 to 2008, annual new 
receipts averaged slightly over $200 million.
    Mr. Cole. So that would not include the stimulus money or--
--
    Ms. Jackson. That is right, that was prior to the Recovery 
Act.
    Mr. Cole [continuing]. Or the money from the omnibus?
    Ms. Jackson. States fund the majority of leaking 
underground storage tank cleanup activities from their own 
resources. So although that is a huge amount of money, and 
certainly prior to EPAct, you know, EPA did not have anywhere 
near those resources. I think that leaking underground storage 
tanks are a pollution--are a real threat to water quality in 
this country.
    I was looking quickly over here to see if there was any 
estimate of the total need, but I know it is much greater even 
than the unexpended balance. So as a manager, I look at that 
money and ask myself, why it is still sitting there, but I do 
not have an answer for you.
    Mr. Cole. I would appreciate if you could get back to us on 
that particular point, because a 37 percent increase is a good 
increase. And I particularly appreciate, frankly, the focus 
that you have on water and water infrastructure. I think it is 
absolutely the right place to go with the additional money that 
you have asked for, and do not disagree with the program.
    I actually helped put a program like that together in my 
home State of Oklahoma, but I am just wondering, given the 
budget constraints we have, whether or not we really need that 
$15 million this year, and whether or not that is really just a 
placeholder more or less for a program.
    So I would just ask you to look at that and see if that is 
a place that, appropriately, savings could be made.
    Ms. Jackson. I will certainly look at it. That fund 
requires appropriations, so I will definitely look at the 
appropriation versus the requested amounts.
    Mr. Cole. I appreciate that.
    Thank you, Mr. Chairman.
    [The information follows:]

                       LUST Program Appropriation

    EPA is not requesting an additional $15 million for the LUST 
program in FY 2010. The total program resources requested for the LUST/
UST program in FY 2010 include approximately $109.5 million from the 
LUST Trust fund, $2.5 million from the STAG appropriation and $12.4 
million from the Environmental Programs and Management (EPM) 
appropriation, which is a total of approximately $124.4 million. This 
represents only a slight increase to the FY 2009 Enacted level of 
$123.5 million in total resources appropriated for the program. Within 
the LUST Trust fund itself, EPA is requesting approximately $109.5 
million for the LUST/UST program, which maintains and slightly 
increases the FY 2009 Enacted level by about $400,000.

    Mr. Dicks. Mr. Olver.

                         STATE REVOLVING FUNDS

    Mr. Olver. Thank you, Mr. Chairman. Fifteen seconds on my 
previous comments.
    I fully realize that the increase in the revolving funds, 
the true revolving funds are more than 100 times what the 
reductions are in those directed--that have been directed to 
the very rural communities, but I do not know how those rural 
communities really are going to get much of a hearing in this 
process. It is very difficult for them to do so. So I wish you 
would make special attention to that.
    Ms. Jackson. I will.
    Mr. Olver. In your Brownfields program, you have a 175 
million, 3 percent increase basically, from previously. And a 
very large portion of that is in the Brownfields State and 
tribal assistance grants. From your testimony--I am now reading 
from your testimony for Brownfields assessment--revolving loan 
fund, cleanup, and job training grants--what does the revolving 
loan fund in that instance do?
    Ms. Jackson. As I recall, that is the idea that it can be 
used as seed money for States and tribes to lend out money to 
developers or communities, that can then be paid back as the 
development becomes profitable.
    Mr. Olver. Okay. And how much of it is being used for the 
revolving loan fund?
    Ms. Jackson. I am trying to see if I have that figure, sir. 
If I do not, I will get it to you.
    [The information follows:]

                     Brownfields Program Assessment

    The Agency will award approximately $13 million to seven Revolving 
Loan Fund (RLF) cooperative agreements of up to $1 Million each per 
eligible entity and provide supplemental funding to existing RLF 
recipients. The RLF program enables eligible entities to develop 
cleanup strategies, make loans and subgrants to clean up properties, 
and encourage communities to leverage other funds into their RLF pools 
and cleanup cooperative agreements as authorized under CERCLA 104(k)(3) 
and (4).

    Mr. Olver. Well, you can get it to me.
    And then later you say that the program designed to help 
and so forth to assess, to safely clean up and reuse the 
Brownfields. Well, the reason I ask that question is, in the 
budget in HUD we have had removed the one program, about $15 
million or so, that was specifically used for reuse. Now, 
apparently we have had this discussion back and forth over--
there are lots of Brownfields that could be reused. Your 
revolving loan fund, the question of how much of that ends up 
being something that can be used in a revolving way has been 
the argument, I guess, as to why our reuse fund has been--which 
was a grant fund--has been removed from consideration.
    So I would like to have some discussion--maybe with the 
person who is in charge of this area, if you would identify him 
or have him identify himself to me as being involved in that 
Brownfields fund--to understand what the overlapping is 
finally, because we have had that argument before.
    And the last thing I would like to ask, on your research 
and development, your development fund is up by 7 percent. And 
I am kind of curious, I see computational toxicology. Well, I 
am old enough to think that computers can be toxic. I do not 
know whether that has anything to do with computational 
toxicology.
    But in any case, in that whole section you also get into 
biofuels. And I am wondering, do you have research programs, 
research grants, a competitive research grant program somewhere 
that gives out some money to do remediation of toxic sites; 
whether they come from the production of biofuels, since you 
have a biofuels section there which refers to biofuels research 
and sustainability, analysis and such, that could deal with 
remediation of such sites by bioagents, essentially by 
biological means, which could go, not in the major nuclear 
waste sites, for instance--probably could not go, but in small 
spills and such could be--could be used in some PCB cases.
    You know, the cost is huge to do the Hudson River, as my 
colleague on my left talked about earlier, to do it by dredging 
and treatment and so forth. For simple cases, there are 
biological agents that can deal with PCBs, and all these other 
things that include PCEs and so on, as he put it. All those can 
be done, including probably some impact in places where there 
are coal ash situations.
    We had a coal ash spill in Tennessee that I do not think 
can be handled in any reasonable period of time in a biological 
way.
    Mr. Dicks. Why do we not let her answer this?
    Mr. Olver. Okay. Is there such a research program?
    Ms. Jackson. Yes.
    Mr. Olver. And if not, why not?
    Ms. Jackson. Yes. The Superfund Hazardous Waste Cleanup 
program has a technology innovation staff whose entire focus is 
to try to move forward how we clean up sites.
    A couple things I have to say, calling back on my old--many 
years in the Superfund program as a cleanup manager, and some 
of them on PCB-contaminated sites. There are certain types of 
sites that do not lend themselves to bioremediation, which is 
what you are referring to. They tend to be sites that have 
large concentrations of heavy metals. Metals are toxic to 
bacteria for the most part.
    Mr. Olver. Some of them love them.
    Ms. Jackson. That is true.
    I should not speak in generalizations, because there is 
always an exception, but oftentimes bioremediation is not the 
first thing you think about if there are heavy metals. It 
depends on the metal. PCBs, I know, just because I worked in 
Region 2 where the Hudson River site is, there were, for many 
years, allegations that you could use in situ bioremediation to 
clean that up.
    I think the region has done a tremendous job of looking at 
bioremediation and deciding that is not a feasible way of 
cleaning up that particular site.
    PCEs are different, obviously, and may lend themselves 
easier to a bioremediation effort. We are happy to get you some 
additional information on specifics.
    [The information follows:]

                     Superfund Remediation Research

    What research is being conducted to support the remediation of 
Superfund sites?
    EPA's Land Research Program (LRP) provides high quality science to 
the Superfund program and Regions to enable them to accelerate 
scientifically-defensible and cost-effective decisions for cleanup of 
complex contaminated sites. Technical support centers provide site 
specific support to the Superfund program. The research program focuses 
on important issues such as remediation of contaminated sediments, 
ground water contaminant transport and remediation, and site 
characterization. Research to accomplish these goals includes 
integrating exposure models, ecological effects and remediation 
research; monitoring the effectiveness of remediation; and evaluating 
new technologies and methods for the cleanup of sites. This research is 
vital for determining best management practices related to Superfund 
sites.
    EPA recently:
    <bullet> Evaluated the amount of sediment contaminants in post-
dredging residuals in the Ashtabula River. This data, coupled with PCB 
bioavailability studies, will improve Superfund site risk assessments.
    <bullet> Released the PCB residue-effects data base (PCBRES) and 
BSAF (sediment accumulation factors) data set software.
    Is bioremediation being used in the cleanup of PCBs and PCEs?
    The LRP has investigated and continues to conduct research on 
bioremediation for cleanup of soils, sediments, and ground water. 
Bioremediation can be very useful for contaminated industrial sites, 
fuel plumes from leaking underground storage tanks, and oil spills. It 
has been applied at many of these types of sites because benzene and 
other components in gasoline are relatively easy to biodegrade. 
However, chlorinated solvents, like TCE and PCE, and some organic 
contaminants, including PCBs and some polynuclear aromatic 
hydrocarbons, are quite resistant to microbial attack. In those cases, 
biodegradation may be too slow or residual levels of contamination may 
continue to pose an unacceptable risk. Research continues on ways to 
enhance biodegradation or combine it with other technologies to 
remediate contaminated media.

    Mr. Olver. Does this fall in the same area as the 
Brownfields cleanups? Some of those could be done--some of 
those are relatively small sites, Brownfields. Not when you get 
to Superfund sites, which may be the cleanup of a whole harbor 
or some other thing like that.
    Ms. Jackson. Very good point. You are absolutely right, 
that it does not have to be these huge scales.
    I do believe one of the places we see bioremediation used a 
lot is in underground petroleum spills, where there is a proven 
history that bioremediation can work--biosparging, different 
technologies.
    Mr. Olver. Do you have a research program in these areas?
    Ms. Jackson. Yes, we do.
    Mr. Olver. You put out grants in that area?
    Mr. Dicks. All right. I appreciate the chairman's very good 
questions.
    I want to wrap this up, and I wanted to say one thing. You 
know, Mr. Obey brought up the question of the Great Lakes. And 
I am a supporter of this program. I asked your Gary Gulezian to 
come in, and he did a very good job of explaining what the 
program is and a lot of the work that has been done on this.
    But I still have concerns. And my basic concern is that I 
believe that in order to make this thing a success--you and I 
talked about this--we have to have a credible science plan. And 
it cannot just be the agencies doing the science plan. It has 
to be an outside group, an independent group of scientists that 
look at this.
    Now, I understand every 2 years they come in and review 
what is going on, but I am not talking about that. And that is 
very helpful and I think everybody could learn from that.
    What I want to see done is that we have an independent 
group of scientists who look at a plan. And I understand that 
in 2011 you are going to develop a new plan; and I think we 
ought to do it in the context of the new plan, have a 
scientific group that reviews it and says, if they in fact do 
these things, that we will clean up the Great Lakes.
    Now, whether you have a plan for each one of the five 
lakes, that might be an idea, because they are each different 
and each has different problems. And it is such a huge area. 
You know, I am leaving that up to you. But I still am not 
convinced that we have in place a scientifically credible plan.
    And also I think we need to be looking at these projects. 
What we do on our salmon recovery work in the Pacific Northwest 
is we have an independent scientific review group. Every single 
one of the projects that are approved for funding is reviewed 
by the science group; and the science group says, Yes, this is 
credible. They turn some of them down. So it is not just a 
rubber stamp.
    So I just want to continue to have this dialogue. We have a 
few weeks here. You have got a lot of language you want in the 
bill, and we will have a discussion about that. But again, and 
as I said, we are going to support the funding, but we want to 
make sure that we get this thing set up right. We have a long 
history back to the 1970s, and there has been progress, but not 
enough progress to really restore the Great Lakes or the 
Chesapeake or Puget Sound or any of the rest of these great 
water bodies.
    I think we have to keep working on trying to figure out the 
approach to the problem so that we get it right.
    Ms. Jackson. I appreciate that.
    Mr. Dicks. And with that, we are going to adjourn and let 
you get down to the White House for your announcement.
    Ms. Jackson. Thank you very much.

         <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           W I T N E S S E S

                              ----------                              
                                                                   Page
Dombeck, Mike....................................................     1
Fong, P. K.......................................................    97
Groban, Josh.....................................................   207
Holtrop, Joel....................................................   259
Jackson, L. P....................................................   357
Ketter, Ronald...................................................   259
Kimbell, A. R....................................................   259
Lynch, R. L......................................................   207
Macswords, Leah..................................................     1
Marsalis, Wynton.................................................   207
McIntosh, Hon. Louise............................................   199
Meadows, Bill....................................................     1
Nazzaro, Robin................................................... 1, 97
Nowak, Jeremy....................................................   207
Plats, Hon. T. R.................................................   204
Radin, Beryl.....................................................     1
Ronstadt, Linda..................................................   207


                               I N D E X

                              ----------                              

                    Possible Move of Forest Service

                                                                   Page
A Case for Consolidation.........................................    78
Addressing Statutory Differences.................................    34
Agency Cultures..................................................    30
Agency Missions and Coordination.................................    29
Chairman Dicks Opening Statement.................................     1
Committee Jurisdiction...........................................    36
Concluding Remarks...............................................    79
Cooperative Efforts on Climate Change............................    64
Coordination Without Reorganization..............................    68
Discrepancy in Roads Funding.....................................    73
Failure of Past Reorganization Proposals.........................    32
Feasibility of Reorganization....................................    26
Focusing on Outcomes.............................................    70
Focusing on Sustainability.......................................    67
Funds for Fire Suppression.......................................    76
GAO Statement, Robin Nazzaro.....................................     4
Geographic Location of Forest Lands..............................    26
History of Organization Structure................................    25
Impacts to State and Private Forestry............................    63
Impediments to Reorganization....................................    24
Increased Coordination...........................................    28
Moving Towards the Ideal Situation...............................    65
Mr. Simpson Statement............................................     3
Opportunities for Coordination...................................    66
Past Reorganization Proposals....................................    24
Reorganization Mishaps...........................................    75
Second Panel.....................................................    37
Service First and Coordination...................................    33
Services and Infrastructure......................................    72
Testimony of Dr. Beryl Radin.....................................    57
Testimony of Dr. Mike Dombeck....................................    37
Testimony of Mr. Bill Meadows....................................    51
Testimony of Ms. Leah MacSwords..................................    45

                        Forest Service Oversight

Accounting.......................................................   124
Aerial Resources: Extending Service Life.........................   159
Albuquerque Service Center.......................................   157
Balancing Fuels Treatment and Suppression........................   141
Business Management in The USFS..................................   146
Community Fire Protection........................................   156
Concern Over Accounting Practices................................   150
Cost Sharing on Wildfire.........................................   155
Cross Boundary Management........................................   153
Defensible Space Concerns........................................   159
Developing a Fire Strategy.......................................   151
Different Tone from Two Statements...............................   148
Fatality Investigations..........................................   146
Financial Statements.............................................   139
Is Planning Possible?............................................   142
Management Training Within The USFS..............................   144
Multiple Strategies Requested....................................   152
Opening Remarks..................................................    97
Oversight of ARRA funds..........................................   157
Statement of Phyllis Fong, OIG...................................   123
Statement of Robin Nazzaro, GAO..................................    98
Statistics on Fire Starts........................................   153
Strategy for Suppression, Fuels Treatments, and Fire Use.........   143
Wildfire Aerial Resources........................................   147
Wildfire Cost Drivers............................................   154
Wildfire Program Management......................................   140
Wildland Fire: Aerial Resources..................................   124

                    National Endowment for the Arts

Art Focused Education............................................   238
Articulating the Value of Art....................................   234
Arts and Mental Acuity...........................................   248
Arts and the Discretionary Budget................................   224
Arts as Communication............................................   219
Arts as Emotional Education......................................   247
Arts Bringing People Together....................................   218
Arts in Decline..................................................   209
Arts Opportunities and Communities...............................   227
Arts Projects in a Down Economy..................................   233
Changes to Charitable Giving.....................................   216
Linking Arts and Education.......................................   206
Memories and Music...............................................   255
NEA Grants to Individuals........................................   246
Opening Statement of Mr. Dicks...................................   199
Opening Statement of Mr. Simpson.................................   200
Parts of Successful Education....................................   254
Public Works and Art.............................................   227
Statement of Mr. Groban..........................................   237
Statement of Mr. Lynch...........................................   207
Statement of Mr. Marsalis........................................   217
Statement of Mr. Platts..........................................   204
Statement of Ms. Ronstadt........................................   246
Statement of Ms. Slaughter.......................................   201
Statement of Mr. Nowak...........................................   225
The Connection Between Development and Arts......................   225
The Crane Arts Building..........................................   226
The Federal Role in Supporting Art...............................   235
The High Price of Art............................................   235
The Importance of Arts in America................................   208
The Importance of Live Music.....................................   254
The Next Generation of Arts......................................   222
Work Ethics and Art..............................................   239

                      U.S. Forest Service FY 2010

Air Tanker Contracting...........................................   276
Biomass..........................................................   290
Budgeting, Performance, and Costs................................   286
Carbon Sequestration.............................................   278
Climate Change...................................................   271
Fire Strategy and Cost Reductions................................   282
Firefighter Retention............................................   274
Fixed Costs Not Addressed........................................   270
Forecasting Fire Suppression.....................................   280
Forest Management................................................   289
Forest Service Air Tanker Fleet..................................   274
Forest Service Road System.......................................   286
Forest Visitation................................................   292
Fuels Backlog....................................................   280
Hazardous Fuels Reduction........................................   276
Kids in the Woods................................................   287
Northwest Forest Plan............................................   290
Opening Statement of Mr. Dicks...................................   259
Opening Statement of Mr. Simpson.................................   260
Partnerships.....................................................   278
Presidential Initiative..........................................   289
Presidential Initiatives.........................................   262
Results of Not Covering Fixed Costs..............................   272
Statement of Gail Kimbell, Chief Forester........................   262
The Roadless Rule................................................   287
Travel Management................................................   290
USFS Consolidated Services.......................................   273
Wildland Fire..................................................270, 279
Youth Conservation Corps.........................................   288

                    Environmental Protection Agency

``Fill Material'' Definition.....................................   391
404 Permitting...................................................   401
Air Pollutants...................................................   416
Air Quality Monitoring...........................................   408
California Waiver Request........................................   378
Cap-and-Trade Program..........................................413, 415
Carbofuron.......................................................   380
Children's Environmental Health Research Centers of Excellence...   408
Children's Health Issues.........................................   408
Clean Water Act..................................................   384
Coal Combustion: Tennessee Valley Authority......................   389
Congressionally Directed Projects Reduction......................   400
Corn-Based Ethanol...............................................   387
Drinking Water--Arsenic Standards................................   379
Endangerment Finding.............................................   378
Endocrine Disruptors.............................................   388
Energy Efficiency................................................   378
Enforcement......................................................   412
Grants Vs. Loans.................................................   385
Great Lakes Restoration Initiative.............................383, 405
Green Infrastructure.............................................   404
Greenhouse Gas Rule..............................................   414
Hydraulic Fracturing.............................................   394
Leaking Underground Storage Tank Fund............................   417
Mountaintop Mining...............................................   391
National Children's Study........................................   412
Opening Statement of Chairman Dicks..............................   357
Opening Statement of Lisa Jackson................................   360
Opening Statement of Mr. Simpson.................................   358
Pesticide Licensing Programs.....................................   379
Senate Confirmation..............................................   396
Spill Prevention, Control and Countermeasure Program.............   407
State Revolving Funds.....................................396, 398, 418
Superfund Tax....................................................   387
Superfund Taxes..................................................   412
TCE--Trichloroethylene...........................................   393
Tribal Nations...................................................   386
Water/Infrastructure and Research................................   402

                                  <all>
</pre></body></html>
